<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2019

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's Note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
         Prepared Statement of the American Alliance of Museums
    Chairman Moran, Ranking Member Shaheen, and Members of the 
subcommittee, thank you for allowing me to submit this testimony. My 
name is Laura Lott and I serve as President and CEO of the American 
Alliance of Museums (AAM). We urge the subcommittee to restore fiscal 
year 2019 funding for the Advancing Informal STEM Learning (AISL) 
program at the National Science Foundation (NSF) to at least $65 
million; provide funding for the NSF Directorates for Biological 
Sciences; Education and Human Resources; Geosciences; and Social, 
Behavioral and Economic Sciences to support museum research and 
collections, which are key to STEM education; and continue to fund 
informal STEM education programs at the National Aeronautics and Space 
Administration (NASA) and the National Oceanic and Atmospheric 
Administration (NOAA).
    We also urge the subcommittee to clearly direct NSF to return the 
focus of AISL in support of public engagement in science. This would 
reverse the trend of focusing AISL funding on formal (university-led) 
research at the expense of effective educational and public engagement 
programming conducted through museums.
    Representing more than 35,000 individual museum professionals and 
volunteers, institutions-including aquariums, art museums, botanic 
gardens, children's museums, cultural museums, historic sites, history 
museums, maritime museums, military museums, natural history museums, 
planetariums, presidential libraries, science and technology centers, 
and zoos-and corporate partners serving the museum field, the Alliance 
stands for the broad scope of the museum community.

    Museums are essential in their communities for many reasons:

  --Museums are economic engines and job creators. According to Museums 
        as Economic Engines: A National Report, U.S. museums support 
        more than 726,000 jobs and contribute $50 billion to the U.S. 
        economy per year. The economic activity of museums generates 
        more than $12 billion in tax revenue, one-third of it going to 
        State and local governments. For example, the total financial 
        impact that museums have on the economy in the State of Kansas 
        is $311 million, including supporting 6,133 jobs. For New 
        Hampshire it is a $265 million impact supporting 3,574 jobs. 
        This impact is not limited to cities: more than 25 percent of 
        museums are in rural areas.
  --Museums are key education providers. Museums spend more than $2 
        billion yearly on education activities; the typical museum 
        devotes 75 percent of its education budget to K-12 students, 
        and museums receive approximately 55 million visits each year 
        from students in school groups. Children who visited a museum 
        during kindergarten had higher achievement scores in reading, 
        math and science in third grade than children who did not, 
        including children most at risk for delays in achievement. 
        Also, students who attended a half-day field trip to an art 
        museum experienced an increase in critical thinking skills, 
        historical empathy and tolerance. For students from rural or 
        high-poverty regions, the increase was even more significant. 
        Museums help teach the State and local curriculum in subjects 
        ranging from art and science to history, civics, and 
        government. Museums have long served as a vital resource to 
        homeschool learners. For the approximately 1.8 million students 
        who are homeschooled--a population that has increased by 60 
        percent in the past decade--museums are quite literally the 
        classroom. It is not surprising that in a 2017 public opinion 
        survey, 97 percent of respondents agreed that museums were 
        educational assets in their communities. The results were 
        statistically identical regardless of political persuasion or 
        community size.

    The National Science Foundation is an independent Federal agency 
responsible for about two-thirds of all Federal funding for biological, 
geological and anthropological research at America's universities, 
science centers and other museums. NSF is also charged with promoting 
the vitality of the Nation's STEM research and education enterprises.
    The mission of NSF's Directorate for Education and Human Resources 
(EHR) is to achieve excellence in U.S. STEM education at all levels and 
in all settings (both formal and informal) in order to support the 
development of both a well-prepared workforce and a well-informed 
citizenry. EHR's Advancing Informal STEM Learning program invests in 
research and development of innovative and field-advancing, out-of-
school STEM learning, and emerging STEM learning environments.
    The NSF Directorates for Biological Sciences, Education and Human 
Resources, Geosciences, and Social, Behavioral & Economic Sciences have 
all supported museums in the areas of field and collections-based 
research, collections improvements and digitization, database 
development, and educational programming.
    The National Science Foundation's Advancing Informal STEM Learning 
(AISL) program seeks to advance new approaches to and evidence-based 
understanding of the design and development of STEM learning 
opportunities for the public in informal environments; provide multiple 
pathways for broadening access to and engagement in STEM learning 
experiences; advance innovative research on and assessment of STEM 
learning in informal environments; and engage the public of all ages in 
learning STEM in informal environments.
    In 2017, AISL provided at least $13.7 million to a diverse array of 
museums from across the country as project leads or participants, 
including Sitka Sound Science Center, Sitka, Alaska; Amazeum, 
Bentonville, Arkansas; Aquarium of the Pacific, Long Beach, California; 
California Academy of Sciences, San Francisco, California; 
Exploratorium, San Francisco, California; Natural History Museum of Los 
Angeles County, Los Angeles, California; Tech Museum of Innovation, San 
Jose, California; Phillip and Patricia Frost Museum of Science, Miami, 
Florida; Adler Planetarium, Chicago, Illinois; New England Aquarium, 
Boston, Massachusetts; Science Museum of Minnesota, Saint Paul, 
Minnesota; New York Hall of Science, New York, New York; Center for 
Science and Industry (COSI), Columbus, Ohio; Oregon Museum of Science 
and Industry, Portland, Oregon; Franklin Institute Science Museum, 
Philadelphia, Pennsylvania; Independence Seaport Museum, Philadelphia, 
Pennsylvania; and the Pacific Science Center, Seattle, Washington.

    Specifically, we urge the Subcommittee to provide NSF:

  --$902 million for the Directorate for Education and Human Resources 
        (EHR);
  --$65 million for Advanced Informal STEM Learning (AISL); and
  --$51.9 million for Science, Technology, Engineering, and Mathematics 
        + Computing Partnerships (STEM+C)

    Millions of Americans of all ages and backgrounds learn about STEM 
each year by visiting museums, science centers, public gardens, zoos, 
and aquariums. Museum exhibitions and educational programs and 
resources are built on a firm foundation of research, and museum 
researchers make major original contributions to the understanding of 
important issues such as changes in climate, environments, 
biodiversity, and human culture. Informal STEM education programs at 
other Federal agencies are also critical to helping museums attract, 
inspire, and educate the current and future STEM workforce.
    NASA's Competitive Program for Science Museums, Planetariums, and 
NASA Visitor Centers (CP4SMPVC) is authorized by law and has helped the 
agency meet numerous goals identified in its strategic plan--including 
advancing the Nation's STEM education and workforce pipeline. NASA has 
transitioned many of these activities into a new competitive grant 
program for museums, the Teams Engaging Affiliated Museums and Informal 
Institutions (TEAM II) program.
    We urge the subcommittee to increase the top line funding for NASA 
Office of Education from $100 million to $115 million and include the 
following language in its bill, which is directly from the 2005 NASA 
Reauthorization Act: ``$15,000,000 shall be available to enable the 
Administrator to award grants and enter into cooperative agreements 
with museums and planetariums to enable them to enhance programs 
related to space exploration, aeronautics, space science, earth 
science, or microgravity.''
    A number of vital NOAA programs--including the Competitive 
Education Grant Program and Bay Watershed Environmental Training (B-
WET)--currently help zoos, aquariums, science centers, and other 
museums to bring real world examples of science to students nationwide. 
Within the budget for NOAA, we ask the Subcommittee to maintain the 
total budget for the Office of Education at $28 million.
    What was true almost a decade ago, when the National Research 
Council of the National Academies released a report entitled Learning 
Science in Informal Environments: People, Places and Pursuits, is true 
today. Findings included:

  --``Do people learn science in non-school settings? This is a 
        critical question for policy makers, practitioners and 
        researchers alike--and the answer is yes.''
  --``Designed spaces--including museums, science centers, zoos, 
        aquariums and environmental centers--can support science 
        learning. Rich with real-world phenomena, these are places 
        where people can pursue and develop science interests, engage 
        in science inquiry, and reflect on their experiences through 
        sense-making conversations.''
  --``Informal environments can have a significant impact on science 
        learning outcomes for individuals from non-dominant groups who 
        are historically underrepresented in science.''

    Please consider this request in the context of the essential role 
that museums play in our Nation, as well as their immense economic and 
educational impact. In closing, I highlight 2017 national public 
opinion polling that shows that 95 percent of voters would approve of 
lawmakers who acted to support museums and 96 percent want Federal 
funding for museums to be maintained or increased. People love museums.
    I want to acknowledge the difficult choices that the subcommittee 
faces. I hope that my testimony has made it clear why these priorities 
are of critical importance to the Nation and will provide a worthwhile 
return on investment to the American taxpayer. Thank you again for the 
opportunity to submit this testimony.

    [This statement was submitted by Laura L. Lott, President and CEO.]
                                 ______
                                 
           Prepared Statement of the American Bar Association
    Request: Chairman Moran, Ranking Member Shaheen, and subcommittee 
Members, I am Hilarie Bass, President of the American Bar Association 
(ABA) and Co-President of Greenberg Traurig law firm. I submit this 
statement today on behalf of approximately 400,000 members of the ABA. 
The ABA has long been committed to the realization of ``Equal Justice 
Under Law'' in our country, establishing our Standing Committee on 
Legal Aid and Indigent Defendants in 1920. U.S. Supreme Court Justice 
Lewis F. Powell, while serving as ABA President in 1964, understood the 
need to provide legal services, later culminating in President Nixon's 
signing the LSC Act into law in 1974. The ABA recommends restoring 
Legal Services Corporation (LSC) funding, which has been cut sharply 
since fiscal year 2010, to at least the inflation-adjusted fiscal year 
2010 level of $482 million. LSC appropriations have not yet even 
returned to the fiscal year 2010 unadjusted level of $420 million, let 
alone kept up with inflation.
    Content: This testimony addresses the need for and the 
beneficiaries of LSC funds, as well as some of the latest challenges. 
Following that, the testimony discusses the proper role of the Federal 
Government in achieving equal justice under law and in helping to 
secure Federal rights. Next, I address the downturn in funding over the 
past decade and the resultant rank of the United States in the global 
assessment of access to justice. Finally, I review the Legal Service 
Corporation's efficacy, LSC's utility to Congress' constituent 
services, and support for LSC.
    New Justice Gap Study: We acknowledge, based on the 2017 Justice 
Gap Report, that a more laudable trajectory for achieving the pledge of 
justice for all would be accomplished with the Legal Services 
Corporation's requested budget of $564.8 million.
    In June of 2017, the University of Chicago's NORC provided data 
analysis regarding the unmet civil legal needs of low-income Americans. 
The survey of more than 2,000 adults living in low-income households 
(at or below 125 percent of the Federal Poverty Level) updated two 
previous reports. According to the Report, ``Eighty-six percent of the 
civil legal problems faced by low-income Americans in a given year 
receive inadequate or no legal help.''
    Specifically, LSC Board Chair John G. Levi points out: ``Low-income 
seniors, for example, received inadequate or no professional help for 
87 percent of their civil legal problems. For low-income rural 
residents, the number was 86 percent, while for low-income veterans or 
other military personnel, the number was 88 percent.''
    Disasters: On April 5, 2018, Colorado State University, whose 
Meteorologist Phil Klotzbach and other experts are viewed as the 
Nation's top seasonal hurricane forecasters, released its hurricane 
predictions for 2018's June-through-November hurricane season. It 
predicts 14 named tropical storms, of which 7 will become hurricanes-
above the average of 12 and 6.
    By comparison, for 2017, Colorado State forecasters predicted 
formation of 11 tropical storms, 4 of which would become hurricanes. In 
reality, 17 tropical storms formed and 10 became hurricanes.
    Last year the committee commendably included $15 million in 
supplemental funding for LSC to provide services to victims of fire and 
hurricane disasters. We hope the committee will keep a close eye on 
2018 disasters and if circumstances require will provide supplemental 
funds for LSC disaster services again this year.
    Disasters have a severe and disproportionate impact on the poor, 
resulting in a sharp increase in the need for legal help. As LSC points 
out: ``In the immediate wake of a disaster or crisis, disaster-related 
legal issues follow a common pattern. Survivors often need help 
obtaining copies of important documents such as birth certificates, 
driver's licenses, and Social Security cards to apply for or restore 
benefits and supports. The need for adequate housing is generally a 
major issue for survivors of most disasters. In addition, low-income 
and other vulnerable people who need housing after an emergency are 
more susceptible to scams and price gouging. With families experiencing 
even more stressors than before, there is also an increase in the need 
for more legal information on core areas of practice for legal aid, 
such as public benefits, domestic violence prevention, consumer law, 
and fraud prevention.''
    In response to these disaster concerns, the Legal Services 
Corporation has formed a Disaster Task Force comprising LSC grantees, 
business leaders from LSC's Leaders' Council, emergency management 
experts, and other stakeholders to improve disaster relief 
coordination, comprehensiveness, and effectiveness nationwide.
    Opioids: Legal services for custody, guardianship, and adoptions 
have become paramount in light of the opioid epidemic. The need for 
kinship care--or a family member caring for a child of a relative--is a 
significant result of the crisis.
    In Harrison County, West Virginia, an advocate reports that she 
primarily sees grandparents raising grandchildren, who are often 
informally placed in their care due to neglect by the addicted parents. 
``Grandparents aren't really aware of the kinds of benefits that can 
come from establishing formal legal custody in court,'' Courtney 
Crowder told the Exponent Telegram. ``Medical treatment and school 
enrollment are two barriers that come with not having legal custody of 
a child. As well, grandparents can receive benefits through the 
Department of Health and Human Resources. That can be really helpful 
for grandparents, especially those who are living on a fixed income and 
probably didn't plan on raising three extra kids,'' Crowder said.
    In response to these opioid concerns, the Legal Services 
Corporation has formed an Opioid Task Force, co-chaired by LSC Board 
Members Victor Maddox and Robert Grey, and comprising LSC grantees, 
leaders from LSC's Leaders' Council, healthcare experts, and other 
social services providers and stakeholders to educate government 
leaders and the public about the legal issues raised by the opioid 
crisis in areas such as healthcare, family law, domestic violence, 
child and elder abuse, and housing. The task force will, among other 
things, highlight the critical role legal aid programs play in helping 
low-income people address these issues.
    With the opioid crisis placing heavy new burdens on legal aid, a 
commensurate increase in funding for LSC grantees should be 
appropriated.
    The Federal Role in Equal Justice: The Federal Government has a 
definite role in promoting equal justice and justice for all.
    Legal aid clients secure their rights through Federal, State, and 
local law-not exclusively State and local law. Thus, funding for equal 
justice under Federal law is a Federal duty. The Federal role in 
promoting equal civil justice is funding the Legal Services 
Corporation.
    Unfunded Mandate: Elimination or even reduction of Federal funding 
for equal justice would necessarily foist unfunded mandates on States, 
Tribes, and localities. Day in and day out, Legal Services Corporation-
funded attorneys work with these Federal laws to secure the Federal 
rights of individuals unable to secure their rights for themselves.
    Nonetheless, the fiscal year 2019 White House Budget proposes to 
eliminate Federal funding for LSC. In addition, the fiscal year 2018 
House Budget Committee-passed budget report stated: ``It is the duty of 
State and local governments to provide legal services to those 
individuals unable to provide it for themselves.'' That statement 
assumes that to ensure equal justice under law, governmental assistance 
to ensure legal representation is needed, yet it would saddle only 
States, Tribes, and localities with the burden.
    The Federal Government legislates--conferring rights and imposing 
duties--in all areas important to the lives of our citizens. Justice 
for all certainly requires access to legal representation in these 
myriad areas of Federal law. For example, don't destitute veterans 
deserve equal justice? Funding for equal justice under Federal law 
cannot be shouldered by State and local governments as an unfunded 
mandate. The Federal Government should contribute its fair share. That 
can only be accomplished through funding the Legal Services 
Corporation.
    Funding for LSC is 15 Percent Down Since 2010: I want to thank this 
subcommittee for the recent partial restoration of funding for LSC. 
That money will permit LSC to serve more needy clients. Nevertheless, 
the fiscal year 2018 LSC appropriation of $410,000,000 is still 15 
percent lower than it was in fiscal year 2010 (the fiscal year 2010 
appropriation would be $482 million in fiscal year 2018 dollars). At 
the same time, the number of people qualifying for assistance is about 
25 percent higher than in 2007. Compare also the fiscal year 2017 
funding to LSC's average appropriation of $719,730,870 (in fiscal year 
2018-adjusted dollars) during the 1980s. LSC funding needs restoration 
in these good economic times when unemployment is low, the stock market 
is high, and the 302A total spending level is commensurately high 
pursuant to the Bipartisan Budget Act of 2018.
    IOLTA Revenues Down: Furthermore, robust funding for the LSC is 
desperately needed because other funding sources have diminished over 
the last decade. Over 10 years, from peak returns in 2007 to the most 
recent 2016 data, low interest rates and principal balances have caused 
a decrease by about 77 percent in Interest on Lawyers' Trust Accounts 
(IOLTA) funds that go to legal aid offices.
    Ranking: As discussed above, 86 percent of all eligible people 
seeking legal aid services are turned away or receive inadequate legal 
services due to lack of resources-an impediment seriously hamstringing 
justice in our legal system. That's why the 2017-18 World Justice 
Project, which Justice Gorsuch cited in his confirmation hearings, 
ranked the United States 26th of 102 countries in its Rule of Law Index 
for civil justice access, behind the Czech Republic, St. Lucia, and the 
United Arab Emirates. Funding bolsters accessibility. LSC is the 
Nation's largest civil legal aid provider: nearly 900 LSC-funded legal 
aid offices serve every congressional district in the United States.
    Cost-Benefit: The American Bar Association collects dozens of 
statewide studies of the cost-benefit impact of legal aid. All studies 
show a big positive impact: http://www.americanbar.org/groups/
legal_aid_indigent_defendants/initiatives/
resource_center_for_access_to_justice/atj_commission_self-assessment_
materials1/studies.html.
    For example, Community Services Analysis LLC published a 2015 
report regarding the return on investment of civil legal aid services 
in the State of Alabama. The report reveals that, ``For every $1 
invested in Alabama Legal Aid during the year, the citizens of Alabama 
receive $8.84 of immediate and long-term financial benefits.''
    Constituent Service: Legal Aid offices in every corner of the 
country regularly assist constituents referred by congressional offices 
and their district staff. Civil legal aid is a constituent service 
performed in every State and congressional district in the country, 
complementary to and often at the request of your own constituent 
services staff. Key beneficiaries of legal aid services include: 1. 
Veterans; 2. Older Americans; 3. Rural Americans; 4. Domestic violence 
survivors; 5. Women, constituting 70 percent of clients; and 6. 
Natural-disaster victims.
    U.S. Supreme Court Support: The late Supreme Court Justice Antonin 
Scalia stated, at the 40th anniversary of the Legal Services 
Corporation: ``I'm here principally . . . to represent the support of 
the Supreme Court and I'm sure all of my colleagues for the LSC . . . 
The American ideal is not for some justice; it is, as the Pledge of 
Allegiance says, 'Liberty and justice for all' or as the Supreme Court 
pediment has it, 'Equal Justice.' I've always thought that's somewhat 
redundant. Can there be justice if it is not equal? Can there be a just 
society when some do not have justice? Equality, equal treatment is 
perhaps the most fundamental element of justice. So, this organization 
pursues the most fundamental of American ideals, and it pursues equal 
justice in those areas of life most important to the lives of our 
citizens.'' [Emphasis added.]
    U.S. Supreme Court Justice Neil Gorsuch, a former legal clinic 
volunteer, embraced access to justice for all in his confirmation 
hearing: ``It's a fact that too few people can get lawyers to help them 
with their problem . . . I do think access to justice in large part 
means access to a lawyer. Lawyers make a difference. I believe that 
firmly.'' In his 2016 law journal article ``Access to Affordable 
Justice,'' Justice Gorsuch wrote: ``Legal services in this country are 
so expensive that the United States ranks near the bottom of developed 
nations when it comes to access to counsel in civil cases.''
    Polling: Eighty-two percent of those surveyed believe it is 
important to ensure everyone has access to civil legal help or 
representation, according to polling by Voices for Civil Justice 
(https://voicesforciviljustice.org/wp-content/uploads/Lake-Tarrance-
Expanding-civil-legal-aid-2013.pptx3.pdf).
    Conclusion: As the economy revives, LSC funding should also revive. 
Down 15 percent from 2010 (in fiscal year 2018 dollars) and with 25 
percent more people qualified for legal aid, LSC seriously needs 
funding restored at least to the fiscal year 2010 level. Given LSC's 
excellent benefit/cost ratio and with 82 percent supporting access to 
civil legal help, we encourage you, to heed constituents' views.
                                 ______
                                 
  Prepared Statement of the American Educational Research Association
    Chairman Moran, Ranking Member Sheehan, and Members of the 
subcommittee; thank you for the opportunity to submit written testimony 
on behalf of the American Educational Research Association (AERA). I 
want to begin by recognizing the longstanding support for the National 
Science Foundation and thank you and your staff for your strong 
commitment to maintaining agency flexibility to fund cutting edge 
science. AERA recommends that the National Science Foundation (NSF) 
receive $8.45 billion in fiscal year 2019. This recommendation is 
consistent with that of the Coalition for National Science Funding 
(CNSF), in which we are a long-term active member. Furthermore, this 
request aligns with the dear colleague letters led by Representatives 
McKinley and Butterfield and by Senator Markey. AERA also recommends 
funding the Census Bureau at $4.735 billion in fiscal year 2019, 
consistent with the recommendation of The Census Project.
    AERA is the major national scientific association of 25,000 
faculty, researchers, graduate students, and other distinguished 
professionals dedicated to advancing knowledge about education, 
encouraging scholarly inquiry related to education, and promoting the 
use of research to serve public good. Many of our members are engaged 
in science, technology, engineering, and mathematics (STEM) education 
research. Our members work in a range of settings from universities and 
other academic institutions to research institutes, Federal and State 
agencies, school systems, testing companies, and nonprofit 
organizations engaged in conducting research in all areas of education 
and learning from early childhood through the workforce. Given the 
expertise of the AERA membership, my testimony will focus on the 
importance of the Education and Human Resources (EHR) and the Social, 
Behavioral and Economic (SBE) Sciences Directorates. Many of our 
members depend on an accurate Census count and data available from the 
American Community Survey to do their work.
    The EHR and SBE Directorates are central to the mission of the 
National Science Foundation (NSF) to advance fundamental knowledge and 
scientific breakthroughs and to ensure significant continuing advances 
across science, engineering, and education. Research and science 
supported by these directorates are intertwined with science and 
research of the other Directorates (for example, Computer and 
Information Science and Engineering). Furthermore, the EHR and SBE 
directorates are vital not just to producing essential knowledge and 
innovative methodologies but also to preparing our students and 
citizens to use new technologies and harness knowledge to enhance 
productivity, safety, security, and social economic well-being.
    As indicated in the agency's budget request, ``Ninety-three percent 
of appropriated funds directly support research and science, 
technology, engineering, and mathematics (STEM) education, seventy-
eight percent of it at our Nation's colleges and universities.''
               education and human resources directorate
    The EHR Directorate at NSF is responsible for providing the 
research foundation necessary to achieve excellence in U.S. STEM 
education. EHR accomplishes this goal by supporting the development of 
a scientifically-literate citizenry as well as a STEM-skilled 
workforce. As stated in the NSF Strategic Plan 2018-2022: ``NSF's 
investments in basic research on how peoples learn, in the traditional 
period stretching from pre-kindergarten to college as well as 
continually throughout life, will be crucial to the advances in U.S. 
education needed to ensure that the Nation thrives in a rapidly 
evolving 21st century world.''
    The EHR Directorate supports STEM education and education research 
from early childhood learning to doctoral work and beyond and promotes 
evidence-based innovations in teaching practices, instructional tools, 
and programs that advance STEM education and prepare the next 
generation of STEM professionals. EHR funded researchers are asking key 
questions, for example, about how to spark students' interest in math 
and science and keep them engaged, or about why so many students lose 
interest and confidence and about what can be done to keep them 
engaged. Understanding these and many other questions will help the 
United States build a well-educated and technology-literate workforce 
necessary for a prosperous economic future.
          social, behavioral and economic sciences directorate
    In addition to the significant investments in education sciences 
provided by EHR, AERA values the important role the SBE Directorate in 
funding important education research, including the essential 
statistical information provided by the National Center for Science and 
Engineering Statistics (NCSES).
    The SBE Directorate supports research to better understand people 
and reveals basic aspects of human behavior in the context of education 
and learning. SBE funded research has the potential to advance 
fundamental knowledge in the social, behavioral, and economic sciences 
that provide critical research to promote the Nation's economy, 
security, and global leadership. Understanding social organizations and 
how social, economic, and cultural forces influence the lives of 
students is key to improving teaching and learning and advancing STEM 
education.
    The budget for SBE is not even 4 percent of the NSF budget, yet it 
provides approximately 68 percent of the Federal funding for basic 
research in the social, behavioral, and economic sciences at academic 
institutions.
     national center for science and engineering statistics (ncses)
    In addition, AERA has a strong interest in the National Center for 
Science and Engineering Statistics (NCSES) within SBE. NCSES provides 
invaluable statistical information about science and engineering in the 
U.S. and around the world. NCSES collects and analyzes data on the 
progress of STEM education and the research and development, providing 
valuable information on the trajectories of STEM graduates both in STEM 
and non-STEM careers. Adequate funding in fiscal year 2019 for NCSES 
would support critical activities to develop new data techniques 
building on administrative data and enhance data tools, techniques, and 
visualizations to facilitate access to statistical resources.
    As you know, the public strongly supports a Federal investment in 
science. According to a report issued by the American Academy of Arts & 
Sciences, 71 percent of U.S. adults say that government investments in 
basic scientific research pays off in the long run. When asked about 
priorities for scientific research, 56 percent of respondents consider 
improving education and how our children learn to be an urgent 
priority. (Perceptions of Science in America 2018)
    On behalf of AERA, I thank both the Chairman and the Ranking Member 
for your ongoing recognition of the importance of providing NSF with 
the flexibility to determine directorate funding levels within the 
Research and Related Activities Account. AERA shares the opinion of 
Director Cordova, that this flexibility enables NSF to best ``build a 
portfolio of the most exciting research across all fields.''
    In addition to my attention in this testimony to the National 
Science Foundation, I also wish to emphasize the importance of adequate 
support for the Census Bureau. AERA recommends funding the Census 
Bureau at $4.735 billion in fiscal year 2019. Even with the much-needed 
resources provided in the final fiscal year 2018 appropriations bill to 
plan for the 2020 Census, funding for the Bureau remains below the 
levels required to appropriately prepare for the decennial census, 
leading to the cancellation of test sites in 2017 and 2018. Adequate 
support for the Census Bureau will enable the necessary technology, 
methodologies, and staff for the rollout of the decennial census. The 
recommended funding support will also allow the Census Bureau to 
continue to conduct the American Community Survey and the Current 
Population Survey.
    Thank you for the opportunity to submit written testimony in 
support of $8.45 billion for the National Science Foundation and 
sharing our particular interest in the Education and Human Resources 
Directorate and the Directorate for Social, Behavioral, and Economic 
Sciences in fiscal year 2019. AERA would welcome the opportunity to 
work with you and your subcommittee to best further the crucial 
advances of the National Science Foundation. Please do not hesitate to 
contact me if AERA can provide additional information regarding this 
budget proposal or the significant science made possible through NSF 
support.

    [This statement was submitted by Felice J. Levine, Executive 
Director.]
                                 ______
                                 
          Prepared Statement of the American Geophysical Union
    The American Geophysical Union (AGU), a non-profit, non-partisan 
scientific society, appreciates the opportunity to submit testimony 
regarding the fiscal year 2019 budget request for the National 
Aeronautics and Space Administration (NASA), the National Oceanic and 
Atmospheric Administration (NOAA), and the National Science Foundation 
(NSF). The AGU, on behalf of its 60,000 Earth and space scientist 
members, respectfully requests that the 115th Congress appropriate:

  --$21.7 billion overall for NASA, including $6.5 billion for the 
        Science Mission Directorate;
  --$6.2 billion overall for NOAA; and
  --$8.45 billion overall for NSF.
              national aeronautics & space administration
    AGU requests that Congress appropriate $21.7 billion for NASA in 
fiscal year 2019--a 5 percent increase above the amount provided by the 
fiscal year 2018 Omnibus. This increase will ensure that NASA is able 
to continue its work and preserve U.S. leadership in Earth and space 
science and exploration. Additionally, AGU requests that Congress 
appropriate $6.5 billion for NASA's Science Mission Directorate, 
including robust and equitable funding for NASA's Earth Science, 
Planetary Science, and Heliophysics Missions. A request of 5 percent 
allows NASA to grow above the rate of inflation and make critical 
progress towards achieving the scientific goals outlined in the Decadal 
Surveys produced by the National Research Council.
Earth Science and Planetary Science Divisions
    Over a third of the U.S. economy is influenced by climate, weather, 
and natural hazards, demonstrating the strong economic need to study 
the Earth. Missions within NASA's Earth Science Division allow us to 
more accurately predict floods and droughts, respond to earthquakes, 
and optimize military and commercial operations--all information that 
decision makers need to better protect the American public. Greater 
knowledge and forecasting skills are urgent when we consider the 
effort, time, and costs of protecting infrastructure and public health 
from natural and manmade hazards. Additionally, robust funding for 
Earth science ensures the reliability of our current fleet of Earth 
observing satellites and lays the groundwork for implementation of the 
2017 Earth Science Decadal Survey, including the recommendation to 
competitively select future missions that address Designated and Earth 
System Explorer target observables. Competitively selected missions 
will help to constrain costs and resources, while simultaneously 
helping to leverage the talents of a broad array of scientists and 
universities.
    Scientists still do not understand approximately 90 percent of the 
universe--even in our own ``neighborhood''--the solar system, but 
NASA's Planetary Science Division is helping to expand our 
understanding. Its awe-inspiring missions and discoveries also inspire 
future generations of scientists and STEM professionals to choose 
science as a career. With appropriate funding, NASA is on schedule to 
launch the next Mars rover and launch a Europa mission in the 2020s, 
furthering our understanding of the conditions needed to sustain life.
    Earth and planetary sciences are complementary and integrally 
related to one another. From picking the perfect day to launch a 
satellite to ensuring that our understanding of other planets is 
accurate, our knowledge of Earth informs our understanding of other 
worlds in the solar system. In turn, our exploration of other worlds 
advances our knowledge of Earth's evolution and processes.
Heliophysics Science Division
    Studying the sun and its interactions with Earth is crucial to 
increasing our knowledge of the dynamic solar processes that impact all 
life on our planet. NASA's Heliophysics Division advances our 
understanding of the threat of space weather, as directed by the 2016 
National Space Weather Action Plan. The Division carries out activities 
related to basic research into solar radiation and forecasting and 
studies ways to mitigate the effects of big space weather events, which 
have can damage our space- and ground-based national security assets, 
aviation systems, power grid, and electric rail systems. Robust funding 
for NASA's Heliophysics division will also accelerate the pace of small 
and mid-size missions, which can often accomplish scientific goals for 
a fraction of the cost of a flagship mission. Finally, adequate funding 
will enable the further implementation of Science Definition Study 
Teams to define the next areas of science investigation, as recommended 
in the last Solar and Space Physics Decadal Survey.
             national oceanic & atmospheric administration
    AGU requests that Congress appropriate $6.2 billion for NOAA in 
fiscal year 2019, a 6 percent increase over the fiscal year 2018 
appropriated level for NOAA. Investing in NOAA not only keeps our 
country resilient in the face of natural hazards that affect the 
environment and public health, but also provides superior economic and 
national security services by enabling businesses and government to 
better manage risk.
    The forecasts, infrastructure, and research provided by NOAA save 
lives in time-sensitive emergencies. In 2016, there were 442 deaths in 
the U.S. resulting from severe weather and natural hazards, with about 
half of the deaths caused by flooding and severe storms. Strong support 
for NOAA will allow the agency to continue creating detailed flooding 
forecasts and developing monitoring systems for the millions of 
Americans who do not currently have them; maintain the NEXRAD radar 
system used for 85 percent of all tornado and severe storm warnings; 
and continue the satellite rescue program that has saved 42,000 lives 
by locating aviators, mariners, and land-based users in distress. In 
addition, continued and predictable support for both geostationary and 
polar orbiting satellites such as the GOES-R series and JPSS will 
ensure that we are equipped to collect data that is high quality and 
reliable. Finally, the continuation of uninterrupted data through 
programs such as the Polar Follow On, which serves as the next phase 
for the JPSS satellites, plays a critical role in keeping American 
families safe by ensuring that forecasters and decision makers have the 
best available data to assess risk.
    NOAA is also essential to our Nation's economic stability. From 
coast to coast, one third of U.S. GDP is affected by weather and the 
environment. In 2017 alone, the U.S. saw 16 major weather and climate 
disaster events that resulted in $309.4 billion in damages--a new U.S. 
annual record. NOAA services are critical in ensuring that the losses 
from natural disasters and environmental factors are as small as 
possible. For example, losses from weather-related aviation delays 
alone are estimated at more than $1 billion per year, and NOAA drought 
forecasts are worth up to $8 billion per year to the farming, 
transportation, tourism, and energy sectors. From large corporations to 
small businesses, the decision-based forecasts provided by NOAA save 
vital time, money, and resources.
    NOAA also plays a unique and vital role in supporting homeland 
security and national defense. The Pentagon reports that 153 naval 
instillations are at significant risk from climatic stresses and 
expects climate change worldwide to cause more extreme weather, food 
scarcity, and mass migration, which leads to instability. The Pentagon 
classifies climate change as threat multiplier, and in order to combat 
these issues, we need the best science available. Without robust 
funding, we risk losing the data needed to make informed and proactive 
decisions, and our national security will be left in a dangerously 
vulnerable position.
                      national science foundation
    AGU requests that Congress appropriate $8.45 billion for NSF in 
fiscal year 2019. This reflects a 9 percent increase over the fiscal 
year 2018 appropriated level for NSF.
    U.S. investment in research and development has been slowing. 
Significantly, the most recent OCED report projects that China will 
surpass the United States in total R&D funding from all sources in 
2019. Although the United States continues to be the biggest investor 
in R&D, our R&D intensity, or percent of GDP invested in R&D, has been 
steadily decreasing over the last decade. Congress has the ability to 
reverse this trend and re-invest in our Nation's scientific enterprise, 
especially in the areas of basic research and STEM education at NSF.
    NSF accounts for only 4 percent of Federal R&D spending but 
supports nearly 60 percent of the nonmedical basic research at our 
colleges and universities. Moreover, NSF is the only Federal agency 
that supports research and education across all STEM fields at all 
educational levels. 95 percent of NSF's projects are funded using 
grants or cooperative agreements, of which three-fourths go to academic 
institutions. Research and education programs supported by NSF help 
increase and develop the knowledge base needed to push the frontiers of 
science, mathematics, and engineering disciplines, contribute to the 
development of the future science and technology workforce, underpin 
new fields of inquiry, and promote interdisciplinary research and 
education. Additionally, these grants support economic opportunities 
for labs, lab techs, and other employees needed to pursue scientific 
endeavors and make substantial contributions to local economies.
Geosciences Directorate
    The NSF Geoscience Directorate (GEO) awards research grants in the 
Earth, atmospheric, ocean, and polar sciences. GEO research leads to a 
better understanding of critical national needs such as the 
availability of water, mineral resources and energy reserves, and 
advances our knowledge of how to provide food to the world and mitigate 
the effects of natural hazards. AGU asks the subcommittee to strongly 
support these programs.
    Robust funding for GEO will also support investments in the 
scientific infrastructure, including its operation and maintenance, 
increasingly needed for cutting edge basic and applied research. Among 
the major infrastructure that NSF supports are U.S. Arctic and 
Antarctic Facilities, through which the U.S. has maintained a 60-year 
uninterrupted Antarctic presence; the Academic Research Fleet, which 
includes 58 academic institutions and national laboratories working 
cohesively to further our understanding of our coasts and oceans; and 
EarthScope Operation, which includes almost 4,000 instruments analyzing 
the North American continent and operates in the continuous 48 States 
and Alaska. AGU strongly supports robust and steady funding for the 
operation and maintenance of NSF facilities.
    The geoscience workforce is aging and retiring at a fast rate. The 
American Geosciences Institute estimates that, by 2024, there will be 
90,000 open geoscience jobs and insufficient American geoscientists to 
fill those positions. Congress can help to prevent this deficit, 
stimulate economic growth in the energy, natural resources, and 
information technology sectors, and improve natural resource literacy 
by supporting the full integration of Earth science information into 
mainstream science education at the K-12 and higher education levels. 
Additionally, robust funding will allow NSF to continue providing life-
changing programs for scientists, such as the Graduate Research 
Fellowships Program (GRFP), which allows students to become STEM 
professionals; Research Experiences for Undergraduates (REU), which 
provide undergraduates with hands-on field experiences that can inspire 
them to pursue STEM careers; and Inclusion Across the Nation of 
Communities of Learners of Underrepresented Discovers in Engineering 
and Science (INCLUDES), which aims to ensure all students interested in 
STEM fields have the opportunity to pursue their goals and that America 
is not leaving talented but underserved students behind.

    [This statement was submitted by Brittany Webster, Senior 
Specialist, & Carissa Bunge, Senior Specialist.]
                                 ______
                                 
        Prepared Statement of the American Geosciences Institute
    Thank you for this opportunity to provide the perspective of the 
American Geosciences Institute (AGI) on fiscal year 2019 appropriations 
for geoscience programs within the subcommittee's jurisdiction.
    AGI applauds Congress for successfully negotiating and passing the 
Bipartisan Budget Act of 2018 and the Consolidated Appropriations Act, 
2018. We are grateful to the Members of Congress and congressional 
staff who crafted this significant legislation. The fiscal year 2018 
appropriations bill creates a robust baseline for future budgets, and 
AGI supports sustained funding increases for science agencies.
    AGI supports critical earth science research conducted by the 
National Science Foundation (NSF), the National Oceanic and Atmospheric 
Administration (NOAA), the National Institute of Standards and 
Technology (NIST), and the National Aeronautics and Space 
Administration (NASA). Cutting-edge research on the Earth system--its 
resources and complex geologic, marine, atmospheric, and hydrologic 
processes that sustain life and the economy--has fueled economic 
growth, mitigated loss of life and property, and improved our quality 
of life. All of these agencies carry out vital, mission-focused 
geoscience research and education, and participate in interagency 
collaborations with the U.S. Geological Survey (USGS), the Department 
of Energy, and other Federal, State, Tribal, and local agencies on 
topics ranging from emergency planning and response to anticipating 
water availability. The Earth system is highly complex and 
interconnected--geoscience information supported and developed by these 
agencies is vital for decisionmaking at all levels of government and by 
the private sector. In addition, AGI supports the vital educational 
programs of these agencies that build the geoscience workforce and 
public trust in the geosciences to foster creative solutions for the 
Nation.
    AGI respectfully requests at least $8.45 billion funding for NSF, 
including robust support of the Geosciences Directorate. AGI supports 
$6.2 billion for NOAA, $1.3 billion for NIST, $2 billion for NASA Earth 
Science programs, $5.6 million for OSTP, and continued statistical data 
collection at the Department of Commerce.
    AGI appreciates the difficult choices that Congress faces in 
developing the fiscal year 2019 budget. Investing in our Nation's 
future workforce, in our scientific and Earth monitoring 
infrastructure, and in research and development that feeds innovation 
will reinforce the United States' role as the global leader. We 
respectfully request that this subcommittee maintains its commitment to 
a strong future for the Nation by funding critical scientific research, 
infrastructure, data collection, and educational programs at the 
agencies under your jurisdiction.

        AGI is a nonprofit federation of 52 scientific and professional 
        societies representing more than 260,000 geoscientists across 
        the Nation who work in industry, academia, and government. 
        Founded in 1948 under a directive of the National Academy of 
        Sciences, AGI provides information services to geoscientists, 
        serves as a voice of shared interests in our profession, plays 
        a major role in strengthening geoscience education, and strives 
        to increase public awareness of the vital role the geosciences 
        play in society's use of resources, resilience to natural 
        hazards, and the health of the environment.
                      national science foundation
    Research across all areas of science and engineering contributes 
knowledge and understanding about many societal issues ranging from 
homeland security to cyberinfrastructure, and it produces revolutionary 
and often unforeseen breakthroughs. Basic research provides information 
that is used to improve people's quality of life: it is the foundation 
for a dynamic and innovative economy, and it strengthens the security 
of the Nation. NSF not only provides core funding and essential 
infrastructure for basic research: it also supports the education and 
training of the next generation coming into our Nation's workforce.
    AGI believes that investment in NSF programs, where funding is 
allocated based on scientific merit and competitive peer review, will 
pay important dividends in maintaining U.S. dominance in science and 
technology far into the future. AGI applauds Congress for increasing 
NSF's budget for fiscal year 2018. AGI supports funding of $8.45 
billion for NSF in fiscal year 2019.

    NSF Geosciences Directorate: The Geosciences Directorate (GEO) is 
the principal source of Federal support for academic geoscientists and 
their students who seek to improve understanding of the Earth and the 
processes that sustain and support life and human well-being. The GEO 
Directorate provides about 64 percent of Federal funding for basic 
geoscience research at academic institutions and supports indispensable 
research infrastructure and instrumentation. Geoscience researchers 
study natural hazards, including earthquakes, tornadoes, hurricanes, 
drought, solar storms, and all aspects of the air, water, ice, and 
rocks that define our environment and provide the raw materials for 
economic prosperity.
    GEO research supports the entire geoscience community, which 
includes petroleum geologists, geotechnical engineers, ocean and 
atmospheric scientists, hydrogeologists, economic geologists, soil 
scientists, natural hazards specialists, and other experts whose work 
interacts with the Earth system. Most geoscientists work in the private 
sector, at State and Federal agencies, or as consultants. The GEO 
Directorate helps universities build a skilled workforce to meet the 
economic, safety, and environmental needs of the Nation. Research 
funded by GEO is contributing to the U.S. energy boom, to our 
understanding of the land-ocean interface, and to fundamental 
understanding of Earth processes that impact health and safety.
    NSF's Office of Polar Programs (OPP) funds basic research in the 
Arctic and Antarctic and manages all U.S. activities in Antarctica as a 
single, integrated program. The polar regions are the focus of intense 
scientific and political interest as new navigation routes are opening 
access to resources and presenting security challenges. NSF-funded 
research and infrastructure are helping United States decision-makers 
understand environmental conditions in extreme environments, develop 
polar technology, and construct data-driven strategic and security 
policies. AGI encourages robust funding for the Antarctic 
Infrastructure Modernization for Science program.
    A centralized pool of national geoscience infrastructure is an 
efficient way to achieve the maximum return on investment and to ensure 
that the Nation has the equipment and expertise needed to respond 
rapidly to opportunities and emergencies. AGI strongly supports robust 
and steady funding for infrastructure, operation, and maintenance of 
major facilities, including the Academic Research Fleet, the 
continuation of the important geodetic, seismic, and related 
geophysical functions in the GAGE and SAGE multi-user facilities, Ocean 
Discovery Program, the Ocean Observatories Initiative, and the National 
Center for Atmospheric Research (NCAR).
    AGI respectfully asks the subcommittee to provide at least $6.6 
billion to NSF's Research and Related Activities with appropriate 
distribution to GEO.

    NSF Directorate for Education and Human Resources: AGI's Status of 
the Geoscience Workforce Report 2016 predicts a shortfall of 
approximately 90,000 geoscientists by 2024. NSF funding for geoscience 
education is essential to develop the competitive, skilled workforce 
that can fill this predicted gap in areas of vital national interest 
including jobs in the energy and natural resource sectors. Geoscience 
education also creates an informed citizenry prepared to make well-
founded decisions about our planet and its resources. Outreach and 
education are important at all levels from K-12 through graduate-level 
education and should include formal and informal outlets to facilitate 
lifelong learning. AGI strongly encourages funding for geoscience 
education at all levels and particularly supports programs to diversify 
the geoscience student population and workforce, such as the NSF 
INCLUDES initiative.
                         department of commerce
    National Oceanic and Atmospheric Administration: Geoscientists rely 
on NOAA for much of the data and long-term monitoring tools that enable 
research and rapid response for events such as hurricanes, drought, 
marine oil spills, and a range of coastal phenomena. The National 
Weather Service (NWS), Oceanic and Atmospheric Research (OAR), National 
Ocean Service (NOS), National Environment Satellite, Data and 
Information Service (NESDIS), and Office of Marine and Aviation 
Operations (OMAO) programs provide the data necessary to understand and 
mitigate these events and to sustain our natural resources. Extreme 
weather events cause major impacts throughout the country, triggering 
coastal erosion, landslides, and flooding. AGI supports increased, 
dedicated funding for NWS to support landslide hazard assessments and 
to reduce losses from landslides and other ground failures. We also 
recommend continued funding for the National Sea Grant College program, 
which supports applied research, education, and communication of marine 
and coastal science, and NOAA's Office of Education.
    AGI supports $6.2 billion for NOAA and respectfully requests that 
the subcommittee continue to support NOAA's observation, analysis, and 
research initiatives.

    National Institute of Standards and Technology: Earth scientists 
and geotechnical engineers well-versed in the geosciences conduct basic 
research at NIST that is used by the public and private sectors to 
build resilient communities and stimulate economic growth. NIST 
research and information is essential for understanding natural 
hazards, identifying the infrastructure needed to build strong 
communities, and stimulating economic growth.
    NIST is the lead agency for the National Earthquake Hazard 
Reduction Program (NEHRP), an interagency program responsible for the 
efficient coordination of research and resources to understand and 
mitigate earthquakes, but has received only a small portion of 
authorized funding in the past. AGI strongly supports $1.2 billion for 
NIST and urges Congress to reauthorize and fully fund the National 
Earthquake Hazards Reduction Program (NEHRP).

    Bureau of Economic Analysis and Census Bureau: AGI relies on key 
information from the Bureau of Economic Analysis and the Census Bureau, 
including the American Community Survey, when developing our analyses 
of the geoscience workforce. AGI respectfully asks Congress to maintain 
your support for continued, consistent statistical data collection.
             national aeronautics and space administration
    NASA's fleet of Earth-observing satellites provides the data 
necessary to understand our dynamic planet. Scientists, farmers, 
industry professionals, and emergency managers rely heavily on this 
data gathered from space to support Earth and space weather 
predictions, to detect and monitor emergency situations such as 
volcanic eruptions, oil spills, and droughts, and to understand the 
links between ocean, atmosphere, land, and biological systems.
    Other government agencies as well as the private sector use NASA 
information intensively for decisionmaking. NASA supports important 
NOAA and USGS missions. For instance, geoscientists have used 
observations from Landsat satellites since 1972 to monitor, predict, 
and react to drought, wildfires, and other changes to the Earth's 
surface. We ask Congress to please continue to support the Landsat 
program.
    AGI strongly supports continuation of the NASA Earth Science 
program, which received flat funding in fiscal year 2018 despite an 
increase for the overarching NASA Science program. Satellites and 
remote sensing provide unique information about the Earth's air, ice, 
water, land, and biological systems--information that is essential for 
well-informed decisionmaking by government and the private sector. AGI 
recommends $2 billion for NASA Earth Science to ensure the continued 
collection, preservation, and dissemination of long-term, consistent 
datasets. AGI also supports sustained funding for NASA's Office of 
Education to ensure education and outreach that inspires students and 
informs the Nation about our planet.
                office of science and technology policy
    The President must have the best possible advice on the science and 
technology that underpin the Nation's prosperity and security. We ask 
Congress to please support $5.6 million for OSTP.
    Thank you for the opportunity to present this testimony to the 
Subcommittee. If you would like additional information for the record, 
please contact Anna Normand at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="14757a7b6679757a7054757971667d77757a73717b67777d717a7771673a7b6673">[email&#160;protected]</a>, or 
4220 King Street, Alexandria, VA 22302-1502.

    [This statement was submitted by Allyson K. Anderson Book, 
Executive Director.]
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
    On behalf of the Nation's Tribal Colleges and Universities (TCUs), 
which collectively are the American Indian Higher Education Consortium 
(AIHEC), thank you for the opportunity to share our recommendations 
regarding the National Science Foundation's TCU Program (NSF-TCUP) and 
the National Aeronautics and Space Administration's Minority University 
Research and Education Project (NASA-MUREP) and programs for Tribal 
Colleges and Universities for fiscal year 2019.

National Science Foundation (NSF)
Education and Human Resources Directorate (EHR):
  --Tribal Colleges and Universities Program (TCUP): TCUs urge the 
        subcommittee to fund competitively awarded NSF-TCUP grants at a 
        minimum of $15,000,000 for fiscal year 2019.
  --Louis Stokes Alliance for Minority Participation (LSAMP): TCUs ask 
        that the Subcommittee express concern to NSF that the LSAMP 
        program targeting American Indian, Alaska Native, and TCU 
        students has not been prioritized for several years.

National Aeronautics and Space Administration (NASA)
  --NASA Headquarters, Office of Education--Minority University 
        Research and Education Programs (MUREP): TCUs urge the 
        subcommittee to fund a NASA MUREP program for Tribal Colleges 
        and Universities at $5,000,000 for fiscal year 2019.

Tribal Colleges and Universities: ``Doing So Much With So Little"
    TCUs are an essential component of American Indian/Alaska Native 
(AI/AN) STEM education and research. Currently, 38 TCUs operate more 
than 75 campuses and sites in 17 States, within whose geographic 
boundaries 80 percent of all American Indian reservations and Federal 
Indian trust land lie. They serve students from well over 250 federally 
recognized Tribes, more than 85 percent of whom receive Federal 
financial aid--primarily Pell grants. In total, the TCUs annually serve 
160,000 AIs/ANs and other community members through a wide variety of 
academic and community-based programs. TCUs are public institutions 
accredited by independent, regional accreditation agencies and, like 
all U.S. institutions of higher education, must regularly undergo 
stringent performance reviews to retain their accreditation status. 
Each TCU is committed to improving the lives of its students through 
higher education and to moving AI/ANs toward self-sufficiency. To do 
this, TCUs serve many roles in their reservation communities, 
functioning as career and business centers, open access computer labs, 
STEM summer camps and Saturday academies, community farms, economic 
development centers, GED or HiSET training and testing centers, place-
based applied research hubs, and more.
    The Federal Government, despite its direct trust responsibility and 
binding treaty obligations, has never fully funded TCU institutional 
operations as authorized under Federal law. Yet despite funding 
challenges, TCUs are leading the Nation in preparing AI/AN nurses and, 
more recently, in preparing teachers for our Native schools. For 
example, seven TCUs have established STEM teacher education programs 
through NSF-TCUP, which are preparing Native science and math teachers 
who are strengthening the STEM pipeline in their Tribal communities. 
TCUs train other professionals in high-demand fields, including 
agriculture and natural resources management, IT, and engineering. By 
teaching the job skills most in demand on our reservations, TCUs are 
laying a solid foundation for Tribal economic growth, with benefits for 
surrounding communities and the Nation as a whole. But that is not 
enough. TCU leadership understands that we must do more--we must move 
beyond simply workforce training. Today, TCUs are tackling the 
tougher--and much more significant--issue of job creation, because we 
know that to break the cycle of generational poverty and end the 
culture of dependency that grips so much of Indian Country, simply 
preparing students for a very limited labor market is not enough. We 
must create new industries, new businesses, and a culture of self-
sufficiency and innovation. Our job creation initiative focuses 
initially on advanced manufacturing, through a partnership with the 
U.S. Department of Energy, National Laboratories, TCUs, and industry.
    TCU Students: Aaron Sansosie of Flatrock, AZ, is a U.S. Army 
veteran, father of four, and Navajo Technical University (NTU) student. 
He is one of thousands of American Indian and Alaska Native (AI/AN) 
students gaining valuable education and technical skills to enter the 
workforce at Tribal Colleges. Aaron is enrolled in an NTU certificate 
program and its Building Information Modeling Applied Science 
associate's degree program. To achieve his goals, Aaron has been taking 
17-19 credits each semester, which keeps his days busy. While the 
schedule may seem grueling for any student, it is important to note 
that Aaron does this all while sleeping out of his truck. ``The cost of 
living here is pretty high, especially in the dorms and having three 
meals a day. Sometimes Pell won't cover it all, which leaves me in 
debt. Even with my veteran benefits, which help me out a lot, [I need 
to save],'' explained Aaron, whose desire to help his family and 
community is powerful.

                      National Science Foundation

    Education and Human Resources Directorate (EHR)--Tribal Colleges 
and Universities Program (TCUP): TCUs urge the subcommittee to fund 
competitively awarded NSF-TCUP grants at a minimum of $15,000,000. The 
NSF-TCUP, administered by the Education and Human Resources 
Directorate, is a competitive grants program that enables TCUs to 
develop and expand critically needed science and math education and 
research programs relevant to their respective communities. Through 
this program, TCUs that have been awarded grants to enhance their STEM 
instructional courses, workforce development, research, and outreach 
programs.
    AI/AN students have the highest high school drop-out rates in the 
country. Those who do pursue postsecondary education often require 
developmental classes before beginning their studies in earnest. 
Placement tests administered at TCUs to first-time entering students 
indicate that 63 percent required remedial math. Of these students, our 
data indicate that while 67 percent successfully complete the course, 
many do not do so in 1 year. Without question, a large proportion of 
the TCUs' already limited resources is dedicated to addressing the 
continual failings of K-12 education systems.
    To help rectify this, TCUs have developed strong partnerships with 
their K-12 feeder schools and are actively working, in large part 
through support from NSF-TCUP grants (and NASA funding), to engage 
young students in community and culturally appropriate science and math 
education and outreach programs. These efforts include weekend 
academies and summer STEM camps that reinforce and supplement current 
K-12 instructional programs.
    NSF-TCUP provides critically important capacity building assistance 
and resources to TCUs. Since the program began, NSF-TCUP has become the 
primary Federal program for building STEM programmatic and research 
capacity at TCUs. For example, with NSF-TCUP support, the very rural 
and remote Navajo Technical University (Crownpoint, NM) now offers 
electrical and industrial engineering bachelor's degree programs that 
will soon be the first TCU ABET-accredited programs. In addition, six 
TCUs have pre-engineering degree programs. Through NSF-TCUP, TCUs are 
developing partnerships with larger institutions that enable Native 
students to seamlessly transfer to graduate level programs. For 
example, Northwest Indian College (Bellingham, WA) has a partnership 
with Western Washington University through which students continue to 
master's degree programs. Place-based research that could have national 
and international impacts is a big part of the TCU partnerships. At 
NWIC, students conduct complex research related to food security 
focused on salmon, shellfish, and Indigenous sea cucumbers. Aaniiih 
Nakoda College (Harlem, MT) is monitoring streams for contaminants and 
investing West Nile virus vectors; and Sitting Bull College (SBC) (Fort 
Yates, ND) has established a water quality monitoring laboratory 
serving the Standing Rock Sioux and surrounding communities. Research 
at SBC shows that students participating in research opportunities have 
retention rates that are double the rate of students who are not 
engaged in research.
    Programs funded through the NSF-TCUP are highly leveraged and 
successful. For example, students at Southwestern Indian Polytechnic 
Institute (Albuquerque, NM) competed in NASA's national ``Swarmathon'' 
competition for the past 3 years, through funding from NASA and NSF. 
For the past 3 years, SIPI students have won the top three prizes, 
placing first in the Nation in 2017 and second this year. SIPI has 
achieved other successes of national note: NSF Science and Engineering 
Indicators (2016) showed that of students graduating with a science or 
engineering degree, AI/ANs comprised 0.3 percent; of which 13 percent 
were female. In a time when engaging diverse populations in higher 
education is a priority and retaining female students in STEM fields is 
a challenge, the SIPI pre-engineering program is doing something right. 
Last year, SIPI's retention rate for engineering students was 44 
percent. Its retention rate for female engine-eering students was 67 
percent. SIPI's female students attribute their success to several TCU-
specific factors: caring faculty who set expectations, sense of 
community, team research experiences, culturally grounded place-based 
experiential learning, and unfailing student support.
    Despite its advances and successes, funding for the NSF-TCUP 
program has been stagnant for many years. Therefore, not all of the 
TCUs have had an opportunity to benefit from this very important 
program. We urge the subcommittee to fund competitively awarded NSF-
TCUP grants at a minimum of $15,000,000.
    Louis Stokes Alliance for Minority Participation (LSAMP): TCUs ask 
that the subcommittee express concern to NSF that the LSAMP program 
targeting American Indian, Alaska Native, and TCU students has not been 
prioritized for several years.
    The All Nations LSAMP (ANLSAMP) program at Salish Kootenai College 
(Pablo, MT) has demonstrated tremendous success over the past several 
years, and small underfunded TCU STEM programs consider it essential 
for expanding student research opportunities, sharing best practices, 
and the like. Through efforts of all ANLSAMP partners, more than 2,000 
AI/ANs and under-resourced minority students have graduated with 
Bachelor's degrees in STEM. (This number is even higher, because it 
does not include university partners with their own LSAMP programs.) A 
recent survey revealed that more than 80 percent of ANLSAMP 
participants contacted had either graduated with a STEM major or 
bridged to a higher degree program.
    However, despite several applications, the ANLSAMP program has not 
been prioritized by NSF for ongoing support. We urge the subcommittee 
to express concern and support for the inclusion of AI/AN and other 
under-resourced students at TCUs in LSAMP programs.

          National Aeronautics and Space Administration (NASA)

    Office of Education/Minority University Research and Education 
Programs (MUREP) and TCUs: TCUs urge the subcommittee to fund a NASA 
MUREP program specifically for TCUs at $5,000,000 for fiscal year 2019. 
Under the MUREP umbrella, NASA has funded TCUs in various programs for 
the past several years at an extremely modest level. For example, in 
fiscal year 2014, NASA awarded $1.28 million to TCUs under MUREP, with 
total TCU support at $1.55M. In fiscal year 2015, NASA MUREP provided 
$2 million to TCUs, with a total commitment of about $2.5M. In fiscal 
year 2016, support was $1.7M under MUREP and $2.7 overall. With these 
modest funding levels, NASA MUREP is only able to fund a few TCUs. Its 
program for ``American Indian Alaska Native Serving Institutions'' can 
only support three TCUs, each of which receives a three-year award. In 
fiscal year 2017, the three-year awards went to SIPI--to continue its 
engineering/robotics work; NWIC; and Chief Dull Knife College (Lame 
Deer, MT). Other TCUs cannot compete for at least 2 years.
    Under a previous grant from NASA, SIPI students and local AI/AN 
high school students engage in hands-on projects through which they 
learn computer programming, computer networking, microprocessors, 
sensor technology, 3D printing, and design engineering. The annual NASA 
Swarmathon, funded by MUREP and mentioned previously, is an advanced 
robotics competition in which students test their STEM skills by 
writing complex robotic codes and building robots equipped with 
sensors, webcams, and GPS systems. The STEM knowledge and analytical 
skills needed to compete in Swarmathon are the same high-demand skills 
needed to advance our space technology and future space exploration. We 
are proud that SIPI teams ranked in the top three nationally over the 
past 3 years, as mentioned earlier.
    The continuation of NASA MUREP program, particularly with funding 
specifically designated for Tribal Colleges and Universities is 
essential to capacity building at TCUs as well as NASA. TCUs urge the 
subcommittee to fully fund the NASA MUREP program and support a Tribal 
College and University program within MUREP at $5,000,000 for fiscal 
year 2019.
                               conclusion
    Tribal Colleges and Universities provide access to high-quality, 
culturally appropriate postsecondary education opportunities, including 
STEM-focused programs for thousands of AI/AN students. The modest 
Federal investment in TCUs has paid great dividends in terms of 
employment, education, and economic development. Please support TCUs, 
whose faculty and students are making sacrifices every day, working 
with meager and stretched resources in the trench to build a better, 
safer, and more secure America. Thank you.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of fiscal year 2019 
appropriations for the National Science Foundation (NSF). We encourage 
Congress to provide the NSF with at least $8.45 billion in fiscal year 
2019.
    The American Institute of Biological Sciences is the national 
scientific organization that promotes the use of science to inform 
decisionmaking that advances biology for the benefit of science and 
society. Established in 1947 as a part of the National Academy of 
Sciences, AIBS has been an independent, member-governed organization 
since the 1950s. The combined membership and staff of our more than 130 
member organizations exceeds 200,000 individuals.
    Biological research is in our national interest. Increasing our 
knowledge of how genes, cells, tissues, organisms, and ecosystems 
function is vitally important to efforts to improve the human 
condition. Food security, medicine and public health, national 
security, and sound environmental management are all informed by 
biological research. Biological knowledge gained from NSF-funded 
research also stimulates the development of new research tools and 
industries.
    Biological research strengthens our economy. The translation of 
biological research into formal and informal education programs fosters 
the development of the scientifically and technically informed 
workforce employers seek. Federal research programs, especially those 
of the NSF, are important engines powering our Nation's economic 
growth. Over the past 50 years, roughly half of the economic growth at 
private businesses in the United States has resulted from advances in 
knowledge resulting from research and development. Research funding 
from NSF has given rise to successful companies, such as Genentech, 
Allylix, Google, and Chromatin, as well as new industries that provide 
more robust food crops or disease detection tools and techniques. 
Additionally, data show that employers continue to seek workers with 
scientific and technical skills. Since 1960, growth in U.S. employment 
in science and engineering has outpaced growth in total employment, 
increasing at an average rate of 3 percent per year.
    The cornerstone of NSF excellence is a competitive, merit-based 
peer review process that underpins the highest standards of excellence. 
Through its research programs, NSF invests in the development of new 
knowledge and tools that solve the most challenging problems facing 
society.

  --Combating emerging diseases: Long before Zika virus made headlines 
        in the United States, the NSF was supporting research to study 
        the environmental and social factors that put people at risk 
        from diseases carried by mosquitos, to understand the 
        physiology and life cycles of disease vectors, to model the 
        spread of mosquito-borne disease, and to understand the 
        evolution of insecticide resistance. The knowledge gained from 
        these lines of research enabled public health officials to 
        respond quickly when an outbreak of Zika virus started in the 
        U.S. in late 2015.
  --Controlling invasive species: NSF-supported research on population 
        biology and ecosystems provides the knowledge required to 
        inform efficient strategies to combat economically harmful 
        invasive species. Such research has shed light on the variable 
        rates of spread of invasive species, the understanding of mass 
        extinctions, and informed calculations of the costs resulting 
        from invasive species.
  --Mobilizing big data: Access to and analysis of vast amounts of data 
        are driving innovation. The NSF enables integration of big data 
        across scientific disciplines, including applications in the 
        biological sciences. Digitization of natural science 
        collections involves multi-disciplinary teams, which have put 
        more than 95 million specimens and their associated data online 
        for use by researchers, educators, and the public.

    Other examples of research that have benefited the public are 
chronicled in a recent AIBS report, ``Biological Innovation: Benefits 
of Federal Investments in Biology,'' which is available at https://
www.aibs.org/public-policy/biological_
innovation_report.html.
    The NSF also plays a central role in recruitment and training of 
our next generation of scientists. Support for science education for 
undergraduate and graduate students is critically important to our 
research enterprise. Students learn science by doing science, and NSF 
programs engage students in the research process.
    Initiatives such as the Graduate Research Fellowship and the 
Faculty Early Career Development program are important parts of our 
national effort to attract and retain the next generation of 
researchers. Since 1952, the number of students supported by NSF 
Graduate Research Fellowships has grown to 55,700. Other programs, such 
as the NSF Research Traineeship and Postdoctoral Research Fellowships 
in Biology, provide opportunities to train biologists in high priority 
areas like data-enabled science and research using biological 
collections. NSF awards reach 2,000 colleges, universities, and other 
public and private institutions across the country.
    The NSF is an important supporter of biological research 
infrastructure, such as field stations, natural history museums, and 
living stock collections. These place-based research centers enable 
studies that take place over long time periods and variable spatial 
scales.
    The U.S. share of worldwide R&D has continued to decline in the 
past 15 years, whereas foreign countries, especially China, have been 
rapidly increasing their investments in science. To fully realize the 
benefits of NSF-supported research and to remain at the forefront of 
innovation, the government must make new and sustained investments in 
the NSF. Unpredictable swings in funding can disrupt research programs, 
create uncertainty in the research community, and stall the development 
of the next great idea.
    Funding rates have become ``dangerously low'' according to NSF. 
When pre-proposals are taken into account, the funding rate for some 
program areas within the Directorate for Biological Sciences are in the 
single digits. The NSF is the primary Federal funding source for 
biological research at our Nation's universities and colleges, 
providing 69 percent of extramural Federal support for non-medical, 
fundamental biological and environmental research at academic 
institutions.
    Funding the NSF at $8.45 billion in fiscal year 2019 is a step 
toward resolving the issues that slow scientific discovery. The 
requested funding will enable NSF to pursue its 10 Big Ideas. These are 
important new cutting-edge initiatives at the frontiers of science and 
engineering. These include research programs such as Understanding the 
Rules of Life (URoL), Navigating the New Arctic (NNA), Growing 
Convergence Research (GCR), and Harnessing the Data Revolution for 
21st-Century Science and Engineering (HDR).
    Thank you for your thoughtful consideration of this request and for 
your prior efforts on behalf of science and the National Science 
Foundation.

    [This statement was submitted by Jyotsna Pandey, Public Policy 
Manager, and Robert Gropp, Co-Executive Director.]
                                 ______
                                 
        Prepared Statement of the American Mathematical Society
    The American Mathematical Society is the home society of 
approximately 30,000 individuals and over 500 institutional members. 
The AMS has been serving the mathematical sciences community since 
1888. The Society's programs and services for its members and the 
global mathematical community include professional programs; 
publications of books and journals; meetings and conferences; support 
for young scholars programs; and tools for researchers such as 
MathSciNet. The organization is headquartered in Providence, Rhode 
Island, with a Government Relations Office in Washington, DC.
    The American Mathematical Society (AMS) appreciates the opportunity 
to submit written testimony in support of fiscal year 2019 
appropriations for the National Science Foundation (NSF).
    We encourage Congress to provide the NSF with $8.45 billion in 
fiscal year 2019.
    The NSF is the key funding agency for the mathematical sciences. 
Most mathematics research is done by Ph.D. mathematicians at 
universities and colleges. The NSF accounts for approximately 64 
percent of Federal support for academic research in the mathematical 
sciences.
    The NSF is the only Federal agency that supports research and 
education across all fields of science, engineering, and mathematics 
and at all educational levels. Research and education programs 
supported through the NSF are essential for increasing and developing 
the knowledge base needed for pushing the frontiers of science, 
mathematics, and engineering disciplines; developing new fields of 
inquiry; and supporting technological innovation. Support for the 
scientific training of undergraduate and graduate students is 
critically important to our research enterprise. Other NSF investments 
in education support broadened participation in STEM fields and 
development of the STEM workforce in demand by American employers.
    The entire country benefits from NSF funding and Chairman Moran's 
state can serve as an example.\1\
---------------------------------------------------------------------------
    \1\ https://cnsf.us/factsheets2017.cfm
---------------------------------------------------------------------------
    Kansas, an EPSCoR State,\2\ received $42 million in NSF funding in 
fiscal year 2017. There were 138 NSF grants awarded to researchers in 
Kansas. Funds go toward research--for example, researchers in the 
Kansas State University Medical Component Design Laboratory used NSF 
funding to develop supplemental sensors for ingestible-pill technology 
that monitor the health of livestock, protecting against disease 
outbreaks. Funds go toward STEM education--for example, The Noyce 
Teacher-Leaders for Western Kansas project at Fort Hays State 
University is developing STEM teachers for rural Kansas communities.
---------------------------------------------------------------------------
    \2\ EPSCoR enhances research competitiveness of targeted 
jurisdictions (states, territories, commonwealth) by strengthening STEM 
capacity and capability. For more information, see https://www.nsf.gov/
od/oia/programs/epscor/

---------------------------------------------------------------------------
    The NSF has funded mathematics research and education in Kansas:

  --At Wichita State University, Professor Victor Isakov is improving 
        numerical algorithms for measurements used in biomedicine, 
        economics, geophysics, and material science. In particular, the 
        results of his work will dramatically enhance the quality of a 
        cheap, fast, and safe diagnostic imaging method called 
        electrical impedance tomography.\3\
---------------------------------------------------------------------------
    \3\ https://nsf.gov/awardsearch/
showAward?AWD_ID=1514886&HistoricalAwards=false
---------------------------------------------------------------------------
  --Kansas State University is the site of an NSF-funded Research 
        Experience for Undergraduates (REU) program in mathematics. 
        Each summer, students from across the country come to Manhattan 
        where they are trained to become independent researchers while 
        working on problems in the important fields of network security 
        and biomathematics.
  --Kansas State Professor Dave Auckly has funding to expand the Navajo 
        Nation Math Circles.\4\ This includes a mathematical visitor 
        program sending mathematicians to schools to work with students 
        and their teachers as well as inclusion of mathematics in 
        public festivals to increase community mathematical awareness.
---------------------------------------------------------------------------
    \4\ Navajo Nation Math Circles was featured in the documentary 
``Navajo Math Circles,'' which aired nationwide in September 2016 on 
the Public Broadcasting System.

    Society has benefitted from the many products, procedures, and 
methods that have resulted from NSF supported research in mathematics--
research performed over many years and typically not intended for 
specific applications. These benefits include innovations such as the 
Google Page Rank algorithm, enhancement of magnetic resonance imaging 
(MRI), and in cybersecurity. The plethora of applications that have 
resulted from basic research in the mathematical sciences is described 
in the National Academies report ``The Mathematical Sciences in 2025'' 
or in the executive summary ``Fueling Innovation and Discovery: The 
Mathematical Sciences in the 21st Century''.\5,6\
---------------------------------------------------------------------------
    \5\ https://www.nap.edu/catalog/15269/the-mathematical-sciences-in-
2025
    \6\ https://www.nap.edu/catalog/13373/fueling-innovation-and-
discovery-the-mathematical-sciences-in-the-21st
---------------------------------------------------------------------------
    Strong and sustained investment will allow the NSF to continue to 
support innovative and transformational scientific research that fuels 
the American economy, strengthens national security, maintains our 
global competitiveness, improves public health and the quality of life 
for Americans, and contributes to the development of the next 
generation of science, mathematics, and engineering researchers.
    Many of our global competitors are increasing financial support for 
scientific research at the same time that the rate of growth of funding 
for research in the U.S. is slowing. Because our national investment in 
basic science research has been declining as a share of the Federal 
budget for decades, we are losing our global edge. To compare, China 
has grown its R&D spending rapidly since 2000, at an average of 18 
percent annually. During the same period, U.S. R&D spending grew by 4 
percent [per year].\7\
---------------------------------------------------------------------------
    \7\ https://www.nsf.gov/statistics/2018/nsb20181/report
---------------------------------------------------------------------------
    A strong level of funding together with a predictable pattern of 
funding will facilitate a robust stream of high-level research and 
researchers that, in turn, will support the level of technological 
development needed to remain globally competitive.
    Thank you for your consideration of this request, and for your 
prior efforts on behalf of the NSF.

    [This statement was submitted by Ken Ribet, President and Karen 
Saxe, Director of Government Relations.]
                                 ______
                                 
          Prepared Statement of the American Physical Society
    On behalf of the American Physical Society (APS), representing more 
than 55,000 scientists in universities, national laboratories and the 
private sector, I want to express our strong support for the National 
Science Foundation (NSF). APS is grateful for the 4 percent increase to 
NSF's budget in the fiscal year 2018 omnibus bill and thanks the 
subcommittee for recognizing the agency's critical role in our 
scientific ecosystem. Looking forward, APS urges the subcommittee to 
build on NSF's momentum from fiscal year 2018 by prioritizing the 
agency in its fiscal year 2019 appropriations bill. Doing so would 
provide NSF the resources to support a leading-edge research portfolio, 
world-class facilities and education programs to help prepare the 
future STEM workforce, while also investing in the agency's 10 Big 
Ideas.
    NSF--established by Congress in 1950 with a mission ``to promote 
the progress of science; to advance the national health, prosperity, 
and welfare; to secure the national defense; and for other purposes''--
is a pillar of our Nation's scientific enterprise, supporting nearly 
one quarter of all federally funded fundamental research conducted at 
U.S. colleges and universities. The agency supports science and 
engineering education, from pre-K to graduate school and beyond, 
helping to ensure the U.S. has a pipeline of talent ready to work at 
the forefront of science, technology, engineering, and mathematics 
(STEM). Along with fostering this STEM talent, the broader impacts of 
NSF-funded research include the benefits of transformative discovery 
through new innovations, improving societal well-being, engaging a 
wider audience for science, and connecting with international 
counterparts to address global issues.
    NSF is the only Federal agency that invests in fundamental, early 
stage research across all non-medical fields of science and 
engineering, advancing our scientific knowledge and understanding 
across many disciplines, including physics. The agency supports high-
risk, high-reward research projects that not only have the potential to 
advance our knowledge, but also benefit society. NSF-sponsored research 
projects have resulted in discoveries leading to new technologies and 
companies, spawning new industries and strengthening the U.S. economy. 
NSF-funded research can be linked to applications that enhance our 
national preparedness and security, including advanced sensors to aid 
in early warning earthquake systems and new tools for detecting 
explosives. While NSF does not directly fund medical research, the NSF 
research portfolio includes projects--such as the foundational research 
that led to MRI techniques and brain imaging technology--that have 
yielded critical insights that enhance the quality of life for 
Americans.
    NSF also plays a critical role in preparing our students for a 
world increasingly dependent on science and technology. By supporting 
education at all levels--from K-12 STEM education to postdoctoral 
training--NSF is helping to prepare America's future STEM workforce. 
NSF-sponsored research and education programs strengthen our Nation's 
scientific knowledge base today and help prepare our scientists and 
engineers of tomorrow.
    For more than half a century, the U.S. Government's commitment to 
funding early stage research--through NSF and other Federal science 
agencies--at our colleges, universities and research institutions has 
helped ensure our position as a global leader in science, technology 
and innovation. With other Nations across Europe and Asia taking note 
of America's success and bolstering their own national investments in 
science and technology, we must build on Congress's bipartisan 
commitment to scientific research demonstrated in the fiscal year 2018 
omnibus bill.
    APS recognizes the need for thoughtful and measured Federal 
spending, but robust funding for NSF is an essential investment for 
strengthening the U.S. economy and our global competitiveness, 
enhancing our national security, and improving the quality of life for 
Americans. APS urges your strong support of NSF throughout the fiscal 
year 2019 appropriations process.
    Thank you for your consideration of our views. If you would like 
any additional information for the record, please do not hesitate to 
contact Francis Slakey, Chief Government Affairs Officer, American 
Physical Society--Office of Government Affairs, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7d4cbc6ccc2dee7c6d7d489c8d5c0">[email&#160;protected]</a>].

    [This statement was submitted by Dr. Roger Falcone, President.]
                                 <greek-l>
                                 ______
                                 
     Prepared Statement of the American Physiological Society deg.
Prepared Statement Submitted by the National Science Foundation and the 
National Aeronautics and Space Administration on Behalf of the American 
                         Physiological Society
    The American Physiological Society (APS) thanks you for your 
sustained support of science at the NSF and NASA. In this statement we 
offer our recommendations for fiscal year 2019 funding levels for these 
two agencies.

  --The APS urges you to fund the fiscal year 2019 NSF budget at a 
        level of at least $8.45 billion to prevent further erosion of 
        program capacity.
  --The APS urges you to restore cuts to NASA's life sciences research 
        budgets and to increase funding for the Human Research Program.

    NSF and NASA support scientific research and technology development 
programs that are critical to the future technological excellence and 
economic stability of the United States. Federal investment in research 
is critically important because breakthroughs in basic and 
translational research are the foundation for new technologies that 
help patients, fuel our economy, and provide jobs. A strong Federal 
investment in the sciences is also critical to maintaining the United 
States' position as a science and engineering leader in a global 
context. The 2018 Science and Engineering Indicators show that other 
countries including China have continued to increase their investments 
in research at a rate that outpaces the growth of U.S. investments.\1\
---------------------------------------------------------------------------
    \1\ https://www.nsf.gov/statistics/2018/nsb20181/report/sections/
overview/introduction
---------------------------------------------------------------------------
NSF funds outstanding research and education programs
    NSF provides support for 27 percent of all federally funded basic 
science and engineering and provides 69 percent of the support for non-
medical biology research. This includes investment in basic biological 
research across a broad spectrum of subdisciplines, as well as the 
infrastructure that is needed to support scientists in their work. Time 
and time again we have seen that the knowledge gained through basic 
biological research is the foundation for more applied studies that 
sustain the health of animals, humans and ecosystems. NSF-funded 
research has led to countless new discoveries that could not have been 
envisioned when the research began. Nevertheless, these unforeseen 
applications have had enormous impact on science, health and the 
world's economy.
    The majority of the NSF funding is awarded through competitive, 
merit-based peer review. Merit review ensures that the best possible 
projects are supported. Both the scientific reviewers and NSF program 
staff consider not only the intellectual merit of each research 
proposal, but also its broader impacts. NSF's criteria for broader 
impact address the potential for research to benefit society or to 
achieve specific outcomes. NSF has an exemplary record of 
accomplishment in terms of funding research that produces results with 
far-reaching potential. Since its inception in 1950, NSF has supported 
the work of 231 Nobel Laureates, including the 2017 winners of the 
Medicine, Chemistry, Physics and Economics prizes.
    Biological research is just one part of the NSF portfolio. The APS 
believes that each of the NSF directorates support research that is 
critical to NSF's mission ``to promote the progress of science; to 
advance the national health, prosperity, and welfare; to secure the 
national defense . . .'' Collaboration among scientific disciplines is 
increasingly recognized as the best and most efficient way to advance 
science. This will only be possible with strong support for all 
disciplines of research.
    In addition to funding innovative research in labs around the 
country, the NSF education programs foster the next generation of 
scientists. The APS is proud to have partnered with NSF in programs to 
provide training opportunities and career development activities to 
enhance the participation of underrepresented minorities in science. We 
believe that NSF is uniquely suited to foster science education 
programs of the highest quality, and we recommend that Congress 
continue to provide Federal funds for science education through the 
NSF.
    The APS joins the Federation of American Societies for Experimental 
Biology (FASEB) in recommending that the NSF be funded at a level of at 
least $8.45 billion in fiscal year 2019. The increase provided to the 
NSF in fiscal year 2018 is a first step toward restoring the erosion of 
NSF's purchasing power. Prior to fiscal year 2018 the NSF budget had 
been flat in real terms for 15 years. The NSF is poised to address 
major challenges facing our Nation and our world in the 21st Century, 
but it needs adequate resources to continue to carry out its mission.
Support for Life Sciences Research should be increased at NASA
    NASA sponsors research across a broad range of the basic and 
applied life sciences, including gravitational biology, biomedical 
research and the Human Research Program (HRP). The gravitational 
biology and biomedical research programs explore fundamental scientific 
questions through research carried out both on Earth and aboard the 
International Space Station, which provides an environment for the 
conduct of experiments in space. NASA's HRP conducts focused research 
and develops countermeasures with the goal of enabling safe and 
productive human space exploration. The program funds more than 300 
research grants that go to academic researchers in more than 30 States 
around the country.
    During prolonged space flight, the physiological changes that occur 
due to weightlessness, increased exposure to radiation, confined living 
quarters, and alterations in eating and sleeping patterns can lead to 
debilitating conditions and reduced ability to perform tasks. 
Scientists are actively engaged in research that explores the 
physiological basis of these problems with the goal of contributing to 
the identification of therapeutic targets and development of novel 
countermeasures. One of the most well-known studies of these 
physiological changes is the NASA Twin Study which compares identical 
twin brothers and fellow astronauts Mark and Scott Kelly to see what 
changes occurred following Scott Kelly's 1 year mission aboard the 
International Space Station.\2\ The knowledge gained from this research 
is not only relevant to humans traveling in space, but is also directly 
applicable to human health on Earth. For example, some of the muscle 
and bone changes observed in astronauts after prolonged space flight 
are similar to those seen in patients confined to bed rest during 
periods of critical illness as well as during the process of aging.
---------------------------------------------------------------------------
    \2\ https://www.nasa.gov/feature/nasa-twins-study-confirms-
preliminary-findings
---------------------------------------------------------------------------
    NASA is the only agency whose mission addresses the biomedical 
challenges of human space exploration. Over the past several years, the 
amount of money available for conducting this kind of research at NASA 
has dwindled. In the past, appropriations legislation specified funding 
levels for biomedical research and gravitational biology, but ongoing 
internal reorganizations at NASA have made it difficult to understand 
how much money is being spent on these programs from year to year. The 
APS recommends that funding streams for these important fundamental 
research programs be clearly identified and tracked within the NASA 
budget. The APS also recommends restoration of cuts to peer-reviewed 
life sciences research to allow NASA-funded scientists to conduct 
research that will be critical in not only supporting the success of 
future long-range manned space exploration but also leading to 
innovative discoveries that can be applied to Earth-based medicine. As 
highlighted above, investment in the basic sciences is critical to our 
Nation's technological and economic future. This innovative engine of 
research fuels our world leadership and our economy. The APS urges you 
to make every effort to provide these agencies with increased funding 
for fiscal year 2019.

The APS is a professional society, numbering more than 11,000 members, 
dedicated to fostering research and education as well as the 
dissemination of scientific knowledge concerning how the organs and 
systems of the body function.

    [This statement was submitted by NSF and NASA on behalf of the 
American Physiological Society, Jeff Sands, MD, President.]
                                 ______
                                 
      Prepared Statement of the American Psychological Association
    The American Psychological Association (APA) is a scientific and 
professional organization of more than 115,700 psychologists and 
affiliates. APA is the largest scientific and professional organization 
representing psychology in the United States and is the world's largest 
association of psychologists. Comprising researchers, educators, 
clinicians, consultants, and students, APA works to advance the 
creation, communication, and application of psychological knowledge to 
benefit society and improve people's lives.
                   national science foundation (nsf)
    APA urges the Committee to fund the National Science Foundation 
(NSF) at $8.45 billion in fiscal year 2019. The Coalition for National 
Science Funding (CNSF), an alliance of over 140 universities, 
businesses, and scientific associations (including APA) also endorses 
this level of support for NSF, the only Federal research agency 
``charged with the promotion of scientific progress across all 
scientific and engineering disciplines'' and one that is vital to U.S. 
economic health, educational achievement, global competitiveness, and 
national security.
1. Support Core Psychological Research at NSF
    NSF is the only Federal agency whose primary mission is to support 
basic research and education in math, engineering and science--
including the behavioral and social sciences. NSF's investment in basic 
research across these disciplines has allowed for extraordinary 
scientific and technological progress, ensuring continued economic 
growth, improvements in the design, implementation and evaluation of 
public education, strengthened national security, and the generation of 
cutting-edge new knowledge.
    Although psychologists receive funding from various programs within 
NSF, most core psychological research is supported by the Social, 
Behavioral and Economic Sciences Directorate (SBE), which focuses on 
the variables that determine human behavior across all ages, 
interactions among individuals and groups, and the development of 
social and economic systems. In addition to core behavioral research in 
cognitive neuroscience, human cognition and perception, learning and 
development, and social psychology, SBE will continue to invest funds 
to participate in special initiatives and cross-directorate programs 
that address vital national priorities, including those in NSF's ``10 
Big Ideas'' such as The Future of Work at the Human-Technology 
Frontier, Harnessing the Data Revolution, and Understanding the Rules 
of Life.
    The Biological Sciences Directorate at NSF also provides support 
for research psychologists who ask questions about the principles and 
mechanisms that govern life at the level of the genome and cell, or at 
the level of a whole individual, family or species. In previous 
testimony, APA has expressed concern about diminishing support for key 
behavioral research programs within this Directorate, most notably 
those focused on learning and cognition. We urge NSF to strengthen 
support both in the Biological Sciences Directorate and Foundation-wide 
for research projects that seek to understand the neural or genetic 
mechanisms by which learning occurs, use learning as an assay for the 
effects of environmental change on a biological system, construct and 
evaluate artificial learning systems, conceptualize the role of 
learning in biodiversity and evolution, and apply learning principles 
to education and workforce challenges.
    NSF should receive support sufficient to allow full investment into 
the ambitious work proposed by NSF's 10 Big Ideas in addition to, and 
not in replacement of, the core research programs being done within the 
directorates. Ensuring that NSF has sufficient resources to fully fund 
the core programmatic research currently ongoing and continue 
developing and expanding the 10 Big Ideas provides a strong platform 
for decades of future scientific discovery.
2. Counter Specific Threats to Basic Science, NSF Merit Review, and the 
        Behavioral and Social Sciences
    Addressing questions about human behavior is as critical to our 
Nation's survival and well-being in a global context as is 
investigating physical systems as minute as a nanostructure or as vast 
as the universe. Alongside APA, scientific and industry leaders, both 
private and public, continue to urge members of Congress to strongly 
support all individual scientific disciplines and NSF Directorates, and 
to avoid attacking individual, peer-reviewed grants funding behavioral 
and social science projects (including those of psychologists). All NSF 
grant proposals are reviewed according to two criteria: Intellectual 
Merit and Broader Impacts. Grant proposals must advance knowledge and 
benefit society, and for the last 60 years, NSF has used this gold-
standard merit review process to review and award funding to the best 
scientific research. Further, basic research, by nature, is aimed at 
increasing our body of knowledge to address both known and unknown 
challenges today and in the future. For example, basic psychological 
research today is essential for the continued development of AI, self-
driving vehicles, and other emerging technologies. Failing to support 
basic research, including behavioral and social science, today 
undermines our ability to confront the unforeseen challenges and 
opportunities of tomorrow.
3. Continue Increasing Investments in Basic Science and the National 
        Science Foundation to Address Domestic and International 
        Priorities
    APA urges Congress to continue building on the increased 
investments in NSF from fiscal year 2018. Failing to invest in basic 
science undercuts U.S. opportunity domestically and puts the Nation at 
a disadvantage internationally. Domestically, NSF could fund an 
additional $3.92 billion in grant awards without compromising its 
current, international gold-standard proposal quality. The $3.92 
billion in unfunded, quality research represents wasted scientific 
potential that could address vital national priorities, such as 
advancing discoveries that could improve public health programs, 
encouraging development of next-generation technology, or strengthening 
the national defense. Failing to capitalize on the ingenuity, 
creativity, and intellectual rigor of the basic science supported by 
NSF imperils the U.S. capacity to remain globally competitive at a time 
when other nations pour enormous resources into research, leading to an 
innovation deficit with vast economic and national security 
implications. Internationally, China's investments in research and 
development are expected to surpass those of the U.S. by the end of 
2018, according to the National Science Board's Science and Engineering 
Indicators Report. NSF and the basic science it funds are essential for 
our success as a Nation.
                      department of justice (doj)
    APA is deeply committed to reforming the criminal justice system, 
supporting those with mental illness within the system, meeting the 
needs of victims of violence, and ensuring that the best scientific 
evidence is funded and used to make programmatic and policy changes.
1. Reduce Incarceration, Protect Public Safety, and Provide Better 
        Stewardship of Tax Dollars
    APA strongly supports comprehensive efforts in Congress to reform 
the Federal criminal justice system. The vast majority of incarcerated 
offenders return from jail or prison to their communities, and an 
estimated 77 percent of former prisoners are rearrested within 5 years 
of release. This represents a systemic failure which Congress and many 
States are making important steps to redress. fiscal year 2019 
appropriations for DOJ represent another avenue for reform and to 
reduce the burden of incarceration on public coffers and affected 
families and communities.
    Achieving these goals requires a shift in strategy and funding 
priorities. To this end, APA urges the Committee to adopt a reform-
minded approach in certain appropriations for the Bureau of Prisons 
(BOP) and Office of Justice Programs (OJP).
    APA remains extremely concerned about the use of augmentation by 
the BOP and its effects on facility safety and programming. To this 
end, we are very grateful to congressional appropriators for striving 
to hold BOP accountable for unfilled positions and related 
augmentation. The administration has used financial savings related to 
reductions in the BOP population to justify permanent elimination of 
approximately 6,000 BOP staff positions. The shortsightedness of this 
approach cannot be understated. To redress these problems, we urge the 
Committee to continue directing BOP to maintain staffing sufficient to 
the adequate performance of the agency's custody and care 
responsibilities. To help continue the trend of successful long-term 
reduction of the BOP population, APA also requests $42.6 million for 
cognitive behavioral treatment in residential reentry centers and $91.3 
million to facilitate prisoner reentry, by enhancing pre-release 
programming, increasing available reentry center beds, facilitating 
prisoner-family connections, and improving educational and vocational 
training.
    APA also urges the Committee to adequately fund a number of 
priorities at OJP to support State and local justice reforms. Several 
States have provided leadership in reducing unnecessary incarceration, 
and OJP can help ensure other States gain the benefits of similar 
reforms. APA specifically requests that the Committee provide: $100 
million for the Second Chance Act; $30 million for Justice 
Reinvestment; $58 million for Criminal Justice Statistics; $48 million 
for Research, Development, and Evaluation within the National Institute 
of Justice (including $3 million for Social Science Research on 
Indigent Defense); and restoration of funding to the Comprehensive 
School Safety Initiative at NIJ.
    Finally, APA asks the Committee to provide strong funding for 
juvenile justice programming, to support intervention in the lives of 
young people while the chances are highest for them to develop along a 
healthy, productive, and fulfilling trajectory. APA requests: $80 
million for juvenile justice Part B formula grants; $10 million for 
girls in the juvenile justice system; $4 million for the National Forum 
on Youth Violence Prevention; $25 million for the Community-Based 
Violence Prevention Initiative; $42 million for the Delinquency 
Prevention Program (Title V); $5.4 million for the Improving Juvenile 
Indigent Defense Program; $30 million for the Juvenile Accountability 
Block Grant; $20 million for the Smart on Juvenile Justice Initiative; 
and $23 million for the Defending Childhood initiative.
2. Address Mental Illness and Reduce Strain on Criminal Justice Systems
    APA strongly supports diversion from deeper levels of justice 
system involvement, when public safety allows, so that individuals with 
mental illness can obtain the care they need. Law enforcement officers 
who serve on crisis intervention teams (CIT) divert individuals pre-
arrest and connect them with public mental health resources; problem-
solving courts provide pre-trial diversion, while maintaining the 
accountability of court supervision; and probation provides community 
corrections alternatives to incarceration that also maintain 
accountability and provide community mental health resources. Diversion 
also allows criminal justice agencies to focus on those individuals for 
whom correctional custody is deemed necessary, and this includes 
providing the mental and behavioral healthcare to which inmates have a 
constitutional right.
    To this end, in the Federal prison system, APA urges the Committee 
to provide BOP with an additional $9.7 million for mental health staff 
and $20 million for changes to restrictive housing intended to provide 
better alternatives, such as the model Secure Mental Health Step-Down 
Program, for individuals with mental illness. These investments will 
help inmates achieve better health and make treatment of their 
criminogenic needs more likely to succeed, so that they can thrive and 
maintain employment when they return to the community. This would help 
protect public safety, reduce burdens on other social systems, make 
families stronger, and add to the tax base.
    To support important State and local government efforts across the 
Nation in addressing the high rate of mental and behavioral health 
needs among those in contact with criminal justice systems, APA is 
incredibly grateful for the Committee's fiscal year 2018 appropriations 
for the Justice and Mental Health Collaboration Grant Program, Drug 
Courts, Veterans Treatment Courts, and Residential Substance Abuse 
Treatment for State Prisoners at $30 million, $75 million, $20 million, 
and $30 million, respectively. We request continued funding at these 
levels. In addition, we urge the Committee to provide $7.5 million for 
the national center to train law enforcement on responses to 
individuals with mental illnesses or developmental disabilities. APA 
notes the particular importance of increased funding for this national 
center, given current gaps between law enforcement demand for this 
training and its availability.
3. Support Victims of Violence
    APA strongly supports the Office of Violence Against Women (OVW). 
The Violence Against Women Act (VAWA), which authorizes the OVW, is the 
Federal framework for the U.S. response to domestic and sexual 
violence. Since the enactment of VAWA, rates of domestic abuse have 
declined in the U.S. However, exposure to violence is still very 
common-one in three women will experience rape, physical violence, or 
stalking in her lifetime. Any cuts to OVW funding would imperil 
progress made over the last three decades.
    APA urges the Committee to give special consideration to the needs 
of underserved and marginalized populations. Women of color, women with 
disabilities, individuals who identify as lesbian, gay, bisexual, or 
transgender, and other marginalized populations are at higher risk of 
victimization from domestic or sexual violence. APA asks the Committee 
to prioritize effective prevention and support around domestic and 
sexual violence for these populations. Specifically, of the funds made 
available to the Office of Violence Against Women, APA requests: $9 
million for Protections and Services for Disabled Victims; $9 million 
for the Elder Abuse Grant Program; $5 million for Grants to Tribal 
Governments; $2 million for Outreach to Underserved Populations; and 
$222 million for STOP Grants. These programs are crucial in preventing 
further violence, helping victims seek safety, and starting them on the 
road towards recovery.
4. Support Improved Police-Community Relations
    Psychological research has revealed effective strategies to enhance 
law enforcement and community relations, improve public safety, and 
reduce the risks of violence and aggression. These include the 
development of community-informed responses to violence, implementation 
of community-based policing implemented in a way that builds trust 
between police and the communities they serve, training on stereotypes 
and the effects of implicit bias, and programs that support the mental 
health and well-being of officers. APA urges the Committee to provide 
adequate funding to BJA, the Office of Community Oriented Policing 
Services, and the Office of Juvenile Justice and Delinquency Prevention 
to support additional Federal, State, and local activities, by 
providing: $20 million for the Community Policing Development Program; 
$20 million for the Collaborative Reform Initiative; and $17.5 million 
for the Innovations in Community Based Crime Reduction Program. While 
APA supports the integration of body cameras into law enforcement work, 
it is critical that additional, rigorous research be conducted on their 
use, to establish best practices that ensure accountability on both 
sides of interactions between law enforcement and community members.
    Contact: Micah Haskell-Hoehl, Legislative and Federal Affairs 
Officer, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b2dfdad3c1d9d7dede9fdaddd7dadef2d3c2d39cddc0d59c">[email&#160;protected]</a>
                                 ______
                                 
  Prepared Statement of the American Society for Engineering Education
                                summary
    This written testimony is submitted on behalf of the American 
Society for Engineering Education (ASEE) to the Senate Subcommittee on 
Commerce, Justice, Science, and Related Agencies for the official 
record. ASEE appreciates the Committee's support for the National 
Science Foundation (NSF) in the fiscal year 2018 omnibus and asks you 
to robustly fund the agency in fiscal year 2019, including the Research 
and Related Activities and the Education and Human Resources accounts. 
ASEE joins the academic and scientific community in requesting support 
of at least $8.45 billion for NSF in fiscal year 2019 to advance both 
core research and education activities as well as NSF's Big Ideas for 
Future Investment. Additionally, ASEE supports continuation of funding 
at the National Aeronautics and Space Administration (NASA) dedicated 
to the Space Technology Mission Directorate (STMD), which supports 
engineers and scientists in developing technology to advance science 
and space missions in the national interest, and the Office of 
Education, which supports and coordinates NASA educational efforts in 
engineering and STEM.
                           written testimony
    The American Society for Engineering Education (ASEE) is dedicated 
to advancing engineering and engineering technology education and 
research, and is the only society representing the country's schools 
and colleges of engineering and engineering technology. Membership 
includes over 12,000 individuals hailing from all disciplines of 
engineering and engineering technology and including educators, 
researchers, and students as well as industry and government 
representatives. The U.S. engineering workforce numbered 1.7 million 
people in 2015,\1\ the most jobs of any STEM discipline, and the demand 
for engineering professionals continues to grow. As the pre-eminent 
authority on the education of engineering professionals, ASEE works to 
develop the future engineering and technology workforce, expand 
technological literacy, and convene academic and corporate stakeholders 
to advance innovation and sound policy.
---------------------------------------------------------------------------
    \1\ National Science Board. 2018. Science and Engineering 
Indicators 2018. NSB-2018-1. Alexandria, VA: National Science 
Foundation.
---------------------------------------------------------------------------
                      national science foundation
    Engineering shapes our Nation and powers our innovation ecosystem. 
National Science Foundation (NSF) basic research, conducted in 
engineering schools and colleges around the country, catalyzes new 
industries and revolutionary advances. A workforce of well-trained 
engineers in industry and government takes those discoveries and 
develops innovative new technologies to improve our future. This system 
is essential to growth and innovation across our economy, and is 
helping to solve challenges in health, energy, and national security. 
NSF is an essential partner, funding basic engineering and engineering 
education research at universities and supporting students to enable 
access to engineering education.
    ASEE would like to commend you for your vision and commitment to 
funding NSF and for providing a critical increase of $295 million in 
funding, or $7.767 billion total, in the fiscal year 2018 omnibus. 
Prior to this increase, NSF received flat funding for several years, 
challenging the agency's ability to spur innovative discoveries and 
research, particularly as the buying power of this funding decreased. 
ASEE joins the research and higher education community in requesting 
that the Committee fund NSF at $8.45 billion in fiscal year 2019 to 
continue the momentum from increased funding in fiscal year 2018 to 
drive advances in research and education and enable the U.S. to retain 
global competitiveness and scientific leadership.
    ASEE strongly supports NSF's Big Ideas for Future Investment that 
would dramatically propel engineering research and education forward 
while revolutionizing the human-technology frontier, medicine, quantum 
communications, and other areas. NSF cannot adequately pursue these 
exciting, new interdisciplinary and transformative ideas without 
increased investments or would risk threatening core investments that 
power our research ecosystem.
    NSF-funded research catalyzes fundamental advances that are 
utilized for national security applications while engineers trained 
with NSF funding become key components of the national security 
workforce and industrial base. Our national security ecosystem depends 
on healthy NSF research and workforce support. Additionally, we are 
encouraged by recent efforts by NSF and the Air Force to partner on new 
innovations such as space, materials, and quantum technologies. NSF is 
also tackling major national security challenges through the Navigating 
the New Arctic and other Big Ideas.
    Investments in engineering education and research from NSF are 
essential for having a workforce trained and ready to contribute to 
industry, government, and academia. NSF is a major supporter of 
engineering research and workforce initiatives funding 40 percent of 
engineering and 87 percent of computer science academic fundamental 
research. NSF-funded advancements touch every corner of our lives and 
economy, from wireless systems to advanced manufacturing, and from new 
tools to combat brain diseases to technologies to ensure our 
cybersecurity. NSF supports engineering education at all levels, 
ensuring that the next generation of the U.S. engineering workforce is 
appropriately prepared to contribute and innovate across sectors and 
that domestic students are attracted to careers in engineering and 
engineering technology.
    The NSF Directorate for Engineering provides critical support for 
engineering education and research across the breadth of the 
discipline. These investments have the dual outcomes of training future 
engineers that will discover tomorrow's innovations, all while 
furthering today's cutting-edge research. Engineering investments at 
NSF provide critical advancements in areas such as resilient 
infrastructure, advanced materials and manufacturing, and 
bioengineering, in addition to equipping students with the skills they 
need to be the next generation of technological leaders. These programs 
support university research and centers, as well as partnerships with 
industry, that provide experiential opportunities fundamental to 
engineering education.
    The NSF Directorate for Computer and Information Science and 
Engineering also plays a key role supporting engineering education and 
research, particularly within the Division of Information & Intelligent 
Systems, which supports efforts at the frontiers of information 
technology, data science, artificial intelligence, among other areas. 
These investments are critical as we move into a world even more 
reliant on human-technology interactions.
    ASEE strongly supports NSF Education and Human Resources (EHR) 
funding to foster inclusive and effective learning and learning 
environments. The STEM workforce, particularly engineers, 
technologists, and computer scientists, is the driving force behind 
innovation and our economic development. We need to fully develop all 
of our Nation's human talent in order to tackle the pressing problems 
we face. Access to STEM experiences and skills are a critical aspect of 
developing well-rounded citizens, technological literacy, and the 
future STEM workforce. ASEE supports the Improving Undergraduate STEM 
Education (IUSE) program, which is critical for preparing professional 
engineers and enhancing engineering educational experiences to broaden 
participation and retention in engineering and engineering technology 
programs.
    NSF also plays a key role ensuring the development of new tools for 
teaching engineering design and analysis skills, which are under-taught 
in today's K-12 classrooms. As noted in the 2009 National Academies 
report Engineering in K-12 Education, engineering education has 
received little attention yet has the potential to improve student 
learning and achievement in other areas of STEM, increase awareness of 
engineering careers, and increase technological literacy. Engineering's 
focus on design and analysis enhances problem solving, teaches students 
new ways to approach challenges, and encourages students to connect 
science and math topics to real-world applications. These skills are 
critical to the future technical workforce. EHR also supports graduate 
fellowships and broadening participation efforts to create a pipeline 
of students knowledgeable and excited about engineering to fill 
workforce needs.
             national aeronautics and space administration
    ASEE is concerned with the administration's proposal to consolidate 
the Space Technology Mission Directorate (STMD) of the National 
Aeronautics and Space Administration (NASA) and redirect its activities 
solely towards human exploration. Of importance to ASEE, STMD 
activities support the workforce development pipeline of future space 
engineers and technologists by engaging directly with the academic 
community through early career faculty programs, early stage research 
grants, and university-led multidisciplinary research institutes. 
STMD's broad portfolio of activities helps to meet NASA's science 
objectives, establishes new commercial and academic partnerships, and 
stimulates the growth of the Nation's technology sector. STMD programs 
fill significant capability gaps for NASA and better position the 
agency to meet its long-term strategic goals in areas across all its 
directorates ranging from propulsion and power generation to materials 
science and high-performance computing. ASEE urges the Committee to 
block the administration's proposal and protect STMD's ability to focus 
on a broad array of NASA technology challenges, continue its engagement 
with the academic and private sectors, and keep its long-term focus 
beyond specific near-term mission goals. ASEE joins the research 
community in requesting $796 million for STMD in fiscal year 2019.
    ASEE is also concerned with the administration's proposed 
elimination of NASA's Office of Education and asks that the Committee 
sustain funding for this office in fiscal year 2019 and beyond. NASA 
Education programs inspire students to pursue engineering, science, and 
technology careers, and the Office of Education plays a vital role 
coordinating education programs throughout the agency, including those 
at NASA centers. ASEE supports the continuation of NASA Education 
programs including the National Space Grant College and Fellowship 
Program (Space Grant), which supports university consortia in all 50 
States, funding fellowships for engineering and other STEM students, 
while also offering important resources for faculty professional 
development and strengthening curricula. ASEE is also supportive of 
initiatives at the NASA Office of Education to broaden participation in 
STEM and to bring engineering design and analysis experiences to K-12 
students.
                               conclusion
    National Science Foundation education and research investments have 
truly transformed our world through engineering breakthroughs such as 
the Internet, fiber-optics, and medical imaging technology. These 
investments keep our communities safe, lower healthcare costs, and spur 
our economy. Today, engineering research is opening possibilities 
through advances in areas such as artificial intelligence, biosensors, 
and advanced materials. We ask that you robustly fund NSF at $8.45 
billion to support critical education and research programs. In 
addition, we urge you to continue both the Space Technology Mission 
Directorate and Office of Education at NASA in fiscal year 2019. Thank 
you for the opportunity to submit this testimony.

    [This statement was submitted by Bevlee Watford, President, and 
Norman Fortenberry, Executive Director.]
                                 <greek-l>
                                 ______
                                 
                Prepared Statement of Anderson Karl deg.
 Prepared Statement of Karl Anderson on Behalf of American Society of 
Agronomy, Crop Science Society of America, and Soil Science Society of 
                                America
    The American Society of Agronomy (ASA), Crop Science Society of 
America (CSSA), and Soil Science Society of America (SSSA) support 
$8.45 billion for the National Science Foundation (NSF). Within NSF we 
request $55.8 million for Innovations at the Nexus of Food, Energy, and 
Water Systems (INFEWS).
    The American Society of Agronomy, Crop Science Society of America, 
and Soil Science Society of America, represent over 18,000 scientists 
in academia, industry and government. We support more than 13,300 
Certified Crop Advisers (CCA), and over 700 Certified Professional Soil 
Scientist (CPSS). Our members and certified professionals are dedicated 
to meeting the demands of a growing world population through the 
pursuit of agronomic, crop, and soil science knowledge and application.
    The Nation's agricultural system must sustainably produce the food 
and fuel America relies on for national and economic security. Growing 
global competition is putting America's agricultural economy at risk. 
The U.S. has lost its spot as the top global funder of public 
agricultural R&D, falling behind China in 2009. Today, the U.S. trails 
Western Europe and is outspent nearly 2:1 by China.
    We support $8.45 billion for the National Science Foundation for 
the fiscal year 2019. This funding level will increase the broad base 
of fundamental knowledge in key disciplines, such as biology, plant 
science, chemistry, and soil science, which is needed to address 
agriculture's most intractable challenges. Such research funding will 
simultaneously support the scientists creating innovations today and 
the students who will tackle the unforeseen issues of tomorrow.
    Within NSF, the Societies are very supportive of the Innovations at 
the Nexus of Food, Energy, and Water Systems ($55.8 million). There is 
a pressing need to understand the interconnectedness of food, energy, 
and water and to develop new technologies that increase farm 
productivity while reducing costly energy and water-intensive inputs. 
The recent droughts in large swaths of the country, and their 
corresponding impact on agricultural and economic productivity, 
underscore the need to balance these resources. NSF's INFEWS program 
uniquely blends perspectives from each of these often-siloed fields. It 
offers scientific approaches to mitigate the impacts of future 
droughts, easing the tensions between competing land and natural 
resource interests, and creating resiliency in food, energy, and water 
systems.
    The research and education programs funded by NSF are essential to 
ensure an economically competitive America now and into the future. A 
strong commitment to federally funded scientific research will boost 
the Nation's capacity for innovation, agricultural productivity, and 
economic prosperity.
    We appreciate the opportunity to provide written testimony and look 
forward to working with the subcommittee as it considers funding for 
the National Science Foundation. Thank you.

    [This statement was submitted by Karl Anderson, Director of 
Government Relations.]
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    Thank you for the opportunity to submit testimony on fiscal year 
2019 funding priorities for the U.S. Department of Commerce's (DOC) 
John H. Prescott Marine Mammal Rescue Assistance Grant Program 
(Prescott Grant Program), which is funded through the National Oceanic 
and Atmospheric Administration's (NOAA) National Marine Fisheries 
Service (NMFS); as well as on the Marine Mammal Commission (MMC), an 
independent Federal agency established by Congress under the Marine 
Mammal Protection Act (MMPA).
Prescott Grant Program--$4.00 million
    The Prescott Grant Program, under NOAA's National Marine Fisheries 
Service, provides competitive grants to marine mammal stranding network 
organizations to rescue and rehabilitate sick, injured, or distressed 
live marine mammals and to investigate the events and determine the 
cause of death or injury to marine mammals. Over the past 18 years, the 
Prescott grants have been critical to protecting and recovering marine 
mammals across the country while also generating critical information 
regarding marine mammals and their environment. As the sole source of 
Federal funding for the National Marine Mammal Stranding Network, which 
is comprised of over 90 member organizations within 23 States, robust 
funding is required for the Prescott Grant Program in order for it to 
continue with its vital work.
Marine Mammal Commission (MMC)--$5.25 million
    The Marine Mammal Commission (MMC) is an independent Federal agency 
established by Congress in 1972 under the Marine Mammal Protection Act 
(MMPA). Responsible for overseeing the proper implementation of the 
MMPA, the MMC provides comprehensive, independent, science-based 
oversight of all Federal and international policy and management 
actions affecting marine mammals. The MMC's work is crucial for 
maintaining healthy populations of marine mammals, such as whales, 
manatees, dolphins, seals, sea otters, walruses, and polar bears, and 
ensuring their survival for generations to come. Additionally, the MMC 
seeks to ensure that Alaska Natives can meet their subsistence needs 
through hunting of marine mammals.
    Since fiscal year 2015, the MMC has been funded at a flat level of 
$3.43 million--this level of funding translates to about one penny per 
American per yer. However, since that time, the MMC has absorbed 
significant fixed costs leading to reduced discretionary funding for 
its core functions by roughly 53 percent ($1.82 million). In order to 
restore the MMC to the discretionary funding level it had in fiscal 
year 2015, $5.25 million is needed. This level of funding will better 
enable the MMC to fulfill its obligations as outlined in the MMPA.

    [This statement was submitted by Nancy Blaney, Director, Government 
Affairs.]
                                 ______
                                 
   Prepared Statement of the Asian Americans Advancing Justice | AAJC
                             census bureau
    On behalf of Asian Americans Advancing Justice | AAJC (Advancing 
Justice | AAJC), we submit this written testimony to the Senate 
Appropriations Committee's Subcommittee on Commerce, Justice, Science, 
and Related Agencies regarding the fiscal year 2019 budget for the 
Census Bureau. By the 2020 Census, the Census Bureau must put its field 
infrastructure in place; finalize the design and operations for the 
census; verify the master address list that defines the census 
universe; develop an effective advertising and outreach campaign; and 
ensure that all IT systems that will support the first ``high tech 
census'' are secure and work well. fiscal year 2019 is critical to 
ensuring a fair and accurate count--one that counts all communities 
equally well \1\--and must have a significant funding ramp-up--a 
minimum of $4.735 billion.\2\
---------------------------------------------------------------------------
    \1\ Asian Americans are among those who have historically 
experienced a differential undercount. While the 2010 Census had a 
relatively ``accurate'' count for AAPIs, the 2010 Census, in fact, 
missed hundreds of thousands of Asian Americans--a problem that was 
offset, at the national level, by double counting or other mistaken 
enumerations.
    \2\ The President's proposed fiscal year 2019 funding level for the 
2020 Census of $3.015 billion is $437 million below the Commerce 
Department's revised fiscal year 2019 cost estimate of $3.452 billion. 
Thus, this amount is $933.5 million above the president's request but 
only $475.5 million above the Commerce Department's cost estimates for 
fiscal year 2019 activities.
---------------------------------------------------------------------------
                       organizational background
    Advancing Justice | AAJC is a national nonprofit, non-partisan 
organization founded in 1991. Our mission is to advance the civil and 
human rights of Asian Americans and to build and promote a fair and 
equitable society for all. Advancing Justice | AAJC considers the 
census, including the American Community Survey (ACS), to be the 
backbone of its mission. Advancing Justice | AAJC maintains a permanent 
census program that monitors census policy, educates policy makers, and 
conducts community outreach and education to encourage participation in 
the surveys conducted by the Census Bureau, including for Census 2000 
and Census 2010. Advancing Justice | AAJC also serves on the National 
Advisory Committee on Racial, Ethnic and Other Populations to the 
Census Bureau and currently co-chairs the Leadership Conference on 
Civil and Human Rights' (Leadership Conference) Census Task Force.
                importance of census to asian americans
    Census data are critical for a functioning society as it allows for 
the distribution of over $800 billion Federal funds annually to 
States,\3\ informs effective and efficient policy and planning 
decisions, and is used to reapportion political representation and to 
redistrict at all levels. Without an accurate count of Asian Americans, 
these decisions will not address the needs of growing Asian American 
communities.
---------------------------------------------------------------------------
    \3\ Andrew Reamer, George Washington University Institute of Public 
Policy, COUNTING FOR DOLLARS 2020 The Role of the Decennial Census in 
the Geographic Distribution of Federal Funds Report #2: Estimating 
Fiscal Costs of a Census Undercount to States (2018), https://
gwipp.gwu.edu/sites/g/files/zaxdzs2181/f/downloads/
GWIPP%20Reamer%20Fiscal%20Impacts%20
of%20Census%20Undercount%20on%20FMAP-based%20Programs%2003-19-18.pdf.
---------------------------------------------------------------------------
    Census data are even more important for Asian Americans as the most 
comprehensive set of socioeconomic data points on Asian American 
communities, particularly for subgroups. Often viewed as homogenous, 
these communities include more than several dozen detailed racial and 
ethnic groups that can differ dramatically across key social and 
economic indicators. Only with detailed data can we build the solid 
foundation necessary for public policy, ensure that the right programs 
are reaching the right communities, and dismantle the conscious and 
unconscious beliefs that there is a racial hierarchy in our Nation. As 
one of the few entities that collect and report detailed data, an 
inaccurate count of Asian Americans by the Census Bureau would mean 
that many of our communities, and their attendant needs, would be 
rendered invisible and neglected.
       funding request for fiscal year 2019 for the census bureau
    The 2020 Census has been underfunded from beginning of its 
lifecycle by approximately $210 million cumulatively from fiscal year 
2012 through fiscal year 2017. Congress must ensure a sufficient 
funding ramp-up for the 2020 Census because of the unique cyclical 
nature of this constitutionally required activity. The failure to 
invest sufficiently in final preparations and early operations could 
depress participation and increase operational mistakes and failures in 
2020, potentially increasing census costs by billions of dollars and 
diminishing public confidence in the results. Furthermore, the recent 
last-minute and misguided decision by Commerce Secretary Wilbur Ross to 
add an untested question about citizenship on the 2020 decennial census 
form will have unknown, but likely significant, impacts on 
participation rates, particularly of those already disinclined to 
participate, as well as on operational decisions. These impacts will 
increase the need for funding in the lead-up to Census Day, as well as 
for the Non-Response Follow-Up phase, which is the most expensive 
component of the census. It will be important to press Secretary Ross 
to understand the fiscal implications of this misguided decision and 
ensure the Census Bureau has the resources it needs to ameliorate the 
harmful impact of this decision.
    The additional funds (to raise the full funding in fiscal year 2019 
to $4.735 billion for the U.S. Census Bureau) are needed for the 
following activities:

  --Partnership Staff (+$62.5 million).--Provide funding for additional 
        Partnership staff who will engage, educate, and mobilize 
        States, localities, and community-based organizations in 
        support of the census.
  --Communications Campaign (+$100 million).--Increase funding for 
        communications, in light of a lower projected self-response 
        rate, to expand targeted and ``in-language'' advertising to 
        communities that are harder to reach, and to address public 
        fears.
  --More Area Census Offices (+$312 million).--Expand the Census 
        Bureau's ``footprint'' in the field by increasing the number of 
        local (``Area'') census offices.
  --Contingency fund (+$314 million).--Congress has appropriated money 
        for a contingency fund in past decades and should do so now, as 
        Commerce Secretary Ross recommended.

    The additional funding is critical for ensuring a fair and accurate 
count of Asian Americans, especially because of the importance of the 
partnership program and the media to communicate with hard-to-count 
Asian American communities. Respondents interacting with trusted 
leaders, such as government leaders, school leaders, faith-based 
leaders, and other community leaders who are directly communicating 
with their members about the importance of participating and how the 
community benefits, rather than with a stranger representing the 
Federal Government, are more willing to participate in the census. 
Increasing the partnership staff is particularly important to provide 
the necessary outreach for minority communities. The growing privacy 
concerns and distrust in the Census Bureau, the growing diversity, 
hostile climate to certain communities, and the general distrust of 
government make a strong and vibrant partnership and outreach program 
even more necessary and important for an accurate count in 2020.
    In addition to the partnership program, the communications campaign 
played an important role in reaching hard-to-count communities in the 
2000 and 2010 Censuses. Media is an important tool in communicating 
with hard-to-count Asian American communities and thus increased 
funding to expand the communications program is critical to engaging 
the Asian American community. In particular, ethnic media \4\ is the 
most effective way to reach a substantial part of Asian American 
communities, though the precise use of ethnic media may be different 
across various ethnic groups.\5\ Online media is a particularly ripe 
opportunity for reaching Asian Americans, but many Asian Americans, 
particularly those in hard-to-count communities, are not Internet 
proficient and lack access to computers. Also, as Asian Americans vary 
generationally, spanning from recently arrived immigrants to those with 
roots in the community for more than one hundred years, any 
communications or marketing plan must be multi-faceted to address the 
needs of the various ethnic groups, various languages, and various 
generations. Each individual Asian American sub-ethnic group has 
intrinsic characteristics that require customization in messaging, 
treatment, and media vehicles based on particular nuances. In addition, 
there are multiple factors that pose additional challenges for reaching 
the especially hard-to-count Asian American communities. Thus, there 
needs to be increased funding to ensure the Asian American-focused 
subcontractor can effectively reach the different segments within the 
Asian American community.
---------------------------------------------------------------------------
    \4\ See New America Media, National Study on the Penetration of 
Ethnic Media in America (2009), http://media.namx.org/polls/2009/06/
National_Study_of_the_Penetration_of_Ethnic
_Media_June_5_2009_Presentation.pdf (hereinafter ``New American Media 
Study'').
    \5\ The New American Media Study saw 59 percent of Chinese, 61 
percent of Koreans, 83 percent of Vietnamese, 84 percent of Filipinos 
and 85 percent of Asian Indians relying on ethnic media. See New 
American Media Study. Other differences seen include: 52 percent of 
Vietnamese, 45 percent of Chinese and 43 percent of Korean relied on 
ethnic media as a news source for political information while only 11 
percent of Asian Indians, 19 percent of Filipinos, and 8 percent of 
Japanese and do the same. Karthick Ramakrishnan, Janelle Wong, Taeku 
Lee, and Jennifer Lee, Asian American Voices In The 2016 Election 
Report On Registered Voters In The Fall 2016 National Asian American 
Survey (2016), http://naasurvey.com/wp-content/uploads/2016/10/
NAAS2016-Oct5-report.pdf.
---------------------------------------------------------------------------
    As part of the expanded Partnership program and communications 
plan, a robust language support program for the 2020 Census must be 
properly funded, in place in a timely fashion, and culturally 
appropriate and relevant. The Asian American population in the United 
States is larger than it has ever been in our Nation's history, 
currently at 21.4 million.\6\ Asian Americans represented the fastest 
growing group in the 2010 Census,\7\ and continues to be the fastest 
growing during this decade.\8\ Of this rapidly growing segment of the 
population, about two-thirds are foreign-born,\9\ and more than a third 
of the Asian American population, over 5.6 million people, is 
considered limited English proficient (LEP).\10\ The LEP rate of Asian 
Americans is almost 22 times more than that of non-Hispanic Whites (1.6 
percent). Additionally, Asian American households are 25 times more 
likely to be limited English speaking households.\11\ This is important 
because it means all adults in the household are LEP, which makes 
participating in the census even more difficult. Together, these 
factors result in a significant portion of the population being both 
linguistically and culturally at a disadvantage when it comes to census 
participation.
---------------------------------------------------------------------------
    \6\ Asian Americans Advancing Justice--Los Angeles, Press Release, 
Asian Americans Remain Fastest Growing Racial Group In Country, Growth 
Driven By New Immigrants (June 21,
2017), available at https://advancingjustice-la.org/media-and-
publications/press-releases/asian-
americans-remain-fastest-growing-racial-group-country#.WbgZebKGNkg 
(hereinafter ``Fastest Growing Press Release'').
    \7\ See U.S. Census Bureau, 2010 Census Briefs: The Asian 
Population: 2010 (2012), available at https://www.census.gov/content/
dam/Census/library/publications/2012/dec/c2010br-11.pdf.
    \8\ See Fastest Growing Press Release.
    \9\ U.S. Census Bureau, 2015 American Community Survey 1-Year 
Estimates, Table B05003d Sex By Age By Nativity and Citizenship Status 
(Asian Alone).
    \10\ U.S. Census Bureau, 2015 American Community Survey 1-Year 
Estimates, Table B16005d Nativity By Language Spoken At Home By Ability 
To Speak English For The Population 5 Years And Over (Asian Alone).
    \11\ A ``limited English-speaking household'' is one in which no 
member 14 years old and over (1) speaks only English or (2) speaks a 
non-English language and speaks English ``very well.'' U.S. Census 
Bureau, 2011-2015 American Community Survey Selected Population Tables, 
Table B16002: Household Language by Household Limited English Speaking 
Status.
---------------------------------------------------------------------------
    The Census Bureau's current plan includes an Internet questionnaire 
and Census Questionnaire Assistance in approximately 12 non-English 
languages, and the development of video and paper Language Assistance 
Guides (LAGs) in 59 non-English languages.\12\ Additionally, the 2020 
Language Support Team and the Integrated Partnership and Communications 
team are already working together to ensure these languages are 
supported through the Integrated Partnership and Communications Plan. 
However, the Census Bureau must have adequate funding to finalize 
development of, and operationalize, its language program. Factoring in 
the development of appropriate materials for promotion and outreach--
leaflets to distribute to individuals, posters and other promotional 
materials--and questionnaire aids in different languages, the Census 
Bureau needs to start the process as soon as possible, and the 
additional funds can help ensure that the Bureau has the appropriate 
funding to support such work.
---------------------------------------------------------------------------
    \12\ U.S. Census Bureau, 2020 Census Program Management Review, 
Questions Planned for the 2020 Census and the American Community 
Survey: A Process Overview (Jan. 26, 2018), https://www2.census.gov/
programs-surveys/decennial/2020/program-management/pmr-materials/01-26-
2018/pmr-2020-operations-01-26-2018.pdf.
---------------------------------------------------------------------------
                               conclusion
    Advancing Justice | AAJC appreciates the opportunity to provide 
input on the fiscal year 2019 appropriations for the U.S. Census 
Bureau. Census Day is less than 2 years away, and the time is now to 
right the ship and get a fair and accurate count in 2020. The Census 
Bureau must receive a significant funding ramp-up--a minimum of $4.735 
billion--in order to fulfill its constitutional duty and achieve a fair 
and accurate count of all communities.

    [This statement was submitted by John C. Yang, President & 
Executive Director, and Terry Ao Minnis, Director of Census and Voting 
Programs.]
                                 ______
                                 
    Prepared Statement of the Association for Psychological Science
                   highlights of aps recommendations
  --As a member of the Coalition for National Science Funding, APS 
        recommends at least $8.45 billion for NSF in fiscal year 2019. 
        This level of funding would address the erosion of the agency's 
        budget resulting from it being underfunded for many years. 
        Since fiscal year 2011, the average annual increase in NSF's 
        budget has been 1.7 percent, which in some years has not even 
        kept up with inflation.
  --NSF's Directorate for Social, Behavioral, and Economic (SBE) 
        Sciences conducts research that increases the fundamental 
        understanding of human social development and interaction and 
        of human behavior. SBE programs enable basic research in cross-
        cutting topics by psychological scientists along with 
        behavioral economists, political scientists, sociologists, 
        linguists, neuroscientists, anthropologists, and other social 
        and behavioral scientists to address problems that range from 
        coastal flood response to the needs of an aging population to 
        preparing our military with the insights they need to 
        understand behavior in a changing world. Through its various 
        core disciplinary and interdisciplinary programs, as well as 
        contributions to cross-directorate NSF investments, SBE 
        supports approximately 5,000 scientists, educators, and 
        students in a typical year. Unfortunately, in eras of tight 
        budgets, the SBE Directorate is also a popular target for 
        budget cuts. APS urges the Committee to recognize the important 
        contributions of the SBE Directorate with supportive report 
        language and implied funding increases.

    Mr. Chairman and Members of the subcommittee, thank you for the 
opportunity to provide testimony as you consider funding priorities for 
fiscal year 2019. I am Sarah Brookhart, Executive Director of the 
Association for Psychological Science (APS).
    APS is a nonprofit organization dedicated to the advancement of 
scientific psychology nationally and internationally. APS's 33,000 
members are scientists and educators at the Nation's universities and 
colleges, conducting research supported by the National Science 
Foundation (NSF). APS believes the research funded by NSF's Social, 
Behavioral, and Economic (SBE) Sciences Directorate provides a 
fundamental understanding of the human condition without which 
decisionmaking on the full range of major national issues would not be 
based on evidence, resulting in suboptimal inefficient outcomes and an 
otherwise avoidable waste of Federal dollars. SBE scientists develop 
and employ rigorous methods to discover fundamental principles of human 
behavior at levels ranging from cells to society and from neurons to 
neighborhoods. We urge the Committee to include supportive report 
language and implied funding increases for the SBE Directorate in the 
fiscal year 2019 CJS Appropriations bill and report.
    Mr. Chairman, APS joins the Coalition for National Science Funding 
(CNSF)--a broad-based group of over 140 professional organizations, 
universities, businesses, and scientific societies that advocates for 
robust and sustained Federal support for science and recommends a 
fiscal year 2019 appropriation of at least $8.45 billion for NSF. We 
also wholeheartedly support a recommendation included in the American 
Academy of Arts & Sciences report titled ``Restoring the Foundation'' 
that concludes that to secure America's leadership in science and 
engineering and to ensure a growing economy, Federal science agencies 
should be funded at an annual increasing rate of 4 percent real growth-
that is, 4 percent plus inflation. This recommendation was repeated in 
another important report titled ``Innovation: An American Imperative'' 
which was a clarion call-to-action supported by more than 500 
organizations and several top corporate leaders.
    Further, we urge that the Committee recognize, through report 
language, the important work conducted by NSF's SBE Directorate. The 
importance of social and behavioral research has recently been 
recognized by a major NSF award. The Alan T. Waterman Award, the 
Nation's highest honor for early career scientists and engineers, was 
recently awarded to psychological scientist Kristina R. Olson. Dr. 
Olson was selected from a large group of highly qualified nominees 
representing all disciplines for her innovative contributions to 
understanding children's attitudes toward and identification with 
social groups; early prosocial behavior; the development of notions of 
fairness, morality, inequality; and the emergence of social biases. Dr. 
Olson received funding from NSF's SBE Directorate and her work 
exemplifies the type of groundbreaking research funded by that 
Directorate.
             recognizing the leadership of the subcommittee
    Mr. Chairman, APS recognizes and appreciates your leadership and 
the leadership of this subcommittee in supporting Federal research. We 
applaud the Committee's commitment to maintaining our Nation's economic 
growth, national security, and overall global competitiveness through 
investment in science. We are particularly grateful for your leadership 
in securing a nearly 4 percent increase to NSF's budget in the fiscal 
year 2018 Omnibus. This commitment is necessary for the United States 
to remain globally competitive. The National Science Board recently 
released the 2018 Science and Engineering Indicators Report which 
clearly shows that competitor nations, especially China, are rapidly 
improving their global position in science and technology while the 
United States is resting on its laurels of past investments. The report 
indicates that China is poised to become the global leader in science 
and technology in the next few years. Continued leadership from the 
subcommittee is necessary to ensure that the United States remains 
competitive and at the forefront of science, technology and innovation.
    The leadership of the subcommittee not only supports the 
competitiveness and growth of our country, but also each of Members' 
States as well. In fiscal year 2017, for example, Kansas research 
institutions were competitively awarded 71 NSF grants totaling $41.6 
million and New Hampshire research institutions were competitively 
awarded 129 NSF grants totaling $40 million. NSF research benefits 
every State in the country on a local and global level.
     funding for the national science foundation and policy issues
    As previously noted, APS recommends an fiscal year 2019 funding 
level of at least $8.45 billion for NSF, which would help underscore 
that supporting fundamental scientific research is a national priority. 
The administration's request of $7.5 billion in fiscal year 2019, 
almost a full billion cut from fiscal year 2018, is reckless and short 
sighted. This type of cut would be detrimental to the universities 
across the country and the American research enterprise. APS is in 
fierce opposition to the administration's proposal.
    In addition to funding priorities, APS is concerned about the 
administration cutting funding for the Social, Behavioral, and Economic 
Sciences Directorate. The administration has recommended a 
disproportionate cut of 11.2 percent to SBE which will result in 111 
fewer SBE research awards. As mentioned previously, SBE research has 
implications for improving the safety of our troops in combat, reducing 
violence among our youth, improving public health and education, 
improving the effectiveness of the criminal justice system, helping 
paralyzed people communicate, and improving economic decisionmaking. 
Despite being the smallest Directorate at NSF, the SBE Directorate 
funds 55 percent of all university-based social and behavioral science 
research in the Nation. In the Chairman and Ranking Member's home 
States of Kansas and New Hampshire, SBE awarded over $2.4 million in 
competitive research grants. We therefore urge the Committee include 
the following report language:

    Directorate for Social, Behavioral, and Economic Sciences.--The 
Committee supports the research funded by the Directorate for Social, 
Behavioral, and Economic Sciences and recognizes the fundamental 
importance of this research to advancing our understanding of human 
behavior and its application to improving the outcomes of a wide range 
of complex human systems including national health, national defense 
and security, education and learning, and the efficient integration of 
humans and machines. This category of research has implications for 
improving the safety of our troops in combat, reducing violence among 
our youth, improving public health, improving the effectiveness of the 
criminal justice system, helping paralyzed people communicate, and 
improving economic decisionmaking. The Directorate for Social, 
Behavioral, and Economic Sciences funds 55 percent of the university-
based social and behavioral science research in the Nation, but it 
remains the smallest of the NSF Directorates accounting for only 3.7 
percent of the entire NSF budget. The Committee believes that Social, 
Behavioral, and Economic Sciences research provides a fundamental 
understanding of the human condition which enables decisionmaking on 
the full range of major National issues to be based on objective 
scientific evidence, resulting in improved solutions to National 
concerns and more effective use of Federal dollars.
                         summary and conclusion
    Mr. Chairman, again we wish to thank the subcommittee for its past 
leadership. APS shares your commitment to foster innovation and U.S. 
economic competitiveness through appropriately investing in our 
Nation's research infrastructure. While APS recommends at least $8.45 
billion for fiscal year 2019, that amount will result in only 22 
percent of competitive NSF grant proposals being funded out of the 
50,000 grant proposals NSF expects to receive in fiscal year 2019--
approximately 11,000 proposals. Even more Federal funding for NSF could 
result in more research projects being funded, research that could lead 
to new knowledge, new discoveries, and possibly products, services, and 
new industries. Additional SBE research will continue to help us 
understand patterns of stability and change at the individual, group, 
organizational, and societal levels that can be applied to promote the 
progress of science and to advance national health, prosperity, and 
welfare.
    We appreciate the opportunity to provide this testimony and thank 
you for your continued leadership.

    [This statement was submitted by Sarah Brookhart, Executive 
Director.]
                                 ______
                                 
    Prepared Statement of the Association of Public And Land-grant 
  Universities' (APLU) Board on Oceans, Atmosphere, and Climate (BOAC)
    On behalf of the Association of Public and Land-grant Universities' 
Board on Oceans, Atmosphere, and Climate (BOAC), we thank you for the 
opportunity to provide recommendations for the proposed fiscal year 
2019 budgets for the National Oceanic and Atmospheric Administration 
(NOAA), the National Aeronautics and Space Administration (NASA) and 
the National Science Foundation (NSF). BOAC represents hundreds of 
scientists and administrators at APLU's 218 U.S. member universities 
and systems. We support a budget of $549 million for NOAA's Office of 
Oceans and Atmospheric Research, including $85 million for the National 
Sea Grant Program, $52.8 million for Sustained Ocean Observations and 
Monitoring; $37.7 million for the NOAA's Regional Integrated Ocean 
observing System of the National Ocean Service; $6.5 billion for NASA's 
Science Directorate and $8.456 billion for NSF.
                                  noaa
    NOAA is responsible for providing the Nation with weather, climate, 
and water information; and protecting, conserving and managing the use 
of coastal and ocean resources.
    One-third of the Nation's gross domestic product is supported via 
NOAA's products and services. From farmers to truckers to airlines and 
energy companies, every American depends on the vital weather and 
climate information provided through NOAA and the support of marine 
shipping through nautical charts and navigational information. Last 
year, the Nation set a record for highest cost of damages from weather 
and climate disasters--a total of $309.4 billion. By comparison, NOAA's 
entire budget in 2017 was $5.7 billion.
    To help NOAA meet its mission, NOAA's Office of Oceanic and 
Atmospheric Research (OAR) enables better forecasts, earlier warning 
for natural disasters, and a greater understanding of the complex 
systems that support our planet. We recommend a budget of $549 million 
for OAR. OAR conducts research across three major areas: weather and 
air quality; climate; and ocean and coastal resources. Supporting 
NOAA's efforts in all these areas are the Cooperative Institutes, which 
are academic and non-profit research institutions that conduct research 
for NOAA. Currently, NOAA supports 16 Cooperative Institutes (CI) 
consisting of 42 universities and research institutions across 23 
States and the District of Columbia. Many of the CI collocated with 
NOAA research laboratories, creating a strong, long-term collaboration 
between scientists in the laboratories and in the university. Funding 
the CI expands NOAA's scientific workforce and capacity. In addition, 
many of the cooperative agreements between NOAA and our academic 
partners provide for formal NOAA sponsorship of students through 
fellowships. Thus, Cooperative Institutes serve an additional important 
function: they help educate and train the next generation of NOAA's and 
the Nation's scientific workforce.
    Another strong Federal-State partnership is the National Sea Grant 
College Program, which we would recommend funding at $85 million. Sea 
Grant works to turn research into action, ensuring that coastal 
communities are economic engines and remain resilient in the face of 
natural hazards. In 2016, Sea Grant activities resulted in over 7,000 
jobs created or retained, $611 million dollars in economic benefit to 
the communities they serve, and the training of over 2,300 
undergraduate and graduate students. Sea Grant leverages $3 for every 
$1 of Federal money it receives. In 2016, Sea Grant worked with nearly 
1,300 industry and private sector, local, State and regional partners 
and assisted 494 communities with technical assistance.
    Sea Grant is local; it provides NOAA with boots on the ground 
throughout the country's coastal areas. Sea Grant personnel hear 
directly from community members about their needs and work directly 
with communities to provide technical assistance. We provide below two 
examples of the type of work Sea Grant has done related to community 
resiliency.
    For example, in 2016, Alaska Sea Grant's Marine Advisory agent 
worked closely with the Alaska Department of Health and Social Services 
in responding to dangerous paralytic shellfish poisoning incidents. The 
agent, who is a vital link in local communications in the remote 3,600-
square-mile Kodiak archipelago distributed a high volume of public 
outreach through phone, email, social media, and public service 
announcements. It is likely that rapid and consistent outreach helped 
prevent additional illnesses in the Kodiak region that year.
    Every day NOAA collects more than 20 terabytes of data, which is 
more than twice the volume of data in the U.S. Library of Congress' 
printed collection. NOAA and its partners translate that data into 
weather forecasts, information on harmful algal blooms, tactical 
information for search and rescue operations, and many other important 
products.
    Two programs that provide an enormous amount of data for NOAA are 
OAR's National Sustained Ocean Observations and Monitoring (SOOM) 
program and the National Ocean Services' Integrated Ocean Observing 
System (IOOS).
    BOAC supports a funding level of $52.8 million for SOOM, which 
funds observing, including globally deployed floats, drifters, and 
fixed moorings to provide information essential for accurate 
forecasting of hurricanes, atmospheric rivers and associated flooding 
and heat waves. Ocean observing is increasingly relevant to drought 
early warning systems, enhanced tsunami warning systems, and storm 
surge monitoring. Ocean observations are also imperative for 
calibrating and validating satellite observations.
    BOAC recommends funding for the National Ocean Services Integrated 
Ocean observing System (IOOS) at $37.7 million. IOOS provides new tools 
and forecasts to improve safety, enhance the economy, and protect our 
life and property. IOOS data is available in near real-time, as well as 
retrospectively, and support a variety of missions, including weather 
forecasting, efficient marine operations, daily tactical support of 
military operations worldwide, and ecosystem monitoring. IOOS is a 
partnership of 17 Federal agencies and 11 regional associations. The 
regional associations fill critical ocean observing information gaps 
providing over 50 percent of the marine data used by the National 
Weather Service.
                                  nsf
    BOAC supports $8.456 billion for NSF. NSF provides 59 percent of 
geoscience basic research funding at academic institutions as well as 
supporting critical infrastructure such as the National Center for 
Atmospheric Research--Wyoming Supercomputing Center, the Academic 
Research Fleet, and the Ocean Observatories. Additionally, NSF is the 
home of traditionally strong STEM education programs. NSF's investments 
in the geosciences address important national challenges, spur new 
economic sectors, and lead to the development and implementation of 
advanced technologies that save lives, protect property, and support 
our economy.
    BOAC supports the NSF's research effort called Prevention of and 
Resilience against Extreme Events (PREEVENTS), the purpose of which is 
to enhance national resilience to natural hazards by improving our 
understanding of the fundamental processes underlying natural hazards 
and extreme events in the geosciences. Along the U.S. coast, storm 
surge is often the greatest threat to life and property from a 
hurricane. NSF-funded researchers are quantifying how future tropical 
storm surges may impact U.S. coastal properties, using past patterns of 
coastal sea-level change. From 1990 to 2008, population density 
increased by 32 percent in Gulf coastal counties, 17 percent in 
Atlantic coastal counties, and 16 percent in Hawaii, according to the 
U.S. Census Bureau. In 2011, 45 percent of our Nation's GDP was 
generated in the Coastal Shoreline Counties along the oceans and Great 
Lakes. A storm surge of 23 feet could inundate 67 percent of interstate 
highways, 57 percent of arterial roads, almost half of rail miles, 29 
airports, and virtually all ports in the Gulf Coast area. Information 
on coastal property risk is vital to owners, insurers, and government.
    NSF has also teamed up with NOAA to devise new ways to warn 
citizens of the dangers of storm surge. They devised a new storm surge 
communication system that will likely save lives. By bringing social 
scientists together with meteorologists, NSF is protecting Americans' 
welfare.
    Danger, of course, does not only come from Earth. Rare violent 
storms on the Sun--the source of space weather--have the potential to 
knock out the entire electrical power grid, possibly for months, 
resulting in trillions of dollars of damage and bringing chaos to much 
of the country. NSF's investment in understanding, modeling, and 
observing space weather systems are developing predictive models to 
forecast and mitigate this catastrophic possibility.
    Finally, BOAC is also pleased to see NSF continue research into 
Innovations at the Nexus of Food, Energy, and Water Systems (INFEWS). 
This cross-directorate program aims to research the intersection of 
food, energy, and water systems to discover new knowledge and novel 
technologies to solve challenges facing all three areas. The INFEWS 
program seeks to support research that incorporates social and 
behavioral processes (such as decisionmaking and governance), physical 
processes (such as built infrastructure and new technologies for more 
efficient resource utilization), natural processes (such as 
biogeochemical and hydrologic cycles), biological processes (such as 
agroecosystem structure and productivity), and cyber-components (such 
as sensing, networking, computation and visualization for 
decisionmaking and assessment) into the complex systems of food, 
energy, and water. Investigations of these complex systems may produce 
discoveries that cannot emerge from research on food or energy or water 
systems alone.
                                  nasa
    Like NOAA & NSF, NASA is critical to understanding Earth's ever-
changing processes. Space-based observations of our planet matters to 
each of us, on a daily level, for things like GIS technology, weather 
forecasts, and agricultural productivity. Earth observations contribute 
to our economy, our national security, and our personal safety. Without 
a sustained commitment to both exploratory and applied Earth science 
and related observing systems, none of these benefits would be 
possible.
    In 2018, the National Academies issued the decadal survey report, 
``Thriving on Our Changing Planet: A Decadal Strategy for Earth 
Observation from Space.'' BOAC supports the current decadal survey and 
its recommendations.
    NASA is instrumental in deploying satellites used by NOAA. 
Furthermore, without the tools developed at NASA, oceanic, atmospheric, 
hydrologic and earth-system scientists and the Nation would have only a 
fragmentary picture of the interconnected functioning of the planet's 
oceans, atmosphere and land. NASA plays a role in technology transfer 
from NOAA by testing new sensors. The NASA data archive is an 
irreplaceable collection of environmental information that researchers 
depend upon. NASA also flies the WB-57 high altitude research aircraft, 
which performs valuable atmospheric research missions including remote 
sensing for coastal resiliency and the study of hurricane formation and 
intensity change. Furthermore, through its support for young scientists 
and graduate students, the NASA science mission supports innovation in 
the education and future workforce pipeline.
    BOAC thanks you for the opportunity to provide our views to the 
subcommittee. We look forward to working with you through the fiscal 
year 2019 appropriations process.
About APLU and the Board on Oceans, Atmosphere and Climate
    APLU's membership consists of 224 State universities and State-
university systems. APLU institutions enroll more than 4.1 million 
undergraduate students, and 1.2 million graduate students, award 1.1 
million degrees, employ 1.1 million faculty and staff and conduct $42.4 
billion annually in university-based research annually. The Board's 
mission is to provide Federal relations for issues involving 
university-based programs in marine, atmospheric, and climatological 
sciences. BOAC representatives are chosen by their president's office 
to serve. They include some of the Nation's leading research and 
educational expertise in atmospheric, marine, and climate disciplines.

    [This statement was submitted by co-chairs: Dr. John M. Kelly, 
President, Florida Atlantic University and Dr. Steve Ackerman, 
Associate Vice Chancellor for Research and Graduate Education, and 
Director, Cooperative Institute for Meteorological Satellite Studies, 
University of Wisconsin.]
                                 ______
                                 
  Prepared Statement of the Association of Science-Technology Centers
Chairman Moran, Ranking Member Shaheen, and Members of the 
subcommittee:

    Thank you for accepting this statement submitted by the Association 
of Science-Technology Centers (ASTC). I am Cristin Dorgelo, the 
President and Chief Executive Officer for ASTC. I appreciate the 
opportunity to present the views of ASTC to the subcommittee for its 
consideration as it prepares to write the fiscal year 2019 Commerce, 
Justice, Science, and Related Agencies Appropriations bill.
    ASTC represents more than 670 members in nearly 50 countries, 
including not only science centers and museums, but also nature 
centers, aquariums, planetariums, zoos, botanical gardens, and natural 
history and children's museums, as well as companies, consultants, and 
other organizations that share an interest in informal science 
education. Of those members, more than 380 are science centers and 
museums located throughout the United States. Taken together, our 
global reach demonstrates the universal recognition of the importance 
of science in our lives. Our centers are leading institutions in the 
efforts to promote education in science, technology, engineering, and 
mathematics (STEM), through innovative and creative informal and 
classroom experiences. We are helping to create the next generation of 
scientific leaders and inspiring people of all ages about the wonders 
and the meaning of science in their lives.
    In the past we have testified on behalf of the specific funding 
numbers for programs under this subcommittee's jurisdiction. But today 
I want to start by looking at the bigger picture--the overall science 
budget of the U.S. Federal Government.
    As you are well aware, last year the administration proposed 
significant cuts to the budgets of a number of domestic agencies. 
Included in the list of impacted programs were a number of science 
agencies and science programs. Similar cuts have been proposed in the 
administration's fiscal year 2019 budget.
    I want to personally thank you for not agreeing to the cuts. You, 
the Members of this subcommittee, and indeed, the entire Congress, 
rejected the proposed budget and instead passed a budget with robust 
funding for science. The subcommittee increased funding for NSF, NOAA, 
NASA, and the National Institute of Standards and Technology. Other 
subcommittees increased funding for the National Institutes of Health, 
the science programs of the U.S. Department of Energy, and the science 
programs of the U.S. Department of Agriculture. Congress also increased 
funding for the Institute of Museum and Library Services, among other 
agencies.
    Taken together, the science budget of the U.S. Federal Government 
is larger than ever. Total R&D funding increased 12.8 percent or $20 
billion in the fiscal year 2018 budget over the fiscal year 2017 budget 
according to Science Magazine, to a total of $176.8 billion. On behalf 
of the all the members of ASTC, I want to say thank you, with gratitude 
for a job well done.
    ASTC and its member centers were involved in the effort to support 
a robust science budget last year and will continue our efforts in the 
future. Many of our centers hosted science days, participated in 
marches, and reached out to their elected representatives to make the 
case for the importance of science and STEM education. ASTC will 
continue to advocate for science funding at every opportunity.
    Every day, our science centers and museums open their doors for 
students and the public. And every day, our centers across the United 
States reach out to students of underserved populations in both urban 
and rural areas, so that quality STEM education can be accessed by 
every American student. Every day, our centers provide these 
educational experiences with science and technology in interesting and 
innovative ways. Every day, our centers reach out to every student in 
their community, to ensure that our Nation has the trained STEM 
workforce we will need for the future. With continued Congressional 
support for informal STEM education programs, you will make our efforts 
more effective.
    Turning to specifics, ASTC strongly urges the subcommittee to 
provide for the following programs at NSF:

  --$902 million for the Directorate for Education and Human Resources 
        (EHR)
  --$62.5 million for Advanced Informal STEM Learning (AISL)
  --$51.9 million for Science, Technology, Engineering, and Mathematics 
        + Computing Partnerships (STEM+C)

    Within the budget for NOAA, ASTC recommends the subcommittee 
maintain the total budget for the Office of Education at $28 million.
    For programs within NASA, ASTC recommends the subcommittee provide 
these increases to allow for adequate operations of the Competitive 
Program for Science Museums, Planetariums, and NASA Visitor Centers 
(CP4SMPVC) within the NASA Office of Education, which is the only 
congressionally authorized program within NASA's Science Education and 
Accountability Projects (SEAP) portfolio:

  --$115 million for NASA Education programs, an increase from $100 
        million in fiscal year 2018
  --$15 million for the CP4MPVC program, an increase from $10 million 
        in fiscal year 2018

    In summary, we continue to thank this subcommittee for all its 
support of a robust science budget. You have demonstrated your support 
for crucial programs that promote STEM education for our Nation's 
students. Like ASTC, you recognize these are vital investments in our 
future, and we thank you in advance for taking action accordingly.

    [This statement was submitted by Cristin Dorgelo, President and 
Chief Executive Officer.]
                                 ______
                                 
       Prepared Statement of Big Brothers Big Sisters of America
    I want to thank the committee for the opportunity to submit 
testimony in favor of expanding funding for youth mentoring. As the 
President and CEO of Big Brothers Big Sisters of America and as a 
former mayor, I understand how impactful and life-changing a caring 
mentor has on a child's life.
    This week, I visited our Affiliate in Broward County, Florida to 
meet with 27 students who serve as High School Bigs through Marjory 
Stoneman Douglas High School to Little Brothers and Little Sisters from 
a nearby elementary school. They meet every Monday with their Littles, 
spending time with them going over homework, talking about what's going 
on in their lives, and being the caring mentor they need.
    These 27 High School Bigs were at school that terrible day in 
February, and one of them was shot during the incident and is 
recovering. Knowing the trauma these high schoolers had gone through, I 
thought it was possible that the group might have lost some interest in 
spending time with their Littles. I was wrong. They shared with me 
something I didn't expect to hear--that the relationships they had 
formed with their Littles actually helped them get through the past 2 
months. They spoke of the innocence of the elementary school children, 
and how the Littles' questions and concerns helped them process what 
they had experienced. They spoke about how giving a part of themselves 
to a child helped them move forward with purpose. What came clearly 
into focus for me was the importance of the connection between two 
people, a reminder that the relationships we create every day 
strengthen both the child and the volunteer.
    For more than 100 years, Big Brothers Big Sisters has been creating 
life-changing mentoring relationships like these between youth and 
caring adults. Big Brothers Big Sisters' mentoring model is evidence-
based, backed up by sound research and sustained by thorough monitoring 
and support. We match youth (``Littles'') with mentors (``Bigs'') 
taking into account background, personality, and interests. The 
mentoring relationships (``matches'') often last years, and are 
supported by our professional staff who focus on child safety and youth 
development.
    Having a mentor can contribute to a child's sense of self-
confidence in general and competence at school. Mentoring can also make 
it more likely that a student will strive to attain higher education. 
Seventy-six percent of at-risk young adults who had a mentor aspire to 
attend and graduate college, whereas only 56 percent of at-risk young 
adults without a mentor have those goals.\1\ One of the first signs 
that a child is falling off track is that he or she starts missing 
school. Having a mentor can be key to getting a child back on track and 
attending school regularly. A study of Big Brothers Big Sisters 
programs showed that having a mentor meant that youth were 52 percent 
less likely to skip school.\2\
---------------------------------------------------------------------------
    \1\ Bruce, Mary and Bridgeland, John (2014). The Mentoring Effect: 
Young People's Perspectives on the Outcomes and Availability of 
Mentoring. Washington, D.C.: Civic Enterprises with Hart Research 
Associates for MENTOR: The National Mentoring Partnership. 
www.civicenterprises.net/Education
    \2\ Tierney, J. P., Grossman, J. B., & Resch, N. L. (1995). Making 
a difference: An impact study of Big Brothers/Big Sisters.
---------------------------------------------------------------------------
    Being a Little in a Big Brothers Big Sisters program can also lead 
to a child engaging in fewer risky behaviors. Research shows that, 
compared to children who did not have a Big Brothers Big Sisters 
mentor, Littles are 46 percent less likely to start using drugs and 27 
percent less likely to start using alcohol. They are also almost one-
third less likely to hit someone. Decreasing the frequency of these 
risky behaviors means that fewer youth will start engaging in criminal 
activity or be involved with the juvenile justice system, which 
relieves a considerable financial burden on the State while promoting 
prosocial behaviors.
    Last year, Big Brothers Big Sisters of America received $6 million 
in mentoring grants from the U.S. Department of Justice Office of 
Juvenile Justice and Delinquency Prevention (OJJDP) which we 
administered to 67 Affiliates for one-to-one mentoring. OJJDP's mission 
to prevent juvenile delinquency and ensure all youth have the chance 
for a successful future aligns with Big Brothers Big Sisters' mission. 
Federal grants from OJJDP allow our Affiliates to serve more children 
by matching them in mentoring relationships through our rigorously 
tested, evidence-based program. OJJDP grants have also allowed us to 
enhance our Bigs in Blue program, which recruits law enforcement 
officers to become volunteer mentors (``Bigs'') to youth facing 
adversity (our ``Littles''). This program creates understanding between 
police and the communities they serve. We greatly appreciate OJJDP's 
support.
    Our model, the oldest in the country, has faithfully served 
millions of children over the past century and continues to change the 
lives of youth and adults alike by creating strong and supportive 
matches. On behalf of the thousands of youth waiting to be matched with 
a mentor, I thank you for your past support of Big Brothers Big 
Sisters, and ask you continue to make mentoring a priority in your 
discussions.

    [This statement was submitted by Pam Iorio, President and CEO.]
                                 ______
                                 
        Prepared Statement of the Boys & Girls Clubs of America
    Boys & Girls Clubs of America (BGCA) would like to thank the 
Members of the subcommittee for their leadership and continued support. 
We appreciate the opportunity to comment on the Department of Justice's 
(DOJ) National Mentoring Program.
    BGCA serves 4.3 million youth each year, with 458,000 children and 
teens entering the doors of a Boys & Girls Club every day. Our nearly 
4,400 Clubs represent a cross-section of American culture and 
heritage--with 1,659 school-based Clubs, 1,008 Clubs in rural areas, 
287 Clubs in public housing facilities, 492 affiliated youth centers on 
military installations worldwide, and 177 Clubs on Native lands. We are 
the largest provider of youth services on Native lands and the second 
largest provider of afterschool programs in rural America, with public 
schools being the largest.
    At BGCA, we believe every young person deserves a great future. Our 
vision is to provide a world-class Club Experience that ensures success 
is within reach of every young person who enters our doors, with all 
members on track to graduate from high school with a plan for the 
future, demonstrating good character and citizenship, and living a 
healthy lifestyle. Clubs offer young people a safe and positive place 
to learn and grow so that they become productive, caring and 
responsible citizens.
    A growing body of evidence proves out-of-school time and summer 
learning programs are effective at helping youth to improve grades and 
school attendance, while fostering higher aspirations for graduating 
high school and attending some form of post-secondary education. 
According to our evidence-informed National Youth Outcomes Initiatives 
(NYOI) report (https://www.bgca.org/about-us/club-impact)\1\:
---------------------------------------------------------------------------
    \1\ NYOI is the largest set of privately-held youth development 
data. It enables us to leverage member-provided data to adjust our 
strategies in real-time to maximize outcomes for youth.

  --97 percent of Club teens expect to graduate from high school and 87 
        percent plan to attend college
  --84 percent of Club members believe they can make a difference in 
        their community
  --84 percent of Club 12th graders abstain from alcohol use, compared 
        to 58 percent of their peers nationally
  --54 percent of alumni save the Club saved their life

    The impact of Clubs extends far beyond the young people who walk 
through our doors every day. A study by the Institute for Social 
Research and the School of Public Health at the University of Michigan 
found that for every dollar invested in Boys & Girls Clubs, $9.60 is 
returned to communities, approximately $13.8 billion annually. Clubs 
provide underserved youth with regular access to and engagement in 
areas such as STEM, sports leagues, homework help and tutoring, summer 
learning loss prevention, and engagement in the arts. As a result, Club 
youth are able to leverage and create opportunities that shift the 
course of their life trajectories and undermine cycles of inequity. 
Additionally, access to affordable, reliable and safe out-of-school 
time programs allows parents and caregivers the opportunities to 
participate in the workforce. While their children are actively engaged 
at the Club, families can rest assured knowing that they have access to 
enhanced academic support to ensure youth are on track to graduate, 
nutritious food, opportunities to be physically active and health 
education, all provided by caring staff within the context of a safe 
and supportive Club environment. As a result, Clubs contribute to major 
savings for society by helping to prevent costly expenditures for 
healthcare, public assistance programs, and criminal justice system 
involvement and incarceration.
    As Congress negotiates the fiscal year 2019 Commerce, Justice, 
Science, and Related Agencies Appropriations bill, we urge you to 
support $120 million for the National Youth Mentoring Initiative, a key 
grant program administered by DOJ's Office of Juvenile Justice and 
Delinquency Prevention. While many young people have access to mentors, 
there are many more who do not. Mentoring promotes positive behaviors, 
attitudes, and outcomes for youth and reduces risk factors. It has been 
shown to improve academic performance, social and job skills, support 
behavioral or other personal development, and reduce consumption of 
alcohol and other drugs. We also urge the subcommittee to provide 
support to national mentoring stakeholders to expand youth mentoring 
services in areas inordinately effected by the opioid crisis, with a 
focus on programs that are demonstrably effective at providing 
prevention services, reducing risk factors leading to addiction, and 
promoting resilience in children, families and communities to ensure 
the largest and most impactful reach of this program.
    The National Youth Mentoring Initiative allows Boys & Girls Clubs 
to strengthen, expand and enhance youth mentoring programs with a focus 
on at-risk youth, delinquency and gang prevention, native youth, and 
military-connected youth. BGCA's National Youth Mentoring grant 
supports over 32,900 youth at Clubs in all 50 States, Puerto Rico and 
the District of Columbia, and at overseas military installations. Clubs 
use a combination of group and one-on-one mentorship approaches to 
foster the development of peer-to-peer relationships, strengthen the 
development of critical social skills, augment their ties with positive 
adult influencers and establish close connections to their communities.
    BGCA compared regularly attending Club members and youth nationally 
by grade level. Across almost all health-risk behavior indicators, with 
each successive grade, the difference between Club members' abstention 
rates and those of Youth Risk Behavior Surveillance System \i\ 
respondents increased. In other words, teens who stay connected to a 
Boys & Girls Club as they get older seem better able to resist engaging 
in high-risk behaviors than their counterparts nationally at the same 
ages. Additionally, Club members learn the social-emotional skills they 
need to become successful.
---------------------------------------------------------------------------
    \i\ The Youth Risk Behavior Surveillance System (YRBSS) is a 
national survey administered by the Centers for Disease Control and 
Prevention that monitors health-risk behaviors among youth and young 
adults. The survey is administered every 2 years to students in 6th 
through 12th grades in their school classrooms. The NYOI member survey 
includes questions from the YRBSS.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In addition to the return-on-investment Boys & Girls Clubs provide 
to members, communities, and the country at-large, investing in 
mentoring also pays dividends. The importance of mentoring has been 
demonstrated by a three-year, DOJ-contracted study on BGCA's group 
mentoring approach. The study shows that preventing at-risk youth from 
pursuing delinquent behavior over a 3 year period provided an average 
taxpayer savings per Club of $374,622 and an average amount per youth 
of $4,921, for a total maximum potential savings of $110,891,000.\ii\
---------------------------------------------------------------------------
    \ii\ U.S. Department of Justice Programs. (2015). A comprehensive 
evaluation of group mentoring at the Boys & Girls Clubs of America. 
2010-JU-FX-0119.
---------------------------------------------------------------------------
    Prioritizing our youth not only leads to better individual outcomes 
but also to a healthier, safer and more prosperous Nation. We stand 
willing to work with you to help build the next generation of American 
leaders by increasing the number of young adults who have the 
character, education, fitness and skills they will need to be 
successful.
    Thank you for your leadership and support for this vital program.

    [This statement was submitted by Jim Clark, President & CEO.]
                                 ______
                                 
         Prepared Statement of the Choose Clean Water Coalition
March 13, 2018

 
 
 
The Honorable Richard Shelby,               The Honorable Jeanne
  Chairman                                   Shaheen,
Subcommittee on Commerce, Justice, Science    Ranking Member
 and Related Agencies                       Subcommittee on Commerce,
Room S-128, Capitol                          Justice, Science and
U.S. Senate                                  Related Agencies
Washington, D.C. 20510                      Room S-128, Capitol
                                            U.S. Senate
                                            Washington, D.C. 20510
 


Dear Chairman Shelby and Ranking Member Shaheen:

    The undersigned members of the Choose Clean Water Coalition request 
continued support for programs that are essential to maintaining a 
healthy and vibrant Chesapeake Bay and a strong regional economy that 
is dependent on the Bay's resources. The National Oceanic and 
Atmospheric Administration (NOAA) has a strong and long term presence 
in the Chesapeake Bay area, and its Chesapeake Bay Office coordinates 
their efforts with other Federal agencies, State and local partners and 
users of the resource.
    The programs that are run and/or coordinated by NOAA's Chesapeake 
Bay Office (NCBO) are critical for the Chesapeake Bay ecosystem and for 
its users and residents. These programs provide the science and 
management assistance necessary for those whose livelihood is to ply 
the Bay's waters for fish, crabs and oysters and to the hundreds of 
thousands of people who fish recreationally in the Bay every year and 
to the millions who boat, kayak, and/or view wildlife in the region.
    NCBO is also critical for others, from students learning about 
science with hands-on experiences to local governments and residents 
along the shore to have the latest information to prepare for coastal 
flooding and hurricane emergencies.
    Utilizing sound science in the management of Chesapeake Bay 
resources is critical for our regional economy. We request the 
following funding levels in fiscal year 2019:
                         department of commerce
National Oceanic and Atmospheric Administration--Chesapeake Bay Office 
        (NCBO)--$9.25 million
    The NCBO was established by Congress in 1992 to provide resources, 
technical assistant and coordination through its two branches: the 
Ecosystem Science and Synthesis Program, which focuses on applied 
research and monitoring in fisheries and aquatic habitats; synthesis, 
and analysis to describe and predict Bay ecosystem processes; and 
technical assistance to Chesapeake Bay decision makers.
    The second branch is Environmental Literacy and Partnerships 
Program, which focuses on the development of K-12 and higher education 
environmental science education programs; strategic partnerships with 
the Chesapeake Bay Program and other government, university, and 
nonprofit partners; and delivering NOAA products, services, and 
programs to targeted audiences.
    The Office's programs play a key role in implementing the voluntary 
Chesapeake Bay Agreement among the States and is critical to ensuring 
that commitments are met to:

  --restore native oyster habitat and populations in 10 tributaries by 
        the year 2025;
  --ensure students graduate with the knowledge and skills to protect 
        and restore their local watershed;
  --sustain a healthy blue crab and striped bass (rockfish) population; 
        and
  --maintain a coordinated watershed-wide monitoring and research 
        program.

    The specific breakdown of our request for $9.25 million for the 
NCBO is as follows:

  --Oyster Restoration--$4 million

  The Chesapeake Bay oyster population is less than 1 percent of 
historic levels and the ecosystem functions associated with oyster 
reefs, including fish habitat and nitrogen removal, are similarly 
diminished. NCBO has built on past success to restore entire 
tributaries, with self-sustaining oyster populations and to measure the 
resulting ecosystem benefits. NCBO works with Federal, State and 
private partners to plan and implement this tributary-scale restoration 
in both Maryland and Virginia. Funding for oyster restoration in the 
Chesapeake was also done through the U.S. Army Corps of Engineers, but 
they have not received funding in a number of years. Funding for this 
key program has eroded sharply since fiscal year 2010, and with the 
addition of Army Corps funds, NOAA is the only Federal agency left to 
continue this Key restoration program.

  --Environmental Education and Literacy--$3.5 million

  NCBO encourages and supports efforts in K-12 and higher education to 
develop and implement comprehensive environmental literacy programs. 
NCBO runs the nationally recognized Bay Watershed Education and 
Training Program (B-WET)--a competitive grant program for hands-on 
watershed education for students and teacher training to foster 
stewardship of the Chesapeake Bay. B-WETs funding has steadily eroded 
since 2010 and should be restored to at least that level.

  --Fisheries Science and Management--$1 million

  Recreational and commercial fisheries are among the most valuable 
economic activities for the coastal communities of the Bay. Fishing 
pressure, habitat loss, invasive species, degraded water quality, and 
toxics affect these important fisheries, including striped bass 
(rockfish), blue crabs, oysters, menhaden and cow-nosed rays. NOAA 
supports well-managed Chesapeake Bay fisheries and the habitats they 
depend on by delivering timely ecosystem-based science and forecasts to 
science and management partners. Historically, the States have looked 
to NCBO to conduct stock assessments, particularly for blue crabs. Each 
State often has its own assessment data, but NOAA's ability to look at 
the stocks for the entire Bay is critical. Each stock assessment costs 
approximately $500,000.

  --Chesapeake Bay Interpretive Buoy System (CBIBS)--$750,000

  The Chesapeake Bay ecosystem is dynamic, and water quality is driven 
by variable local and regional forces. High quality data is needed to 
monitor, understand, forecast, and provide information for science-
based decisions and needs to be continuously measured and summarized. 
NCBO maintains the CBIBS, a network of 10 buoys that collects and 
relays near-real-time data to users. This supports public access to the 
Bay and boater safety on the water through the Captain John Smith 
Chesapeake National Historic Trail, administered by the National Park 
Service.

    Thank you for your consideration of these very important requests 
to maintain funding for programs that are critical to the health of the 
Chesapeake Bay and its natural resources. Please contact Peter J. Marx 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9bcbfeeffee9dbd8f3f4f4e8fed8f7fefaf5ccfaeffee9b5f4e9fc">[email&#160;protected]</a> with any questions or concerns.

Sincerely,

1000 Friends of Maryland
Alice Ferguson Foundation
Alliance for the Chesapeake Bay
American Chestnut Land Trust
American Rivers
Anacostia Watershed Society
Audubon Naturalist Society
Audubon Society of Northern Virginia
Back Creek Conservancy
Baltimore Tree Trust
Blue Heron Environmental Network
Blue Ridge Watershed Coalition
Blue Water Baltimore
Cacapon Institute
Capital Region Land Conservancy
Catskill Mountainkeeper
Center for Progressive Reform
Chapman Forest Foundation
Chesapeake Bay Foundation
Chesapeake Legal Alliance
Chesapeake Wildlife Heritage
Clean Fairfax
Clean Water Action
Coalition for Smarter Growth
Conservation Voters of Pennsylvania
Delaware Nature Society
Ducks Unlimited
Earth Force
Earth Forum of Howard County
Eastern Pennsylvania Coalition for Abandoned Mine Reclamation
Elizabeth River Project
Elk Creeks Watershed Association
Environmental Working Group
Friends of Accotink Creek
Friends of Dyke Marsh
Friends of Lower Beaverdam Creek
Friends of Quincy Run
Friends of St. Clements Bay
Friends of Sligo Creek
Friends of the Middle River
Friends of the Nanticoke River
Friends of the North Fork of the Shenandoah River
Friends of the Rappahannock
Interfaith Partners for the Chesapeake
James River Association
Lackawanna River Conservation Association
Lancaster Farmland Trust
Lower Susquehanna Riverkeeper
Lutheran Advocacy Ministry in Pennsylvania
Lynnhaven River NOW
Maryland Conservation Council
Maryland Environmental Health Network
Maryland League of Conservation Voters
Maryland Native Plant Society
Mattawoman Watershed Society
Mehoopany Creek Watershed Association
Mid-Atlantic Council Trout Unlimited
Mid-Atlantic Youth Anglers & Outdoor Partners
Montgomery Countryside Alliance
Muddy Branch Alliance
National Aquarium
National Parks Conservation Association
National Wildlife Federation
Natural Resources Defense Council
Nature Abounds
Neighbors of the Northwest Branch
New York League of Conservation Voters
New York State Council of Trout Unlimited
Otsego County Conservation Association
Otsego Land Trust
PennEnvironment
PennFuture
Pennsylvania Council of Churches
Piedmont Environmental Council
Potomac Conservancy
Potomac Riverkeeper
Potomac Riverkeeper Network
Prince William Conservation Alliance
Queen Anne's Conservation Association
Rachel Carson Council
Rivanna Conservation Alliance
Rivertown Coalition for Clean Air and Clean Water
Rock Creek Conservancy
St. Mary's River Watershed Association
Savage River Watershed Association
Severn River Association
Shenandoah Riverkeeper
Shenandoah Valley Network
ShoreRivers
Sidney Center Improvement Group
Sleepy Creek Watershed Association
South River Federation
Southern Environmental Law Center
Southern Maryland Audubon Society
SouthWings
Sparks-Glencoe Community Planning Council
Susquehanna Heritage
The Downstream Project
Trash Free Maryland
Upper Potomac Riverkeeper
Upper Susquehanna Coalition
Virginia Conservation Network
Virginia Eastern Shorekeeper
Virginia Interfaith Power and Light
Virginia League of Conservation Voters
Warm Springs Watershed Association
Water Defense
Waterkeepers Chesapeake
West/Rhode Riverkeeper
West Virginia Citizens Action Group
West Virginia Environmental Council
West Virginia Highlands Conservancy
West Virginia Rivers Coalition
Wicomico Environmental Trust

    [This statement was submitted by Peter J. Marx, Contractor for the 
Choose Clean Water Coalition.]
                                 ______
                                 
     Prepared Statement of the Coalition for Aerospace and Science

April 20, 2018

 
 
 
The Honorable John Culberson                The Honorable Richard Shelby
2161 Rayburn House Office Building          304 Russell Senate Office
Washington, D.C. 20515                       Building
                                            Washington, D.C. 20510
 
The Honorable Jose Serrano                  The Honorable Jeanne Shaheen
2354 Rayburn House Office Building          506 Hart Senate Office
Washington, D.C. 20515                       Building
                                            Washington, D.C. 20510
 


Dear Chairman Culberson, Ranking Member Serrano, Chairman Shelby and 
Ranking Member Shaheen:

    The Coalition for Aerospace and Science (CAS) is an alliance of 
prominent industry, university, and science organizations united in our 
support for robust and sustained Federal investments in the National 
Aeronautics and Space Administration (NASA). As a group, we believe 
that increasing Federal support and maximizing the efficiency and 
effectiveness for this vital agency will help ensure our Nation's 
scientific, industrial, and academic leadership long into the future. 
As you allocate funding for fiscal year 2019, we urge you to provide 
NASA with at least $21.7 billion for fiscal year 2019, 5 percent above 
the funding level in the fiscal year 2018 Omnibus.
    Strong funding, a balanced portfolio of missions and research, and 
policies that encourage innovative collaborations are essential to our 
Nation's leadership in science, expanding the frontiers of human 
exploration, new space technology and aeronautical technology 
development. NASA's long history of transformative advances in science 
and technology have positioned the U.S. as a world leader across many 
fields, driving strong U.S. exports, supporting jobs, and drawing the 
best and brightest students to American universities. As the Nation 
addresses new problems and challenges, robust support for NASA is 
critical to fostering a 21st century economy and restoring America's 
global scientific and technological leadership.
    Every member of CAS has unique concerns and requests. However, the 
entire coalition is united in our support and advocacy for NASA's 
critical research, missions, and programs. As NASA-wide stakeholders, 
we respectfully request that within the topline request, Congress take 
note of the following specific opportunities for progress and impact:
                               technology
    CAS requests at least $796 million for the Space Technology Mission 
Directorate (STMD). Since its inception, STMD has focused on improving 
NASA's technological capabilities across a wide array of areas-from 
propulsion and power generation to materials science and high-
performance computing-that help the agency achieve mission requirements 
across all its directorates. As recently as 2016, the National 
Academies of Science, Engineering, and Medicine (NASEM) reaffirmed its 
support for this approach, asserting that a standalone technology 
development program is critical to meeting technology needs across the 
agency's mission portfolio.
    More broadly, STMD has spurred the creation of a technology 
development ecosystem that spans numerous States--including those that 
do not host NASA centers-and supports industry and academic researchers 
alike. In so doing, STMD has created products and services that 
stimulate America's economy with new businesses, industries, and high-
skilled, sustainable jobs. These activities underpin partnerships 
across government agencies with commercial space programs and 
international space entities. Ultimately, STMD enhances the United 
States' global economic competitiveness and international recognition 
as the principal driver in the field of space technology.
    The Coalition is unified in its opposition to STMD becoming 
subsumed by another directorate and strongly advocates that its 
independence and standalone activities remain within the current 
structure. STMD's culture, strategy, and technology implementation 
approach is unique within the agency and has a proven, successful track 
record. It is imperative that Congress rejects the administration's 
request to subsume STMD into another directorate.
                 human exploration and space operations
    The Coalition requests continued funding support for the Orion 
Multi-Purpose Crew Vehicle and Space Launch System (SLS) programs. For 
our Nation to continue making progress towards human exploration beyond 
Earth orbit, it is vital to ensure these programs have the resources 
needed to build upon the progress already achieved on SLS and Orion--
the foundational programs for future U.S. human exploration. 
Consequently, for fiscal year 2019, we are requesting $2.15 billion for 
SLS, including no less than $400 million for the SLS Exploration Upper 
Stage; $1.35 billion for Orion; and at least $557 million for 
Exploration Ground Systems--with the additional funds needed to 
complete the second Mobile Launch Platform and accelerate the crewed 
Orion EM-2 mission to the vicinity of the moon.
    Furthermore, NASA should utilize SLS and Orion vehicles for the 
development of cislunar space--a region with the potential to vastly 
expand economic activity in space. The United States economy can 
benefit greatly from the commercial development of cislunar space, and 
it is vitally important for reasons of national security and foreign 
policy, as well, that the United States be at the forefront in cislunar 
development.
    Regarding other parts of the Human Exploration and Operations 
Directorate, CAS recommends $1.46 billion for the ISS, including for 
commercial cargo resupply. For the Commercial Crew program, which is 
important both to restore independent U.S. access to the ISS and to 
increase the amount of science performed on it, CAS recommends $2.11 
billion. CAS commends the administration's interest in developing a 
plan to privatize the day-to-day operations for ISS and research in Low 
Earth Orbit. We believe this will help to maintain this vital 
capability for continued U.S. operations and leadership in LEO, and CAS 
also supports the $150 million requested for commercial LEO development 
to create new stakeholders to offset future operating costs. Realized 
savings should be applied to accelerate the deep space exploration 
program.
    The Coalition requests that NASA only consider bids from cargo and 
science providers from domestic launch providers. NASA should be 
utilizing and benefiting from a competitive U.S. launch landscape and 
avoid putting any taxpayer funded cargo or exploration missions on 
foreign launch vehicles.
    Finally, to support new deep space exploration capabilities, 
including NASA's Lunar Orbital Platform (LOP)--Gateway, CAS supports 
the administration's request for $889 million.
                                science
    The Coalition requests at least $6.5 billion to fund NASA's Science 
Mission Directorate (SMD) and maintain a balance across the portfolio. 
This represents a 5 percent increase over the fiscal year 2018 enacted 
level. NASA science programs help us answer profound questions about 
Earth as well as our place in the universe. New knowledge made possible 
from SMD inspires future generations to pursue careers in science, 
technology, engineering and mathematics (STEM), sustaining U.S. 
leadership in groundbreaking discoveries.
    The Coalition requests Congress continue to provide ample funding 
in order for the Planetary Science Division to adhere to the priorities 
set by the Planetary Science Decadal Survey. We applaud Congress' past 
support for exploring Europa, which the scientific community has 
determined offers one of the most promising extraterrestrial habitable 
environments in the solar system. Additionally, sufficient funding is 
necessary to ensure the Europa Clipper mission can meet target launch 
dates in the 2020s. The Coalition also supports ongoing missions on 
Mars and elsewhere--including the Mars2020 rover and preliminary sample 
return plans--as well as continued funding for future Discovery and New 
Frontiers missions in alignment with decadal priorities.
    CAS requests robust funding for the Earth Science Division (ESD) to 
ensure continued support for key missions and programs. The Coalition 
appreciates the continued support in fiscal year 2018 for OCO-3, PACE, 
NISAR, CLARREO Pathfinder, and Earth-facing instruments on DSCOVR, and 
requests that Congress continue its funding in fiscal year 2019. These 
missions will advance science frontiers and provide critical data for 
society. For example, PACE will help us monitor the duration and impact 
of harmful algae blooms and CLARREO Pathfinder will enable industry and 
military decision-makers to more accurately assess natural hazards, 
such as flooding. Increased funding for ESD in fiscal year 2019 will be 
critical to responding to recommendations of the National Academy of 
Sciences' Earth Science and Applications from Space (ESAS) Decadal 
Survey report released earlier this year. An increase in funding for 
fiscal year 2019 will be necessary to meet the report's top 
recommendations--Designated and Earth System Explorer mission classes--
whose budgetary requirements begin rapidly increasing starting in 
fiscal year 2020. Additionally, the Coalition requests that Congress 
direct NASA to competitively select these future missions to encourage 
responsible cost and schedule constraints, develop novel remote sensing 
technologies, and leverage the talents and expertise of scientists at 
universities and research institutions.
    The Coalition requests strong support for the Heliophysics 
Division. Heliophysics will lead to a greater understanding of our Sun 
and will help to mitigate the hazards that solar activity poses to the 
ground- and space-based platforms that strengthen our national 
security, economic competitiveness, and scientific prowess. Robust 
support will allow for implementation of key community priorities 
outlined in the Space Weather Action Plan.
    Additionally, increased funding for Heliophysics is needed to 
support missions under formulation and development and current 
Announcement of Opportunities (such as the Interstellar Mapping and 
Acceleration Probe, IMAP) within the Living with a Star, Solar 
Terrestrial Probes, and Explorer programs without jeopardizing the 
future of vital activities within the other elements of the HPD. These 
include new initiatives such as the Diversify, Realize, Integrate, 
Venture Educate (DRIVE), Heliophysics Science Centers and increased 
support, jointly with NOAA, for ``O2R/R2O'' and computational programs 
in space weather research. Support for these programs is consistent 
with congressional intent for each NASA Division to make progress on 
the top recommendations of the Solar and Space Physics Decadal Survey.
    Full funding for the Astrophysics Division will allow for continued 
progress on the balanced portfolio of Astronomy and Astrophysics 
Decadal Survey priorities, including the Wide Field Infrared Survey 
Telescope (WFIRST). WFIRST is the top-ranked large space mission in the 
most recent decadal survey. This next generation telescope will advance 
the search for life on planets outside our solar system, and its wide 
field instrument will provide a field of view of the sky that is 100 
times larger than what is possible with the Hubble Space Telescope. CAS 
supports efforts by NASA to actively manage the scope of the mission 
during formulation to control costs and asks Congress to allow planned 
efforts to control costs to move forward. Abandoning this top 
scientific priority, as proposed in the President's fiscal year 2019 
budget, undermines future decadal surveys and erodes U.S. ability to 
develop future flagship missions as part of a world-leading program.
                               education
    The Coalition opposes the administration's proposed elimination of 
NASA's Office of Education, and asks you to once again reject this 
proposal, as you did in fiscal year 2018. NASA plays a pivotal role in 
inspiring and encouraging young people to pursue STEM disciplines of 
study and careers; engaging the broader public in NASA's mission; and 
strengthening NASA and the Nation's workforce. The NASA Office of 
Education supports programs such as the Space Grant College and 
Fellowship Program and the Minority University Research and Education 
Project (MUREP).
    The Space Grant program funds nearly 4,000 fellowships and 
scholarships for students in all 50 States and the District of Columbia 
who are pursuing a STEM career, allowing them to participate in NASA 
aeronautics and space projects integrating classroom learning with on-
the-job training much like apprenticeships. Through MUREP, NASA 
provides competitively bid awards to minority-serving institutions to 
recruit and retain underrepresented and underserved students into STEM 
fields, preparing these students with marketable skills and practical 
work experience. Continued support for the Office of Education is vital 
to ensure the United States continues to train and inspire our next 
generation of scientists, engineers, and technicians in order to remain 
globally competitive.
                              aeronautics
    Beyond our requests for space programs, the Coalition also 
recommends at least $790 million for the Aeronautics Research Mission 
Directorate (ARMD), which will allow for an increase in funding for 
subsonic, supersonic and hypersonic flight technologies and flight 
demonstrators. This directorate conducts and funds research that is 
vital to the continued leadership of our Nation's aviation sector. 
Research from this directorate develops technologies that transform the 
way we fly by lowering operating costs while increasing efficiency and 
reducing aviation's environmental impact. Aviation contributes more 
than one trillion dollars annually to the U.S. economy, and it is vital 
we fund this research to continually improve the efficiency, safety and 
adaptability of our air transportation system. NASA's Aeronautics 
enterprise is also doing essential research to enable harnessing the 
potential of Unmanned Aircraft Systems by safely integrating their 
operations into the national airspace while assuring U.S. hypersonics 
research remain first rate.
    Thank you for your consideration of our funding requests. We hope 
you will consider CAS as a resource as you work to craft fiscal year 
2019 appropriations.

                                                  NASA FUNDING
                                              [Numbers in millions]
----------------------------------------------------------------------------------------------------------------
                                                                              Fiscal Year 2019
                Account                  Fiscal Year 2017   Fiscal Year 2018     President's    Fiscal Year 2019
                                              Omnibus           Omnibus        Budget Request      CAS Request
----------------------------------------------------------------------------------------------------------------
Science................................           5,764.9           6,221.50           5,895.0           6,500.0
Space Technology.......................             686.5             760       Moved to ERT               796.0
Aeronautics............................             660.0             685                633.9             790.0
Orion Multi-purpose Crew Vehicle.......           1,350.0           1,350              1,163.5           1,350.0
SLS....................................           2,150.0           2,150              2,078.1           2,150.0
SLS Exploration Upper Stage............             300               300                N/A               400.0
Exploration Ground Systems.............             429.0             895                428.2             557.0
ISS....................................           1,450.9             N/A              1,462.2           1,460.0
Commercial Crew Program................           1,184.8             N/A                731.9           2,110.0
Advanced Exploration Systems...........               0               N/A                889.0             889.0
NASA Overall...........................          19,653.3          20,736.14          19,892.2          21,700.0
----------------------------------------------------------------------------------------------------------------

                          Member Organizations

Aerospace Industries Association
American Astronautical Society
American Astronomical Society
American Geophysical Union
American Society of Agronomy
Association of American Universities
Association of Public and Land-grant Universities
Ball Aerospace
Boston University
Consortium for Ocean Leadership
Crop Science Society of America
Geological Society of America
Georgia Institute of Technology
Human Factors and Ergonomics Society
Lockheed Martin Corporation
New Mexico State University
Northrop Grumman Corporation
Princeton University
Purdue University
Raytheon Company
Soil Science Society of America
SPIE--the international society for optics and photonics
The Planetary Society
United Launch Alliance
University Corporation for Atmospheric Research
University of Arizona
University of Colorado--Boulder
University of California--San Diego
University of Florida
University of Iowa
University of Maryland--Baltimore County
University of Maryland--College Park
University of Michigan
University of New Hampshire
University of Texas at Austin
University of Washington
University of Wisconsin--Madison
Washington State University
Woods Hole Oceanographic Institution
      
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission
    The Columbia River Inter-Tribal Fish Commission (CRITFC) is pleased 
to share our views on the Department of Commerce's fiscal year 2019 
budget and has identified the following funding needs:

    $56.6 million for Salmon Management Activities of which:

  --$26.6 million for Columbia River Mitchell Act programs to implement 
        reforms of which $6.7 million (or 25 percent of the enacted 
        amount) is directed to the Tribes to enhance supplementation 
        (natural stock recovery) programs;
  --$30.0 million for the Pacific Salmon Treaty, of which $28.2 million 
        is for the implementation of the 2019-2028 Agreement, and 
        previous base programs; and $1.8 million is for the Chinook 
        Salmon Agreement Implementation;

    $65 million for the Pacific Coastal Salmon Recovery Fund to support 
on-the-ground salmon restoration activities.

    BACKGROUND: The Columbia River Inter-Tribal Fish Commission 
(CRITFC) was founded in 1977 by the four Columbia River treaty Tribes: 
Confederated Tribes of the Umatilla Indian Reservation, Confederated 
Tribes of the Warm Springs Reservation of Oregon, Confederated Tribes 
and Bands of the Yakama Nation, and Nez Perce Tribe. CRITFC provides 
coordination and technical assistance to the Tribes in regional, 
national and international efforts to protect and restore the fisheries 
and fish habitat.
    In 1855, the United States entered into treaties with the four 
Tribes.\1\ The Tribes' ceded millions of acres of our homelands to the 
U.S. and the U.S. pledged to honor our ancestral rights, including the 
right to fish at all usual and accustomed places. Unfortunately, a long 
history of hydroelectric development, habitat destruction and over-
fishing by non-Indians brought the salmon resource to the edge of 
extinction with 12 salmon and steelhead trout populations in the 
Columbia River basin listed under the Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 6, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 9.
---------------------------------------------------------------------------
    Today, the treaties form the bedrock of fisheries management. The 
CRITFC Tribes are among the most successful fishery managers in the 
country leading restoration efforts and working with State, Federal and 
private entities. CRITFC's comprehensive plan, Wy-Kan-Ush-Mi Wa-Kish-
Wit, outlines principles and objectives designed to halt the decline of 
salmon, lamprey and sturgeon populations and rebuild the fisheries to 
levels that support Tribal ceremonial, subsistence and commercial 
harvests. To achieve these objectives, the plan emphasizes strategies 
that rely on natural production, healthy rivers and collaborative 
efforts.
    Several key regional agreements were completed in 2008. The 
Columbia Basin Fish Accords set out parameters for management of the 
Federal Columbia River Power System for fish passage. New agreements in 
U.S. v. Oregon and the Pacific Salmon Commission established fishery 
management criteria for fisheries ranging from the Columbia River to 
Southeast Alaska. The U.S. v. Oregon agreement also contains provisions 
for hatchery management in the Columbia River Basin. The terms of all 
three agreements run through 2018. We have successfully secured other 
funds to support our efforts to implement these agreements, including 
funds from the Bonneville Power Administration (BPA), the Department of 
Interior, and the Southern Fund of the Pacific Salmon Treaty, to name 
just few. Continued Federal funding support is needed to accomplish the 
management objectives embodied in the agreements.
    Columbia River (Mitchell Act) Hatchery Program: Restoring Pacific 
salmon and providing for sustainable fisheries requires using the 
Columbia River Mitchell Act hatchery program to supplement naturally 
spawning stocks and populations. To accomplish this goal, $26.6 million 
is requested for the Tribal and State co-managers to jointly reform the 
Mitchell Act hatchery program. Of this amount, $6.7 million, or 25 
percent of enacted funding, will be made available to the Columbia 
River Treaty Tribes for supplementation (natural stock recovery) 
programs. The Mitchell Act program provides regional economic benefits. 
NOAA Fisheries estimates that the program generates about $38 million 
in income and supports 870 jobs.
    Since 1982, CRITFC has called for hatchery reform to meet recovery 
needs and meet mitigation obligations. In 1991, this subcommittee 
directed that ``Mitchell Act hatcheries be operated in a manner so as 
to implement a program to release fish in the upper Columbia River 
basin above the Bonneville Dam to assist in the rebuilding of upriver 
naturally-spawning salmon runs.'' Since 1991, we have made progress in 
increasing the upstream releases of salmon including Mitchell Act fish 
that have assisted the rebuilding and restoration of naturally-spawning 
upriver runs of chinook and coho. These efforts need to continue.
    We now face the challenges of managing for salmon populations 
listed for protection under the ESA, while also meeting mitigation 
obligations. The Final Environmental Impact Statement (FEIS) for 
operation of Columbia River basin hatcheries released by NOAA in 2016 
illustrates the conundrum we face. While the FEIS, which assumes level 
funding for Mitchell Act hatcheries, it also points out the need for 
hatchery reform. The implementation scenario for the preferred 
alternative calls for substantial reductions in hatchery releases of 
fall chinook. Under the preferred alternative the future is increased 
regulation under the ESA, resulting in more constrained fisheries along 
the west coast. The funding for the Mitchell Act program should be 
increased along with natural stock recovery program reform 
(supplementation) so that we can make progress towards ESA delisting. 
This would transition the Mitchell Act program to a much more effective 
mitigation program.
    We support hatchery reform to aid in salmon recovery while meeting 
mitigation obligations. The CRITFC Tribes are leaders in designing and 
managing hatchery facilities to aid in salmon restoration and believe 
similar practices need to be implemented throughout the basin to reform 
current hatchery production efforts. Years of inadequate funding have 
taken a toll resulting in deteriorating facilities that do not serve 
our objectives.
    Evidence to Support Tribal Salmon Restoration Programs under the 
Mitchell Act: The Tribes' approach to salmon recovery is to put fish 
back in to the rivers and protect the watersheds where fish live. 
Scientific documentation of Tribal supplementation success is available 
upon request. The evidence is seen by the increasing returns of salmon 
in the Columbia River Basin. Wild spring chinook salmon are returning 
in large numbers to the Umatilla, Yakima and Klickitat tributaries. 
Coho in the Clearwater River are now abundant after Snake River coho 
was once declared extinct. Fish are returning to the Columbia River 
Basin and it is built on more than 30 years of Tribal projects.
    Once considered for listing under the ESA, only 20,000 fall chinook 
returned to the Hanford Reach on the Columbia River in the early 
1980's. This salmon run has been rebuilt through the implementation of 
the Vernita Bar agreement of the mid-1980s combined with a hatchery 
program that incorporated biologically appropriate salmon that spawn 
naturally upon their return to the spawning beds. Today, the Hanford 
Reach fall chinook run is one of the healthiest runs in the basin 
supporting fisheries in Alaska, Canada, and the mainstem Columbia 
River. In 2013, close to 700,000 Fall Chinook destined for the Hanford 
Reach entered the Columbia River, which was a record since the 
construction of Bonneville Dam.
    In the Snake River Basin, fall chinook has been brought back from 
the brink of extinction. Listed as threatened under the ESA, the 
estimated return of naturally-spawning Snake River fall chinook 
averaged 328 adults from 1986-1992. In 1994, fewer than 2,000 Snake 
River fall chinook returned to the Columbia River Basin. Thanks to the 
Nez Perce Tribe's modern supplementation program fall chinook are 
rebounding and the Snake River fall chinook is well on their way to 
recovery and ESA delisting. In 2013 about 56,000 fall chinook made it 
past Lower Granite Dam. Of those, approximately 21,000 were wild, twice 
the previous record for wild returns since the dam was constructed in 
1975.
    A Request for Review of Salmon Mass-Marking Programs: CRITFC 
endeavors to secure a unified hatchery strategy among Tribal, Federal 
and State co-managers. To that end, we seek to build hatchery programs 
using the best available science and supported by adequate, efficient 
budgets. A congressional requirement, delivered through prior 
appropriations language, to visibly mark all salmon produced in 
federally funded hatcheries should be reconsidered. We have requested 
that Federal mass-marking requirements, and correlated funding, be 
reviewed for compatibility with our overall objective of ESA delisting 
and with prevailing laws and agreements: U.S. v Oregon, Pacific Salmon 
Treaty and the Columbia Basin Fish Accords.\2\
---------------------------------------------------------------------------
    \2\ Letter from Bruce Jim, Chairman, Columbia River Inter-Tribal 
Fish Commission to U.S. House of Representatives Chairmen Frank Wolf, 
Mike Simpson and Doc Hastings, July 11, 2011.
---------------------------------------------------------------------------
    Salmon managers should be provided the latitude to make case-by-
case decisions whether to mark fish and, if so, in the appropriate 
percentages.
    Pacific Salmon Treaty Program: CRITFC supports the U.S. Section 
recommendation of $30.0 million for Pacific Salmon Treaty 
implementation. Of this amount, $20.5 million is for the Pacific Salmon 
Treaty base program with Alaska, Oregon, Idaho, Washington, and NOAA to 
share as described in the U.S. Section of the Pacific Salmon 
Commission's Budget Justification. In addition, we support $1.8 million 
as first provided in 1997 to carry out necessary research and 
management activities to implement the abundance based management 
approach of the Chinook Chapter to the Treaty. Costs of the programs 
conducted by State agencies to fulfill national commitments created by 
the treaty are substantially greater than the funding provided in the 
NOAA budget. State agencies supplement the Federal appropriation from 
other sources including: State and Federal grants, and the Pacific 
Coastal Salmon Recovery Fund, to the extent those sources are 
available.
    Pacific Coastal Salmon Recovery Program (PCSRF): The PCSRF program 
was developed in 2000 by the State of Alaska, the Pacific Northwest 
States, and the treaty Tribes since the renewal of the Pacific Salmon 
Treaty in 1995 to fulfill the unmet needs for the conservation and 
restoration of salmon stocks shared in the Tribal, State, and 
international fisheries. Since that time, the number of entities 
eligible for receiving funding has grown.
    The PCSRF has funded 354 Yakama, Umatilla, Warm Springs, Nez Perce, 
and CRITFC Tribal salmon recovery projects. These projects have 
contributed greatly to the sustainability of Columbia Basin salmon 
species and their habitat. Accomplishments include 1,638 stream miles 
being protected; 408 miles of stream made accessible to salmon; 4,885 
acres of riparian area treated; 11,169 acres conserved by acquisition 
or lease; and 1.2 million salmon fry/smolts released annually. The 
PCSRF is vital to fulfill the region's goal of full salmon recovery and 
sustainability of the fishery.
    The co-managers have developed an extensive matrix of performance 
standards to address accountability and performance standards, which 
includes the use of monitoring protocols to systematically track 
current and future projects basin-wide. The PCSRF projects implemented 
are based on the best science, adequately monitored and address the 
limiting factors affecting salmon restoration. Projects undertaken by 
the Tribes are consistent with CRITFC's salmon restoration plan and the 
programmatic areas identified by Congress.
    We recommend maintaining the current funding level at $65 million 
for the PCSRF fiscal year 2019 allocation. Long-term economic benefits 
can be achieved by making PCSRF investments on-the- ground to rebuild 
sustainable, harvestable salmon populations into the future.
    In summary, the CRITFC and our four member Tribes have developed 
the capacity and infrastructure to become the regional leaders in 
restoring and rebuilding salmon populations of the Columbia Basin. Our 
collective efforts protect our treaty reserved fishing rights and 
provides healthy, harvestable salmon populations for all citizens to 
enjoy. This is a time when increased effort and participation are 
demanded of all of us and we ask for your continued support of a 
coordinated, comprehensive effort to restore the shared salmon resource 
of the Columbia and Snake River Basins. We will be pleased to provide 
any additional information that this subcommittee may require.
    Contact: Charles Hudson, Director of Government Affairs, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="caa2bfaea98aa9b8a3beaca9e4a5b8ade4">[email&#160;protected]</a>

    [This statement was submitted by the Hon. Casey Mitchell, 
Chairman.]
                                 ______
                                 
  Prepared Statement of the Consortium of Social Science Associations
    On behalf of the Consortium of Social Science Associations (COSSA), 
I offer this written testimony for inclusion in the official committee 
record. For fiscal year 2019, COSSA urges the Committee to appropriate 
$8.45 billion for the National Science Foundation (NSF), $4.735 billion 
for the Census Bureau, $42 million for the National Institute of 
Justice (NIJ), and $48 million for the Bureau of Justice Statistics 
(BJS).
    First, I wish to thank the subcommittee for its longstanding 
support for Federal science agencies. Despite tough, ongoing fiscal 
challenges, the subcommittee has continued to maintain funding for 
basic research as a top priority. Thank you.
    COSSA serves as a united voice for a broad, diverse network of 
organizations, institutions, communities, and stakeholders who care 
about a successful and vibrant social science research enterprise. We 
represent the collective interests of all STEM disciplines engaged in 
the rigorous study of why and how humans behave as they do as 
individuals, groups and within institutions, organizations, and 
society. Social and behavioral science often refers to the disciplines 
of and fields within anthropology, communication, demography, 
economics, geography, history, law, linguistics, political science, 
psychology, sociology, and statistics, as well as countless 
multidisciplinary subfields.
    Social and behavioral science research is supported across the 
Federal Government, including at the National Science Foundation and 
the Department of Justice. Further, Federal statistics collected by the 
Census Bureau and other Federal statistical agencies provide important 
data needed to conduct social science research that informs policy 
decisions. Taken together, Federal social and behavioral science and 
statistical data help to provide us with answers to complex, human-
centered questions such as:

  --How to convince a community in a path of a tornado to heed 
        warnings;
  --Ways to slow and hopefully eradicate the opioid epidemic; and
  --How to support counter-terrorism efforts and prevent conflict.

    In addition, new findings across the social sciences continue to 
increase the efficiency of our industries, improve the quality of K-12 
education, help us understand crime patterns and evaluate prevention 
strategies, help manage our natural resources, keep our troops safe, 
help us to be informed as consumers, and allow paralyzed individuals to 
communicate. Among the countless innovations enabled by Federal support 
for basic social science research are telecommunications spectrum 
auctions, life-saving kidney exchanges, and warning systems to protect 
lives and property from extreme weather events, to name a few.
    In short, knowledge derived from social and behavioral science 
research has made our population healthier, our democracy fairer, our 
Nation safer, and our economy stronger. Without these sciences, policy-
making on major national issues would not be based on evidence, and 
billions of dollars would be wasted.
                      national science foundation
    COSSA joins the broader scientific community and the 161 Members of 
the House of Representatives who signed the March 16, 2018 bipartisan 
letter in support of $8.45 billion for the National Science Foundation 
(NSF) in fiscal year 2019. This amount would put NSF back on a growth 
trajectory and would allow the agency to recover some of the purchasing 
power lost in recent years due to sequestration and caps on 
discretionary spending.
    Recognizing the centrality of scientific research to America's 
broader economic, social, and security interests, more than 500 
organizations representing top U.S. industries (including Boeing, John 
Deere, Microsoft, National Association of Manufacturers, and Northrop 
Grumman), higher education, and scientific and engineering societies 
endorsed the statement, Innovation: An American Imperative in 2015. The 
statement calls for at least 4 percent annual growth for Federal basic 
science research agencies, such as NSF. The $8.45 billion request for 
NSF would put the agency on track for this necessary increase. The U.S. 
scientific enterprise requires stability, predictability, and 
sustainable funding growth, and Federal policies that are patient and 
can tolerate a reasonable amount of risk to achieve the greatest 
payoff.
    NSF funds basic scientific discovery, workforce training, and 
state-of-the-art facilities that keep the U.S. ahead of our global 
scientific competitors. It is the only U.S. Federal agency tasked with 
supporting scientific research across all fields of science. NSF 
supports about a quarter of all federally-funded basic scientific 
research conducted at colleges and universities nationwide and serves 
as the largest single funder of university-based basic social and 
behavioral science research. Though the Social, Behavioral, and 
Economic Sciences Directorate (SBE)--one of seven research directorates 
at NSF--represents less than 5 percent of the entire NSF research 
budget, it supports around two-thirds of total Federal funding for 
academic basic research in the social and behavioral sciences 
(excluding psychology). Unfortunately, the President's budget request 
proposes a disproportionate cut to the SBE Directorate, redirecting 
funds to other sciences. We strongly urge the committee to reject such 
as move, which would put in place an arbitrary process for allocating 
NSF resources.
    Instead, experts at NSF, the outcomes of the merit-review process, 
and the vast network of scholars around the country who provide 
technical and content expertise to the NSF leadership should be trusted 
to advise the agency on the most promising science worthy of support. 
NSF, through its gold-standard merit review process, allows the demands 
of scientific discovery to dictate how best to spend basic research 
dollars, leaving politics and individual ideologies at the door. It is 
important that Congress maintain NSF's authority over the distribution 
of its precious research dollars and not set arbitrary funding levels 
for NSF's individual directorates, keeping with current practice. The 
House CJS Appropriations Bill should maintain current practice of 
appropriating funds to the Research & Related Activities account, 
leaving NSF with the flexibility to fund the most promising science 
across all fields.
               census bureau, u.s. department of commerce
    COSSA urges the Committee to appropriate $4.735 billion for the 
U.S. Census Bureau in fiscal year 2019 to keep the agency on track to 
execute an innovative and cost-effective 2020 Decennial Census and 
maintain support for its other crucial economic and demographic 
surveys. With the 2020 Census less than 2 years away, the Census Bureau 
is entering its peak phase of decennial operations. The Bureau is 
putting years of research, testing, evaluation, and development into 
practice in service of the Nation's largest peacetime mobilization. In 
fiscal year 2019, the Bureau will finalize its operational plan for 
2020, building on the lessons learned during the 2018 End-to-End Census 
Test, the ``dress rehearsal'' for the real count. The Bureau will begin 
hiring tens of thousands of census workers, launch the first phase of 
its public information campaign to educate communities about the 
Census, mobilize thousands of partner organizations to enhance its 
reach in hard-to-count communities, and finalize IT systems to ensure 
the security of Americans' personal information.
    With time before Census Day running out, robust and stable funding 
is essential in order for the Bureau to complete the necessary 
preparations and ensure a fair and accurate Census. The Census Bureau 
is obligated by the U.S. Constitution to count every person in the 
country, regardless of expense. Interfering with the careful 
preparations undertaken by the Census Bureau--by inadequately funding 
operations during the lead-up years or by adding last-minute untested 
questions to the form--will only add to costs down the road.
    In addition, COSSA calls on Congress to fully fund the American 
Community Survey (ACS) and maintain its status as a mandatory Federal 
survey. The ACS is the only source of comparable, consistent, timely, 
and high quality demographic and socio-economic data for all 
communities in the U.S. As a component of the Constitutionally-mandated 
Decennial Census, the ACS is a ``mandatory'' national survey. The 
accuracy of the data collected by the ACS relies on this mandatory 
status. Targeted cuts and changes to make the survey voluntary would 
significantly undermine the ability to collect usable data on all U.S. 
counties, particularly in less populous, rural areas of the country.
 national institute of justice and bureau of justice statistics, u.s. 
                         department of justice
    COSSA urges the Committee to appropriate $42 million for the 
National Institute of Justice (NIJ) and $48 million for the Bureau of 
Justice Statistics (BJS) within the U.S. Department of Justice (DOJ). 
NIJ serves as the research arm of the Department of Justice, filling an 
important role in helping the agency to understand and implement 
science-based strategies for crime prevention and control. It supports 
rigorous social science research that can be disseminated to criminal 
justice professionals to keep communities safe and prevent and reduce 
crime.
    The Bureau of Justice Statistics (BJS) is one of 13 principal 
Federal statistical agencies. BJS produces data that provides 
statistical evidence needed by researchers and criminal justice policy 
decision makers. Taken together with NIJ, these modest annual 
investments represent the only dedicated sources of Federal research 
support committed to enhancing our understanding of crime and the 
criminal justice system, including around topics like victimization, 
law enforcement, recidivism and reentry, drugs and crime, and Tribal 
justice.
    Numerous pressing criminal justice and law enforcement issues are 
at the fore of public consciousness today, including understanding the 
mental health needs of people who become involved in the justice 
system, the drivers of domestic radicalization, effective solutions to 
opioid addiction, and ways to improve police officer safety and 
community relations. By working with jurisdictions at all levels to 
compile data and support research, DOJ--through NIJ and BJS 
investments--provides key insights that improve public safety. Making 
the results of this research available to State and local officials and 
the public allows justice and law enforcement professionals to learn 
what works, adopt best practices, and improve public safety by 
leveraging the best research and data to protect the public, reduce 
recidivism, and support law enforcement and communities. While 
objective research is needed now more than ever, Federal funding in 
support of such research has been largely stagnant. Congress must 
prioritize Federal data collection and research if we are to provide 
local, State, and Federal officials with the information they need to 
develop strategies to improve public safety in our communities.
    Thank you for the opportunity to present this testimony on behalf 
of the social and behavioral science research community. Please do not 
hesitate to contact me should you require additional information.

               Consortium of Social Science Associations

American Anthropological Association
American Association For Public Opinion Research
American Economic Association
American Educational Research Association
American Political Science Association
American Psychological Association
American Society Of Criminology
American Sociological Association
American Statistical Association
Association Of American Law Schools
Law And Society Association
Linguistic Society Of America
Midwest Political Science Association
National Communication Association
Population Association Of America
Society For Personality And Social Psychology
Society For Research In Child Development

    [This statement was submitted by Wendy A. Naus, Executive 
Director.]
                                 ______
                                 
      Prepared Statement of the Council on Undergraduate Research
    The Council on Undergraduate Research (CUR) urges the subcommittee 
to prioritize investments at the National Science Foundation (NSF), the 
National Aeronautics and Space Administration (NASA), the National 
Oceanic and Atmospheric Administration (NOAA) and programs therein that 
support high-quality undergraduate student-faculty collaborative 
research and scholarship as they consider the Fiscal Year 2019 
Commerce, Justice, Science (CJS) Appropriations bill.
What is CUR?
    CUR is a dynamic and vibrant non-profit organization of more than 
13,000 members, representing close to 1000 institutions. CUR identifies 
undergraduate research as an inquiry or investigation conducted by an 
undergraduate student that makes an original intellectual or creative 
contribution to the discipline, in close collaboration with faculty 
members and other professional mentors. Undergraduate research moves 
students from passive participants in lecture-based classroom 
experiences, to independent researchers, with strong critical thinking, 
communication, organizational, and team work skills. Simply put, 
undergraduate researchers gain the real-life experience that employers 
and the research enterprise need and say they can't find in today's 
novice employee or researcher.
Why Undergraduate Research?
    Nearly 2 million students graduate from four-year colleges each 
year, suggesting a steady supply of skilled labor to the workforce. Yet 
employers continue to bemoan the dearth of new employees with the 
appropriate skills to succeed and advance in the workplace. Hart 
Research Associates report that over 80 percent of employers expect 
students to have strong skills in communication, problem solving, and 
critical thinking; and over 90 percent of employers think these skills 
are more valued by employers than a student's specific major. 
Unfortunately, 58 percent of employers do not think recent graduates 
demonstrate these skills effectively for entry level positions and 64 
percent feel recent graduates are not prepared for advancement in a 
company. Baccalaureate students who have engaged in undergraduate 
research and creative experiences bring these ``skills in demand'' with 
them to their first job and are better prepared to apply them 
successfully.
    In addition to these critical workforce skills, there is a growing 
demand in the workforce for skilled labor in science and technology. At 
the same time, there has been a trend toward declining numbers of 
degrees in science disciplines. Only 40 percent of students who enter 
college intent on majoring in Science, Technology, Engineering, and 
Mathematics (STEM) disciplines graduate with STEM degrees and only 20 
percent of underrepresented minority students follow through in STEM. 
Economic projections show the number of STEM degrees graduated annually 
will not meet our Nation's demand for more skilled workers in the 
myriad of health-related fields such as practitioners, technicians and 
manufacturers. As a result, the United States is quickly falling behind 
on filling the science and technology positions necessary to maintain 
the mantle of the world's economic leader. The President's Council of 
Advisors on Science and Technology concluded that we must increase the 
number of STEM degrees awarded annually by 34 percent to remain 
competitive. As a means of encouraging and supporting students in STEM 
disciplines, undergraduate research is a particularly robust tool and 
student participation in research has been shown to increase retention, 
persistence, and graduation rates in these areas.
    Universities carry the responsibility to produce students ready to 
meet the demands of the workforce with the necessary broad skills as 
well as the appropriate degrees. Research is the ultimate form of 
active learning. Students learn to conceptualize the problem, generate 
potential solutions, test them, and revise the question. Skills 
developed include perseverance, communication within groups, and 
ability to collaborate with others in ways that will help them work 
confidently with peers and supervisors in the workforce.
    This is particularly important for achieving the goal of increasing 
participation by currently underrepresented populations in STEM fields. 
These students tend to engage in structured research opportunities in 
higher percentages than do white, non-Latino students. The structured 
programs develop communities that benefit Black, Latino, and Native 
American students and encourage them in future academic and research 
pursuits. Assessment of undergraduate research repeatedly points to its 
positive educational outcomes both in the short term (early-career) and 
longitudinally (mid- and late-career). As a result, 87 percent of 
employers stated they were more likely to hire graduates who completed 
research-based projects. This is because the mentored research process 
actively engages students, more effectively developing critical 
thinking, improving motivation and persistence, and building 
confidence. Students self-report that they feel ``better able to think 
independently and formulate their own ideas''. Research experiences 
help students clarify their career goals, and they are more likely to 
apply to graduate school. Finally, getting students involved in 
research early in their college career helps to keep them in college 
and persist in STEM majors.
    A strong economy and a vibrant society thrive on an engaged and 
well-trained workforce. The evidence that undergraduate research 
supports these goals is clear. Thus, to accomplish the goal of 
increasing undergraduate research opportunities it is essential to 
support the Federal research agencies that invest in these high-impact 
practices. This support may take many forms, but ensuring that Federal 
research agencies have adequate funds to support faculty researchers 
who are eager to use undergraduate researchers as part of their work is 
crucial. Interested and committed faculty supported by substantive 
financial investment can help develop the next generation of creative 
and critical thinkers. Fostering these resilient and dedicated 
individuals is critical to maintaining our country's leadership role in 
finding and implementing innovative solutions to current and future 
problems. Augmenting Federal funding streams for these high-impact 
practices will result in a demonstrated return on the investment of 
public money as the government seeks to strengthen the economy and 
American society.
    CUR members represent a diverse cross-section of the country. They 
hail from community colleges to baccalaureate-granting institutions, 
large public institutions and small private colleges, military and 
religious institutions, rural and urban settings, and from all 50 
States. Additionally, CUR is a founding partner, along with NSF, in the 
Community College Undergraduate Research Initiative (CCURI), and 
continues to work with 38 institutional partners to support the 
practice of undergraduate research at the community college level.
What are CUR's Funding Priorities?
    Undergraduate research is supported by many programs at multiple 
Federal agencies. In some instances, the program is dedicated to the 
practice, such as the NSF's Research Experiences for Undergraduates. In 
other instances, undergraduate research is supported in a proposal 
submitted by a prospective principal investigator (PI), or a PI chooses 
to use undergraduate researchers once they have won an award. As a 
result, CUR and its members are interested in numerous research 
opportunities available to them and their institutions.
    With regard to funding, please robustly support programs such as 
the NSF's Research Experiences for Undergraduates and the Improving 
Undergraduate STEM Education program, NOAA's Sea grant and other 
programs and agencies that support undergraduate research. CUR and its 
members are concerned that cuts or flat funding to research agencies--
at a time when other countries are making significant investments in 
basic research--could lead to the erosion of America's preeminence in 
innovation and scientific research. We know that the subcommittee is 
keenly interested in maintaining our nation's edge in producing the 
best science and scientists, and we urge you to continue to seek 
opportunities to maximize funding.
Thank You
    We thank you for your leadership on these issues and look forward 
to working with you further as the fiscal year 2019 Commerce, Justice, 
Science Appropriations bill advances. If you or your staff have any 
questions about this testimony, the citations therein, CUR, 
undergraduate research or Federal policies that affect the practice. 
Contact me at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="35505458575a46755640471b5a47521b">[email&#160;protected]</a> Thank you for your attention to these 
views.

_______________________________________________________________________

The mission of the Council on Undergraduate Research is to support and 
promote high-quality undergraduate student-faculty collaborative 
research and scholarship. The Council on Undergraduate Research (CUR) 
and its affiliated colleges, universities, and individuals share a 
focus on providing undergraduate research opportunities for faculty and 
students at all institutions serving undergraduate students. CUR 
believes that faculty members enhance their teaching and contribution 
to society by remaining active in research and by involving 
undergraduates in research, and students succeed in their studies and 
professional advancement through participation in undergraduate 
research. CUR's leadership works with agencies and foundations to 
enhance research opportunities for faculty and students. CUR provides 
support for faculty, administrator, and student development. Our 
publications and outreach activities are designed to share successful 
models and strategies for establishing and institutionalizing 
undergraduate research programs. We assist administrators and faculty 
members in improving and assessing the research environment at their 
institutions. CUR also provides information on the importance of 
undergraduate research to State legislatures, private foundations, 
government agencies, and the U.S. Congress. CUR welcomes as members 
faculty, staff, and students from all types of academic institutions.

    [This statement was submitted by Elizabeth L. Ambos, Executive 
Officer.]
                                 ______
                                 
            Prepared Statement of the Daughters of Penelope
    Chairman Moran, Ranking Member Shaheen, and distinguished members 
of the Commerce, Justice, and Science Appropriations Subcommittee, the 
Daughters of Penelope (DOP), an international service organization for 
women of Greek heritage and Philhellenes, which is dedicated in part to 
supporting victims of domestic violence, is requesting support for 
Victims of Crime Act (VOCA) and Violence Against Women Act (VAWA) 
programs at the Department of Justice. Specifically, we request a Crime 
Victims Fund cap for fiscal year 2019 to be set at least at the fiscal 
year 2018 level of $4.4 billion and without any transfers to programs 
not authorized under the VOCA statute; and we support a strong 
investment of $571 million for VAWA programs.
                   voca programs & crime victims fund
    The Victims of Crime Act (VOCA) created the Crime Victims Fund, 
which serves as a mechanism to fund compensation and services for the 
Nation's victims of Federal crime. The Fund is comprised of money from 
criminals, and by law, the Fund is dedicated solely to victim services. 
For example, the Fund is used to help pay for State victim compensation 
and assistance programs, grants to victim service providers, and other 
victim related programs. A considerable amount of this money supports 
victims' out-of-pocket expenses such as medical and counseling fees; 
lost wages and funeral and burial costs. According to the Department of 
Justice, in fiscal year 2017, State VOCA victim assistance grants 
supported an estimated 14,000 victims' services projects administered 
by 7,800 public and community-based agencies in the United States. 
These agencies provided services to nearly millions of victims of 
crime, including victims of murder, assault and sexual assault, 
domestic violence, stalking and elder abuse, among many others.
    The Crime Victims Fund is financed by fines, forfeitures, or other 
penalties paid by Federal crime offenders. Therefore, the Crime Victims 
Fund is not funded by taxpayer dollars. However, it is unfortunate 
Congress often carves out funds from the Crime Victims Fund to use as 
offsets for other government programs. Because the Crime Victims Fund 
is comprised of non-taxpayer dollars, it should not be considered 
available for use for non-VOCA programs in the Federal budget. 
Moreover, according to the co-chairmen of the Congressional Victims' 
Rights Caucus, U.S. Reps. Ted Poe (R-TX) and Jim Costa (D-CA), ``not 
only does raiding the Crime Victims Fund violate the intent of the law, 
but it violates the [VOCA] statute itself . . .'' Therefore, we 
recommend to the subcommittee that the Crime Victims Fund be used only 
for programs authorized under the VOCA statute. However, recent major 
appropriations bills passed by Congress, and previous administrations' 
budget requests, have carved out funds from the Crime Victims Fund for 
non-VOCA authorized programs. As examples, the fiscal year 2018 omnibus 
appropriations bill transferred $492 million from the Crime Victims' 
Fund to VAWA programs and the administration's fiscal year 2019 budget 
proposes a $485.5 million transfer from the Crime Victims' Fund to VAWA 
programs. We request the elimination of transfers that harm the Fund's 
long-term viability and ability to commit fully to crime victims. 
Another unfortunate ramification of allowing transfers from the Fund is 
that it causes politicization of the Fund. This is why we support H.R. 
5363, Crime Victims Fund Preservation Act of 2018. The bipartisan-
backed bill creates a ``lockbox'' to ensure that money in the Fund 
cannot be used for anything other than victims' programs authorized 
under the VOCA statute. Also, the bill permanently excludes the Crime 
Victims Fund from any future government sequestration.
    Finally, we recommend setting the Crime Victims Fund cap to at 
least the fiscal year 2018 enacted level of $4.4 billion. Congress 
established an appropriation cap on funds available for distribution 
intended to maintain the Crime Victims Fund as a stable source of 
support for future victim services. At the cap level, Congress will not 
only ensure the continuation of enhanced services to victims to meet 
their needs, but it also does not contribute to, or add to, the 
national debt or deficit because these are non-taxpayer funds.
                             vawa programs
    Domestic violence is a pervasive, life-threatening crime affecting 
millions of individuals across our Nation regardless of age, gender, 
socio-economic status, race or religion. The statistics are alarming. 
According to the Centers for Disease Control and Prevention (CDC) and 
The National Intimate Partner and Sexual Violence Survey (NISVS), 2010-
2012 State Report:

  --In the United States, Intimate partner contact sexual violence, 
        physical violence, and/or stalking was experienced by 37.3 
        percent of U.S. women during their lifetime.\1\
---------------------------------------------------------------------------
    \1\ https://www.cdc.gov/violenceprevention/pdf/NISVS-
StateReportBook.pdf
---------------------------------------------------------------------------
  --One in 4 women and 1 in 9 men have experienced severe physical 
        violence by an intimate partner during their lifetime.\2\
---------------------------------------------------------------------------
    \2\ https://www.cdc.gov/violenceprevention/pdf/NISVS-infographic-
2016.pdf
---------------------------------------------------------------------------
  --In 2015, 1270 women and men were murdered by an intimate partner 
        (e.g. husband, wife, boyfriend, girlfriend).\3\
---------------------------------------------------------------------------
    \3\ https://www.cdc.gov/violenceprevention/pdf/NISVS-
StateReportBook.pdf

---------------------------------------------------------------------------
    Also, of concern, are the following stats:

  --Nationwide, an average of 3 women are killed by a current or former 
        intimate partner every day.\4\
---------------------------------------------------------------------------
    \4\ NNEDV Domestic Violence Fact Sheet, accessed https://nnedv.org/
mdocs-posts/domestic-
violence-and-sexual-assault-factsheet/
---------------------------------------------------------------------------
  --Approximately 15.5 million children are exposed to domestic 
        violence annually.\5\
---------------------------------------------------------------------------
    \5\ Ibid.

    Our Nation's response to intimate partner violence is driven by 
VAWA programs at the U.S. Department of Justice. Each of these programs 
is critical to ensuring that victims are safe, that offenders are held 
accountable, and that our communities are more secure. Thanks to VAWA, 
steady progress has been made there are many victims who still suffer 
in silence. In fact, a 2016 24-hour survey of domestic violence 
programs across the U.S. found that although 20,239 Hotline calls were 
answered (averaging more than 14 calls every minute), that nearly 
12,000 requests for services (such as emergency shelter, 
transportation, or legal representation) went unmet because programs 
lacked the resources to provide them. The unconscionable gap between 
need and resources only widens.
   daughters of penelope's work to support domestic violence shelters
    Why are VAWA and VOCA programs important to the Daughters of 
Penelope? In addition to our chapters supporting domestic violence 
shelters in their respective local communities, the Daughters of 
Penelope is a national sponsor and stakeholder of two domestic violence 
shelters--Penelope House, in Mobile, Alabama; and Penelope's Place, in 
Brockton, Massachusetts. In the past, the Daughters of Penelope has 
supported WIN Hellas, which is an NGO based in Athens, Greece that is 
active in the prevention of violence against women.
    Regarding Penelope House, it was the first of its kind in Alabama 
when it opened its doors in 1979. Since then, Penelope House has become 
a nationally-recognized as a model shelter for others to emulate. VAWA 
and VOCA grant funding has been critical in helping Penelope House to 
meet its mission of providing safety, protection and support to victims 
of domestic violence and their children through shelter, advocacy, and 
individual and community education.
    For example, Penelope House has been awarded VAWA and VOCA grants 
from the following programs: Shelter Services, Court Advocate Program, 
and Transitional Living Program. Portions of these grants help to fund 
the case managers, case and court advocates, and children's counselors 
and program coordinators, among other employees who help to provide the 
life-saving support to domestic violence victims and their children.
Statistics--Effectiveness and Importance of VAWA & VOCA Grant Funding
  --VOCA/VAWA grant funding comprises 27 percent of Penelope House's 
        2018 budget.
  --VOCA is the largest source of Penelope House's funding.

    Penelope House's Court Advocacy Program is funded by VOCA & VAWA. 
It's stats for clients served are:

  --Adult Clients: 4,895
  --Children: 4,676
  --Court Appointments with Clients: 3,904
  --Clients Assisted to obtain protection from abuse or no contact 
        orders: 1,272

    VOCA supports the salaries and benefits for seven Court/Victim 
Advocates who provide services to victims of domestic violence 
throughout Mobile, Washington, Clarke and Choctaw Counties of Alabama 
as they navigate within the court system. (VOCA grant funding has 
become increasingly important to Penelope House because Penelope 
House's services has been expanded to include to more counties in 
Alabama.)
    VAWA supports a full-time Court Advocate Assistant and a portion of 
the salary for a Court/Victim Advocate for the Court Advocacy Program. 
The Court Advocate Assistant provides administrative support to Court/
Victim Advocates and provides assistance to the Court Advocacy 
Supervisor. The Court Advocate Assistant collects and complies program 
data needed for the evaluation of the Court Advocacy Program. The Court 
Advocate Assistant is dually trained to serve as a Court/Victim 
Advocate when necessary in case of illness or any other absence of 
court advocates. Thus, a victim will not have to be alone as he/she 
attempts to navigate within the court system.
    Penelope House's Emergency Shelter Program is funded by VOCA. It's 
2017 service stats are:

  --Adults sheltered: 402
  --Children sheltered: 431
  --Total Client Service Hours: 12,773
  --Total Nights of shelter provided: 7,960
  --Crisis calls: 1,602
  --Meals Served: 23,880
                             recommendation
    The Daughters of Penelope (DOP) is requesting support for Victims 
of Crime Act (VOCA) and Violence Against Women Act (VAWA) programs, 
which are vital to DOP programs that serve its mission. Specifically, 
we request a Crime Victims Fund cap for fiscal year 2019 to be set at 
least at the fiscal year 2018 level of $4.4 billion and without any 
transfers to programs not authorized under the VOCA statute; and we 
support a strong investment of $571 million for VAWA programs.
    The Crime Victims Fund is not funded by taxpayer dollars. 
Therefore, the cap can be sustained or raised without adding to the 
national debt or deficit and transfers (or carve outs) must be 
eliminated in fiscal year 2019 and going forward. Also, it therefore 
must not subject to sequestration.
    Clearly, as the missions of domestic violence centers across the 
country, such as Penelope House, have expanded into jurisdictions due 
to the unfortunate increased need to provide victims' services, that 
the viability of the Crime Victims Fund, VOCA, and VAWA grants, have 
become increasingly important to meet the victims' needs.
    Thank you for the opportunity to present and submit our written 
testimony before the subcommittee.

    [This statement was submitted by Eva Jean Fomalont, National 
President.]
                                 ______
                                 
                Prepared Statement of David Jonas Bardin
     (Retired member of Arent Fox LLP, pro se as a private citizen)
                fiscal year 2019 budget for noaa and nsf
Chairman Moran and Ranking Member Shaheen,

    For the sake of public safety, national security, and prevention of 
electric power blackouts, please--

    1.  Plus up NSF's budget to complete its MT survey of Earth 
conductivity--filling a gap in 14 Southern and Southwestern States of 
the contiguous United States (CONUS), and
    2.  Put forward Report language objecting to termination of USGS 
Geomagnetism Program--on which NOAA relies--and urging Program 
preservation and stability.

NOAA's 2017 Report to Congress, mandated by this Committee,\1\ explains 
reasons why.
---------------------------------------------------------------------------
    \1\ Report to Congress--The National Oceanic and Atmospheric 
Administration's Report on Inventory of Space Weather Data for 
Operational Forecasting and Potential and Existing Gaps--For the Senate 
Committee on Appropriations as Requested in Commerce, Justice, Science, 
and Related Agencies Appropriations Bill, 2016 Senate Report 114-66--
August 2017.
---------------------------------------------------------------------------
                       mt conductivity survey gap
    NOAA reported to Congress, as a space weather forecasting gap: \2\
---------------------------------------------------------------------------
    \2\ Report to Congress, at 8-9.

          Since 2006, [NSF] has supported a national-scale 
        magnetotelluric survey in the United States, through the 
        EarthScope program, . . . In a separate, smaller project, USGS 
        performed a magneto-telluric survey of the Florida peninsula in 
        2015. . . . By 2018, about two thirds of the Nation will have 
        been surveyed, but there are presently no plans (nor is there 
        any funding identified) to complete the rest of this survey for 
        the other one third of the Nation.
          Magnetotelluric data provide scientists with an estimate of 
        the relationship between geomagnetic activity (such as during a 
        storm) and the geo-electric field which is a hazard for the 
        Nation's electric power grid. Thus, accurate forecasts of the 
        impact to the electric power grid will not be possible for one 
        third of the Nation.
          Mitigation Strategies: Funding is required to complete the 
        survey for the remaining third of the Nation. The cost of 
        completing the magnetotelluric survey for the entire United 
        States was estimated by USGS at $5.5 million (over 5 years).

    The deprived one third of the Nation includes all or parts of 14 
Southern and Southwestern CONUS States: ALABAMA, ARIZONA, ARKANSAS, 
CALIFORNIA, COLORADO, FLORIDA, KANSAS, LOUISIANA, MISSISSIPPI, NEVADA, 
NEW MEXICO, OKLAHOMA, TEXAS and UTAH. Protecting the electric power 
grid from Geomagnetic Disturbances (GMDs) caused by natural explosion 
from the Sun (or from E3 pulses due to a high-altitude nuclear 
explosion), requires data about electric conductivity of the Earth.
    In map below, small circles mark two thirds of CONUS where 
surveying is being done. An NSF Appropriation plus up could fill the 
gap for one third of the Nation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      magnetometers--need and gap
    NOAA's 2017 report also identified USGS Geomagnetism Program 
magnetometers as space weather prediction assets, with estimated 
lifetime costs of $107 million for the existing USGS facilities: \3\
---------------------------------------------------------------------------
    \3\ Report to Congress, at 23-24.

          Magnetometers provide highly-reliable, real-time measurements 
        of Earth's time-varying magnetic field. The data are required 
        to specify the level of geomagnetic activity. The data are 
        combined with identical observations from international 
        partners to derive the NOAA G-scale, a global indicator of 
        activity that NOAA forecasts and uses to issue watches, 
        warnings, and alerts. A significant portion of NOAA/SWPC \4\ 
        users are adversely affected by geomagnetic activity, including 
        the electric power industry, spacecraft operations, GPS users, 
        pipelines, and radio communications.
---------------------------------------------------------------------------
    \4\ Space Weather Prediction Center.

    NOAA amplified in congressional testimony last month: \5\
---------------------------------------------------------------------------
    \5\ April 26, 2018, joint hearing of House Committee on Science, 
Space, and Technology, Subcommittees on Environment and Space, on 
Surveying the Space Weather Landscape, written testimony of Dr. Neil 
Jacobs (Assistant Secretary of Commerce for Environmental Observation 
and Prediction, National Oceanic and Atmospheric Administration).

          Observation Platforms: NOAA utilizes an array of space-based 
        and ground based observations in our space weather forecast 
        operations and related research. Many of these data sets are 
        lavailable in near real real-time, and come from a variety of 
        sources, ranging from solar imaging satellites to ground 
        magnetometer stations. In addition to NOAA operational assets, 
        we have partnerships with other organizations such as . . . 
        USGS [utilizing their data] to complement the NOAA 
        observations.
          . . . .

          The underpinning data used by NOAA to supply the Nation with 
        geomagnetic storm warnings and alerts are the ground-based 
        magnetic field observations provided by the USGS Geomagnetism 
        Program. NOAA's geomagnetic storm alerts and warnings are based 
        on the USGS magnetometers. These observations describe the 
        local intensity of the changes in magnetic fields and allow 
        NOAA to characterize the intensity of the geomagnetic storm.

    In the map above, large circles mark six USGS magnetometers in 
CONUS \6\ (there are five more in Alaska and one each in Hawaii, Guam, 
and Puerto Rico) and three Canadian ones near the border. Note a huge 
gap between USGS's Boulder CO and Fredericksburg VA facilities.
---------------------------------------------------------------------------
    \6\ Of the six, four are in the Western Interconnection service 
area [Western Electricity Coordinating Council (WECC)] (in Washington, 
Colorado, Arizona, California), two in the Eastern Interconnection (in 
Mississippi, Virginia); none are in the Texas Interconnection service 
area [Electric Reliability Council of Texas (ERCOT)] since USGS 
dismantled its Del Rio facility for budgetary reasons in 2009.
---------------------------------------------------------------------------
    The President's fiscal year 2019 budget request unfortunately seeks 
(again) to end the entire USGS Geomagnetism Program and all its 
magnetometers. The Omnibus (Public Law 115-141) rejected an identical 
fiscal year 2018 proposal to terminate this vital Program.\7 8 9\
---------------------------------------------------------------------------
    \7\ See Finn & Love, Proposed elimination of USGS Geomagnetism 
Program (June 3, 2017); available at https://geohazards.usgs.gov/
pipermail/geomag-data/2017-June/000026.html.
    \8\ See https://geomag.usgs.gov/monitoring/operations.php.
    \9\ See Love & Finn (2017) [Real-time geomagnetic monitoring for 
space weather-related applications: Opportunities and challenges Space 
Weather, 15, doi:10.1002/2017SW001665.
---------------------------------------------------------------------------
    I urge increased funding ($1.7 million) for the Geomagnetism 
Program, in order to add magnetometers, in the Interior, Environment, 
and Related Agencies Appropriation Bill.
    I ask this subcommittee to discuss the USGS Program's importance to 
NOAA's mission and our National Space Weather Strategy, to public 
safety and national security.
            update of national space weather strategy (nsws)
    On April 20, NOAA kicked off Executive Branch review and updating 
of the 2015 National Space Weather Strategy by a Request for 
Information.\10\ Hopefully that process will bring the Executive Branch 
to a consensus as to importance of USGS Geomagnetism Program and 
completion of MT conductivity survey.\11\
---------------------------------------------------------------------------
    \10\ Federal Register/Vol. 83, No. 77/Friday, April 20, 2018/
Notices, pages 17526-7.
    \11\ See Space Weather Enterprise Forum, 27 June 2017, Session 4, 
transcript at 5-7, available at https://swfound.org/media/205939/
swef_2017_4.pdf
---------------------------------------------------------------------------
                              conclusions
    Please recommend following Report language:

        The Committee welcomes Executive Branch initiative to update 
        2015 National Space Weather Strategy, looks forward to outputs 
        from that effort, and urges that the USGS Geomagnetism Program 
        be preserved--and strengthened as appropriate.

    Please plus up the NSF budget of an appropriate Directorate 
sufficiently to fund completion of the EarthScope MT Earth conductivity 
survey of CONUS.
    Respectfully submitted, David Jonas Bardin
                                 ______
                                 
              Prepared Statement of Demand Progress Action
Dear Chairman Moran, Ranking Member Shaheen, and Members of the Senate 
Commerce, Justice, and Science, and Related Agencies Appropriations 
subcommittee:

    Thank you for the opportunity to submit testimony on improving 
transparency and accountability at the Department of Justice. My 
testimony is focused on congressional and public access to information 
about two sets of government documents: (1) final opinions promulgated 
by the Office of Legal Counsel at the Department of Justice, and (2) 
lobbying disclosure forms collected pursuant to the Foreign Agents 
Registration Act.
 providing to congress an index of current doj office of legal counsel 
                                opinions
    Opinions by the Justice Department's Office of Legal Counsel often 
have the effect of law within the executive branch, but many opinions 
with legal effect and precedential value have been withheld from 
Congress and the public despite the Justice Department's ``proactive 
disclosure'' policy. Indeed, no one outside the executive branch knows 
how many opinions are currently in effect. In addition, the OLC has at 
times reached legal conclusions that are at variance with the 
understanding of the law held by Congress or interpretations that would 
be rendered by the Courts--but the OLC did not enlighten Congress 
regarding the difference of opinion.
    We believe it is essential that Congress and the public have notice 
of the existence of legal interpretations contained in final OLC 
opinions so that our system of checks and balances can operate 
effectively. This is consonant with a letter signed by a bipartisan 
group of 19 senior former DOJ officials in 2006 that declared ``OLC 
should publicly disclose its written legal opinions in a timely manner, 
absent strong reasons for delay or nondisclosure.'' \1\
---------------------------------------------------------------------------
    \1\ See ``Guidelines for the President's Legal Advisors,'' the 
American Constitution Society (May 2006), available at http://
www.acslaw.org/files/Microsoft%20Word%20-%2011_Johnsen_
OLC.pdf.
---------------------------------------------------------------------------
    We recommend that the General Provisions account of the portion of 
the CJS Appropriations bill concerning the Department of Justice 
include the following legislative language that would require: a report 
detailing the total number of final OLC opinions in effect, the 
opinion's subject line, the date it was finalized or updated, the 
agency that requested it, and the creation of an unclassified summary. 
The definition of what constitutes a final OLC opinion is drafted 
narrowly to cover only promulgations of executive branch policy that 
have been put into effect.
Bill language:
    The Attorney General shall publicly report to Congress within 180 
days and contemporaneously thereafter--

(A) The number of final OLC opinions in effect;
(B) A list of final OLC opinions in effect that includes for each 
opinion--

          (a) An unclassified summary;
          (b) The subject line, subject to classified redaction;
          (c) The date finalized/updated;
          (d) The agency/entity requesting it;
          (e) Whether it is newly issued, updated, or withdrawn.

(C) A final Office of Legal Counsel opinion is a document in written or 
electronic form that expresses the opinion of the Attorney General on 
questions of law or final opinions made in the resolution of inter-
agency disputes, rendered in accordance with 28 USC Sec. 511-513, and--

          (1) The Attorney General or his/her designee determines that 
        it is final; or
          (2) Government officials or contractors follow its guidance; 
        or
          (3) It is relied upon to formulate legal guidance; or
          (4) It is cited directly/indirectly in another Office of 
        Legal Counsel opinion.
 improved disclosure of foreign agent filings under the foreign agents 
                        registration act (fara)
    Reports by Foreign Agents on their lobbying are important, but they 
are gathered and published by the Justice Department's FARA Unit in 
difficult-to-use formats. The use of modern technology and techniques, 
long embraced by other components in government, would improve the FARA 
Unit's ability to ensure compliance with the law and improve 
congressional and public ability to scrutinize the filings. There is a 
decade-long effort to encourage the Department of Justice to modernize 
its practices, but it has failed to do so.\2\ In light of agency 
inaction we believe it is appropriate for Congress to step in.
---------------------------------------------------------------------------
    \2\ See Civil Society Comments to the FARA Unit (April 7, 2017), 
available at https://s3.amazonaws.com/demandprogress/letters/2017-04-
07_Civil_Society_Comments_on_
FARA.pdf
---------------------------------------------------------------------------
    We recommend that the General Provisions account of the portion of 
the CJS Appropriations bill concerning the Department of Justice 
include the following report language. In summary, it requests a public 
consultation and report on (1) requiring filings by foreign agents 
under FARA to be in an electronic and structured format, and (2) the 
publication of those report in a bulk, structured data format for 
public reuse. This would help transform FARA from a paper exercise into 
something that helps effectuate the purposes behind the Foreign Agents 
Registration Act of tracking information about agents of foreign 
governments.
Report language:
    Review of Reports from Foreign Lobbyists: The Attorney General of 
the United States shall review the United States Department of 
Justice's implementation of the Foreign Agent Registration Act, which 
should include a review of the recent DOJ Inspector General Report on 
FARA and consultation with public stakeholders, and within 6 months of 
enactment of this act issue a report to Congress that is publicly 
available and addresses (1) the feasibility and steps necessary to 
require all filings by foreign agents to be made in an electronic, 
structured data format where the information can flow into a machine 
processable digital format; (2) the publication by the FARA Unit of 
filing information to the public in bulk in a structured data format so 
it can be searched, sorted, and downloaded by the public.
    Thank you again for the opportunity to submit this testimony. I 
would welcome the opportunity to answer any questions you might have. 
My email is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c484d424549406c4849414d42485c5e434b5e495f5f02435e4b02">[email&#160;protected]</a>

    [This statement was submitted by Daniel Schuman, Policy Director.]
                                 <greek-l>
                                 ______
                                 
                Prepared Statement of Dennett Lydia deg.
 Prepared Statement of Lydia Dennett, Project on Government Oversight, 
               and Daniel Schuman, Demand Progress Action
    The activities of foreign lobbyists, as collected and recorded by 
the Department of Justice (DOJ) under the Foreign Agents Registration 
Act (FARA), are the subject of sustained public and congressional 
interest. FARA is intended to provide transparency into how foreign 
governments attempt to influence U.S. policies on everything from 
foreign aid to multi-billion-dollar arms deals. But when the Department 
of Justice does not uncover when lobbyists for foreign governments fail 
to register or properly disclose their activities, the public and even 
Congress can be left in the dark about how our laws are shaped and 
influenced. We believe the agency's interpretation of the law must be 
publicly clarified so Congress can grapple with the underlying issues 
behind foreign lobbyist disclosure.
    To address these issues, we respectfully request that the Committee 
include the following provisions in its committee report language:

    1.  A request that FARA advisory opinions be provided to the 
Committee and the general public;
    2.  A request that the Department of Justice provide to the 
Committee and the general public its official guidance on how it 
interprets the law;
    3.  Additional items for inclusion in the National Security 
Division's strategic plan for enforcement of FARA, including a date for 
when that report must be completed and provided to the Committee and 
released to the public.

    We note the House of Representatives proposed an increase in 
funding in the fiscal year 2019 budget for the National Security 
Division to address improper foreign influence issues. We also 
acknowledge the House Appropriations Committee report language noting 
that the National Security Division is developing a strategic plan for 
FARA. While we believe this is a step in the right direction, we 
encourage this subcommittee to prompt the Justice Department to 
publicly clarify its interpretation of the law.
                            recommendations
1. Congressional and Public Access to FARA Advisory Opinions
    The Justice Department issues advisory opinions that describe the 
agency's ``present enforcement intentions'' concerning the Foreign 
Agents Registration Act. Specifically, the guidance concerns whether 
the law requires a present or prospective agent of a foreign principal 
to register or disclose information. A few summaries of these advisory 
opinions are published online. Unfortunately, the few publicly 
available advisory opinion summaries fail to provide clarity on the 
more nuanced aspects of the law.
    We recommend the Justice Department proactively publish the full 
advisory opinions except to the extent it would identify the requester. 
This is consistent with the suggestions of the DOJ Inspector General 
(IG) as well as a DOJ statement that it is willing to release certain 
reports pursuant to FOIA requests. This should not be burdensome since 
the FARA unit received only 14 requests for advisory opinions between 
2013 and 2016.
    In 2016, the DOJ IG recommended the Justice Department consider 
publishing advisory opinions online with personal information redacted. 
``We believe the FARA advisory opinions may be a worthwhile 
informational resource, and recommend [the Justice Department's 
National Security Division] consider whether there is value in making 
them publicly available,'' the report stated.
    The same year, the Justice Department stated it would release 
advisory opinions that have led to a FARA registration pursuant to 
Freedom of Information Act requests. However, FOIA requests are time-
consuming, and the agency should operate under a presumption of 
openness.
    Instead of requiring those interested to formally request these 
documents, the Justice Department should proactively post them online. 
Proactive disclosure is a best practice and a common one. For example, 
the DOJ has published advisory opinions to clarify its interpretation 
of the Foreign Corrupt Practices Act since 1993.

    We recommend the following report language:

        The National Security Division is requested to provide to the 
        Committee and publish online all Foreign Agent Registration Act 
        advisory opinions for individuals and entities that 
        subsequently registered or disclosed information under FARA, 
        subject to the redactions permissible under FOIA. In addition, 
        the NSD is requested to provide to the Committee and the public 
        all other advisory opinions after redacting information that 
        would identify potential registrants or otherwise would be 
        withheld under FOIA.
2. Clarify Registration Requirements Under FARA
    The Justice Department should release any existing official 
guidance on FARA that explains its interpretation of the law. There are 
significant portions of FARA that remain undefined or poorly worded, 
and disclosure of how the DOJ interprets the law would provide Congress 
and the public with greater understanding.

    For example:

  --FARA registrants are required to file with the Department any 
        ``informational materials'' they intend to send to two or more 
        people. We do not know how the Department interprets the phrase 
        ``informational materials.''
  --An agent of a foreign principal is defined as ``a person any of 
        whose activities are directly or indirectly supervised . . . in 
        major part by a foreign principal'' (emphasis added). We do not 
        know how the Department interprets the phrase ``in major 
        part.''
  --Lobbyists who are working solely on behalf of a foreign commercial 
        interest, rather than a foreign government or political party, 
        may register under the far less strict Lobbying Disclosure Act 
        and be exempt from FARA requirements. This exemption does not 
        apply if the ``principal beneficiary'' of the work is a foreign 
        government or political party.'' We do not know how the 
        Department interprets the phrase ``principal beneficiary.''

    We recommend the following report language:

        The National Security Division is requested to provide to the 
        Committee and publish online all official guidance currently in 
        effect that interprets or further defines terms used in the 
        Foreign Agents Registration Act.
3. The National Security Division's Strategic Plan
    The House report acknowledges that the National Security Division 
is drafting a strategic plan on FARA. However, the DOJ has been in 
perpetual review of FARA for more than a decade, which has had the 
effect of forestalling action. We believe you should establish a 
deadline by which the plan is to be released to the Committee and the 
public. In addition, the plan should include the following:

  --An assessment of whether the FARA unit should conduct a cost-
        benefit analysis of the fee structure to determine whether fee 
        requirements should be changed;
  --Whether civil fines should be available to the DOJ to increase 
        compliance; and
  --A plan to improve the FARA website so that it works properly in 
        accordance with recommendations made by civil society in this 
        letter.
                               conclusion
    Thank you for the opportunity to submit our testimony regarding 
FARA. We would welcome the opportunity to discuss this further. For 
more information, please contact Lydia Dennett at the Project On 
Government Oversight at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d71797873737869695d6d727a7233726f7a33">[email&#160;protected]</a>
                                 <greek-l>
                                 ______
                                 
                Prepared Statement of Donahue Megan deg.
     Prepared Statement of Megan Donahue on Behalf of the American 
                          Astronomical Society
    On behalf of over 7,000 members of the American Astronomical 
Society (AAS), I submit this statement to first thank Chairman 
Culberson, Ranking Member Serrano, and the entire Commerce, Justice, 
and Science subcommittee for your strong support of the astronomical 
sciences (astrophysics, planetary science, and solar physics). 
Astronomical science in the United States would not be as cutting edge 
and dynamic as it is today without your leadership, and we are deeply 
appreciative. I also write to ask for your continued support of NASA 
and NSF as you write the fiscal year 2019 appropriations legislation. 
We ask that your fiscal year 2019 subcommittee bill include at least 
$8.45 billion for the National Science Foundation (NSF) and at least 
$21.7 billion for the National Aeronautics and Space Administration 
(NASA).
    As you know, our community sets its priorities via a consensus 
``decadal survey'' process under the aegis of the National Academies. 
The decadal surveys' overriding priority has been a balanced program of 
grants and facilities to optimize return on taxpayer investment: 
balance across discipline and mission size, between competed and 
strategic programs, and between facilities and investigator grants. The 
fiscal year 2019 funding levels in our request will allow both NASA and 
NSF to continue to support a synergistic program of ground- and space-
based facilities to advance the astronomical sciences that funds the 
top community priorities, ensuring that the U.S. remains the clear 
world leader in discovery research.
                      national science foundation
    We appreciate Congress' long-standing support for the construction 
of new cutting-edge astronomical telescopes, now including the Daniel 
K. Inouye Solar Telescope (DKIST) and the Large Synoptic Survey 
Telescope (LSST). As both of these promising facilities near the end of 
construction, our community is looking forward to using them to make 
breakthroughs in our understanding of the sun and space weather, near 
earth objects and our solar system, and the nature of the universe. Our 
enthusiasm is tempered by the fact that the research and facility 
operations budget for astrophysics has remained flat for a number of 
years, leaving no flexibility to absorb new facility operations without 
significant cuts to research grants, which are already at historically 
low success rates. This means that the broad U.S. astronomical 
community will not reap the full scientific benefit of the taxpayer 
investment in these new facilities, leaving the door open for our 
colleagues in Europe and elsewhere to skim much of the scientific cream 
off the top.
    Therefore, we ask that you seize the opportunity presented by the 
budget deal to provide a much-need, substantial investment in NSF with 
at least $8.45 billion for this critical basic research agency in 
fiscal year 2019.
    Such an investment in Nation's science and technology efforts rise 
to the call from the National Science Board (NSB) for a ``fearless 
commitment . . . [in] this unprecedented time in human history, when we 
have the tools, know-how, and understanding to tackle daunting 
challenges and solve problems that have long defied solution.'' Full, 
fearless commitment to both to NSF's disciplinary directorates and the 
new opportunities in the Big Ideas would enable a complementary 
approach. Research performed within disciplines lays the foundation for 
inter- and multi-disciplinary innovation, while the Big Ideas empower 
NSF to cross academic disciplines to drive discovery in burgeoning 
fields at the intersections of knowledge areas. Big Ideas like 
``Windows on the Universe''--which brings together disciplines to forge 
ahead in the exciting new era of multi-messenger astrophysics--are thus 
an opportunity to grow Federal science investment to enhance our 
science and technology efforts. The Mid-Scale Research Infrastructure 
Big Idea would develop an agile process for funding experimental 
research capabilities in the mid-scale range across NSF's science 
portfolio; the need for such a process to meet the mid-scale gap was 
prioritized by both the astrophysics and heliophysics decadal surveys, 
the need for which was demonstrated by the $10 billion in mid-scale 
instrumentation identified by NSF's recent Request for Information 
(RFI). The Astronomy (AST) division began to address that need with the 
launch of the Mid-Scale Innovations Program (MSIP)--a top priority of 
the astrophysics and heliophysics decadal surveys--but flat budgets and 
increasing facilities operations costs have stunted the growth MSIP was 
meant to advance. Further flat--or even just modestly increased--top 
lines for NSF would mean diverting most of the funds from AST to a 
Foundation-wide mid-scale program proposed at a fraction of the need 
identified in the NSF-wide RFI. An infusion of funds into NSF would 
instead jumpstart U.S. astronomy and the Nation's scientific enterprise 
at large at this critical time.
             national aeronautics and space administration
    A balanced, ambitious investment in all of the space science 
disciplines is essential to NASA's mission as an exploration agency. 
Scientific exploration of space, from the edges of the Earth's 
atmosphere to the edges of the universe, lays intellectual and 
technical groundwork for the human exploration of space, both inspiring 
and training a new generation of explorers daily. We therefore request 
at least $6.5 billion for the Science Mission Directorate (SMD).
    We are particularly alarmed at the administration's draconian 15 
percent proposed reduction to the Astrophysics Division and the 
apparent disregard for the findings of multiple National Academies 
reports of the value of strategic missions in a balanced scientific 
portfolio. We strongly oppose the cancellation of the top decadal 
priority space mission, WFIRST, and note that one of the proposed 
substitutes--a ``probe class'' mission line--has not yet been 
recommended by a decadal survey committee. We request at least $1.46 
billion for the Astrophysics Division, allowing restoration of WFIRST, 
full funding for mission operations, and additional investment in 
research grants without negatively impacting the rest of the balanced 
program. To stay on time and on budget, we request an appropriation of 
at least $350 million for WFIRST. For the Planetary Science Division, 
we request an appropriation of at least $2.34 billion that enables an 
fiscal year 2022 launch for the Europa Clipper mission as a decadal 
priority and statutory mandate. We ask that any funding for the 
administration's proposed new lunar and planetary defense activities be 
provided only above and beyond our Planetary Division and SMD requests 
until and unless these activities are prioritized as part of a balanced 
program in a future decadal survey. In the Heliophysics Division, we 
request at least $723 million, to continue full execution of the 
Diversify, Realize, Integrate, Venture, and Educate (DRIVE) initiative, 
the top heliophysics decadal priority, consistent with your 
subcommittees' past support.
    Beyond the decadal prioritization process, other National Academy 
studies, senior and portfolio reviews, standing advisory committee 
studies, town hall meetings, and mid-decade adjustments to the decadal 
surveys are also fundamental components in the effective funding, 
management, and oversight of the Federal research enterprise. These 
processes leverage the combined effort and expertise of the community 
to maximize the scientific return of public and private investments in 
the astronomical sciences. These community processes are particularly 
beneficial during times of highly constrained budgets. Efforts that go 
outside these long-standing advisory processes in an attempt to benefit 
or harm specific projects or alter priorities are counterproductive and 
damage the scientific endeavor as a whole. The current House 
Appropriations language would disadvantage the Stratospheric 
Observatory for Infrared Astronomy (SOFIA), keeping the project from 
properly preparing for or participating in a Senior Review. The SOFIA 
contract specifically defines the prime mission as 5 years, to be 
distinguished from the nominal operation lifespan of 20 years.
    Finally, we are grateful for the subcommittees' continued support 
for STEM education, outreach, and broadening participation programs at 
NASA's Office of Education and key NSF programs across the Education 
and Human Resources directorate. We urge you to again support these 
critical efforts in fiscal year 2019, as the administration again 
proposed to eliminate or dramatically reduce them. These offices play a 
critical role in inspiring and training a STEM-literate workforce that 
innovates across industries and disciplines, which is essential to both 
agencies' missions.
    Thank you for the opportunity to offer our recommendations on 
behalf of the astronomical community. The AAS looks forward to 
continuing to work with you on ensuring American leadership in the 
astronomical sciences. Please do not hesitate to contact me, or our 
Director of Public Policy, Dr. Joel Parriott, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85efeae0e9abf5e4f7f7eceaf1f1c5e4e4f6abeaf7e2">[email&#160;protected]</a>, 
with any questions or concerns.

    [This statement was submitted by Megan Donahue, President-Elect of 
the American Astronomical Society and Professor of Physics and 
Astronomy, Michigan State University.]
                                 ______
                                 
       Prepared Statement of the Entomological Society of America
    The Entomological Society of America (ESA) respectfully submits 
this statement for the official record in support of funding for the 
National Science Foundation (NSF). ESA requests a robust fiscal year 
2019 appropriation of $8.45 billion for NSF, including strong support 
for the Directorate for Biological Sciences (BIO).
    Research in basic biological sciences, including entomology, 
provides the fundamental discoveries that advance knowledge and 
facilitate the development of new technologies and strategies for 
addressing societal challenges related to economic growth, national 
security, and human health. Basic research on the biology of insects 
has provided fundamental insights across all areas of biology, 
including cell and molecular biology, genomics, physiology, ecology, 
behavior, and evolution. In turn, these insights have been applied 
toward meeting challenges in a wide range of fields, including 
conservation biology, habitat management, livestock production, and 
pest control.
    Insects have also long played an essential role as model organisms 
for understanding basic biological processes across all organisms, 
including humans. Insects are often ideal laboratory experimental 
subjects because they are generally small and inexpensive to obtain, 
they complete development rapidly, and they can be maintained without 
the special facilities required for vertebrate animals. The common 
fruit fly, Drosophila melanogaster, for example, has been the subject 
of NSF-funded research that has profoundly transformed the 
understanding of human health in countless ways; in 1995, NSF-funded 
studies elucidating the genetic control of embryo development in this 
insect was recognized with the Nobel Prize in Medicine or Physiology.
    NSF is the only Federal agency that supports basic research across 
all scientific and engineering disciplines, outside of the medical 
sciences. Each year, the foundation supports an estimated 300,000 
researchers, scientific trainees, teachers, and students, primarily 
through competitive grants to approximately 2,000 colleges, 
universities, and other institutions in all 50 States. NSF also plays a 
critical role in training the next generation of scientists and 
engineers, ensuring that the United States will remain globally 
competitive in the future. For example, the NSF Graduate Research 
Fellowship Program selects and supports science and engineering 
graduate students demonstrating exceptional potential to succeed in 
science, technology, engineering, and mathematics (STEM) careers.
    Through activities within its BIO Directorate, NSF advances the 
frontiers of knowledge about complex biological systems at multiple 
scales, from molecules and cells to organisms and ecosystems. In 
addition, the directorate contributes to the support of essential 
research resources, including biological collections and field 
stations. NSF BIO is also the Nation's primary funder of fundamental 
research on biodiversity, ecology, and environmental biology.
    One NSF BIO-supported project that illustrates the broad reach of 
basic entomological research is focused on fundamental insect 
physiology. The investigators are testing a hypothesis about the 
mechanisms insects use to transport blood, nutrients, and gases 
throughout their bodies.\1\ Their research on these transport processes 
will inform our understanding of insects' success as agricultural pests 
and disease carriers as well as our ability to mitigate those traits. 
Additionally, a deeper knowledge of these transport systems will also 
provide insights into those possessed by other animals and impact the 
design of new mechanical systems.
---------------------------------------------------------------------------
    \1\ Socha, John; Harrison, Jon; Miller, Laura; and Pendar, Hodjat. 
A New Hypothesis for Cardio-respiratory Mechanics in Insects. Award 
Number: 1558052
---------------------------------------------------------------------------
    NSF BIO also supports the development of technologies that directly 
impact economic sectors that are highly dependent on entomology. NSF 
recently awarded funding for a Small Business Innovation Research 
(SBIR) Phase I project aimed at ensuring healthier honeybee populations 
through data analysis and modeling.\2\ Specifically, the project seeks 
to build newer and more robust algorithms capable of autonomously 
analyzing data generated by networked sensors placed in beehives. The 
information derived from the resultant data sets could then be used to 
develop models capable of predicting the infiltration of pests and 
disease in hives before it actually occurs. Ultimately, the successful 
commercialization of this technology could revolutionize an entire 
agricultural sector that has suffered significantly because of honeybee 
colony collapse.
---------------------------------------------------------------------------
    \2\ Symes, Ellie. SBIR Phase I: Data Analytics on Honebee Hives 
Using IoT Sensor Data. Award Number: 1746862
---------------------------------------------------------------------------
    In addition to funding research, NSF BIO plays a critical role in 
the curation, maintenance, and enhancement of physical biological 
collections. These collections and their associated data sets serve a 
variety of purposes, and while they are particularly important to the 
field of entomology, their value to the broader scientific enterprise 
cannot be overstated. In particular, physical collections enable the 
rapid identification and mitigation of costly invasive pests that 
affect agriculture, forestry, and human and animal health. This is only 
achievable because such collections are continuously being updated to 
reflect environmental changes, evolutionary developments, and shifting 
migratory patterns of invasive species around the world.
    Accordingly, NSF is funding a series of workshops designed to 
provide hands-on training in collections curation and management, with 
a particular emphasis on students and early-career researchers.\3\ This 
first-of-its-kind program will help ensure the long-term availability 
of a workforce capable of maintaining these vital collections well into 
the future.
---------------------------------------------------------------------------
    \3\ Song, Hojun and Shockley, Floyd. Towards a Sustainable 
Management of Insect Collections in the U.S. through the Entomological 
Collections Management Workshop. Award Number: 1640919
---------------------------------------------------------------------------
    While collections-focused awards like that mentioned above are 
encouraging, ESA is concerned by the overall downward trend of Federal 
funding for biological collections. Recent advancements in imaging, 
digitization, and data collection and storage technologies have caused 
some to question the necessity of continued support for existing 
biological collections. This uncertainty has previously prompted the 
suspension of the NSF Collections in Support of Biological Research 
(CSBR), which supports scientifically valuable collections that 
contribute to domestic homeland security, public health, agricultural 
sector and food security, and environmental sustainability. ESA 
recognizes that technological development is spurring substantive 
discussion about the future of biological collections, but given their 
continuing relevance and broad application, ESA firmly supports 
continued Federal investment in these collections.
    Given NSF's critical role in supporting fundamental research and 
education across science and engineering disciplines, ESA supports an 
overall fiscal year 2019 NSF budget of $8.45 billion. ESA requests 
robust support for the NSF BIO Directorate, which funds important 
research studies and biological collections, enabling discoveries in 
the entomological sciences to contribute to understanding environmental 
and evolutionary biology, physiological and developmental systems, and 
molecular and cellular mechanisms.

ESA, headquartered in Annapolis, Maryland, is the largest organization 
in the world serving the professional and scientific needs of 
entomologists and individuals in related disciplines. As the largest 
and one of the oldest insect science organizations in the world, ESA 
has over 7,000 members affiliated with educational institutions, health 
agencies, private industry, and government. Members are researchers, 
teachers, extension service personnel, administrators, marketing 
representatives, research technicians, consultants, students, pest 
management professionals, and hobbyists.

    Thank you for the opportunity to offer the Entomological Society of 
America's support for NSF research programs. For more information about 
the Entomological Society of America, please see http://
www.entsoc.org/.

    [This statement was submitted by Michael Parrella, President.]
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfully requests a fiscal year 2019 appropriation of at 
least $8.45 billion for the National Science Foundation.
    FASEB, a federation of 30 scientific societies, represents 130,000 
life scientists and engineers, making it the largest coalition of 
biomedical research associations in the United States. Our mission is 
to advance health and welfare by promoting progress and education in 
the biological and biomedical sciences.
    With its broad mandate to support fundamental research across all 
fields of science, technology, engineering, and mathematics, the 
National Science Foundation (NSF) is the cornerstone of our Nation's 
scientific enterprise.\1\ NSF investments in discovery-based research 
at institutions nationwide generate new knowledge, which in turn leads 
to transformative innovations that enhance quality of life.
---------------------------------------------------------------------------
    \1\ https://www.nsf.gov/about
---------------------------------------------------------------------------
    Web browsers, modern weather forecasting, and magnetic resonance 
imaging (MRI) are just a few of the tangible benefits enabled by NSF-
funded research.\2,3\
---------------------------------------------------------------------------
    \2\ Transforming the World Through Science. National Science 
Foundation, Alexandria, VA
---------------------------------------------------------------------------
    Many of these advances result from NSF's relationship to mission-
oriented scientific agencies such as the National Institutes of Health. 
For example, in the biological sciences, NSF supports research that 
expands our understanding of life at multiple scales of time and space, 
from molecules to ecosystems.\3\
---------------------------------------------------------------------------
    \3\ NSF Sensational 60. National Science Foundation, Alexandria, VA
---------------------------------------------------------------------------
    This knowledge is then applied to advance medicine, enhance 
agriculture, stimulate new bioenergy technologies, and safeguard our 
planet's health. NSF is also uniquely positioned to support 
interdisciplinary collaboration, research facilities, and scientific 
resources--which no other agency provides.
    NSF has a complementary, and critical, educational mission. The 
Foundation's graduate and postdoctoral fellowships and other 
educational programs underwrite the training of thousands of young 
scientists and engineers. This investment ensures a technical and 
scientific workforce capable of pursuing research and leading the 
innovative, dynamic industries of the future.
    Even as the demand for scientific research has dramatically grown, 
the NSF budget has remained flat in real terms for 15 years (Figure 1). 
The Federal Government must renew its commitment to fundamental, 
discovery-based science.\4\ Providing NSF with a budget of $8.45 
billion ($683 million above its fiscal year 2018 funding level \5\) 
would support about 700 additional research grants, enabling 
researchers to seize new scientific opportunities.
---------------------------------------------------------------------------
    \4\ Innovation: An American Imperative
    \5\ H.R. 1625--Consolidated Appropriations Act, 2018
---------------------------------------------------------------------------
 faseb fiscal year 2019 recommendation: at least $8.45 billion for nsf
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
          Prepared Statement of the Friends of NOAA Coalition
    As supporters, stakeholders, employees, and partners of the 
National Oceanic and Atmospheric Administration (NOAA), Friends of NOAA 
would like to thank you for your work in completing the fiscal year 
2018 appropriations process and providing a 3 percent funding increase 
for NOAA. Thank you for recognizing the world-class economic, safety, 
and public health benefits NOAA contributes to our country and its 
citizens. We look forward to working with you in supporting and 
championing the agency through fiscal year 2019 and beyond.
    As such, Friends of NOAA strongly supports funding the agency at 
$6.2 billion in fiscal year 2019. As recommended by groups such as the 
Innovation Imperative, NOAA should receive at least a 4 percent annual 
funding increase to maintain strong and competitive science and 
innovation. Robust and predictable science funding is critical for our 
Nation to remain a world leader in atmospheric and oceanic science, 
research, and technology.
    From the heartland to the coasts, NOAA provides services that 
millions of Americans rely on every day. More than half of all 
Americans live along our coasts, one out of every 45 jobs are in ocean-
dependent industries, and the insured value of coastal property now 
exceeds $13 trillion. These jobs, properties, and communities rely on 
NOAA data to maintain a healthy coast.
    Moreover, one third of the U.S. economy--or about $3 trillion--is 
sensitive to weather and climate, and the Department of Commerce 
estimates the annual value of daily weather forecasts at $31.5 billion. 
When planning for drought, flood, tornadoes, blizzards, hurricanes, and 
beyond, NOAA is responsible for improving accuracy, monitoring, and 
warning time to save lives and money.
    NOAA is the United States' oldest scientific agency, and its 
mission is rooted in a history of science, service, and stewardship. 
From the depths of the ocean to the reaches of space, NOAA supports our 
nation's economy, security, public health, and innovation. The 
following items are just a few examples of the countless benefits NOAA 
provides to the Nation and its citizens.
  timely and accurate national weather service forecasts and warnings
    Weather, water, and climate events are responsible for an average 
of approximately 650 deaths, $15 billion in damage, and 90 percent of 
presidentially-declared disasters each year. Additionally, the U.S. GDP 
fluctuates 3-6 percent each year due to weather variability, which 
means that millions of people, businesses, and communities rely on 
National Weather Service (NWS) products every day. Sufficient funding 
for NWS will support building a ``Weather Ready Nation'' and the 
National Water Center, which help to build community resilience in the 
face of growing vulnerability to extreme weather events by increasing 
warning times, improving forecast communication, and providing decision 
support to emergency managers.
    More specifically, strong support for NOAA will allow the agency to 
continue developing the next generation of flooding and drought 
forecasts. Continued funding is also required for NOAA to maintain its 
NEXRAD Weather Radars and Automated Surface Observing Systems, which 
are essential for critical tornado and severe weather warnings and in 
avoiding data gaps. Finally, strong funding for NOAA will be necessary 
to implement the Weather Research and Forecast Innovation Act of 2017 
and to carry out the initiatives, goals, and policies outlined in the 
law.
                   environmental data to reduce risk
    NOAA provides the essential data and information that people need 
to understand and prepare for climate variability and change. Long-term 
environmental data is essential to reducing risks and liabilities for 
our Nation's households, industries, and ecosystems. Drought forecasts 
alone are worth up to $8 billion per year to the farming, 
transportation, tourism, and energy sectors. Environmental risk also 
poses a national security issue. Studies have shown that a three-foot 
sea level rise would threaten 128 U.S. military bases, which would be 
forced to invest significant sums simply to remain operational.
    Strong investments in NOAA are critical to support the long-term 
environmental monitoring and analysis that public and private 
stakeholders use to save time, money, and lives. Furthermore, robust 
funding is essential for updating NOAA's computing capacity and will 
also allow the agency to expand forecast outlooks to three to four 
weeks, which do not currently exist.
      maintenance and sustainability of healthy oceans and coasts
    NOAA's work in understanding our oceans and coasts is essential to 
our economic, ecological, and public health. A healthy ocean has drawn 
almost half of all Americans to live on the coasts--and coastal 
counties alone contribute nearly $7.9 trillion annually to the GDP. 
Sustained ocean research and observations are critical for managing 
harmful algal blooms, understanding how ocean acidification is already 
impacting shellfish and other marine industries, and responding to 
coastal emergencies like the Deepwater Horizon oil spill. As these 
types of issues continue to affect local economies, NOAA and other 
Federal agencies play a key role in supporting State and regional 
partnerships such as those underway in the Northeast and Mid-Atlantic 
to improve ocean management.
    NOAA requires strong Federal funding to continue to ensure the 
existence of clean beaches, healthy oceans, and sustainable coastal 
communities. With consistent support, NOAA can close critical gaps in 
ocean science to spur economic growth and support informed public and 
private sector decisionmaking that is essential to our economy and 
environment. For example, establishment and funding of programs like 
the National Ocean and Coastal Security Fund present an important 
opportunity build on past efforts in enhancing regional resilience to 
ocean challenges.
               informed and productive fishery management
    Fishery stock assessments and data collection are essential for 
providing managers the information they need to sustain fishing 
opportunities while preventing overfishing. NOAA has rebuilt 41 stocks 
since 2000, resulting in overfishing numbers dropping to an all-time 
low in 2014. Rebuilding all overfished stocks and harvesting them at 
their maximum sustainable yields will generate $31 billion in sales 
impacts and support 500,000 jobs.
    Investment in NOAA is vital to the implementation of catch limits 
that maintain productive fisheries, secure fishing opportunities, and 
support the economic vitality of coastal communities. Strong funding 
will allow the agency to combat global and domestic illegal, 
unreported, unregulated fishing; monitor endangered marine species; and 
provide crucial disaster assistance to fisheries.
 innovative and cutting-edge geostationary and polar satellite systems
    All levels of government, public, industry, and military rely on 
NOAA satellites for weather forecasting, storm tracking, and long-term 
Earth observations that protect lives and infrastructure. Strong 
support for the agency will allow NOAA to maintain current launch and 
development schedules of the GOES-R Satellite Series, JPSS, and Polar 
Follow On to ensure continuity of data and the ability to forecast 3-5 
days out.
    Robust funding for NOAA also translates into the continuation of 
exploring the potential of commercial data use in NOAA's modeling and 
forecasting, completing the development of COSMIC-2A ground stations, 
and enhancing NOAA's capabilities in space weather forecasting and 
imaging as DSCOVR reaches the end of its projected mission life in 
2022. Stable funding is essential for efficient data retrieval, for 
minimizing total cost to taxpayers, and for ensuring that launch dates 
are not delayed, which would leave millions of Americans without 
detailed severe weather information they rely on every day.
                  world class research and development
    NOAA research has led to new technologies and scientific advances 
that have increased our understanding of the planet and improved our 
lives. NOAA research also engages students--the next generation's 
scientists--from around the country, helping to expand the agency's 
capacity and prepare for the future. Continuing this cutting-edge work, 
will require a vibrant extramural research, observing, outreach, and 
education component as well as the comprehensive modernization of all 
of NOAA's observation and monitoring operational systems, including its 
oceanographic fleet of vessels, fleet of aircraft, suite of in-situ 
ocean and coastal sensors, and remote capabilities.
    Without adequate investment, for example, the NOAA fleet will 
decline by 50 percent, with half of its vessels set to retire in the 
next 10-12 years. In addition, strong funding for NOAA will allow the 
agency to more efficiently transition the most promising research into 
operations, applications, and commercialization, as well as expand 
regional research to help manage climate risks and support climate 
assessment efforts.
    Friends of NOAA urges Congress to support a robust budget for NOAA. 
Our weather, climate, and ocean systems don't work independently of one 
another, and our understanding of these systems can't either. From 
satellites and weather operations, to fisheries and coastal management, 
every facet of NOAA serves a purpose essential to the Nation. 
Therefore, we strongly encourage you to continue to support NOAA, and 
continue to recognize the agency's role in our economy, national 
security, and environmental resiliency by funding NOAA at $6.2 billion 
in fiscal year 2019.
    Thank you for your consideration of this request.

                                   Sincerely,

                                     The Friends of NOAA Coalition

    [This statement was submitted by Carissa Bunge, Senior Specialist.]
                                 ______
                                 
        Prepared Statement of the Geological Society of America
                                summary
    The Geological Society of America (GSA) supports strong and 
sustained investments in geoscience research and education at the 
National Science Foundation (NSF) and National Aeronautics and Space 
Administration (NASA). We thank Congress for the investments made in 
fiscal year 2018 and encourage a path of sustainable growth forward. We 
encourage Congress to appropriate $8.45 billion for NSF in fiscal year 
2019 and fully support geoscience research at the agency without 
restriction. We request $6.5 billion in fiscal year 2019 to fund NASA's 
Science Mission Directorate with increased funding for the Earth 
Science and Planetary Science Divisions. Investment in NSF and NASA is 
necessary to secure America's future economic leadership, both through 
the discoveries made and the talent developed through their programs. 
Earth and space science at these two agencies plays a vital role in 
American prosperity and security through understanding and documenting 
mineral and energy resources that underpin economic growth; researching 
and monitoring potential natural hazards that threaten U.S. and 
international security; and determining and assessing water quality and 
availability.

The Geological Society of America (GSA) is a global professional 
society with a growing membership of more than 26,000 individuals in 
115 countries. GSA provides access to elements that are essential to 
the professional growth of earth scientists at all levels of expertise 
and from all sectors: academic, government, business, and industry. The 
Society unites thousands of earth scientists from every corner of the 
globe in a common purpose to study the mysteries of our planet (and 
beyond) and share scientific findings.
                      national science foundation
    The Geological Society of America (GSA) appreciates the increase to 
the National Science Foundation (NSF) budget in the fiscal year 2018 
omnibus and thanks the Committee for recognizing the important role 
that the agency plays in our country's global competitiveness. We urge 
Congress to provide NSF at least $8.45 billion in fiscal year 2019.
    Sustained increases beyond inflation are necessary to regain 
America's science and technology leadership and to enable the 
discoveries that lead to future innovations and industries. According 
to the 2018 Science and Engineering Indicators Report, the U.S. 
investment in R&D of $497 billion was closely followed by China at $409 
billion. If current trends continue, the National Science Board expects 
China to surpass the U.S. in R&D investments by the end of this year. 
Increases in funding will allow NSF to continue to fund its core basic 
research in addition to growing investments in its Ten Big Ideas. These 
ideas are designed to identify areas of future investment and position 
the U.S. on the cutting edge of global science and engineering 
leadership.
    Geoscience research is a critical component of the overall science 
and technology enterprise and should be funded without restriction. 
NSF's Directorate for Geosciences is the largest Federal supporter of 
basic geoscience research at universities. NSF's programs in geoscience 
research and graduate and undergraduate student support contribute 
significantly to the education and training of the workforce. A recent 
report by the American Geosciences Institute, Status of Recent 
Geoscience Graduates 2017, illustrates the diversity of careers 
supported by geoscience research. For example, the report found that 
the majority of master's degree graduates found jobs in the oil and gas 
industry and government, while environmental services, such as 
environmental consulting and remediation of water and soil, hired the 
highest percentage of bachelor's degree graduates. Other industries 
hiring geoscientists include manufacturing, trade, construction, 
information technology services, mining, and agriculture.
    Increased investments in NSF's geoscience portfolio are necessary 
to address such issues as natural hazards, energy and minerals, water 
resources, and education; geoscience is a key contributor to 
groundbreaking research across disciplines at NSF. Specific needs 
include:

  --On December 20, 2017, President Trump signed an executive order 
        entitled A Federal Strategy to Ensure Secure and Reliable 
        Supplies of Critical Minerals, that finds,
         ``The United States is heavily reliant on imports of certain 
mineral commodities that are vital to the Nation's security and 
economic prosperity. This dependency of the United States on foreign 
sources creates a strategic vulnerability for both its economy and 
military to adverse foreign government action, natural disaster, and 
other events that can disrupt supply of these key minerals.''
         NSF's Division of Earth Sciences supports research on the 
structure, composition, and evolution of the Earth and the processes 
that govern the formation and behavior of the Earth's materials. This 
research contributes to a better understanding of the natural 
distribution of mineral and energy resources.
  --The quality and quality of surface water and groundwater have a 
        direct impact on the wellbeing of societies and ecosystems, as 
        evidenced by flooding and drought impacts experienced across 
        the U.S. during the past year. NSF's research addresses major 
        gaps in our understanding of water availability, quality, and 
        dynamics, including the impact of both a changing climate and 
        human activity on the water system.
  --The Division of Atmospheric and Geospace Sciences provides critical 
        infrastructure and research funding for understanding our 
        planet, including weather and precipitation variability and 
        atmospheric and space weather hazards. Earth and space 
        observations provide data necessary to predict severe space 
        weather events, which affect the electric power grid, satellite 
        communications and information, and space-based position, 
        navigation, and timing systems.
  --The National Research Council report Sea Change: 2015-2025 Decadal 
        Survey of Ocean Sciences highlights research questions to guide 
        NSF investment. The report identifies questions that will help 
        make informed decisions, including: How can risk be better 
        characterized and the ability to forecast geohazards like 
        megaearthquakes, tsunamis, undersea landslides, and volcanic 
        eruptions be improved? What are the rates, mechanisms, impacts, 
        and geographic variability of sea level change? How different 
        will marine food webs be at mid-century? In the next 100 years?
  --Natural hazards--including earthquakes, tsunamis, volcanic 
        eruptions, wildfires, and landslides--are a major cause of 
        fatalities and economic losses. Recent natural disasters 
        provide unmistakable evidence that the United States remains 
        vulnerable to staggering losses. An improved scientific 
        understanding of geologic hazards will reduce future losses by 
        informing effective planning and mitigation. We urge Congress 
        to support NSF investments in fundamental Earth science 
        research and facilities that underpin innovations in natural 
        hazards monitoring and warning systems.
             national aeronautics and space administration
    GSA requests request $6.5 billion to fund NASA's Science Mission 
Directorate (SMD) and increased funding for the Earth Science and 
Planetary Science Divisions. Increased funding will be critical to 
implement the recommendations of the National Academy of Sciences' 
Earth Science and Applications from Space (ESAS) Decadal Survey report 
released earlier this year. The report notes,
    ``Earth science and applications are a key part of the nation's 
information infrastructure, warranting a U.S. program of Earth 
observations from space that is robust, resilient, and appropriately 
balanced.''
    The data and observations from Earth observing missions and 
research are a tremendously important resource for natural resource 
exploration and land use planning, as well as assessing water 
resources, natural disaster impacts, and global agriculture production. 
GSA supports interagency efforts to ensure the future viability of 
Landsat satellites as well as funding to increase the capabilities and 
uses of multi-spacecraft constellations of small scientific satellites.
    We appreciate congressional support in fiscal year 2018 for Earth 
Science Missions, and request that Congress continue their funding in 
fiscal year 2019. These missions will advance science frontiers and 
provide critical data for society. For example, PACE will help us 
monitor the duration and impact of harmful algae blooms and CLARREO 
Pathfinder will enable industry and military decision-makers to more 
accurately assess natural hazards, such as flooding.
    Planetary research is directly linked to Earth science research and 
cuts in either program will hinder the other. To support missions to 
better understand the workings of the entire solar system, planetary 
scientists engage in both terrestrial field studies and Earth 
observation to examine geologic features and processes that are common 
on other planets, such as impact structures, volcanic constructs, 
tectonic structures, and glacial and fluvial deposits and landforms. In 
addition, geochemical planetary research studies include investigations 
of extraterrestrial materials now on Earth, including lunar samples, 
meteorites, cosmic dust particles, and, most recently, particles 
returned from comets and asteroids. We appreciate past congressional 
support for this area and urge you to continue to increase this 
important area to support priority areas identified in the Planetary 
Science Decadal Survey.
      support needed to educate future innovations and innovators
    Earth science research and education are fundamental to training 
the next generation of Earth science professionals. Status of the 
Geoscience Workforce Report 2016 found an expected deficit of 
approximately 90,000 geoscientists by 2024.
    Increased NSF and NASA investments in Earth science education are 
necessary to meet these workforce needs and develop an informed, 
science-literate electorate. Earth scientists will be essential to 
meeting the environmental and resource challenges of the twenty-first 
century. NSF's Education and Human Resources Directorate researches and 
improves the way we teach science and provides research and fellowship 
opportunities for students to encourage them to continue in the 
sciences. Similarly, NASA's educational programs have inspired and led 
many into science careers. GSA fully supports these efforts, as well as 
programs to make the geoscience workforce more diverse.
    Please contact GSA Director for Geoscience Policy Kasey White at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0368746b6a77664364666c706c606a66777a2d6c7164">[email&#160;protected]</a> for additional information or to learn more about 
the Geological Society of America--including GSA Position Statements on 
water resources, planetary research, energy and mineral resources, 
natural hazards, climate change, and public investment in Earth science 
research.

    [This statement was submitted by Kasey White, Director for 
Geoscience Policy.]
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish And Wildlife 
                          Commission (GLIFWC)
    Agency Involved: Department of Justice

    Program Involved: COPS Tribal Resources Grant Program (TRGP) Hiring 
and Equipment/Training Program under the Coordinated Tribal Assistance 
Solicitation (CTAS)

    Summary of GLIFWC'S Fiscal Year 2019 Testimony: GLIFWC supports 
sustained funding for the TRGP at no less than the fiscal year 2018 
enacted funding level. This program has enabled GLIFWC to solidify its 
communications, training, and equipment requirements, essential to 
ensuring the safety of GLIFWC officers and their role in the proper 
functioning of interjurisdictional emergency mutual assistance networks 
in the treaty ceded territories.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ceded Territory Treaty Rights and GLIFWC'S Role: GLIFWC was 
established in 1984 as a ``Tribal organization'' within the meaning of 
the Indian Self-Determination Act (Public Law 93-638). It exercises 
authority delegated by its member Tribes to implement Federal court 
orders and various interjurisdictional agreements related to their 
treaty rights. GLIFWC assists its member Tribes in:

  --securing and implementing treaty guaranteed rights to hunt, fish, 
        and gather in Chippewa treaty ceded territories; and
  --cooperatively managing, restoring and protecting ceded territory 
        natural resources and their habitats.

    For over 34 years, Congress and various Administrations have funded 
GLIFWC through the BIA, the Department of Justice and other agencies to 
meet specific Federal obligations under: (a) a number of U.S./Chippewa 
treaties; (b) the Federal trust responsibility; (c) the Indian Self-
Determination and Education Assistance Act, the Clean Water Act, and 
other legislation; and (d) various court decisions, including a 1999 
U.S. Supreme Court case, that affirmed the treaty rights of GLIFWC's 
member Tribes. Under the direction of its member Tribes, GLIFWC 
operates a ceded territory hunting, fishing, and gathering rights 
protection/implementation program through its staff of biologists, 
scientists, technicians, conservation enforcement officers, and public 
information specialists.

    Community-Based Policing: GLIFWC's officers carry out their duties 
through a community-based policing program. The underlying premise of 
that program is that effective detection and deterrence of illegal 
activities, as well as education of the regulated constituents, are 
best accomplished if the officers work within the Tribal communities 
they primarily serve. The officers are based in reservation communities 
of the following member Tribes: in Wisconsin--Bad River, Lac Courte 
Oreilles, Lac du Flambeau, Red Cliff, Sokaogon Chippewa (Mole Lake), 
and St. Croix; in Minnesota--Mille Lacs; and in Michigan--Bay Mills, 
Keweenaw Bay and Lac Vieux Desert. To help develop mutual trust between 
GLIFWC officers and Tribal communities, officers provide outdoor skills 
workshops and safety classes (hunter, boater, snowmobile, ATV) to over 
1,100 Tribal youth in grades 4-8 annually. GLIFWC's officers also 
actively participate in summer and winter youth outdoor activity camps, 
kids fishing events, workshops on canoe safety and rice stick carving, 
and seminars on trapping and archery/bow safety.
    GLIFWC's member Tribes realize it is critical to build 
relationships between Tribal youth and law enforcement officers as a 
means of combatting gang recruitment and drug/alcohol abuse in 
reservation communities. GLIFWC is continuing to take a pro-active 
approach to support these efforts by obtaining fiscal year 2013 DOJ 
funding to hire a Youth Outreach Officer. This Officer is working to 
improve and expand youth outdoor recreation activities in partnership 
with other GLIFWC officers. The program's goal is to build and expand 
these relationships to help prevent violations of Tribal off-
reservation codes, improve public safety and promote an outdoor 
lifestyle as an alternative to a lifestyle characterized by youth gangs 
\1\ and substance abuse.\2\ The availability of the Youth Outreach 
Officer has enabled GLIFWC, in partnership with the U.S. Forest 
Service, to grow participation in Camp Onji-Akiing (From the Earth). 
The camp began with just 9 Tribal students in grades 5-8 and by 2017 
expanded to 55 Tribal students in grades 5-8, 8 Tribal Junior 
Counselors (i.e. high school students) and 1 Tribal Junior Director 
(i.e. high school graduate enrolled in college).
---------------------------------------------------------------------------
    \1\ The American Indian and Alaska Native (AI/AN) youth population 
is more affected by gang involvement than any other racial population. 
15 percent of AI/AN youth are involved with gangs compared to 8 percent 
of Latino youth and 6 percent of African American youth nationally. 
(National Council on Crime and Delinquency: Glesmann, C., Krisberg, 
B.A., & Marchionna, S., 2009).
    \2\ 22.9 percent of American Indian and Alaska Native (AI/AN) youth 
aged 12 and older report alcohol use, 18.4 percent report binge 
drinking and 16.0 percent report substance dependence or abuse. In the 
same group, 35.8 percent report tobacco use and 12.5 percent report 
illicit drug use. (2010 National Survey on Drug Use and Health: Summary 
of National Findings).

    Interaction With Law Enforcement Agencies: GLIFWC's officers are 
integral members of regional emergency services networks in Minnesota, 
Michigan and Wisconsin. They not only enforce the Tribes' conservation 
codes, but are fully certified officers who work cooperatively with 
authorities from other jurisdictions when they detect violations of 
State or Federal criminal and conservation laws. These partnerships 
evolved from the inter-governmental cooperation required to combat the 
violence experienced during the early implementation of treaty rights 
in Wisconsin. As time passed, GLIFWC's professional officers continued 
to provide a bridge between local law enforcement and many rural Indian 
communities.
    GLIFWC remains at this forefront, using DOJ funding to develop 
interjurisdictional legal training that is attended by GLIFWC officers, 
Tribal police and conservation officers, Tribal judges, Tribal and 
county prosecutors, and State and Federal agency law enforcement staff. 
DOJ funding has also enabled GLIFWC to certify its officers as medical 
emergency first responders, and to train them in search and rescue, 
particularly in cold water rescue techniques. When a crime is in 
progress or emergencies occur, local, State, and Federal law 
enforcement agencies look to GLIFWC's officers as part of the mutual 
assistance networks. In fact, the role of GLIFWC's officers in these 
networks was further legitimized in 2007 by the passage of Wisconsin 
Act 27, which affords GLIFWC wardens the same statutory safeguards and 
protections that are afforded to their DNR counterparts. GLIFWC wardens 
now have access to the criminal history database and other information 
to identify whom they are encountering in the field so that they can 
determine whether they are about to face a fugitive or some other 
dangerous individual.
    GLIFWC's participation in mutual assistance networks located 
throughout a 60,000 square mile region increases public safety in an 
effective and cost efficient manner. In 2017, GLIFWC officers utilized 
prior DOJ funded training and equipment to respond to:

  --16 incidents where GLIFWC officers responded to emergency backup 
        requests from other law enforcement agencies including: (1) a 
        barricaded suspect who had shot an officer and three civilians 
        (Marathon County Sheriff's Department, Wisconsin); (2) a shots 
        fired incident (Michigan State Police, Bruce's Crossing, 
        Michigan); (3) an officer involved shooting (City of Ashland, 
        Wisconsin); (4) a tactical response to a suicidal suspect with 
        a knife threatening people at a residence (Rhinelander, 
        Wisconsin); (5) location of wanted suspect (Ashland County 
        Sheriff's Department, Wisconsin); (6) an officer involved 
        shooting (Ashland County, Wisconsin);
  --12 accidents including two on I-75 in Michigan within 2 hours of 
        each other;
  --5 search and rescue operations including a fishermen stranded on 
        shore after their boat had taken on water (Willow Flowage, 
        Wisconsin) and a lost boater encountering rough water (Lake 
        Gogebic, Michigan);
  --2 medical calls including with one requiring CPR and an AED to 
        resuscitate a male until an ambulance arrived and 
        transportation of a child with a severe allergic reaction from 
        the Ottawa National Forest to paramedics for ambulance 
        transport to a hospital; and
  --1 interagency body recovery operation involving two deceased 
        fishermen (Flambeau Flowage, Wisconsin).

    Increased Versatility and Improving Public Safety: In addition to 
supporting GLIFWC participation in mutual assistance networks, DOJ 
training and equipment proved critical in building partnerships to 
improve public safety on Lake Superior and addressing a recent flood.

    Lake Superior Ghost Net Removal and Search and Rescue: Ghost nets 
are commercial fishing nets that have been damaged due to Lake 
Superior's strong storms or vandalism and have sunk to the bottom of a 
lake. These lost gill nets can pose navigation hazards and damage 
equipment. In 2015, GLFWC utilized DOJ Tribal COPS funding to purchase 
equipment to address this public safety concern and in 2016 removed 
around 8,000 feet of ghost nets from Lake Superior and in 2017 GLIFWC 
removed around 8,700 feet of ghost nets. GLIFWC also formed a 
partnership with Wisconsin Sea Grant and the Apostle Islands Sport 
Fishermen's Association, and obtained funding from the Marine Debris 
Program to sponsor a series of public workshops to educate commercial 
and Tribal anglers on best net-management practices, build community 
relationships and further expand GLIFWC's Community Policing outreach 
efforts. In addition, GLIFWC's DOJ funded airboat was used in 2017 to 
search and locate lost kayakers in the Apostle Island National Park, 
(Wisconsin) and provide emergency response and safety support for the 
Book Across the Bay 10 kilometer cross-country ski race (Ashland, 
Wisconsin). GLIFWC officers also used their DOJ funded training to 
assist the U.S. Coast Guard in recovering a boat that had become 
stranded on pilings in Chequamegon Bay.

    Bad River Flood: Thunderstorms over four days in July of 2016 
resulted in flood waters breaking records with a rise of 27.28 feet. 
The flooding caused the destruction of roads, bridges, community 
facilities, trails and recreation areas. More than 46 homes within 
reservation boundaries were affected by flooding and ten were totally 
destroyed. The flooding cut off the reservation from regular routes to 
food, water, and medical supplies. An Incident Command Center was set 
up by a GLIFWC Officer and supported by additional GLIFWC law 
enforcement staff to address public safety needs as they arose 
including establishing road blocks, emergency transport, 
communications, and search and rescue activities. DOJ funded equipment 
(i.e. a Command trailer, communications systems, boats, ATV's, first 
aid kits, etc.) and training expanded GLIFWC's capacity to respond to 
this emergency.

    Looking to the Future: In 2017, a GLIFWC officer, performing a 
routine investigation during a deer shining incident, discovered a case 
that the suspect had dropped out of their vehicle. The case contained a 
medical rubber band, syringes, and a substance in a plastic bag. The 
officer turned the paraphernalia over to county deputies who were on 
scene and the suspect was placed under arrest.
    Unfortunately, member Tribes have not escaped the opioid and 
methamphetamine crisis gripping much of the United States. Wisconsin 
has experienced a 335 percent growth in neonatal abstinence syndrome 
(NAS) from 2006 to 2014 from 2.0 to 8.7 per 1,000 live births \3\ and 
counties with reservation communities have the highest per capita NAS 
rates in the State. In 2017, GLIFWC officers participated in training 
with Wisconsin Native American Drug and Gang Initiative (NADGI) Task 
Force and BIA funded Tribal Justice Support Division VAWA/Opioid 
training in an effort to stay current on developing issues. fiscal year 
2019 DOJ funding will be needed to assist officers in the 
identification of opioid users, safely searching suspects (i.e. given 
increased needle use), and how to effectively administer Naloxone in 
reservation communities.
---------------------------------------------------------------------------
    \3\ When opioids or other substances are used during pregnancy, the 
infant may be born with withdrawal from substances taken by the mother. 
This condition, termed neonatal abstinence syndrome (NAS), is 
associated with physiologic and behavioral consequences, such as low 
birth weight, feeding difficulties and respiratory problems. .Select 
Opioid--Related Morbidity and Mortality, Data for Wisconsin, November 
2016, WI Dep. of Health Services.

    [This statement was submitted by Michael J. Isham Jr., Executive 
Administrator.]
                                 <greek-l>
                                 ______
                                 
                 Prepared Statement of Hain James deg.
 Prepared Statement of James H.W. Hain, Associated Scientists at Woods 
                                  Hole
    By way of introduction, I am a career scientist in Woods Hole, 
Massachusetts, and the editor of Right Whale News.
    My input is restricted to the appropriations and planning for 
recovery and conservation of the endangered North Atlantic right whale, 
Eubalaena glacialis, a species for which NOAA/NMFS has responsibility.
    This item appears in the budget as National Marine Fisheries 
Service; Operations, Research, and Facilities; Protected Resources 
Science and Management; and Marine Mammals, Sea Turtles and Other 
Species.
    I request that North Atlantic Right Whales be explicitly mentioned 
in the document language. Similar to what now exists for Prescott 
Grants.
    For nearly two decades, the species appeared to be recovering at a 
slow but acceptable rate (2\1/2\ percent). Beginning about 2011, this 
changed. Currently there is concern among scientists and managers about 
an apparent population decline, a shift in habitats, and a reduced calf 
production.
    There is a need for quality science and management to recover and 
conserve the species for this and future generations. At the same time, 
there are limited resources.
    Based on past years, the resources include about $8 million in 
congressionally appropriated funds.
    At issue is the use of those funds.
    A theme to my comments is that in recent years there has been a 
``drift'' in the actions of the NMFS. Discussions, decisions, funding 
priorities, and funding have been increasingly internal to the agency. 
(There is the perception of ``self-interest.'') The non-government 
right whale community, where a great deal of the history and expertise 
is located, is shunted to the side and marginalized. This is unhealthy 
for the tasks at hand.
    Of the congressionally appropriated right whale funds, at several 
levels, the agency ``taxes'' the funds for miscellaneous administrative 
costs, etc. With funds in short supply, funds are diverted from the 
task at hand and necessary research does not occur.
    I wish to offer several recommendations for consideration:

  --The guiding principles of transparency, accountability, and 
        stakeholder involvement should be vigorously re-visited, and 
        placed at the forefront of any actions going forward. This 
        would include an open accounting of how right whale monies are/
        will be spent (see for example the report in the October 2012 
        Right Whale News, attached).
  --The non-government right whale community (stakeholders) should be 
        included in the budget and planning discussions.
  --The budget language should include the re-instatement of the Right 
        Whale Competitive Grants Program (discontinued several years 
        ago). This would provide for greater inclusion of non-
        government researchers and projects, including innovative 
        methodologies, citizen science programs, and use of resources 
        with attractive cost-benefit ratios. This should be a robust 
        program component and on the order of $1.5M in size.
  --The budget language should include provision for external, 
        inclusive, independent review of recovery plans, the research 
        permit process, implementation teams, and monitoring plans. The 
        agency operates to a different standard than the rest of the 
        right whale community. Our proposals and work are scrutinized 
        and vetted. On the other hand, the agency actions on these 
        topics are predominantly ``internal.''

    As a suggestion, the language in the bill might look something 
like:

    North Atlantic right whales.--Within funding provided for Marine 
Mammals, Sea Turtles, and Other Species, the agreement (1) encourages 
NOAA/NMFS to provide a breakout accounting for right whale funds 
expended in fiscal year 2018 and planned for fiscal year 2019 (example 
appended), (2) encourages establishment of an independent working group 
to provide review of recovery plans, the research permit process, 
implementation teams, and monitoring plans, and (3) encourages NOAA/
NMFS to re-institute the Right Whale Competitive Grants Program 
(discontinued several years ago). This grants program would provide for 
greater inclusion of non-government researchers and projects, including 
innovative methodologies, citizen science programs, and use of 
resources with attractive cost-benefit ratios. This should be a robust 
program component and on the order of $1.5M in size.
    The NMFS has good programs, and many dedicated and capable staff. 
However, there is room for improvement. Under the appropriations 
process, the Congress should exercise its oversight role and bring 
improved checks-and-balances to the conservation of endangered North 
Atlantic right whales.
    I am happy to discuss any further details. Thank you.

    Attachment. An example of reporting/accounting for congressionally 
appropriated right whale funds. (From Right Whale News, October 2012)

 Table 1. The NMFS/NOAA right whale spending report for fiscal year 2012 funds. Dollar amounts are expressed in
                               thousands (i.e., the Total in row 1 is $7,904,000).
   Key: NEC=Northeast Fisheries Science Center, NER=Northeast Regional Office, SEC=Southeast Fisheries Science
   Center, SER=Southeast Regional Office, F/PR=Office of Protected Resources, Headquarters, and GC/CS=General
                                                    Counsel.
----------------------------------------------------------------------------------------------------------------
                                       NEC        NER        SEC        SER        F/PR       NOAA       Total
----------------------------------------------------------------------------------------------------------------
                                    .........  .........  .........  .........  .........      GC/CS
----------------------------------------------------------------------------------------------------------------
Total Received....................      2,505       2295        674      1,732        482        216       7,904
----------------------------------------------------------------------------------------------------------------
  ................................
----------------------------------------------------------------------------------------------------------------
Disentanglement Contingency.......          0         30          0         10          0          0          40
----------------------------------------------------------------------------------------------------------------
Aerial surveys....................    236 \1\
(non-state cooperative funded)....   (80 \2\)          0          0        166          0          0         402
----------------------------------------------------------------------------------------------------------------
NMFS salaries \3\                       1,473      1,065        254        264        303        187       3,546
(Full time equivalents and
 contracts).......................
----------------------------------------------------------------------------------------------------------------
Shipping Industry Liaison, Fishery          0          0          0        103          0          0         103
 Liaison, Critical Habitat
 Technical Support (contracts)....
----------------------------------------------------------------------------------------------------------------
Take Reduction Team travel support          0        250          0          0          0          0         250
 and vertical line model
 development......................
----------------------------------------------------------------------------------------------------------------
Habitat studies...................   (21 \2\)          0          0          0          0          0    (21 \2\)
----------------------------------------------------------------------------------------------------------------
State cooperative funding                   0        650          0      1,146          0          0       1,796
 (including funds for aerial
 surveys, habitat research,
 disentanglement, recovery
 implementation, and enforcement).
----------------------------------------------------------------------------------------------------------------
Vessel strike reduction...........          0          0          0          0    174 (75          0     174 (75
                                                                                     \2\)                   \2\)
----------------------------------------------------------------------------------------------------------------
Whale detection technologies......     0 (491          0        403          0          0          0    491 (512
                                         \2\)                                                               \2\)
----------------------------------------------------------------------------------------------------------------
Sightings database/Photo-ID               363  .........  .........  .........  .........  .........         363
 catalog..........................
----------------------------------------------------------------------------------------------------------------
Travel and Misc. Administrative           433        300         17         43          5         29         827
 costs............................
----------------------------------------------------------------------------------------------------------------
\1\ Aircraft fees and contract labor for surveys only
\2\ Right whale funding from other sources and not paid for from NMFS right whale funds.
\3\ Includes salaries, benefits, awards and additional administrative cost.

      
                                 ______
                                 
     Prepared Statement of the Human Factors and Ergonomics Society
    On behalf of the Human Factors and Ergonomics Society (HFES), we 
are pleased to provide this written testimony to the Senate 
Appropriations Subcommittee on Commerce, Justice, and Science, and 
Related Agencies for the official record. HFES urges the subcommittee 
to provide $8.45 billion for the National Science Foundation (NSF) and 
$21.7 billion for the National Aeronautics and Space Administration 
(NASA) in the fiscal year 2018 appropriations process.
    HFES and its members believe strongly that investment in scientific 
research serves as an important driver for innovation and the economy, 
national security, and for maintaining American global competitiveness. 
We thank the subcommittee for its longtime recognition of the value of 
scientific and engineering research and its contribution to innovation 
in the United States.
           the value of human factors and ergonomics science
    HFES is a multidisciplinary professional association with over 
4,500 individual members worldwide, comprised of scientists and 
practitioners, all with a common interest in enhancing the performance, 
effectiveness and safety of systems with which humans interact through 
the design of those systems' user interfaces to optimally fit humans' 
physical and cognitive capabilities.
    For over 50 years, the U.S. Federal Government has funded 
scientists and engineers to explore and better understand the 
relationship between humans, technology, and the environment. 
Originally stemming from urgent needs to improve the performance of 
humans using complex systems such as aircraft during World War II, the 
field of human factors and ergonomics (HF/E) works to develop safe, 
effective, and practical human use of technology. HF/E does this by 
developing scientific approaches for understanding this complex 
interface, also known as ``human-systems integration.'' Today, HF/E is 
applied to fields as diverse as transportation, architecture, 
environmental design, consumer products, electronics and computers, 
energy systems, medical devices, manufacturing, office automation, 
organizational design and management, aging, farming, health, sports 
and recreation, oil field operations, mining, forensics, and education.
    With increasing reliance by Federal agencies and the private sector 
on technology-aided decisionmaking, HF/E is vital to effectively 
achieving our national objectives. While a large proportion of HF/E 
research exists at the intersection of science and practice--that is, 
HF/E is often viewed more at the ``applied'' end of the science 
continuum--the field also contributes to advancing ``fundamental'' 
scientific understanding of the interface between human decisionmaking, 
engineering, design, technology, and the world around us through 
research funded by NSF. The reach of HF/E is profound, touching nearly 
all aspects of human life from the healthcare sector, to the ways we 
travel, to the hand-held devices we use every day.
    human factors and ergonomics at the national science foundation
    HFES and its members believe strongly that Federal investment in 
NSF will have a direct and positive impact on the U.S. economy, 
national security, and the health and well-being of Americans. It is 
for these reasons that HFES supports robust funding for the Foundation 
to encourage further advancements in the fields of technology, 
education, defense, and healthcare, among others. HFES also supports 
the Foundation's dedication to its ``10 Big Ideas,'' \1\ including 
Future of Work at the Human-Technology Frontier (FW-HTF), which seeks 
to address and improve human-technology interactions as workplaces 
integrate and adapt to artificial intelligence, automation, machine 
learning, and beyond. In the past, NSF funding for HF/E basic research 
has strengthened interdisciplinary partnerships allowing for a 
multilateral approach to technology research and development, including 
the human and user perspectives. The benefits of this research are not 
confined to one field but rather span across a range of disciplines to 
increase understanding of the way humans interact with technology, as 
well as with each other.
---------------------------------------------------------------------------
    \1\ National Science Foundation-proposed ``10 Big Ideas'' (https://
www.nsf.gov/about/congress/
reports/nsf_big_ideas.pdf?dm_i=1ZJN,4FGWL,E29O0Q,GB891,1).

---------------------------------------------------------------------------
    In particular, NSF funds HF/E research to:

  --Better understand and improve the effectiveness of how individuals, 
        groups, organizations, and society make decisions.\2\
---------------------------------------------------------------------------
    \2\ Decision, Risk & Management Sciences (DRMS) Program (http://
www.nsf.gov/funding/pgm_summ.jsp?pims_id=5423).
---------------------------------------------------------------------------
  --Improve understanding of the relationship between science and 
        engineering, technology, and society, in order to advance the 
        adoption and use of technology.\3\
---------------------------------------------------------------------------
    \3\ Science, Technology, and Society (STS) Program (http://
www.nsf.gov/funding/pgm_
summ.jsp?pims_id=5324&org=SES&from=home).
---------------------------------------------------------------------------
  --Gain a better understanding of how humans and computers interact to 
        ensure the development of new devices or environments that 
        empower the user.\4\
---------------------------------------------------------------------------
    \4\ Human Centered Computing (HCC) Program (http://www.nsf.gov/
funding/pgm_
summ.jsp?pims_id=503302&org=IIS&from=home).
---------------------------------------------------------------------------
  --Inform decisionmaking in engineering design, control, and 
        optimization to improve individual engineering components and 
        entire systems.\5\
---------------------------------------------------------------------------
    \5\ Systems Engineering and Design Cluster (http://www.nsf.gov/
funding/pgm_
summ.jsp?pims_id=13473&org=CMMI&from=home).
---------------------------------------------------------------------------
  human factors and ergonomics at the national aeronautics and space 
                             administration
    HF/E is a critical enabler of NASA science, aeronautics, and human 
spaceflight missions. Through the Human Research Program,\6\ NASA and 
external HF/E practitioners conduct research on the design and 
procedures that influence most, if not all, aspects of astronaut and 
mission control performance. This crucial role is necessary for the 
Agency to ensure safety and efficiency in complex systems with narrow 
risk parameters.
---------------------------------------------------------------------------
    \6\ NASA Human Research Program (https://www.nasa.gov/hrp)
---------------------------------------------------------------------------
    The practical applications of HF/E will only become more pronounced 
as NASA looks to expand the horizon of human exploration. With the 
United States planning to send humans beyond Earth orbit, unique 
challenges will arise that necessitate an increased reliance on HF/E 
research. Long duration missions with the potential for delayed Earth 
communications will require systems and procedures designed to 
guarantee safe operation of autonomous systems. This and other issues 
were highlighted in the National Aeronautics and Space Administration 
Transition Authorization Act of 2017,\7\ wherein Congress required NASA 
to take into consideration HF/E research outcomes in the mandated Human 
Exploration Roadmap.
---------------------------------------------------------------------------
    \7\ National Aeronautics and Space Administration Transition 
Authorization Act of 2017, Sec. 432(b)(3)(J) (https://www.congress.gov/
115/bills/s442/BILLS-115s442enr.pdf).
---------------------------------------------------------------------------
                               conclusion
    Given NSF's critical role in supporting fundamental research and 
education across science and engineering disciplines, HFES supports an 
overall fiscal year 2019 NSF budget of $8.45 billion and a NASA budget 
of $21.7 billion. This investment funds important research studies, 
enabling an evidence-base, methodology, and measurements for improving 
organizational function, performance, and design across sectors and 
disciplines.
    On behalf of HFES, we would like to thank you for the opportunity 
to provide this testimony. Please do not hesitate to contact us should 
you have any questions about HFES or HF/E research. HFES truly 
appreciates the subcommittee's long history of support for scientific 
research and innovation.

    [This statement was submitted by Valerie Rice, President, and Julie 
Freeman, Interim Executive Director.]
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives
                          interest of the ime
    The Institute of Makers of Explosives (IME) is a nonprofit 
association founded over a century ago to provide accurate information 
and comprehensive recommendations concerning the safety and security of 
commercial explosive materials. Our mission is to safeguard employees, 
users, the public and the environment, and to encourage the adoption of 
uniform safety and security rules and regulations in the manufacture, 
transportation, storage, handling, use and disposal of the explosive 
materials used in blasting, oil and gas extraction, and other essential 
operations. IME represents U.S. manufacturers, distributors and 
transporters of commercial explosive materials and oxidizers as well as 
other companies that provide related services. The majority of IME 
members are ``small businesses'' as determined by the U.S. Small 
Business Administration.
    Millions of metric tons of high explosives, blasting agents, and 
oxidizers are consumed annually in the United States. These materials 
are essential to the U.S. economy. Energy production, construction, 
mining, quarrying, demolition, and other specialized applications begin 
with the use of commercial explosives. IME member companies and their 
affiliates produce nearly all of the explosives used in these 
industries. Commercial explosives are used in every State and are 
distributed worldwide. The ability to manufacture, distribute, and use 
these products safely and securely is critical to our industry.
    Commercial explosives are pervasively regulated by a myriad of 
Federal and State agencies. The Bureau of Alcohol, Tobacco, Firearms 
and Explosives (ATF) plays a predominant role in ensuring that 
explosives are manufactured, identified, tracked, and stored in a safe 
and secure manner and received only by authorized persons. IME shares 
ATF's focus on safety and security, and it is from that perspective 
that we offer the following comments.
                  imesafr and regulation modernization
    Current ATF explosive storage regulations as well as U.S. Coast 
Guard permitting factors for explosives cargoes are not based on modern 
explosives, modern storage and cargo systems, current science, and the 
operational practices that have evolved over the past century. Instead 
they are based on outdated quantity distance tables, and specifically, 
ATF applies the American Table of Distances (ATD) which was developed 
by IME from a review of accidents at the turn of the nineteenth 
century. The ATD does not minimize risks to the public, it simply sets 
a distance where the public survived accidents in the late 19th 
century. While it has served the Nation well, in today's environment, 
explosives are less sensitive and land, necessary to meet the over-
conservative standards of the ATD, is more scarce. Therefore, the 
United States should use available technology and develop a 
quantitative risk methodology that is grounded in research and testing 
which can minimize the risk to the public, remove unrealistic 
conservatism, and establish a consistent methodology for industry and 
government.
    Recognizing the opportunity, IME spent over a decade developing a 
scientifically-based computer model for assessing the risk from a 
variety of commercial explosives activities called the Institute of 
Makers of Explosives Safety Analysis for Risk (IMESAFR).\1\ This 
quantitative risk assessment program allows establishment of a 
tolerable risk standard that will provide a definitive level of risk 
that industry and other Federal entities will be able to understand and 
be able to use as a bright-line when developing projects. In plain 
language, IMESAFR will help minimize risk to employees and the public 
in today's environment.
---------------------------------------------------------------------------
    \1\ IMESAFR was built on the Department of Defense Explosives 
Safety Board's software model, SAFER. The DDESB currently uses SAFER 
and table-of -distances methods to approve or disapprove Department of 
Defense explosives activities. Not only can IMESAFR determine the 
amount of risk presented, but it can also determine what factors drive 
the overall risk and what actions would lower risk, if necessary. The 
probability of events for the activities were based on the last 20 
years of experience in the U.S. and Canada and can be adjusted to 
account for different explosive sensitivities, additional security 
threats, and other factors that increase or decrease the base value.
---------------------------------------------------------------------------
    IME is committed to ensuring that regulators and users of IMESAFR 
have the highest level of confidence that the program is designed to 
the necessary specifications and performs as such. To this end, the 
National Center for Explosives Training and Research (NCETR) has 
partnered with IME on efforts to further validate IMESAFR data and 
ensure transparency of the scientific process by participating in 
testing and supporting an independent IMESAFR Science Panel. With a 
goal of transparency for governments, the IMESAFR Science Panel is 
composed of representatives from ATF, Department of Homeland Security, 
the Canadian Explosives Research Laboratory, academia, consultants, and 
industry. The IMESAFR Science Panel has the ability to ``look under the 
hood'' of the program so regulators can be confident that the science 
is accurate and validated by testing and studies.
    As we reported last year, ATF approved the first variance from the 
American Table of Distances (ATD) based on risk assessment using 
IMESAFR in 2015. Since that time the Bureau is becoming more confident 
with the program and have issued a half dozen more variances. 
Similarly, the U.S. Coast Guard has policies that allow use of 
quantitative risk assessment at ports and have issued at least one 
waiver based on IMESAFR.
    For the reasons stated above, IME urges the subcommittee to provide 
additional resources to ATF to allow them to conduct further validation 
and testing in order to develop or reaffirm policies that allow the use 
of such models to meet regulatory mandates. Additional resources are 
required to produce the testing, data collection, analysis, review, and 
regulatory framework necessary to validate the program to ensure wide 
acceptance and confidence. ATF would then have the capability to test 
and evaluate energetic materials, explosives, and storage systems and 
develop new technologies. Ultimately, this capability would serve to 
reduce risk to the public while reducing regulatory burden and 
increasing industry investment in U.S. production and explosives 
export--all of which will benefit the Nation.
                  atf's explosives regulatory program
    IME understands the difficult decisions that ATF and the Federal 
Government face when allocating scarce resources. We also understand 
the other important work and responsibilities that ATF is assigned. 
Nevertheless, the members of IME, their employees and customers rely on 
a properly funded and staffed regulatory program. The success of ATF's 
explosives programs in preventing the misappropriation of commercial 
explosives should not be seen as an opportunity to reallocate funding, 
but, rather, as confirmation that a base level of funding is necessary 
for ATF to fulfill its mission. ATF must retain a cadre of trained 
personnel to perform these vital services. The commerce of explosives 
is so closely regulated that failure to provide adequate personnel and 
resources can be detrimental to our industry, our customers, our 
employees, and the industrial sector of the U.S. economy.
    ATF is the primary Federal law enforcement agency that regulates 
the explosives industry--licensing and permitting businesses and 
individuals to engage in manufacturing, importing, or dealing in 
explosives, or receiving or transporting explosives materials.\2\ By 
law, ATF must inspect an estimated 10,000 explosives licensees and 
permittees at least once every 3 years. ATF's workload also involves 
ensuring the completion of background checks for employee possessors of 
explosives and responsible persons.
---------------------------------------------------------------------------
    \2\ Fiscal year 2019 ATF Congressional Budget Submission, page 23.
---------------------------------------------------------------------------
    We would be remiss, however, if we did not take this opportunity to 
implore ATF to recognize its regulatory responsibility to ``answer the 
mail'' and provide timely responses to requests for variances, 
classifications, determinations and policy interpretations which are 
vital to the safety and security of the industry. Due to the Bureau's 
role as the primary regulator of explosives in the United States, IME 
further requests that ATF continue to participate in relevant industry 
and government forums that impact the industry, including both relevant 
U.S. and international conferences and meetings. For example, IME is 
disappointed ATF chose not to participate in the International Group of 
Experts on the Explosion Risks of Unstable Substances (IGUS), 
subcommittee on Explosives, Propellants and Pyrotechnics (EPP) meeting 
that occurred this month because they deemed it not mission critical 
despite the lengthy agenda of commercial explosives regulatory topics.
    In regard to vetting, IME has previously recommended that ATF 
harmonize its vetting and clearance procedures with those used by other 
Federal programs. Doing so would allow ATF's vetting program to be 
reciprocally recognized by these programs and save time and resources 
of the agency and the individuals being vetted. In 2015, the Department 
of Homeland Security moved to accept ATF's vetting program, but that 
was due to congressional action, not necessarily DHS confidence with 
the vetting process. Nevertheless, since concerns remain we encourage 
the Committee to require ATF to determine what resources or changes in 
procedure it would take to harmonize ATF's vetting standards and 
procedures with those used by other agencies and to improve the 
timeliness of vetting programs.
                        atf-industry partnership
United States Bomb Data Center
    The U.S. Bomb Data Center (USBDC) is responsible for collecting and 
storing explosives-related incident data, to include information on 
thousands of explosives incidents investigated by ATF and other 
Federal, State, and local law enforcement agencies. While this data 
helps government entities to share investigative leads, perform trend 
analysis, and compare incidents for similarities and crime 
methodologies, USBDC data also helps the industry in efforts to 
identify any potential weaknesses or reaffirm the effectiveness of 
safety and security practices, and to update industry standards 
accordingly.
    As we stated in prior years, IME appreciates USBDC reinstating the 
issuance of the Explosives Incident Report (EIR) and including more 
detailed information. The data helps confirm the success of industry 
best practices and the effectiveness of ATF regulations. Recently, IME 
reviewed 20 years of available ATF EIRs, and the use of commercial 
explosives used in domestic criminal events has remained around or 
below 2 percent throughout that time period. In 2015, that number was 
.7 percent. In 2015, thefts of commercial explosives dipped to a 
historic low of 8 total reported thefts. To put this in context, in the 
same year, over 5 billion pounds of commercial explosives were consumed 
in the United States. This is clearly evidence of the success of IME 
safety and security best practices coupled with ATF's sound regulatory 
structure.
National Center for Explosives Training and Research
    IME would like to commend ATF for its work at the National Center 
for Explosives Training and Research (NCETR), including training, 
testing and research, which is critically important for the safety and 
security of explosive materials. As stated above, IME should allocate 
the necessary funding to NCETR to allow them to conduct further 
validation and testing in order to develop or reaffirm policies that 
modernize ATF's regulatory program.
                           industry standards
    IME holds in high regard the statutory obligation that ATF take 
into account industry's standards of safety and security when issuing 
rules and requirements. We continue to fulfill this obligation through 
our development of industry best practices for safety and security, 
membership in relevant standard-setting organizations, and active 
participation in industry and government forums. IME is nearly finished 
compiling a series of recommendations that will align the regulations 
with the industry best practices which we believe will enhance safety 
and security which will be formally presented to ATF for review and 
incorporation into regulations. We hope that ATF will cooperate in this 
exercise to modernize regulations.
                               conclusion
    ATF plays a critical role in helping the explosives industry 
achieve and maintain a strong safety and security record. Even though 
explosives may be dangerous materials when in the wrong hands, the 
manufacture and distribution of explosives is accomplished with a 
remarkable degree of safety and security. The use of explosives is 
essential to sustain the economy, and the explosives industry and the 
general public are dependent on ATF. The Bureau must have adequate 
resources to fulfill its mission and keep the American public safe.

    [This statement was submitted by John Boling, Vice President of 
Government Affairs.]
                                 ______
                                 
  Prepared Statement of Institutes in Support of the National Science 
                     Foundation and Its Investment
    The institutions listed at the end of this statement are pleased to 
submit to the subcommittee this statement in which we collectively 
argue that the investment in research and education made via the 
National Science Foundation (NSF) is essential to the long-term 
security of the Nation. In particular the support provided by NSF for 
geoscience research, infrastructure, and education is vital if our 
Nation is to address critical security issues related to national 
defense, economic competitiveness, and public health and safety. The 
entities lending their name to this statement recommend that the 
Congress provide NSF with an appropriation of $8.45 billion for fiscal 
year 2019. This is consistent with recommendations contained in the 
Dear Colleague Letters led by Rep. G.K. Butterfield and Rep. David B. 
McKinley in the House and Senator Markey and others in the Seante, 
along with the Coalition for National Science Funding, the Association 
of American Universities, and the Association of Public and Land-grant 
Universities. Funding at this level will start to reverse the trend of 
the last 20 years that has left the United States on the verge of 
falling behind our international competitors.
    Growth in the annual investment in American science by NSF is 
critical to support innovation, which is critical for national 
security, economic competitiveness, improvements in living standards, 
and support for public and societal well-being. Research and 
development (R&D) is a major driver of innovation, and R&D expenditures 
reflect a nation's commitment to expanding capabilities in Science & 
Engineering (S&E), which in turn drives innovation. On January 18, the 
National Science Board released the biennial Science and Engineering 
Indicators 2018. The report finds that the world's nations are 
continuing to accelerate the growth of their technology-intensive 
economies. It documents how the S&E landscape--historically 
concentrated in the U.S., Europe, and Japan--is rapidly shifting as 
China and other countries continue to increase their R&D investments. 
It makes clear that while the U.S. remains the global leader by many 
S&E measures, China has continued its rapid rise in the rankings.
    Investments in research and education are essential for maintaining 
technological innovations and advancements that will help our society 
and a global population survive in a rapidly changing world. Investing 
in research returns economic prosperity many times over. If the U.S. is 
to meet the environmental and economic challenges facing this country, 
we must make the necessary investments in our research and education 
enterprise.
                     research and national security
    In response to questions for the record from the Senate Armed 
Services Committee in early 2017, U.S. Secretary of Defense James 
Mattis said, ``. . . climate change is a challenge that requires a 
broader, whole-of-government response. If confirmed, I will ensure that 
the Department of Defense plays its appropriate role within such a 
response by addressing national security aspects.'' In making that 
statement, Secretary Mattis joined a long list of defense, national 
security, and intelligence leaders that have recognized the significant 
and unprecedented national and homeland security risks posed by the 
climate issue such as sea level rise and increased storm surges, which 
could inundate coastal military and civilian infrastructure. Drastic 
changes in food, water, and energy availability also increase the 
likelihood of instability and state failure across the globe. The 
gravity of these risks has been affirmed by a number of senior defense 
and intelligence leaders in the current administration, in addition to 
Secretary of Defense Mattis. This list includes Vice Chairman of the 
Joint Chiefs of Staff, General Paul Selva; Secretary of the Navy, 
Richard Spencer; Assistant Secretary of Defense for Energy, 
Installations and Environment, Lucian Niemeyer; Chief of the National 
Guard Bureau, General Joseph Lengyel; Assistant Secretary of the Army 
for Civil Works, R. D. James; and Director of National Intelligence, 
Dan Coats. This issue was most recently addressed at the April 12, 2018 
hearing before the House Appropriations Subcommittee on Military 
Construction and Veterans Affairs in an exchange between subcommittee 
Members and Assistant Secretary fo Defense (Energy, Installations, and 
Environment) Lucian Niemeyer.
    In summer 2017, the first ship to traverse the Arctic Northern Sea 
Route without assistance from ice-breaking vessels completed its 
journey. That transformational moment drives home both the opportunity 
and the imperative for the United States, a Nation with an important 
Arctic presence, to ready itself for the new Arctic. The Arctic is 
warming at twice the rate of the rest of the Earth with far-reaching 
consequences for Arctic residents. Arctic change will fundamentally 
alter climate, weather and ecosystems globally in ways that we do not 
yet understand but that will have profound impacts on the world's 
economy and security. Rapid loss of Arctic sea ice and other changes 
will also bring new access to the Arctic's natural resources such as 
fossil fuels, minerals, and new fisheries, and this new access is 
already attracting international attention from industry and nations 
seeking new resources. NSF proposes, via its ``Big Ideas"initiative 
called Navigating the New Arctic (NAA), to establish an observing 
network of mobile and fixed platforms and tools across the Arctic to 
document these rapid biological, physical, chemical and social changes, 
leveraging participation by other Federal agencies. Current Arctic 
observations are sparse and inadequate for enabling discovery or 
simulation of the processes underlying Arctic system change or to 
assess their environmental and economic impacts on the broader Earth 
system. Among Federal agencies, NSF is unique in its ability to fund 
bottom-up research driven by the U.S. academic research community 
across the physical, biological, social, engineering and computational 
sciences. Arctic research also offers greater opportunity for the next 
generation of Arctic researchers.
    NSF has issued a Dear Colleague Letter in fiscal year 2018 inviting 
research proposals related to the NNA focusing on: establishment of 
observational research sites, observational platforms, or networks of 
sites to document key aspects of the changing Arctic; studies to 
understand and forecast changes in biogeochemical, geophysical, 
ecological and social processes occurring in the new Arctic; studies of 
feedbacks between the design and engineering of urban and rural civil 
infrastructure and changes in natural ecosystems such as thawing 
permafrost and sea ice retreat and social systems such as increasing 
marine commerce; and studies that advance STEM education through Arctic 
research activities.
   geoscience research--vital for economic security and public safety
    A series of articles that appeared in Pacific Standard identify 
other ramifications stemming from changes to our environment. Potential 
health risks are estimated to rise significantly because of higher 
temperatures and complications from natural disasters. An additional 
250,000 people are projected to die every year between 2030 and 2050 as 
a result of these health risks, according to the World Health 
Organization. Malnutrition could affect nearly half a million adults 
globally by 2050 as a result of food and nutrition scarcity. The 
economies of the States in the South, Midwest, and mid-Atlantic are 
expected to suffer from predicted gross domestic product losses of up 
to 28 percent because of the effects of greenhouse-gas emissions on 
field production. Marine fisheries globally, which have been estimated 
to support the livelihoods of 10 to 12 percent of the world's 
population, are projected to show decreased yields and profits. 
Islands, inhabited by hundreds of residents, such as the Tangier 
Islands in the Chesapeake Bay, could be entirely consumed by rising sea 
levels by 2050, or sooner.
    The Federal Government has a responsibility to meet these future 
challenges. To fulfill this responsibility, one important step the 
Nation should take is to enhance its investment in basic research and 
related infrastructure through NSF, with a particular focus on the 
geosciences and related areas. This investment will help to create the 
new knowledge and technological capabilities--along with the educated 
and trained workforce to use these new tools--to address these 
challenges and seize the strategic opportunities presented by such 
efforts. Investing in basic research related to the geosciences will 
not just support national security efforts, it will also contribute to 
the development of new knowledge and technologies that will contribute 
to the Nation's economic competitiveness and public safety.
    In minerals development, NSF-funded research on magma systems in 
Antarctica led to a genetic ore deposit model that was vital to the 
discovery of the significant Nokomis copper-nickel-platinum group 
element deposit in northern Minnesota. The Nokomis deposit contains 
estimated metal resources of approximately 10 billion pounds of copper, 
3.1 billion pounds of nickel, 165 million pounds of cobalt, 4 million 
ounces of platinum, 9 million ounces of palladium, and 2 million ounces 
of gold. Meanwhile, geoscientists have created large, high-quality 
synthetic diamonds and determined how to manipulate their toughness, 
hardness, and color. Synthetic diamonds are significantly harder than 
real diamonds, making them suitable for industrial applications, such 
as the production of cutting tools and faster computer processors. They 
are also 30 percent cheaper than natural diamonds, which can cost 
upwards of $2,000 per carat.
    Researchers have shown that geodetic networks can help to provide 
earthquake and tsunami early warnings that can save lives and limit 
damage. NSF/GEO operates and maintains the largest geodetic network for 
research in the United States and supports extended networks in the 
Americas and Caribbean. Besides understanding earth processes in the 
crust, ice, snow and atmosphere, these observing networks are critical 
for hurricane, severe weather, space weather, fire, floods, 
earthquakes, volcanoes, landslides and tsunamis monitoring. With the 
growth of other GPS-like constellations, the Global Navigation 
Satellite System (GNSS) ensures that these ground-based geodetic 
networks will gather more data from more satellites and will improve/
enhance surveying, engineering, navigation (especially self-driving 
cars and the like), precision agriculture and timing (e.g. for 
financial markets).
    Along the U.S. coast, storm surge is often the greatest threat to 
life and property from a hurricane. NSF-funded researchers are 
quantifying how future tropical storm surges may impact U.S. coastal 
properties, using past patterns of coastal sea-level change. From 1990 
to 2008, population density increased by 32 percent in Gulf coastal 
counties, 17 percent in Atlantic coastal counties, and 16 percent in 
Hawaii, according to the U.S. Census Bureau. In 2011, 45 percent of our 
Nation's GDP was generated in the Coastal Shoreline Counties along the 
oceans and Great Lakes. A storm surge of 23 feet has the ability to 
inundate 67 percent of interstate highways, 57 percent of arterial 
roads, almost half of rail miles, 29 airports, and virtually all ports 
in the Gulf Coast area. Information on coastal property risk is vital 
to owners, insurers, and government.
    Rare violent storms on the Sun--the source of space weather--have 
the potential to knock out the entire electrical power grid, possibly 
for months, resulting in trillions of dollars of damage and bringing 
chaos to much of the country. NSF's investment in understanding, 
modeling, and observing space weather systems are developing predictive 
models to forecast and mitigate this catastrophic possibility.
                          concluding thoughts
    Each day NSF-supported advancements such as those highlighted above 
make our lives better and safer. NSF provides financial support for our 
Nation's brightest minds to aid them in their endeavors to address 
challenging problems. Funding for the NSF results in investments that 
lead to the development of a competitive and resourceful workforce that 
will ensure our national security and enable our country to maintain 
and strengthen its leadership in science and technology. Therefore, we 
respectfully request your support to ensure that NSF receives at least 
$8.45 billion for fiscal year 2019. This level of funding will help 
ensure that future generations of Americans are prepared to help our 
Nation remain a world economic leader.
    Thank you for the opportunity to offer these recommendations.

Consortium for Ocean Leadership
National Association of Marine Laboratories
Lamont-Doherty Earth Observatory, Columbia University
University Corporation for Atmospheric Research
Woods Hole Oceanographic Institution
Scripps Institution of Oceanography
Stanford University
Incorporated Research Institutions for Seismology
UNAVCO
University of Oregon
Oregon Institute of Marine Biology
George Mason University
University of Pittsburgh
Institute for Global Environmental Strategies
Florida State University
Annis Water Resources Institute--Grand Valley State University
Bermuda Institute of Ocean Sciences (Bermuda and New York)
Friday Harbor Laboratories, College of the Environment, University of 
Washington
Global Science Associates
NC State University, Center for Marine Sciences & Technology
Moss Landing Marine Laboratories
California State University Council on Ocean Affairs, Science & 
Technology
School of Ocean and Earth Science and Technology, University of Hawaii 
at Manoa
American Society of Agronomy
Crop Science Society of America
Soil Science Society of America
Institute at Brown for Environment and Society, Brown University
American Association of Geographers
Penn State University
Department of Earth & Planetary Sciences, The Johns Hopkins University
Southeastern Universities Research Association
University of North Carolina Wilmington
Dauphin Island Sea Lab
Metropolitan State University of Denver
Cleantech San Diego
CODAR Ocean Sensors
Del Mar Oceanographic
Kinemetrics
Ocean Aero, Inc.
Rowe Technologies Inc.
SeaView Systems, Inc.
Guam-EPSCoR, University of Guam
Michigan Technological University
University of Delaware
International Ocean Science & Technology Industry Association
Florida Atlantic University--Harbor Branch Oceanographic Institute
University of Wisconsin--Madison
Department of Ocean, Earth & Atmospheric Sciences, Old Dominion 
University
University of Massachusetts Dartmouth
Stony Brook University
Gulf of Mexico University Research Collaborative
Office of Research, Rutgers University
American Anthropological Association
Hatfield Marine Science Center, Oregon State University
National Ground Water Association
Belle W. Baruch Institute for Marine and Coastal Sciences
Florida Atlantic University--Geosciences Department.
University of South Florida--College of Marine Science
University of New Hampshire
Skidaway Institute of Oceanography, University of Georgia
Research!America
The Weather Coalition
University of Hawaii
Geological Society of America
University of California System
Great Lakes WATER Institute, University of Wisconsin-Milwaukee
Louisiana State University
Virginia Commonwealth University
Association of Public & Land-grant Universities
American Geosciences Institute
University of California, Davis
University of Kansas
University of Florida
Coastal and Estuarine Research Federation
North Carolina Agricultural and Technical University
University of California San Diego
American Geophysical Union
College of Earth, Ocean & Atmospheric Sciences, Oregon State University
University of Colorado Boulder
American Astronomical Society
University of Iowa
University of California, Los Angeles
Virginia Institute of Marine Science
Council on Undergraduate Research, Geosciences Division
Marine Science Research Institute, Jacksonville University
Colorado School of Mines
BMT
Delawarde Inc.
Grassy Bar Oyster Company, Inc.
Sea-Bird Scientific
Gnostech, Inc
Assure Controls, Inc.
Catalina Offshore Products
National Council for Science and the Environment
Sanibel-Captiva Conservation Foundation Marine Laboratory
University of Washington
Sitka Sound Science Center
Kewalo Marine Laboratory, University of Hawaii at Manoa
Institute of Water and Environment, Florida International University
University of Denver
University of Calfornia, Irvine
University of Maryland, Baltimore County
Aquaai Corporation
FlyWire Cameras
      
                                 ______
                                 
          Prepared Statement of the Jamestown S'Klallam Tribe
    On behalf of the Jamestown S'Klallam Tribe, I am pleased to submit 
this written testimony on our funding priorities and requests for the 
fiscal year 2019 Department of Justice and Department of Commerce 
Budgets. Our Budget Request endorses the requests and recommendations 
of the Northwest Indian Fisheries Commission and the National Congress 
of American Indians. The provision of public safety and justice is a 
core element of any government and critical for a well-functioning 
market economy. Public Safety is an integral part of the strength of 
our Tribal Governments and well-being of our Indian communities. Strong 
Tribal Justice Systems also benefit States and surrounding communities 
and is essential for conducting business on Indian lands.

TRIBAL SPECIFIC--DEPARTMENT OF JUSTICE/DEPARTMENT OF COMMERCE
1.  Provide Recurring Base Funding for Tribal Justice Programs
2.  Hold Indian Country Harmless from Budgetary Reductions, 
Rescissions, and Sequestration
3.  Data Collection to Support Funding Requests

REGIONAL REQUESTS AND RECOMMENDATIONS--DEPARTMENT OF COMMERCE (Support 
        the fiscal year 2019 request of the Pacific Salmon Commission)
1.  Provide $110 million for the Pacific Coastal Salmon Recovery Fund 
(NOAA/NMFS)
2.  Provide $18.3 million for the Pacific Salmon treaty, including the 
additional $5.5 million for the 2008 Chinook Salmon Agreement (NOAA/
NMFS)
3.  Provide $20.3 million for the Mitchell Act Hatchery Program (NOAA/
NMFS)

NATIONAL REQUESTS AND RECOMMENDATIONS--DEPARTMENT OF JUSTICE
1.  Fully Fund the Tribal Law and Order Act (TLOA)
2.  Fully Fund Violence Against Women Act (VAWA)
3.  Office of Justice Programs (OJP)--Create a Ten Percent (10 percent) 
Tribal Set-Aside for Tribes
4.  Victims of Crime Act Funding--Provide a 5 percent (5 percent) set 
aside
5.  Fund COPS Program--$52 million

TRIBAL SPECIFIC REQUESTS
1. Provide Recurring Base Funding for Tribal Justice Programs
    Stable funding at sufficient levels is essential for viable and 
effective Tribal justice institutions. Grant funding is, at best, a 
short term investment that is used to support the ongoing and critical 
Tribal justice needs. Although we appreciate the intent of the 
Department in developing the CTAS to streamline the grant process and 
provide Tribes a tool for quick access and reference to funding that is 
specifically available to Tribes, competitive grants do not work well 
as the main funding source. The time limitation leads to instability, 
the administrative burden on Tribes remains excessive, the lack of 
flexibility creates challenges to addressing justice needs, funding is 
insufficient, and the CTAS application process is highly competitive, 
tedious, and complex and there are many restrictions imposed on how 
Tribes may use the funds. Base funding coupled with more flexibility 
would allow for more effective and efficient use of the Federal dollar 
and stronger Tribal justice systems.
2. Hold Indian Country Programs Harmless from Budgetary Reductions, 
        Rescissions and Sequestration
    Decades of unfulfilled Federal obligations has devastated Tribal 
communities who continue to face persistent shortfalls and overwhelming 
unfulfilled Federal obligations. Sequestration, reductions and 
rescissions further exasperate an already precarious budget situation 
undermining the Tribes ability to maximize program operations and their 
ability to provide basic services to our citizens. In addition, many of 
these reductions are permanent rescissions and the cumulative effect 
over the years has critically impacted Tribal communities. Until Tribes 
attain exclusive taxing jurisdiction within their Tribal lands, Federal 
support remains critical to ensure the delivery of essential 
governmental services to our Tribal citizens. The Federal trust 
obligation must be honored and vital programs and services for Tribes 
must be sustained and held harmless in any budgetary deal enacted to 
reduce the national deficit.
3. Improve Data Collection to Support Tribal Funding Requests
    Data is critical to support Tribal policy goals, implementation of 
programs and services, managing impacts of the Federal investment and 
community planning for program success. Accurate data can capture the 
community needs and guide Tribal investments resulting in efficient and 
effective use of resources and strong Tribal economies. However, there 
is a lack of available data and data gathering throughout the Federal 
agencies. OMB and the Agencies should work together with Tribes to 
develop uniform measures that track Federal spending for Native 
American programs and services and that capture the unfulfilled Federal 
obligations.

REGIONAL REQUESTS AND RECOMMENDATIONS
    1. $110 million for the Pacific Coastal Salmon Recovery Fund (NOAA/
NMFS).--The fiscal year 2017 appropriations provided a total of $65.0 
million. These funds have decreased from the peak of $110.0 million in 
fiscal year 2002. The Tribes' overall goal in the PCSRF program is to 
restore wild salmon populations while the key objective is to protect 
and restore important habitat in Puget Sound and along the Washington 
coast. These funds support policy and technical capacities within 
Tribal resources management to plan, implement, and monitor recovery 
activities.
    2. $18.3 million for the Pacific Salmon Treaty--The U.S. Section 
estimates that this funding is needed to implement national commitments 
created by the Treaty (NOAA/NMFS).--The Pacific Salmon Commission (PSC) 
establishes fishery regimes, develops management recommendations, 
assesses each country's performance and compliance with the treaty, and 
is the forum for all entities to work towards reaching an agreement on 
mutual fisheries issues.
    3. $20.3 million for the Mitchell Act Hatchery Program (NOAA/
NMFS).--Funding is provided for the operation and maintenance of 
hatcheries that release between 50 and 60 million juvenile salmon and 
steelhead in Oregon and Washington. This program has historically 
provided fish production for Tribal treaty and non-Tribal commercial 
and recreational fisheries in the Columbia River, and also contributes 
to ocean fisheries from Northern California to Southeast Alaska.

NATIONAL REQUESTS AND RECOMMENDATIONS DEPARTMENT OF JUSTICE
1. Fully Fund the Tribal Law and Order Act (TLOA)
    The Tribal Law and Order Act was an important step in empowering 
Tribes to better address the unique public safety challenges and reduce 
the prevalence of violent crime in Indian country. However, effective 
implementation of TLOA is contingent upon adequate Federal funding. 
Funding is needed to implement the comprehensive and improved measures 
that were enacted to address the public safety crisis in Tribal 
communities. The entire Tribal justice system is dependent on this 
funding to carry out law enforcement, court, and detention functions, 
and to provide rehabilitation and preventive services. Tribal justice 
systems are the cornerstone that paves the way for economic development 
and Tribal self-sufficiency.
2. Fully Fund Violence Against Women Act (VAWA) Including $5 million 
        for VAWA Special Domestic Violence Criminal Jurisdiction
    The Office on Violence Against Women provides funding for Tribes to 
assist victims of domestic violence. Funding for Tribal governments is 
derived from other OVW Programs and combined into a single source 
called the ``Grants to Tribal Governments Program''. Therefore, it is 
imperative to Tribes that these other programs receive full funding so 
the Tribal grant program will, in turn, receive full funding. The root 
cause of these high rates of violence was a justice system that forced 
Tribal governments to rely on distant Federal, and in some cases, State 
officials to investigate and prosecute incidences of domestic violence 
committed by non-Natives against Native women. The statistics on 
violence against Native women show that outside law enforcement has 
proven ineffective in addressing these crimes of violence. Between 2005 
and 2007, U.S. Attorneys declined to prosecute nearly 52 percent of 
violent crimes that occurred in Indian country; and 67 percent of cases 
declined were sexual abuse related cases. It is unconscionable to force 
Tribes to submit to a system of justice that declines to prosecute over 
half the criminal cases brought before it and leaves our Native women 
without judicial recourse. On some reservations, Native women are 
murdered at a rate that is 10 times the national average. The bill 
authorized $5 million for Tribes to implement VAWA and, in 2016; $2.5 
million was appropriated for Tribes to implement the new provisions.
3. Office of Justice Programs (OJP)--Provide a 10 percent Tribal Set-
        Aside for all (OJP) Programs and Allow for Greater Flexibility
    The Office of Justice Program (OJP) provides funding to Tribes to 
address public safety and criminal justice needs in Indian communities. 
We are advocating for a 10 percent Tribal set-aside to allow for a more 
flexible grant structure for Tribes to complement the Coordinated 
Tribal Assistance Solicitation (CTAS) grant. Although Congress and the 
administration have taken steps in recent years to try and address some 
of these concerns through the passage of the Tribal Law and Order Act 
(TLOA) of 2010 and the Reauthorization of the Violence Against Women 
Act (VAWA) of 2013, significant funding is needed in order to implement 
these new authorities to address the crisis level need in Indian 
country and elevate the safety and wellness of our Tribal citizens and 
communities. Tribal court systems are evolving to meet the increasing 
demands of Tribal communities and ensure that Tribal citizens are 
provided with adequate legal representation and protection. Under TLOA 
and VAWA Tribal courts are required to expand judicial services and 
meet certain costly thresholds, including, providing public defenders, 
recording criminal proceedings, and retaining legally trained and 
licensed Tribal judges. Without adequate funding for Tribal court 
systems, decisions to arrest, prosecute and detain will be based on 
financial restraints rather than in the best interest of public safety. 
Stable funding for Tribal courts is a prerequisite to ensure a safe, 
healthy and thriving Tribal community.
4. Increase the Funding Caps and Create a Permanent Five Percent (5 
        percent) Tribal Set-Aside for Victims of Crime Act Funding
    We commend Congress for providing a 3 percent set aside for Tribes 
in the Victim of Crimes Fund in the fiscal year 2018 budget and request 
that a similar Tribal set aside is included in the fiscal year 2019 
appropriations. Congress created the Crime Victims Fund in 1984 with 
the idea that money collected from those who commit crimes should be 
used to assist those that have been victimized. Each year, the fund is 
financed by the collection of funds, penalties and bond forfeitures 
from defendants convicted of Federal crimes. It is important to note 
that the fund receives no tax payer dollars. DOJ disburses funds to 
States and other entities. Crime victimization rates on Tribal lands 
have been estimated as much as 250 percent higher than the national 
rate and the rate of murder of American Indian/Alaska Native women on 
some reservations are 1000 percent higher than the national average. 
Tribal governments, like State governments, are responsible for 
addressing the needs of victims in their communities. Despite the 
devastating rates of victimization in Tribal communities, Indian Tribes 
have largely been left out of the fund. Indian Tribes are only able to 
access these dollars through State pass through grants or very limited 
short term competitive DOJ grants. However, many States do not provide 
funds to Tribes for victim services and the vast majority of Tribes are 
unable to access these funds at all. Tribes are again requesting a 
Tribal set-aside of 5 percent of the VOCA funds. .
5. Fund the COPS Program--$52 million
    The COPS Office provides funding to Tribes for law enforcement 
officers. The funding can also be used for training, equipment, 
vehicle, and technology. There is a great need for additional law 
enforcement officers throughout Indian country but limited resources 
has led to inadequate funding for justice systems, specifically, in the 
area of hiring, retention and training of law enforcement officers. It 
is imperative for the safety of Tribal citizens and surrounding 
communities that a significant increase in funding is allocated for 
Tribal law enforcement officers and programs.
    I would like to extend my thanks to the subcommittee for an 
opportunity to submit testimony on the fiscal year 2019 Appropriations 
for DOJ and DOC.

    [This statement was submitted by the Hon. W. Ron Allen, Tribal 
Chairman/CEO.]
                                 ______
                                 
      Prepared Statement of the Joint Ocean Commission Initiative
    Chairman Moran, Ranking Member Shaheen, and other distinguished 
Members of the subcommittee on Commerce, Justice, Science, and Related 
Agencies, we thank you for the opportunity to submit written testimony 
regarding the fiscal year 2019 Commerce, Justice, Science, and Related 
Agencies appropriations bill. We also thank you for the comprehensive 
funding that you provided to ocean priorities in the fiscal year 2018 
Omnibus. We recognize the difficulty of allocating resources in these 
challenging fiscal times and laud your decision to support key ocean 
accounts in the Omnibus. We were especially encouraged to see $30 
million appropriated to the National Ocean and Coastal Security Fund.
    While we are deeply appreciative of fiscal year 2018 appropriations 
for ocean priorities, we remain concerned about the administration's 
substantial proposed cuts to ocean and coastal programs across the 
government. If enacted, these cuts would undermine our investments and 
compromise our ability to promote economic development, safeguard our 
citizens, and responsibly balance the many uses of our oceans and 
coasts.
    The Joint Ocean Commission Initiative (Joint Initiative) is a 
collaborative, bipartisan effort to catalyze action and monitor 
progress toward meaningful ocean policy reform. We believe that a 
continued commitment to protecting base funding and core programs at 
NOAA, NSF, and NASA is an investment that will save lives, protect our 
national security, grow our economy, and preserve the health of our 
oceans and coasts. America's oceans and coasts provide fundamental 
goods and services, including food, minerals, transportation, 
medicines, tourism, and recreational opportunities. Coastal counties, 
which produce almost half of America's GDP, are directly dependent on 
the resources of the oceans and the Great Lakes. Moreover, ocean and 
coastal environments are often the first line of defense when it comes 
to protecting American communities from severe weather events and 
providing natural resources to sustain economies.
    Based on the need for significant and sustained investment to 
invigorate public-private partnerships and energize national, regional, 
State, and local initiatives, we strongly support increasing NOAA's 
overall budget to a minimum of $6.2 billion, NSF's overall budget to a 
minimum of $8.45 billion, and NASA Earth Science's budget to a minimum 
of $2.03 billion. We believe the recommendations articulated in this 
testimony represent a modest investment relative to the growing needs 
of oceans and coastal communities, as the benefits they confer 
significantly outweigh the costs. The Joint Initiative is highly 
appreciative of the progress your subcommittee has made in providing 
resources to essential ocean and coastal accounts, and we urge you to 
continue supporting these priorities.
                 research, exploration, and observation
    A critical component of America's economic, military, and 
diplomatic power lies in its ocean science enterprise. In recent years, 
foreign nations, including China, have made significant investments in 
their ocean science and research capabilities. Meanwhile, the U.S. 
continues to face a serious shortage of fiscal support for ocean 
science, research, education, exploration, monitoring, and observation 
enterprises. This shortage becomes ever more alarming as severe storm 
and flooding events increasingly threaten our Nation. We strongly urge 
this subcommittee to protect vital ocean science and research 
capabilities.
    We ask that your committee continue to support enhanced 
capabilities for observation and monitoring by allocating $520 million 
to NOAA's Office of Oceanic and Atmospheric Research (OAR) and $45 
million to NOAA's Sustained Ocean Observations and Monitoring Program. 
The safety and security of our country depends on timely and accurate 
information delivery. Observation and monitoring programs, as well as 
other scientific and data programs, are integral to NOAA's ability to 
accurately forecast weather. They are central for NOAA's protection and 
management of America's coastal and ocean resources and for the U.S. 
military's navigation and extreme weather preparedness. Moreover, the 
National Sea Grant College Program works to better understand, 
conserve, and utilize America's coastal resources, making it critical 
to coastal States, communities, and economies. These programs are also 
crucial for Americans themselves, as they enable communities and 
businesses to plan for and respond to extreme weather events, including 
flooding and drought.
    In addition, we recommend allocating $8.45 billion for the NSF, 
including at least $1.4 billion for the Geosciences Directorate and the 
Office of Polar Programs. The Geosciences Directorate includes the 
Division of Ocean Science. NSF's investment in the geosciences has 
spurred innovations, addressed salient national and global challenges, 
galvanized new economic sectors, generated countless jobs, and led to 
the development and implementation of advanced technologies. We also 
recommend you allocate $2.03 billion in funding for NASA's Earth 
Science Division. NASA improves national capabilities to predict 
climate, weather, and natural hazards and better manage national 
resources.
    Finally, we appreciate the subcommittee's long-standing support of 
ocean exploration at NOAA and recommend allocating $40 million for the 
Ocean Exploration program to maintain the pace, scope, and efficiency 
of exploration. NOAA's Ocean Exploration program has a long history of 
bipartisan support. The program has greatly contributed to our 
knowledge of the ocean, in large part by utilizing essential supporting 
infrastructure including ships, moorings, buoys, and autonomous 
underwater vehicles, as well as computational and data management 
hardware.
    It is essential that Congress provide the operational and 
maintenance support necessary to keep research, monitoring, and 
exploration infrastructure functioning, and to facilitate its 
modernization. In combination with remote sensing, ocean observation 
infrastructure has helped to establish and maintain the long-term in-
situ data sets that are essential to safeguarding U.S. assets and 
understanding changes in physical, chemical, and biological processes.. 
These data sets have generated vital tools including Arctic surveys 
that enabled the U.S. to argue for an extension of our Exclusive 
Economic Zone; baseline characterization of the Deepwater Horizon site; 
discovery of new gas hydrates; and new fishery habitat maps.
                        resilience and security
    The 2017 calendar year saw a record number of hurricanes and 
tropical storms which devastated communities across the country and 
generated over $200 billion in damage, helping make it the costliest 
year for natural disasters in U.S. history. Unfortunately, changing 
ocean conditions will likely continue to increase the severity of 
storms and the frequency of flooding events. Changing weather and 
charged geopolitical relationships heighten the already serious need 
for ocean and coastal security. Ocean and coastal communities must be 
safeguarded and made more resilient.
    Congress took a pioneering first step with the fiscal year 2018 
Omnibus by authorizing $30 million for the National Ocean and Coastal 
Security Fund (NOCSF), doubling what was previously available through 
the NOAA Regional Coastal Resilience Grants program. The Fund supports 
work to better understand and utilize the oceans, coasts, and Great 
Lakes, and ensures the continuation of the ecological, economic, 
social, security, and recreational services these resources provide. As 
early as 2004, the Joint Initiative's predecessors, the Pew Oceans 
Commission and the U.S. Commission on Ocean Policy, called for a fund 
dedicated to the management and conservation of our marine resources. 
The NOCSF builds on that important legacy by providing dedicated 
funding for ocean priorities. We ask this subcommittee to further 
support this essential fund by allocating $40 million to the NOCSF in 
fiscal year 2019. A portion of this funding should continue to support 
critical partnerships that encourage collaboration and data sharing on 
the regional scale.
    NOAA's National Ocean Service (NOS) is also critical for sustained 
resilience and security. We strongly recommend that NOS receive an 
allocation of $570 million. In particular, we appreciate the 
administration's 27 percent increase in the fiscal year 2019 Request 
for the U.S. Integrated Ocean Observing System, which provides new 
tools and forecasts to improve safety, enhance the economy, and protect 
our environment. NOS funding supports economy boosting programs that 
ensure safe and efficient transportation and commerce, preparedness and 
risk reduction, and stewardship, recreation, and tourism. For example, 
NOAA PORTS, provides real time oceanographic data to promote safe and 
efficient navigation at commercial ports, generating $300 million in 
benefits. In addition, NOAA's Office of Coastal Management delivers the 
science and environmental intelligence communities need to address 
storm preparedness, erosion, development, habitat loss, sea level rise, 
public access, and threats to water quality. The NOS is also 
responsible for administering the Office of National Marine Sanctuaries 
and a range of restoration projects that dramatically enhance the 
resilience of coastal communities and ocean environments. For example, 
a section of re-nourished beach at the McFaddin National Wildlife 
Refuge in Texas withstood relentless pounding in 2017 from Tropical 
Storm Cindy and Hurricane Harvey, when many nearby locations did not. 
It is also worth noting that these investments pay serious economic 
dividends: National Marine Sanctuaries generate approximately $8 
billion annually for local economies and NOAA's restoration projects 
create an average of 17 jobs for every $1 million invested.
    Every dollar invested in strengthening coastal communities against 
storm surge mitigates four dollars in losses. We ask the subcommittee 
to support the NOCSF and the NOS to bolster the Nation's economic and 
environmental resilience and security.
                          ocean acidification
    Ocean acidification is evident along every shoreline and is having 
major impacts on economies worldwide. By changing the chemistry of 
seawater, ocean acidification endangers shellfish, corals, and other 
marine life that form calcium shells or skeletons and disrupts marine 
food webs. In the United States, ocean acidification poses a 
fundamental risk to our fisheries and aquaculture industries. Left 
unresolved, ocean acidification will exact a substantial toll on the 
world's economies and diminish our capacity to nourish growing 
populations. We strongly urge you to allocate a minimum of $30 million 
for NOAA's Integrated Ocean Acidification program. Funding the 
Integrated Ocean Acidification program at elevated levels will support 
critical research, monitoring, education, and outreach and will help 
develop a better understanding of the causes, impacts, and scale of 
ocean acidification. It will also support programs that identify and 
implement interventions that address ocean acidification and help 
protect our Nation's fisheries and aquaculture.
                         sustainable fisheries
    Fishing is a cornerstone of the ocean economy and an important 
aspect of American history and culture. Since 1976, we have seen 
tremendous progress toward creating and maintaining sustainable 
fisheries domestically and internationally. Much of this progress can 
be credited to your subcommittee's commitment to scientifically-sound 
fishery management and the tireless efforts of U.S. fishermen, regional 
fishery management councils, State commissions, scientists, and 
managers.
    However, American fisheries are currently facing unprecedented 
challenges including changing ocean conditions, impacts from land-based 
activities, shifts in historic stock distributions, increasingly 
complex data requirements, and a rapidly growing recreational fishing 
sector. NOAA Fisheries requires elevated funding to address these 
numerous challenges. For example, better science and real-time data can 
improve the quality of management decisions and provide regional 
management councils with more tools to assess the current status of 
fish stocks. To protect America's fisheries and the jobs that rely on 
them, we recommend allocating $1 billion to the National Marine 
Fisheries Service to fully implement the Magnuson-Stevens Fishery 
Conservation and Management Act. This should include the ability to 
improve the coastal infrastructure on which fisheries depend and 
address threats that changing conditions pose. We also urge you to 
support initiatives to spread sustainable fishery management globally.
                           concluding remarks
    The Joint Initiative greatly appreciates your commitment to 
stretching scarce resources to address the challenges of our maritime 
Nation. We thank you for the robust funding allotted to ocean 
priorities in fiscal year 2018 and acknowledge the bold and forward-
looking decision to fund the National Ocean and Coastal and Security 
Fund. We will continue to track progress on key ocean and coastal 
programs and accounts in fiscal year 2019 and beyond. Thank you for 
considering our requests as the subcommittee continues the fiscal year 
2019 appropriations process. The Joint Initiative appreciates your 
attention to this matter and stands ready to assist you in advancing 
positive and lasting changes in the way we manage our Nation's oceans 
and coasts.

       Joint Initiative Co-Chairs and Leadership Council Members

   The Honorable Christine Todd Whitman | The Honorable Norman Mineta

 Frances Beinecke | Don Boesch | Lillian Borrone | The Honorable Norm 
                                 Dicks

 Quenton Dokken | Vice Admiral Paul Gaffney | Robert Gagosian | Sherri 
                                Goodman

   Scott Gudes | The Honorable Conrad Lautenbacher | Margaret Leinen

 Christopher Lischewski | The Honorable Jane Lubchenco | Julie Packard

  The Honorable Leon Panetta | John Pappalardo | The Honorable Pietro 
                               Parravano

             Diane Regas | Randy Repass | Andrew Rosenberg

           The Honorable William Ruckelshaus | Paul Sandifer

                                 ______
                                 
    Prepared Statement of MENTOR: The National Mentoring Partnership
    On behalf of MENTOR: The National Mentoring Partnership (MENTOR), 
our network of affiliates, and youth mentoring programs throughout the 
country, I thank Chairman Culberson and Ranking Member Serrano for the 
opportunity to provide testimony in support of a critical Federal 
investment in America's young people. My testimony will focus on the 
Youth Mentoring Program housed in the Office of Juvenile Justice and 
Delinquency Prevention (OJJDP) at the Department of Justice (DOJ). 
MENTOR and our partners are calling on your committee to build on your 
increased investment in the Youth Mentoring Program in fiscal year 2018 
with a further increase of at least $100 million in fiscal year 2019. 
This investment will make it possible for quality mentoring 
organizations to better meet the mentoring needs of many of our 
Nation's most at-risk youth.
    MENTOR is the unifying national champion for expanding quality 
youth mentoring relationships and connecting volunteers to mentoring 
opportunities in their local communities. In a time when 1 in 3 young 
people are growing up without a mentor, MENTOR seeks to close this 
``mentoring gap'' and ensure our Nation's young people have the caring 
adult support they need to succeed at school, in community, and in the 
workforce. We seek to leverage resources and provide the tools and 
expertise that local programs--whether in schools, non-profits, faith-
based institutions, or the private sector--require to provide high-
quality mentoring for young people who need it most, build greater 
awareness of the value of mentors, and positively inform public policy 
in order to bring support and opportunity to young people in need.
    I write this testimony on behalf of the thousands of mentoring 
programs and millions of volunteer adult mentors that serve our 
communities each day, as well as the millions of young people in the 
United States still waiting to find the supportive caring adults they 
need to thrive. I would also like to thank the Senate Commerce, Justice 
and Science Subcommittee for its strong history of supporting these 
critical Federal funds for evidence-based mentoring and demonstrating 
leadership in expanding pathways for young people.
                the benefits of quality youth mentoring
    Youth mentoring is a simple, yet powerful concept: a caring adult 
provides guidance, support and encouragement to help a young person 
achieve success in life. Research confirms that quality evidence-based 
mentoring relationships have powerful positive effects on young people 
in a variety of personal, academic, and professional situations. 
Mentoring is a strategic intervention and prevention-based strategy 
that helps foster positive outcomes for young people from all 
backgrounds and Zip codes. Mentoring is proven to play an important 
role in the following areas of support for young people:

          Reducing Unsafe or Risky Behaviors: Mentors provide young 
        people with consistent support as they encounter the daily 
        challenges of navigating their lives. Mentors serve to help 
        young people make healthy decisions and stay away from high-
        risk behaviors. Young people who meet regularly with their 
        mentors are 46 percent less likely than their peers to start 
        using illegal drugs and 27 percent less likely to start 
        drinking. Mentors also provide guidance to positive behaviors 
        that could support growth and development in a young person. 
        Young adults who face an opportunity gap but have a mentor are 
        81 percent more likely to participate regularly in sports or 
        extracurricular activities than those who do not.
          Workforce Development: Mentoring helps develop the future 
        workplace talent pipeline by preparing young people for careers 
        through exposure and 21st century skill building. One study 
        estimates that the human potential lost as a result of the 
        educational achievement gap is the economic equivalent of a 
        permanent national recession. There are far too many young 
        people who have not had access to the opportunities that having 
        a mentor opens to professional and career development. 
        Mentoring helps young people set career goals and take the 
        steps to accomplish those goals. Through their mentors, young 
        people are also introduced to resources and organizations they 
        may not be familiar with, providing them with new networks as 
        well as methods to find jobs and internships.
          Educational Achievement: According to the Department of 
        Education, during the 2013-14 school year, over 6.8 million 
        students (14 percent of all students) were chronically absent. 
        Students who are chronically absent are more likely to fall 
        behind academically, particularly in reading, more likely to 
        have increased behavioral issues and more likely to drop out of 
        school. Young people who are chronically absent benefit 
        exponentially from having a mentor to aid regular attendance 
        and provide the young person academic and emotional support. 
        Students who meet regularly with their mentors are 52 percent 
        less likely than their peers to skip a day of school and 37 
        percent less likely to skip a class. Mentoring provides young 
        people with an important support that helps develop positive 
        attitudes towards school and reduce recurring behavior 
        problems. Young adults who face an opportunity gap but have a 
        mentor are 55 percent more likely to be enrolled in college 
        than those who did not have a mentor.
          Social Emotional Development and Mental Health: Mentoring 
        provides young people with improved communications with their 
        families and other caring adult relationships. A recent study 
        showed that the strongest benefit from mentoring, and most 
        consistent across risk groups, was a reduction in depressive 
        symptoms. Mentoring promotes positive social attitudes and 
        relationships. Mentored youth trust their parents and guardians 
        more and communicate better. These benefits serve as building 
        blocks for engagement in positive activities, increased school 
        participation and improved attitudes.

    Youth Mentoring ultimately provides much-needed social support, 
increased positive relationships with and perceptions of adults, life 
skills training, and access to social capital to young people who are 
in need of support leading them to positive and productive futures.
                       closing the mentoring gap
    While mentoring is an effective evidence-based intervention and 
prevention strategy for at-risk and high-risk young people, mentoring 
organizations across the Nation still face barriers in providing high-
quality mentoring services. Thousands of young people remain on 
waitlists at organizations because of limited resources and funding for 
programs. Many programs also lack the training and technical assistance 
that could bolster their mentoring programs to better support young 
people and specifically high-risk young people. These two issues 
combined have provided many obstacles for mentoring programs, but with 
the critical support of both private and public funds mentoring 
organizations have been able to serve more young people.
    One of the ways that mentoring programs have succeeded in 
decreasing waitlists is through support from the Youth Mentoring 
Program. The program focuses on prevention and interventions for at-
risk youth and helps mentoring programs as they work to close the 
mentoring gap. These funds go directly to providing support for some of 
our highest risk young people, who without these kinds of interventions 
could likely become involved in negative behaviors and activities 
causing harm to themselves, their communities, and which take an 
economic toll. In a 2016 study conducted by MENTOR it was found that 51 
percent of mentoring programs have a budget of under $50,000 and 75 
percent of programs have a budget of under $100,000. Mentoring programs 
work far beyond their financial capacity to serve young people, but 
with additional resources their reach expands exponentially and the 
quality of their services can strengthen through improved training and 
technical assistance. The individual cost per mentored youth has 
remained relatively steady over the past 20 years, however costs for 
high-risk groups of young people including those with mental health 
needs, teen parents or victims of commercial sexual exploitation, for 
example, require more resources and expertise, increasing the cost per 
youth in order to fully address their unique needs. Mentoring programs 
utilize Federal support in part to better serve the large number of 
young people who could benefit most from evidence-based mentoring.
    Mentoring programs are able to safely serve young people when they 
are fully trained on the most up to date mentoring evidence and 
training. In 2015, through funds from the Youth Mentoring Program, The 
National Mentoring Resource Center (NMRC) was created to improve the 
quality and effectiveness of mentoring by supporting youth mentoring 
practitioners. MENTOR runs the National Mentoring Resource Center and 
provides free mentoring tools, program and training materials and no-
cost, evidence-based technical assistance to mentoring programs, school 
districts, non-profits and faith-based institutions across the Nation. 
This important resource has bolstered the ability of mentoring programs 
to serve young people from vulnerable populations including young 
people at-risk of entering the juvenile justice system, youth in foster 
care and victims of commercial sex trafficking.
    Research on youth mentoring demonstrates that, at a minimum, for 
every dollar invested in quality mentoring programs there is a return 
of at least three dollars. This positive return on investment reflects 
projected increases in lifetime earnings gained by leading at-risk 
youth down the path towards becoming productive adults. It also derives 
from dollars saved through reduced risky behaviors in young people, 
decreased school absence, high school graduation rates, and lowered 
risk of youth involvement in unsafe and costly behaviors. Public 
opinion has also reflected both the need for more mentoring and support 
for public investment to better meet this need. In a recent nationally 
representative survey conducted by Pacific Market Research--across 
geography, political persuasion, faith, age, and income--two-thirds of 
Americans consider it highly important for young people to have 
mentors, but this same population estimates that only a quarter of 
youth have the mentors they need. Nearly nine in ten adults feel that 
more mentoring is needed in our country-with more than eight in ten 
supporting the use of government funds to grow mentoring opportunities.
    Unfortunately, the Youth Mentoring Program is now the only 
remaining Federal grant exclusively dedicated to providing funds for 
evidence-based mentoring. Youth Mentoring Program funds have been 
awarded to national, multi-State and collaborative mentoring projects 
and programs who serve suburban, rural and urban populations. The 
flexibility of the grant has allowed organizations to use these funds 
to specifically tailor programs to their community's unique needs. This 
provides local control and specialized concentration on results that 
work best for each young person and their communities. These funds are 
simply invaluable in the ways that they affect youth development, 
educational achievement and safe communities.
    Without adequate resources and funding mentoring programs and 
ultimately America's young people do not have access to the caring 
adults they need to develop healthy, safe and productive lives. This 
request in support of at least $100 million for the Youth Mentoring 
Program will allow more young people to have access to the important 
social, professional, and academic opportunities we hope to provide for 
all America's youth. The Youth Mentoring Program demonstrates a sound 
and an effective investment in evidence-based programs that works and 
will have definitive and measureable impact on closing the mentoring 
gap in America.
    Thank you again for this opportunity to provide testimony on this 
critical Federal resource supporting young people.

    [This statement was submitted by David Shapiro, Chief Executive 
Officer.]
                                 ______
                                 
Prepared Statement of the Midwest Innocence Project & Innocence Network
    On behalf of the Midwest Innocence Project and the Innocence 
Network, a coalition of 56 local innocence organizations working to 
exonerate the innocent and prevent wrongful convictions nationwide, 
thank you for the subcommittee's critical funding increases and strong 
support for innocence and forensic science research programs in fiscal 
year 2018. Thank you also for allowing me to submit written testimony 
for the record as you consider budget requests for fiscal year 2019. I 
urge you to robustly fund the following programs at the Department of 
Justice and the National Institute of Standards and Technology at the 
Department of Commerce. fiscal year 2019 funding requests include:

  --$5 million for the Wrongful Conviction Review Program at the 
        Department of Justice (DoJ), Bureau of Justice Assistance (the 
        Wrongful Conviction Review Program is part of the Capital 
        Litigation Improvement Program);
  --$10 million for the Kirk Bloodsworth Post-Conviction DNA Testing 
        Program at the DoJ, National Institute of Justice (NIJ);
  --$30 million for the Coverdell Forensic Sciences Improvement Grant 
        Program at NIJ;
  --$4.2 million to support forensic science standards setting 
        activities at the National Institute of Standards and 
        Technology (NIST);
  --$15 million for NIST to support forensic science research and 
        measurement science.

    These innocence and forensic science programs increase the accuracy 
and fairness of the criminal justice system, provide the strongest 
possible forensic science tools to justice system stakeholders, and 
generate greater public safety for our Nation.
    National Registry of Exonerations data show that the number of 
exonerations has significantly increased since Federal innocence 
programs--the Bloodsworth Post-Conviction DNA Testing and Wrongful 
Convictions Review programs--began to receive funding in 2008 and 2009, 
respectively. This dramatic increase in the number of exonerations is 
in part a result of the Federal decision to invest in these programs to 
help ensure the accuracy and integrity of the criminal justice system. 
In the 20 years prior to the initiation of innocence program funding 
(from 1989 to 2008), the rate of exonerations was much lower. In 2016, 
the number of exonerations was at its highest with 171 exonerations. 
These effective program outcomes show the power and need to invest in 
Federal innocence and forensic science programs.
    The Midwest Innocence Project has had incredible success in Kansas 
where our work has resulted in the exoneration of three clients in the 
past 3 years. One of those clients, Floyd Bledsoe, served 16 years in a 
Kansas prison before a Jefferson County judge vacated his convictions 
in December 2015 based in part on new DNA testing evidence. Floyd was 
convicted of first-degree murder, aggravated kidnapping, and aggravated 
indecent liberties for the shooting death of his 14-year-old sister-in-
law. The DNA test results led to the identification of the actual 
perpetrator, Floyd's brother, and a co-conspirator in disposing the 
body, Floyd's father. In 2017, Richard Jones and Lamonte McIntyre were 
both exonerated by non-DNA evidence after the Midwest Innocence Project 
and our partners proved that investigators used improper practices when 
investigating the cases, resulting in their wrongful convictions. 
Richard served over 18 years for aggravated assault during a purse 
snatching he did not commit because of improper eyewitness 
identification practices. Lamonte served over 23 years for double-
homicide that occurred when he was just 17 due to the misconduct of 
both the investigating detective and the prosecutor. These examples 
demonstrate the long, complex, and resource intensive process often 
required to overturn a wrongful conviction, and inspire us to identify, 
remediate and prevent other wrongful convictions.
    However, freeing innocent individuals and preventing wrongful 
convictions through reform greatly benefits public safety. Every time 
DNA identifies a wrongful conviction, it enables the identification of 
the person who actually committed the crime. Such true perpetrators 
have been identified in approximately half of the over 350 DNA 
exoneration cases. Unfortunately, many of these individuals went on to 
commit additional crimes while an innocent person was convicted and 
incarcerated in their place.
    To date over 350 individuals in the United States have been 
exonerated through DNA testing, including 20 who served time on death 
row. These innocents served an average of 14 years in prison before 
exoneration and release. However, the value of Federal innocence and 
forensic science programs is not to just these exonerated individuals. 
It is important to fund these critical programs because reforms and 
procedures that help to prevent wrongful convictions enhance the 
accuracy of criminal investigations, strengthen criminal prosecutions, 
and result in a stronger, fairer system of justice that provides true 
justice to victims of crime.
                   wrongful conviction review program
    We know that wrongful convictions occur in cases where DNA evidence 
is not sufficient or even available to prove innocence. The National 
Registry of Exonerations currently lists almost 2,200 exonerations 
since 1989--over 350 of which were based primarily on DNA. The Wrongful 
Conviction Review Program provides critical support to ensure that 
experts are available to navigate the complex landscape of post-
conviction litigation, as well as oversee the thousands of volunteer 
hours local innocence organizations leverage to help investigate these 
complex cases and support the significant legal work they require. 
Indeed, the Wrongful Conviction Review Program has contributed to 30 
exonerations over the past 3 years.
    The Wrongful Conviction Review Program provides funding to local 
innocence organizations so that they may provide this type of expert, 
high quality, and efficient representation for innocent individuals. 
The program's goals are both to alleviate burdens placed on the 
criminal justice system through costly and prolonged post-conviction 
litigation and to identify, whenever possible, the person who actually 
committed the crime. To help continue this important work, we urge you 
to provide $5 million for the Wrongful Conviction Review Program in 
fiscal year 2019 (the Wrongful Conviction Review Program is part of the 
Capital Litigation Improvement Program.)
          the bloodsworth post-conviction dna testing program
    The Bloodsworth Post-Conviction DNA Testing Program supports States 
and localities that want to pursue post-conviction DNA testing in 
appropriate cases. The program does not directly fund the work of local 
innocence organizations, but instead focuses on State and local 
applicants, including law enforcement agencies, crime laboratories, and 
a host of others--often in collaboration with each other, as well as 
with local innocence organizations. For example, a Bloodsworth grant to 
Arizona allowed the State's Attorney General's Office to partner with 
the Arizona Justice Project to create the Post-Conviction DNA Testing 
Project. This effort canvassed the Arizona inmate population, reviewed 
cases, located evidence, and filed joint requests with the court to 
have evidence released for DNA testing. In addition to identifying the 
innocent, Arizona Attorney General Terry Goddard noted that the ``grant 
enable[d] [his] office to support local prosecutors and ensure that 
those who have committed violent crimes are identified and behind 
bars.'' \1\
---------------------------------------------------------------------------
    \1\ Arizona receives Federal DNA grant, http://
community.law.asu.edu/news/19167/Arizona-
receives-Federal-DNA-grant.htm (last visited Mar. 13, 2012).
---------------------------------------------------------------------------
    The Bloodsworth program is a powerful investment for States seeking 
to free innocent individuals and identify the individuals who actually 
committed the crimes. The program has resulted in the exonerations of 
44 wrongfully convicted persons in 14 States. The person who actually 
committed the crime was identified in 13 of those cases. For example, 
Virginian Thomas Haynesworth, who was wrongfully incarcerated for 27 
years, was freed thanks to Bloodsworth-funded DNA testing that also 
revealed the person who actually committed the crime. The culpable 
person in that case went on to terrorize the community by attacking 
twelve women, with most of the attacks and rapes occurring while Mr. 
Haynesworth was wrongfully incarcerated. Given the importance of this 
program to both innocent individuals and public safety, we urge you to 
provide $10 million to continue the work of the Bloodsworth Post-
Conviction DNA Testing Program in fiscal year 2019.
                         the coverdell program
    Recognizing the need for independent government investigations in 
the wake of allegations of forensic negligence or misconduct, Congress 
created the forensic oversight provisions of the Coverdell Program, a 
crucial step toward ensuring the integrity of and improving public 
confidence in forensic evidence. Specifically, in the Justice for All 
Act, Congress required that:

[t]o request a grant under this subchapter, a State or unit of local 
government shall submit to the Attorney General . . . a certification 
that a government entity exists and an appropriate process is in place 
to conduct independent external investigations into allegations of 
serious negligence or misconduct substantially affecting the integrity 
of the forensic results committed by employees or contractors of any 
forensic laboratory system, medical examiner's office, coroner's 
office, law enforcement storage facility, or medical facility in the 
State that will receive a portion of the grant amount.\2\
---------------------------------------------------------------------------
    \2\ 42 U.S.C. Sec. 3797k(4) (emphasis added).

    The Coverdell Program provides State and local crime laboratories 
and medical examiner offices with much needed Federal funding to carry 
out their work both efficiently and effectively. As forensic science 
budgets find themselves severely stretched in many States and 
localities as a result of the opioid epidemic, and as Federal bodies 
recommend the implementation of new policies, standards, and 
guidelines, the Coverdell funds are critical to ensure that crime labs 
can function both efficiently and effectively. As the program supports 
both the capacity of crime labs to process forensic evidence and the 
essential function of ensuring the integrity of forensic investigations 
in the wake of serious allegations of negligence or misconduct, we urge 
you to provide $30 million for the Coverdell Program in fiscal year 
2019.
                      forensic science improvement
    To continue the critical work to improve forensic science, and help 
prevent wrongful convictions, we urge you to provide the following 
amounts in fiscal year 2019 for forensic science improvements, 
including:

  --$4.2 million directed to NIST to support forensic science technical 
        standards development, including $3 million to support the 
        Organization of Scientific Area Committees (OSAC) and $1.2 
        million to support technical merit evaluations.
  --$15 million for the National Institute of Standards and Technology 
        (NIST) at the Department of Commerce to support forensic 
        science research and measurement science.

    As the Federal entity that is both perfectly positioned and 
institutionally constituted to conduct measurement science and 
foundational research in support of forensic science, NIST's work will 
improve the validity and reliability of forensic evidence, a need cited 
by the National Academy of Sciences 2009 report, Strengthening Forensic 
Science in the United States: A Path Forward.\3\ NIST's reputation for 
innovation will result in technological solutions to advance forensic 
science applications and achieve a tremendous cost savings by reducing 
court costs posed by litigating scientific evidence.
---------------------------------------------------------------------------
    \3\ National Research Council. Strengthening Forensic Science in 
the United States: A Path Forward. Washington, DC: The National 
Academies Press, 2009. doi:10.17226/12589, p. 22-23.
---------------------------------------------------------------------------
    The OSAC is seen by many as the most significant Federal forensic 
science initiative in recent years. State and local forensic 
scientists, who conduct the vast majority of forensic science casework, 
are in strong support and are significantly involved in this effort. In 
order for a standard to qualify for the registry that the OSAC 
maintains, it must demonstrate that it is technically sound. Some 
forensic science methods have not yet received an evaluation of their 
technical merit and NIST needs further support to conduct these vital 
reviews. At a time when public safety and national security are some of 
our Nation's top priorities, it is imperative that Congress invest in 
scientific tools that support these endeavors. The forensic science 
activities and research at NIST will help to greatly improve forensic 
disciplines and propel forensic science toward greater accuracy and 
reliability.
                               conclusion
    Thank you for working to ensure the accuracy, integrity, and 
reliability of our Nation's criminal justice system. We urge you to 
fully fund the Wrongful Conviction Review; Bloodsworth; Coverdell; and 
NIST forensic science programs. If you have questions, please contact 
Jenny Collier, Federal Policy Advisor to the Innocence Project, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="305a535f5c5c59554270535f5c5c595542535f5c5c5553445946551e5f42571e">[email&#160;protected]</a>

    [This statement was submitted by Tricia Bushnell.]
                                 ______
                                 
            Prepared Statement of the Monterey Bay Aquarium
    The Monterey Bay Aquarium is pleased to submit this statement to 
the subcommittee in support of funding for the National Oceanic and 
Atmospheric Administration (NOAA) as it develops the fiscal year 2019 
Commerce-Justice-Science Appropriations Act.
    The mission of the Monterey Bay Aquarium is to inspire conservation 
of the ocean. We carry out this mission by providing an unparalleled 
educational experience that connects over 2 million visitors per year 
to some of the most striking species and ecosystems on our planet. The 
Aquarium uses innovative exhibits and educational programs to 
demonstrate the connection between the ocean and our human existence--
from the air we breathe to the weather patterns and resources that 
drive our multi-billion dollar blue economy.
    In recent years, we identified strategic conservation priorities to 
address some of the most pressing challenges to ocean health, including 
plastic pollution, protecting wildlife and ecosystems, sustainable 
fisheries and aquaculture, climate change and partnerships. Science 
underpins our approach to ocean conservation challenges, and we seek a 
collaborative approach that encourages partnerships with the private 
sector, governments, academia and other stakeholders.
    The Aquarium recognizes NOAA for its critical role as a lead 
science agency and information provider that supports a millions of 
American businesses, citizens and our public safety every day of the 
year. NOAA's research, services and programs position America for 
success by providing essential information and tools that shape the way 
we live today and help us to predict conditions for the future. The 
Aquarium applauds the Senate Subcommittee's leadership in support of 
NOAA in the fiscal year 2018 omnibus legislation, including balanced 
investments across ocean and atmospheric programs. In addition, we 
appreciate the subcommittee's support for priority programs, including 
eliminating illegal, unreported and unregulated (IUU) fishing, marine 
debris and NOAA Education. As we turn to fiscal year 2019, we urge the 
subcommittee to continue to support this balanced and strategic 
approach, and to at least maintain fiscal year 2018 funding levels 
across NOAA's portfolio.
    The Aquarium has identified several high-impact and strategic 
investments within NOAA that underpin efforts to better understand and 
manage ocean resources. We urge the subcommittee to fully support these 
programs as it develops the fiscal year 2019 appropriations bill:

    Illegal, Unreported, and Unregulated (IUU) Fishing/Seafood 
Traceability.--Global losses attributable to IUU fishing are estimated 
to be between $10 and $23 billion annually, and has links to other 
forms of criminal activity, as well as slavery and human rights abuses. 
IUU fishing also undermines economic opportunities for legitimate 
fishermen in the U.S. and has global implications for national security 
and food security.
    In recent years, Congress passed several bills that authorized and 
funded Federal programs to fight IUU fishing. These bills passed with 
broad bipartisan support, highlighting the importance of these 
activities to American businesses, consumers and the public. The fiscal 
year 2018 omnibus bill included $3.8 million for IUU programs, 
providing critical support to implement the new U.S. Seafood Import 
Monitoring Program (SIMP) and increased inspection and enforcement 
activities. In addition, the bill included an important provision 
requiring NOAA to add shrimp and abalone to the U.S. Seafood Import 
Monitoring Program by the end of 2018. Shrimp is the top seafood import 
by volume and value, and inclusion of this species in SIMP will provide 
new transparency within foreign supply chains that have been implicated 
in IUU fishing and human rights abuses. However, the fiscal year 2018 
funding will expire in September 2018 and additional funding will be 
required to conduct outreach to industry, ensure consistent regulations 
and implement the new provisions in 2019.
    The Aquarium urges the subcommittee to provide at least an 
additional $5 million specifically for activities to address IUU 
fishing in fiscal year 2019. The funding will ensure strong 
implementation of the Seafood Import Monitoring Program in 2019, 
including the addition of shrimp and abalone into SIMP, as well as 
improved international enforcement and port security responsibilities 
under the SAFE Ports Act. These funds will improve the ability of the 
Federal Government to identify, inspect and enforce against imported 
IUU products coming into U.S. commerce and will enhance efforts to 
incentivize foreign compliance with international laws.
    Bycatch Reduction and Highly Migratory Species.--NOAA Fisheries 
(NMFS) supports research on technologies that reduce bycatch and 
bycatch mortality. Reducing bycatch can save fishing jobs by preventing 
fishery closures due to interactions with endangered species or 
attainment of strict bycatch quotas. This funding supports the Bycatch 
Reduction Engineering Program (BREP) external competitive grants 
program, which supports innovative gear designs and fishing techniques 
to minimize bycatch. We recommend the subcommittee include at least 
$2.5 million for bycatch reduction competitive grants to non-Federal 
researchers for the development and implementation of practical bycatch 
solutions. The grants support research and collaborative projects with 
U.S. fishermen to develop improved fishing practices and innovative 
gear technologies.
    In addition, we note the importance of robust funding for research 
and management of highly migratory species, including Pacific bluefin 
tuna and shark species managed under international agreements. We urge 
the subcommittee to include funding to address highly migratory 
fisheries research and management, including funding for the Pacific 
Fishery Management Council and NOAA's Southwest Fishery Science Center. 
This funding should ensure parity for highly migratory fisheries 
research and management among the Atlantic and Pacific regions.
    Marine Aquaculture.--The U.S. imports over 90 percent of its 
seafood, about half of which is farmed. While aquaculture globally has 
grown dramatically over the past 30 years, U.S. production remains low. 
As demand for seafood continues to rise, aquaculture presents an 
opportunity to meet this demand, create jobs and support sustainable 
development that can achieve a high environmental standard. We request 
that the subcommittee to fully fund NOAA's marine aquaculture programs 
at least at fiscal year 2018 levels within NOAA Fisheries and in the 
Office of Oceanic and Atmospheric Research (OAR) through the Sea Grant 
Program.
    Marine Debris.--Our ocean is at increasing risk from growing levels 
of plastic pollution. Studies estimate that an average of eight million 
metric tons of plastic enter the global ocean each year. Unless we curb 
the flow, this number is expected to double by 2025--posing a risk to 
water quality, wildlife and human health. Ocean plastic pollution is an 
issue that is especially relevant to our millions of visitors and to 
Californians in general, many of whom have cleaned up local beaches and 
reduced the use of plastic bags in grocery stores.
    NOAA's Marine Debris program offers competitive grants for 
aquariums and others to work with Federal, State, and local partners on 
marine debris education and reduction projects. The Monterey Bay 
Aquarium has received $52,306 from this program for our Ocean Plastic 
Pollution Summit for Teachers. Over 100 pre-K to 12th grade teachers 
from throughout California have participated in the Summit and follow-
up activities, learning how to use the issue of ocean plastic pollution 
to engage their students in marine conservation and science. We request 
continued support for the NOAA Marine Debris Program of at least $8 
million in fiscal year 2019.
    National Marine Sanctuaries and National Monuments.--NOAA's Office 
of National Marine Sanctuaries serves as the trustee for a network of 
underwater parks encompassing more than 600,000 square miles of marine 
and Great Lakes waters. The network includes a system of 13 national 
marine sanctuaries, as well as Papahanaumokuakea and Rose Atoll marine 
national monuments. Few places on the planet can compete with the 
diversity of the National Marine Sanctuary System, which protects 
America's most iconic natural and cultural marine resources. The system 
works with diverse partners and stakeholders to promote responsible, 
sustainable ocean uses that ensure the health of our most valued ocean 
places.
    America's underwater national treasures conserve some of the 
Nation's most critical natural, historic and cultural resources such as 
the USS Monitor, Midway Island, sacred heritage sites for Native 
Americans, and some of the largest and oldest corals in the world. They 
are home to millions of species, preserve more than 300 shipwrecks and 
promote public access for exploration and world-class outdoor 
recreation for future generations. They generate $8 billion annually in 
local economies and support numerous jobs and businesses in the 
fishing, tourism, recreation, and scientific research sectors. 
Sanctuary visitor centers, vessels and facilities are key assets for 
communities--they attract millions of visitors to the coasts every 
year. In addition, they stimulate public-private partnerships on 
emerging technologies, new research and hands-on educational learning 
opportunities. We request the subcommittee fund the National Marine 
Sanctuaries program with sufficient funding to support the current 
national marine sanctuaries as well as Papahanaumokuakea, Rose Atoll 
and New England Coral Canyons marine national monuments.
    NOAA Office of Education.--The Aquarium provides a wide variety of 
educational experiences for students, teachers, and families all 
designed to inspire ocean conservation. We support local schools by 
hosting field trips and hands-on learning experiences for students, as 
well as offering professional development activities for teachers. Our 
programs dovetail with NOAA's educational programs that support the 
national effort to educate and train our workforce for the future. We 
urge the subcommittee to reject the administration's plan to terminate 
NOAA education programs and request funding at least at the following 
levels: $8 million for the Environmental Literacy Grants Program 
(including ocean education grants) and $12 million for the Bay, 
Watershed, Education and Training Program.
    Marine Mammal Commission.--The Marine Mammal Commission (MMC) is an 
independent government body established by Congress to advance the 
conservation of marine mammals and their environment. Aquariums play a 
critical role in marine mammal conservation through broad-based public 
education and outreach activities, cutting-edge research projects and 
advocacy for strong policies to protect our oceans. We request that the 
subcommittee reject the administration's proposal to terminate the MMC 
and at least maintain funding at $3.4 million.
    John H. Prescott Marine Mammal Rescue Assistance Grant Program.--
The Prescott Program provides an important source of grant funding and 
cooperative agreements to recover stranded marine mammals and turtles. 
The program covers a variety of activities related to marine mammal 
strandings, including recovery and treatment (i.e., rehabilitation), 
data collection from living or dead animals, facility upgrades, 
operational costs, staffing and training. We call on the subcommittee 
to reject the administration's proposal to terminate the Prescott 
Program and request funding of at least $4 million.
    The Aquarium fully appreciates the extreme budget constraints 
confronting the Congress and the Executive Branch, and the intense 
scrutiny that must be applied to all Federal programs. Nevertheless, we 
believe ocean conservation and science programs are an investment in 
the future health, well-being, and economic competitiveness of our 
Nation. Thank you for your consideration of these requests for the 
fiscal year 2019 budget and we look forward to working with you to 
ensure strong support for these important ocean research and 
conservation programs.

    [This statement was submitted by Ms. Margaret Spring, Vice 
President of Conservation & Science and Chief Conservation Officer.]
                                 ______
                                 
 Prepared Statement of the National Association of Latino Elected and 
                          Appointed Officials
    On behalf of the National Association of Latino Elected and 
Appointed Officials (NALEO) Educational Fund, I respectfully request 
your support for a $4.735 billion appropriation for the Census Bureau 
in fiscal year 2019. We urge the committee to recommend this funding 
level to ensure that the Bureau can effectively complete the activities 
needed to prepare for a sound 2020 Census.
    NALEO Educational Fund is the Nation's leading nonprofit 
organization that facilitates the full participation of Latinos in the 
American political process, from citizenship to public service. Our 
Board members and constituency encompass the Nation's more than 6,600 
Latino elected and appointed officials, and include Republicans, 
Democrats and Independents.
    NALEO Educational Fund is a national leader in Census outreach, 
community education and policy development. Our organization has 
decades of experience working closely with its Latino elected official 
constituency, other government officials and partner organizations to 
promote public policies to achieve the most accurate count possible of 
the Nation's population. NALEO Educational Fund has been a member of 
the U.S. Census Bureau's national advisory committees since 2000, and 
currently sits on the Bureau's National Advisory Committee on Racial, 
Ethnic and Other Populations. NALEO Educational Fund is also the co-
chair of the Leadership Conference on Civil and Human Rights' Census 
Task Force, and of the National Hispanic Leadership Agenda's Census 
Task Force.
    The 2020 Census cannot be successful without a complete count of 
the Latino community. Latinos are the second largest population group 
in the Nation, comprising 17.6 percent of our Nation's residents, and 
26 percent of children under the age of five. The Census Bureau 
estimates that the 2010 Census may have missed 1.5 percent of the 
entire Latino population, and research suggests this included nearly 
400,000 Latino children under the age of five. Undercounting Latinos in 
Census 2020 would severely diminish the accuracy and value of 
statistical data critical to sustaining our Nation's democracy and 
economic progress.
    Conducting a credible decennial Census requires the most 
significant peacetime mobilization of resources that our Federal 
Government undertakes. For 2020, the Census Bureau's task is 
particularly daunting because the agency has committed to using new 
approaches for data collection. It is modernizing its procedures by 
collecting responses over the Internet. It is also using administrative 
records for address canvassing, and is seriously considering using 
these records to obtain demographic information on non-responding 
households. The Bureau needs to test these approaches for effectiveness 
and efficiency before deployment.
    The Bureau will also need to sustain intensive efforts to protect 
the confidentiality of information provided over the Internet as cyber-
security threats continually evolve. The agency can neither shortchange 
nor delay its efforts to put in place the reliable and secure IT 
backbone that it needs to conduct a modern 2020 Census, and to achieve 
cost-savings in its future surveys.
    Moreover, in the Nation's current political and social climate, 
there is growing mistrust and fear of government, and the Census Bureau 
must begin in fiscal year 2019 to build relationships throughout the 
country with ``trusted messengers'' capable of motivating people to 
participate in the Census. The Bureau must also place advertising and 
create outreach materials that address Americans' concerns about 
cybersecurity, and the potential government misuse of Census 
information. This outreach must also highlight key motivators for 
Census participation.
    The Secretary of Commerce's last-minute decision to add an untested 
and unnecessary citizenship question to the Census 2020 questionnaire 
will exacerbate the challenges facing the Bureau by deterring the 
participation of Latinos and other hard-to-count populations. The 
Bureau's own research has revealed widespread and unprecedented fear 
among respondents to other surveys; they are reluctant to participate 
fully and provide accurate information. The Bureau will need a 
particularly robust and effective communications and partnership 
campaign which emphasizes the safeguards that protect the 
confidentiality of Census data. If the Bureau fails to proactively 
connect with trusted messengers and hard-to-count communities, it will 
be forced to spend exponentially more than it plans in fiscal year 2020 
to reach non-responding households through extra mailings and visits: 
at least $55 million more for each additional 1 percent of households 
that do not respond to initial mailings, up from an earlier estimate of 
$45 million.
    In spite of the challenging environment it faces, and in part 
because of funding restraints, the Bureau has dramatically reduced the 
number of local Area Census Offices (ACOs) it intends to open for 
Census 2020. In Census 2010, the Bureau opened nearly 500 ACOs, 
including one in every congressional district. In contrast, as of this 
writing, the Bureau intends to open only 248 for Census 2020. These 
offices are invaluable for building a trusted local community presence 
for the Bureau, particularly when staffed with individuals who have the 
cultural competency and linguistic skills to reach hard-to-count 
communities. These offices are also on the ``frontlines'' of census 
operations, and can troubleshoot when problems or challenges arise 
during enumeration activities.
    Because its work is cyclical, and intensifies every decade as the 
year ending in -0 approaches, the Census Bureau needs significantly 
increased appropriations in the fiscal years ending in -9 and -0 as 
compared to its budget in preceding years. Congress has never failed to 
meet the Bureau's fluctuating needs in the most critical years for 
decennial Census preparations, so our Nation has not had to consider 
the devastating impact a failed Census would have on our Nation's 
democracy, prosperity and well-being. We are now compelled to face this 
prospect by the administration's woefully inadequate appropriations 
request for the Bureau for fiscal year 2019, which is well below the 
amount that the Department of Commerce projected it would need to 
ensure the success and preservation of some cost-savings in the conduct 
of the 2020 Census.
    Failure to provide at least $4.735 billion for the Census Bureau in 
fiscal year 2019 would shortchange important activities, including the 
creation of a contingency fund recommended by Secretary Wilbur Ross; 
the full implementation of a robust communications campaign; the hiring 
of a number of community partnership specialists comparable to the 
number employed in advance of the 2010 Census; and the opening of 52 
additional ACOs. Funding for contingencies would guarantee that no 
corners are cut in IT systems development--an effort that has 
experienced cost overruns--and would equip the Bureau to implement 
rapid staffing and other changes that might become necessary, should 
aspects of the operational plan prove unworkable because they were 
never validated and finalized.
    NALEO Educational Fund urges you to appropriate $4.735 billion to 
the Census Bureau in fiscal year 2019, in recognition that funding 
thoughtful preparation for the decennial Census best ensures the 
efficiency and accuracy of this critically important undertaking. 
Without adequate funding to realize its plans for modernization and to 
navigate a challenging social environment, the Census Bureau's efforts 
to conduct a credible and accurate 2020 Census are in acute jeopardy. 
Without accurate data, Latinos and all Americans cannot realize our 
potential economic, political, and social success. Stewardship of an 
effective Census is one of the first duties assigned in the 
Constitution to the Federal Government, as well as one of the most 
fundamental to our democratic character.
    We are grateful for your attention to these matters, and for the 
opportunity to submit testimony in support of full funding for the 
Census Bureau.

    [This statement was submitted by Arturo Vargas, Executive Director, 
NALEO Educational Fund.]
                                 <greek-l>
                                 ______
                                 
       Prepared Statement of the National Association of Marine 
                           Laboratories deg.
                 Prepared Statement for the Record from
            The National Association of Marine Laboratories
                          The IOOS Association
          The National Estuarine Research Reserve Association
                    The Coastal States Organization
                       The Sea Grant Association
                The National Marine Sanctuary Foundation
 in support of fiscal year 2019 appropriations for the nation's ocean, 
    coastal, and great lakes research, education, conservation, and 
                     resource management enterprise
    Mr. Chairman and Members of the subcommittee, this joint statement 
is submitted on behalf of the non-profit organizations listed above who 
share a deep and overriding concern for and frequently partner together 
to strengthen the health of the Nation's oceans, coasts, and Great 
Lakes. We refer to ourselves as an ad hoc Coastal Roundtable and meet 
periodically to share mutual concerns, discuss and undertake joint 
programmatic initiatives, and exchange information and best practices.
    This subcommittee is uniquely responsible for the health of the 
ocean, coastal, and Great Lakes enterprise through your oversight and 
resource decisionmaking responsibilities related to NOAA, NSF, NASA, 
and other agencies. That enterprise is a critical part of the security 
of the Nation as it relates to economic, environmental, national, 
homeland, energy, conservation resources, and food security issues. In 
fiscal year 2019 the administration has proposed the elimination of 
most of the funding for this subcommittee's extramural support for 
ocean, coastal, and Great Lakes research, conservation, observing, and 
education programs. We urge the subcommittee to strengthen the support 
for ocean and coastal programs consistent with the new spending levels 
in the Bipartisan Budget Act of 2018.
    For centuries, our oceans and coasts have sustained lives and 
livelihoods, divulged ancient and unforeseen treasures, stirred our 
dreams of remarkable new discoveries, and thrilled us to discover and 
observe the extraordinary marine life below the surface. But never in 
history have we had the immense opportunities now beckoning from the 
sea. On the horizon is a new ocean/coastal economy, an exciting 
frontier that offers great promise for making our Nation safer, 
healthier, and more prosperous. This new economy is a knowledge-based 
economy, looking to the ocean and coastal enterprise not for extraction 
of material goods but for data, observations, and information to 
address societal challenges and inspire their solutions. This economy 
is entrepreneurial and environmentally responsible, collaborative, and 
competitive.
    A recent report from the Center for the Blue Economy reported that 
the ocean economy generated a larger share of U.S. economic activity 
than farming, food products, oil and gas extraction, and forest 
products. Employment supported by this part of the economy is almost as 
large as the employment of all of these industries combined. The Great 
Lakes alone generated nearly $5 trillion in economic activity or about 
30 percent of combined U.S. and Canadian economic output. Finally, the 
U.S. marine transportation system is an essential driver of the U.S. 
economy and its impact is felt well beyond the coast and reaches into 
the heartland of the Nation. America's seaports are crucial generators 
of economic development and well-paying jobs, both regionally and 
nationally, that is felt throughout all supply chains that use the 
ports.
    The ocean and our coasts are invaluable for humanitarian, 
environmental, and health reasons. The oceans are a primary source of 
food for over one billion people, a globally significant regulator of 
the earth's climate, the basic source of water for the hydrologic 
cycle, a cleaning agent that absorbs carbon dioxide and generates 
oxygen, and home to thousands of flora and fauna. The ocean has been a 
source of new drugs to treat certain cancers. Blue-green algae, 
commonly found in Caribbean mangroves, are used to treat small-cell 
lung cancer and certain sponges produce chemical substances that can be 
used to treat cancer and manage pain. A wide gulf often separates 
science from the people who need research results to protect and 
support them. However, the new ocean economy puts science and 
predictive capabilities to work in a way that can fill critical, fast-
rising needs across sectors. All of the organizations that have lent 
their names to this statement stand in strong support for the ocean, 
coastal and Great Lakes research, conservation, observing, and 
education programs managed by NOAA's National Ocean Service and Office 
of Oceanic and Atmospheric Research. Specifically, we are referring to:

The National Sea Grant College Program and Marine Aquaculture
The Ocean, Coastal, and Great Lakes Cooperative Institutes
The Integrated Ocean Observing System
The National Estuarine Research Reserve System
The National Marine Sanctuary System
Coastal Zone Management and Services
Coastal Management Grants
The Digital Coast Program
Coastal Resilience
Coastal Science and Assessment
NOAA Education

    Sea Grant is a unique program within NOAA that sends 95 percent of 
its appropriated funds to coastal States through a competitive process 
to address issues that are identified as critical by public and private 
sector constituents and coastal communities throughout the United 
States. Sea Grant fosters cost-effective partnerships among State 
universities, State and local governments, NOAA, and coastal 
communities and businesses, leveraging nearly $3 for every $1 
appropriated by Congress. In 2016, the Sea Grant program helped 
generate an estimated $611 million in economic impacts, created or 
sustained over 7,000 jobs, provided 33 State-level programs with 
funding that assisted 494 communities with technical assistance on 
sustainable development practices, worked with about 1,300 industry and 
private sector, local, State and regional partners, and supported the 
education and training of over 2,300 undergraduate and graduate 
students.
    America's estuaries sustain coastal businesses, protect communities 
from flooding, keep water clean, preserve commercial fisheries, support 
wildlife, and provide opportunities for recreation. The National 
Estuarine Research Reserve System (NERRS) maintains 280 stations that 
track local water quality, pollution, and weather around the country. 
Every 15 minutes, these platforms collect data--42 million data points 
each year--that track hazardous spills, shellfish industry operations, 
storm damage and more. Reserves engage more than 36,000 volunteers and 
community members. Nearly 95 percent of Reserves allow for recreational 
fishing; 85 percent allow for hunting. Reserve programs help sustain 
more than 10,000 jobs, provide training to more than 13,400 people, and 
assist more than 2,000 decision makers and 570 businesses. Reserve 
programs reach more than 3,000 educators and 81,000 K-12 students 
receive STEM education in the outdoors. More than 100 universities and 
research institutions partner with Reserves on science and monitoring. 
These collaborations have supported approximately 350 graduate research 
fellows. Similar to Sea Grant, approximately 98 percent of Federal 
NERRS funding goes to the communities in which the Reserves are 
located. NERRS funding also leverages State matching funds raising $6 
million annually to supplement the Federal funding.
    Coastal observing systems are used to gather real time information 
and turn it into useful products that support human populations, 
coastal economies and a healthy, sustainable environment. They provide 
timely, actionable information developed from reliable and user-driven 
science to provide insight into present and future conditions. The need 
for data and information about our coasts and Great Lakes to help 
protect lives, economies and the environment has never been greater. 
Flood protection, safe and efficient marine operations, fisheries, 
aquaculture, water quality and safe recreation require an expanded 
network of observing systems and enhanced analysis that will improve 
predictive and forecasting capabilities for all users. The Integrated 
Ocean Observing System (IOOS) is a Federal partnership with regional 
organizations that is improving our understanding of the diverse 
characteristics of the Nation's regions. IOOS generates and delivers 
quality information about the Nation's oceans, coasts and Great Lakes. 
IOOS increases economic efficiency and minimizes redundancy by 
leveraging non-Federal investments; in fact, over fifty percent of the 
marine data now assembled and disseminated by NOAA's National Data Buoy 
Center is from non-Federal sources. IOOS provides a cost-effective 
approach to providing the Nation with reliable information to enhance 
maritime commerce; improve weather and flooding forecasting; supporting 
fisheries, ecosystems and water quality; and enhances our ability to 
plan for and respond to unforeseen hazards.
    The National Coastal Zone Management Program (CZM Program) is a 
State-Federal partnership supports the effective management, beneficial 
use, protection, and development of the coastal zone. Healthy coastal 
resources support business and conservation and long-term planning is 
essential for coastal areas to remain the economic drivers they are 
today. In fiscal year 2017, States and territories matched over $56.9 
million in investment in the CZM Program. The CZM program helps ensure 
that our Nation's coastal communities are able to plan for an uncertain 
future and help protect lives and investments on the coast. This State-
Federal partnership ensures the responsible use of coastal resources by 
balancing the needs of economic development and conservation of natural 
resources while also planning for potential impacts to a State's 
coastal zone.
    America's National Marine Sanctuary System consists of 13 national 
marine sanctuaries and two marine national monuments encompassing over 
620,000 square miles of marine and Great Lakes waters. Sanctuaries are 
home to millions of species, preserve our Nation's maritime heritage, 
and promote public access for exploration and world-class outdoor 
recreation and enjoyment for future generations. They generate $8 
billion annually in local economies and support numerous jobs and 
businesses in the fishing, tourism, recreation, and scientific research 
sectors. Because of strong ties to the local communities, businesses, 
and organizations, every dollar of public investment in sanctuaries 
stimulates a greater return on investment for our communities by 
heavily leverage private funds and partner contributions. Sanctuary 
visitor centers, vessels, and facilities are key assets for 
communities; stimulate public-private partnerships on emerging 
technologies, cutting edge science, and hands on education; and attract 
millions of visitors to the coasts each year.
    The Digital Coast Program was developed to meet the unique 
information needs of the coastal management community. It provides 
access not just to a growing body of coastal data, but also the tools, 
training, and information needed to make over 5 trillion points of 
LIDAR, 37 terabytes of imagery, and 800,000 square miles of land cover, 
collected from both Federal and non-Federal sources, useful for coastal 
managers, planners, and decision makers charged with managing the 
Nation's coastal resources. The products and services provided by the 
Digital Coast include data, information, and training for more than 
4,000 coastal communities.
    We urge the subcommittee to continue to support its portfolio of 
ocean and coastal programs and we offer the following specific 
programmatic recommendations:

  --National Sea Grant College Program.--$85 million for research, 
        education, extension, and outreach activities, including Marine 
        Aquaculture, STEM education, and Sea Grant fellowship programs 
        within the NOAA Operations, Research, and Facilities (ORF) 
        account within the Office of Oceanic and Atmospheric Research.
  --National Estuarine Research Reserve System.--$27 million in NOAA's 
        Operations, Research and Facilities account within the National 
        Ocean Service.
  --National Estuarine Research Reserve System.--$1.7 million for the 
        Procurement, Acquisition and Construction account within the 
        National Ocean Service.
  --Sanctuaries and Marine Protected Areas.--$57 million within the 
        National Oceanic and Atmospheric Administration's (NOAA) 
        Operations, Research, and Facilities (ORF) account in the 
        National Ocean Service.
  --Marine Sanctuaries Construction.--$8.5 million within NOAA's 
        Procurement, Acquisition, and Construction (PAC) account in the 
        National Ocean Service.
  --Coastal Zone Management Grants.--$75 million within NOAA's 
        Operations, Research, and Facilities (ORF) account, National 
        Ocean Service (under Coastal Management Grants line).
  --Coastal Resilience Grants.--$15 million within NOAAs Operations, 
        Research, and Facilities account, National Ocean Service (under 
        Coastal Management Grants line).
  --Regional Integrated Ocean Observing System (IOOS).--$37.7 million 
        within NOAA's Operations, Research, and Facilities account, 
        National Ocean Service.
  --Digital Coast Program.--$5 million within NOAA's Operations, 
        Research, and Facilities account, National Ocean Service.

    We appreciate the funding constraints and the many worthy competing 
claims the subcommittee must confront. Our coasts are home to 40 
percent of the Nation's population. Annually our coastal counties 
produce more than $7.6 trillion in goods and services, employ 53.6 
million people, and pay $3 trillion in wages. Coastal wetlands 
conservation measures prevented an estimated $625 million in property 
damages during Hurricane Sandy. Ocean, coastal, and Great Lakes 
research, education, conservation, and resource management practices 
funded by this subcommittee are investments in the future health and 
well-being of our coastal communities' economies which will result in 
returns of improved quality of life, environment and economic 
resilience many times over the Federal investment.
    Thank you for the opportunity to provide this unified message.
                                 ______
                                 
 Prepared Statement of the National Association of Marine Laboratories
 in support of fiscal year 2019 appropriations for the nation's ocean, 
    coastal, and great lakes research, education, conservation, and 
                     resource management enterprise
    Mr. Chairman and Members of the subcommittee, this subcommittee is 
uniquely responsible for the health of the ocean, coastal, and Great 
Lakes enterprise through your oversight and resource decisionmaking 
responsibilities related to NOAA, NSF, NASA, and other agencies. That 
enterprise is a critical part of the security of the Nation as it 
relates to economic, environmental, national, homeland, energy, 
conservation resources, and food security issues. In fiscal year 2019 
the administration has proposed the elimination of most of the funding 
for this subcommittee's extramural ocean, coastal, and Great Lakes 
research, conservation, observing, and education programs. We urge the 
subcommittee to restore funding and strengthen these programs 
consistent with the new spending levels in the Bipartisan Budget Act of 
2018.
    U.S. leadership in science and technology is being challenged by 
our international competitors. Investing in science and technology that 
relates to our oceans, coasts, and Great Lakes will help sustain U.S. 
leadership and contribute significantly to national security, economic 
security, food and energy security, and the security of our natural 
resources. In the R&D Chapter of the fiscal year 2019 Budget Request, 
the administration acknowledged that ``Innovation in science and 
technology has been a cornerstone of America's economic progress since 
the founding of this Nation''. The National Association of Marine 
Laboratories (NAML) strongly urges the Nation's decision makers to 
significantly strengthen the Federal Government's investment in 
extramural, merit-based, competitive research, infrastructure, and 
education programs at NSF, NOAA, NASA, and other ocean, coastal, and 
Great Lakes related agencies to develop the knowledge, the diverse 
workforce, and the technological innovations needed to power the 
Nation's economy, create jobs, improve health, and strengthen national 
security.
    NAML recommends expanded support for Federal agencies and programs 
that fund research, infrastructure, and education activities focused 
on:

  --U.S.-based aquaculture to reduce the ever-increasing demand for 
        foreign imports, to advance seafood security and opportunities 
        for economic growth.
  --Oceanographic and geochemical exploration and associated technology 
        development to advance national security, commerce and domestic 
        energy independence.
  --Data collection and adaptive management strategies to increase 
        productivity and sustainability of marine fisheries and social-
        economic productivity of U.S. exclusive economic zones.
  --Comprehensive understanding of ecosystems which support fisheries 
        and other social-economic drivers.
  --Defining the impacts and causative factors for shifting 
        environmental regimes to inform risk management of critical 
        defense, transportation, civic and business infrastructure 
        along U.S. coastlines.
  --Discovery and innovation in biological, chemical, geological and 
        physical marine sciences to support advancement of human and 
        environment health and social-economic objectives.
    the importance of oceans, coasts, and great lakes to national, 
                  economic, and environmental security
    The security of the U.S. is in large part dependent on our ocean, 
coastal, and Great Lakes resources:

  --Fourteen percent of U.S. coastal counties produce 45 percent of the 
        Nation's gross domestic product (GDP), with close to one in 45 
        jobs directly dependent on the resources of the oceans and 
        Great Lakes;
  --In 2014, the ocean economy's 149,000 business establishments 
        employed about 3.1 million people, paid $123 billion in wages, 
        and produced $352 billion in goods and services. This accounted 
        for about 2.3 percent of the Nation's employment and 2.0 
        percent of its gross domestic product;
  --Offshore mineral extraction represents 43 percent, and tourism and 
        recreation account for 31 percent, of the ocean economy 
        contributions to GDP. Tourism and recreation account for 72 
        percent of the ocean economy jobs; and
  --In summer 2017, the first ship to traverse the Arctic Northern Sea 
        Route without assistance from ice-breaking vessels completed 
        its journey. That transformational moment drives home both the 
        opportunity and the imperative for the United States, a Nation 
        with an important Arctic presence, to ready itself for the new 
        Arctic.

    The oceans are a primary source of food for over one billion 
people; a globally significant regulator of the earth's weather and 
climate; the basic source of water for the hydrologic cycle; a cleaning 
agent that absorbs carbon dioxide and generates oxygen; and home to 
thousands of flora and fauna, many with pharmaceutical value. A wide 
gulf often separates science from the people who need it to protect and 
support their well-being.
    In 2014, the ocean economy employed more people in the U.S. than 
the telecommunications, crop production, and building construction 
industries combined. Additionally, if the Nation's coastal counties 
were considered an individual country, they would rank number three in 
global GDP, behind only the U.S. and China. The Great Lakes alone 
generated nearly $5 trillion in economic output or about 30 percent of 
combined U.S. and Canadian economic production.
    The United States is the leading global importer of fish and 
fishery products, with 91 percent of the seafood we eat originating 
abroad--half of which is from aquaculture. Driven by imports, the U.S. 
seafood trade deficit grew to over $14 billion in 2016. NAML 
laboratories are leaders in developing and supporting innovative 
methods that will improve and encourage sustainable U.S. aquaculture 
products that complement, not compete with, existing U.S. commercial 
fisheries.
    The U.S. marine transportation system is a major driver of the U.S. 
economy and its impact reaches into the heartland of the Nation. 
America's seaports are crucial generators of economic development and 
well-paying jobs, regionally and nationally, throughout all supply 
chains that use the ports. Long-term sustainability of such critical 
ocean-front infrastructure in the wake of shifting--and dynamic--
environmental conditions is a significant concern addressed by marine 
laboratories, which typically share the same geographic proximity to 
the water.
    All the issues identified above--and more--can be addressed, in 
part, through a vibrant ocean science and technology enterprise. Such 
an enterprise is fueled by the support provided by NAML laboratories.
 the role of marine and great lakes laboratories in america's research 
                        and education enterprise
    NAML advocates for the importance of marine and freshwater science 
and education to America's health, security and productivity. NAML 
seeks to: champion the national value of marine and Great Lakes 
research, infrastructure, monitoring and observing, education, and 
outreach; advocate for robust merit-based Federal funding programs to 
address societal needs; enhance the capabilities and networking of 
Marine and Great Lakes laboratories to serve the Nation's coastal 
information needs; and contribute to the education and training of a 
diverse workforce for the future.
    The national network of Marine and Great Lakes science laboratories 
are place-based national assets. Their geographic reach includes 
estuaries, the coastal zone, the Great Lakes and inland watersheds, all 
the oceans of the world including polar regions, and the sea floor. 
They connect scientists, students, public and civic leaders with 
leading edge science, environmental intelligence, and professional 
training that contributes to the management and stewardship of our 
oceans, coastal zones and Great Lakes. NAML laboratories share common 
mission elements and broad expertise:

  --To produce and assimilate knowledge of world oceans, coastal zones, 
        Great Lakes and watersheds;
  --To train future generations of marine and freshwater scientists, 
        resource managers, and civic leaders;
  --To inspire public and civic understanding and stewardship of marine 
        and freshwater resources; and
  --To inform preservation, restoration, management and utilization of 
        marine and freshwater resources.

    The intersection of ocean, coastal zone and Great Lakes natural 
resources and U.S. economic activity is complex and highly 
interdependent. The U.S. depends on healthy marine and freshwater 
resources, yet many economic activities have the potential to damage 
these resources, putting jobs, wages and gross domestic product (as 
well as human health and well-being) at risk. Marine Laboratories 
operate at this interface of human socioeconomics and the natural 
aquatic world. They provide access to the full spectrum of marine and 
Great Lakes habitats. Often affiliated with universities, marine 
laboratories are research, monitoring and placed-based teaching 
platforms that support faculty scientists, graduate and undergraduate 
students, and public/civic outreach activities to promote stewardship 
and informed environmental and business management practices. Programs 
such as NSF's ocean, earth, polar, and biological research programs, 
NOAA's ocean and coastal programs, Sea Grant, EPA's Wetlands, Oceans 
and Watersheds, and other mission agency programs rely on marine and 
Great Lakes laboratories to contribute access, knowledge, data, and 
technologies to help improve management of these natural assets and 
sustain their development as socioeconomic drivers.
    Marine and Great Lakes science laboratories play a vital role in 
the decadal science priority themes identified in Sea Change: 2015-2025 
Decadal Survey of Ocean Sciences. The report indicates that Marine and 
Great Lake science laboratories are critical or important for several 
of the priority questions, including studies of coastal food webs, 
ecosystem biodiversity, and human impacts on coastal environments. NSF 
support of field stations and marine laboratories provides much-needed 
infrastructure and capital improvements that enhance the quality of 
scientific research and engagement with the public. Recent efforts by 
NSF to promote networking and data sharing among field laboratories 
will provide further opportunities for research and education. Sea 
Change identifies marine and Great Lakes laboratories as having a high 
degree of relevance towards priority research questions with lower 
costs than other marine infrastructure.
    We urge the subcommittee to continue to support its portfolio of 
ocean and coastal programs and we offer the following specific 
programmatic recommendations:

  --National Sea Grant College Program.--$85 million for research, 
        education, extension, and outreach activities, including Marine 
        Aquaculture, STEM education, and Sea Grant fellowship programs 
        within the NOAA Operations, Research, and Facilities (ORF) 
        account within the Office of Oceanic and Atmospheric Research.
  --National Estuarine Research Reserve System.--$27 million in NOAA's 
        Operations, Research and Facilities account within the National 
        Ocean Service.
  --National Estuarine Research Reserve System.--$1.7 million for the 
        Procurement, Acquisition and Construction account within the 
        National Ocean Service.
  --Sanctuaries and Marine Protected Areas.--$57 million within the 
        National Oceanic and Atmospheric Administration's (NOAA) 
        Operations, Research, and Facilities (ORF) account in the 
        National Ocean Service.
  --Marine Sanctuaries Construction.--$8.5 million within NOAA's 
        Procurement, Acquisition, and Construction (PAC) account in the 
        National Ocean Service.
  --Coastal Zone Management Grants.--$75 million within NOAA's 
        Operations, Research, and Facilities (ORF) account, National 
        Ocean Service (under Coastal Management Grants line).
  --Coastal Resilience Grants.--$15 million within NOAAs Operations, 
        Research, and Facilities account, National Ocean Service (under 
        Coastal Management Grants line).
  --Regional Integrated Ocean Observing System (IOOS).--$37.7 million 
        within NOAA's Operations, Research, and Facilities account, 
        National Ocean Service.
  --Digital Coast Program.--$5 million within NOAA's Operations, 
        Research, and Facilities account, National Ocean Service.

    We appreciate the funding constraints and the many worthy competing 
claims the subcommittee must confront. Our coasts are home to 40 
percent of the Nation's population. Annually our coastal counties 
produce more than $7.6 trillion in goods and services, employ 53.6 
million people, and pay $3 trillion in wages. Coastal wetlands 
conservation measures prevented an estimated $625 million in property 
damages during Hurricane Sandy. Ocean, coastal, and Great Lakes 
research, education, conservation, and resource management practices 
funded by this subcommittee are investments in the future health and 
well-being of our coastal communities' economies which will result in 
returns of improved quality of life, environment and economic 
resilience many times over the Federal investment.
    Thank you for the opportunity to submit these recommendations.
                                 ______
                                 
  Prepared Statement of the National Court Appointed Special Advocate 
                              Association
             fiscal year 2019 department of justice funding
    Chairmen Shelby and Moran, Vice Chairman Leahy, Ranking Member 
Shaheen, and Members of the Commerce, Justice, Science, and Related 
Agencies Subcommittee, thank you for the opportunity to submit remarks 
on the Department of Justice (DOJ) fiscal year 2019 budget including 
full funding of the Court Appointed Special Advocates (CASA) Program 
through the Office of Juvenile Justice and Delinquency Prevention 
(OJJDP) at the congressionally-authorized level of $12 million.
    CASA/Guardian ad Litem (GAL) advocacy is a well-established model 
strongly associated with improved long-term outcomes for child victims, 
for which the need continues to be both deeply profound and deeply 
devastating. With congressional support at the fully authorized level, 
the CASA/GAL network in 49 States and the District of Columbia will 
enhance and advance specialized training, tools, and resources to 
continue delivering vital one-on-one best-interest advocacy that 
addresses the complex and ever-evolving needs of traumatized children 
who have been victimized by one or more primary caregivers.
    Emerging issues such as the commercial sexual exploitation of 
children and our Nation's growing opioid epidemic--for which children 
account for an increasing number of victims--both necessitate a greater 
specialization within one-on-one advocacy, with a keen and deliberate 
focus on progressing toward the call within the Victims of Child Abuse 
Act to serve every child victim. As we enrich CASA/GAL advocacy to 
encompass evolving direct service needs, our national network will 
further strengthen its capacity to serve over 280,000 child victims of 
abuse and neglect.
    Child victimization and maltreatment by primary caregivers is 
distressingly on the rise, and with it, so too rises the impact on the 
child and society. Traumatized victims of child abuse and neglect face 
significant and multiple risk factors, most notably, juvenile 
delinquency, adult criminality, and poor educational performance that 
affects future employment and stability. These issues result in a hefty 
impact on Federal, State, and local spending--at least one-quarter of 
the DOJ budget is dedicated to our Nation's prison system, and at the 
same time, the Centers for Disease Control and Prevention (CDC) 
estimates the economic and social costs of child abuse and neglect to 
total $124 billion nationwide per annum. Local CASA/GAL programs offer 
an effective service to child victims of abuse and neglect that 
improves outcomes, increases the efficient functioning of our court 
systems, and saves hundreds of millions in Federal and State taxpayer 
dollars annually in the process.
    CASA/GAL programs are, at the heart of their operation, a highly 
effective leveraging of community-based resources to provide dedicated 
and sustained one-on-one advocacy for child victims and advise the 
courts of the child's best interests and needs throughout abuse and 
neglect proceedings. Research has shown that the presence of a caring, 
consistent adult in the life of a child victim is associated with 
improved long-term outcomes. These efforts, which focus on helping the 
child find a safe, permanent home where they can both heal and thrive, 
require thorough background screening, specialized training, and 
resources to promote a nationwide system of programs that adhere to and 
assure the highest quality of services and care for the child victim.
    CASA Program funds through DOJ achieve and uphold national standard 
setting, assessment, accountability, and evaluation across 938 local, 
State, and Tribal programs to promote improved child outcomes and 
effective stewardship of public investments in victim advocacy. 
Evidence-based practices, intensive technical assistance, direct 
program guidance and partnerships, and national program standards and 
quality assurance processes all lie at the foundation of effective 
CASA/GAL program service delivery in communities across the Nation.
    Given the nature of the CASA/GAL advocates' intensive work with 
child victims of abuse and neglect, standards of rigorous screening, 
training, supervision, and service are implemented nationwide, with 
congressional support, to ensure consistent quality for victims who 
directly benefit from having their needs and rights championed in the 
courtroom and in the community. Comprehensive pre-service, in-service, 
and issue-focused training curricula--including training in 
disproportionality, cultural competency, and working with older youth--
ensures a cutting edge approach to victim services centered on the 
child thriving well into the future as a member of the community. 
Federal support is foundational to the solid and high-quality 
functioning of a national child advocacy network for victims of abuse 
and neglect.
    As the needs of child victims of abuse and neglect grow and change, 
so must the specialization of one-on-one advocacy and services by CASA/
GAL programs. Since the Victims of Child Abuse Act was passed, the 
landscape of victims' services for children has evolved significantly. 
Researchers and practitioners know more now than ever about trauma, and 
its associated impacts on child development, as well as the significant 
and multiple risk factors and issues faced by abused and neglected 
children such as mental health/post-traumatic stress disorder (PTSD), 
commercial sex trafficking, overmedication, and the growing effects of 
substance abuse and the opioid epidemic in particular. Further, we know 
that youth of color in particular face very significant challenges--in 
addition to victimization--on their path to a thriving adulthood. CASA/
GAL advocates bring one-on-one attention and a dedicated focus to each 
of the issues that the child victim faces, but additional resources are 
needed to enhance and build their knowledge base as part of a 
continuous advocacy development process.
    These complex issues warrant adaptive and responsive training, 
technical assistance, and resources, while continuing on a trajectory 
of maintaining quality care and services within current CASA/GAL 
caseloads and also simultaneously building the capacity to take on 
additional cases when appointed by the court. National CASA Association 
is committed to continuous improvement of training, technical 
assistance, and resource delivery to strengthen and support local CASA/
GAL programs and State organizations to help advocates remain at the 
forefront of emerging child welfare issues.
    Federal support at the fully authorized level is instrumental to 
bridging advocacy training and best practice tools into multiple and 
new emerging issue areas including child sex trafficking, substance 
abuse and opioid-overuse, and the overmedication of child victims, for 
example. Advocates need to be well versed in warning signs for these 
issues, as well as the available services, resources, and coordination 
of community and court efforts in order to best address the child 
victim's case.
    Fiscal year 2019 funding of $12 million will be targeted to 
fortifying resources and training for CASA/GAL programs in the area of 
commercial sexual exploitation based upon existing best practices and 
models. In addition, this Federal funding will be used to target 
resources to serve over 280,000 child victims of abuse and neglect, and 
continue efforts toward the development of State CASA/GAL organizations 
in the States currently without this resource that enhances support of 
program service delivery in local communities. Additional projects 
include sustaining development of training on best practices in 
addressing the needs of children impacted by the opioid epidemic and 
other forms of substance abuse, child sex trafficking, unaccompanied 
children and addressing racial disproportionality in child welfare and 
the need for racially and culturally sensitive recruitment and matching 
of CASA/GAL advocates.
    According to the most recent government data available, the number 
of child maltreatment cases has increased to nearly 700,000 per annum. 
This remains a significant population with equally significant and 
complex issues and risk factors. Without the benefit of a specially 
trained CASA/GAL advocate that is able to devote dedicated time and 
attention to the details of the case, the child victim faces a complex 
and cumbersome court process and foster care system that is 
overwhelmed, overburdened, and under-resourced. Our ability as a 
national network to serve every child victim of abuse and neglect is 
directly tied to strengthening and expanding a foundational and 
interwoven program of advocate training, technical assistance, 
standards, tools, and resources that are funded with DOJ support.
    While children who are the victims of maltreatment have suffered 
deep layers of trauma, these experiences do not have to be their only 
life story. Juvenile detention and adult incarceration do not have to 
be the path to their future. Substance abuse, PTSD, homelessness, and 
joblessness do not have to be the basis of their experiences. We can 
change their trajectory, together, with congressional support.
    Caring, dedicated, and extensively trained CASA/GAL advocates bring 
about positive changes in the lives of child victims. Full funding is 
needed to continue expanding the advocate pipeline, enhance the 
training, resources, and services provided to and through CASA/GAL 
programs, and strengthen outcomes for future members of our Nation's 
workforce.
    We urge the subcommittee to fund the Court Appointed Special 
Advocates Program at our authorized level of $12 million in fiscal year 
2019 to address the overwhelming need for dedicated advocacy on behalf 
of child victims of abuse and neglect. Thank you for your 
consideration.

    [This statement was submitted by Tara L. Perry, Chief Executive 
Officer.]
                                 ______
                                 
     Prepared Statement of the National Estuarine Research Reserve 
                              Association
    Chairman and Members of the subcommittee, my name is Lisa 
Auermuller and I am the Assistant Manager of the Jacques Cousteau 
National Estuarine Research Reserve in New Jersey, administered by 
Rutgers, The State University of NJ. I submit this testimony in my 
capacity as President of the National Estuarine Research Reserve 
Association (NERRA). NERRA is a not-for-profit scientific and 
educational organization dedicated to the protection, understanding, 
and science-based management of our Nation's estuaries and coasts.
    Thank you, on behalf of these special places and all of the 
communities they support. We appreciate the investment Congress has 
made in the National Estuarine Research Reserve System (NERRS) over the 
past 45 years. Because of your support, coastal States and communities 
have worked to expand the NERRS into a network 29 protected places 
spanning over 1.3 million acres of coastal land. Reserves are locally 
managed programs that communities depend on to address critical 
challenges like balancing economic growth and natural resource 
conservation. Reserves help local communities plan for extreme storms 
and rising sea levels, protect nursery habitats that support commercial 
and recreational fisheries, and prepare the next generation to be wise 
stewards of these precious resources in the future. This unique State-
Federal partnership brings the scientific expertise and financial 
resources of NOAA into coastal communities across the country. 
Investments in the research reserves support locally implemented 
science-based coastal resource management, research, and education 
programs.
          reserves are valued, valuable, and highly leveraged
    Reserves support healthy estuaries and healthy estuaries support 
communities nationwide. From Alaska's Kachemak Bay to Rookery Bay in 
Florida, estuaries protect thousands of communities from flooding, keep 
water clean, sustain and create jobs, support fish and wildlife, and 
offer endless opportunities for outdoor recreation and water-based 
small businesses. Reserve programs help sustain more than 10,000 jobs, 
provide training to more than 13,400 people. Our national system 
contributes billions of dollars to the shellfish and seafood industry 
and tens of billions of dollars in ocean-dependent industries along our 
coasts. Each year, coastal wetlands, like those protected by the NERRS, 
provide $26.25 billion in value by protecting U.S. communities against 
storms.
    Every reserve leverages additional funding for their surrounding 
communities. In some States, this can be as much as $1.5 million. In 
addition to their ability to leverage funding, reserves engage and 
empower people in their own communities. Over a half of million people 
visit reserves each year and all reserves attract volunteers that 
offset costs by donating approximately 82,000 hours of work every year 
equating to a value of $1.9 million in services. It is well documented 
that people place an enormous value in living near a healthy estuary. 
Locally, Reserves become trusted sources of science-based information 
and recreation for community members to recreate with, learn from and 
rely on when information is needed to inform decisionmaking.
                         nerra recommendations
    For fiscal year 2019, NERRA strongly recommends the following 
funding levels within the National Oceanic and Atmospheric 
Administration (NOAA):

 
 
 
NERRS Operations........................................................................  $27 million
NERRS Procurement, Acquisition, and Construction (PAC)..................................  $1.9 million
 


    NERRA is deeply concerned with the Administration's elimination of 
funding for the NERRS and for other programs that support coastal and 
ocean science and management, but we are heartened by the support from 
Senate and Congress. We agree that everyone benefits from the return on 
investment the NERRS provide. People benefit from the economic 
opportunities and quality of life that coastal communities and natural 
resources provide. To preserve the safety, economic vitality, and 
cultural and environmental values of the coast, we need to invest in 
proven programs that are delivering direct benefits. NERRA's 
recommended budget will allow reserves to maintain and increase:

  --Science programs that deliver guidance and solutions to issues 
        facing local, State and national interests.
  --Environmental monitoring programs that serve as a foundational 
        element of national water and weather coastal observations.
  --Science, technology, engineering and mathematics focused education 
        programs that serve approximately 81,000 students and more than 
        3,000 teachers each year.
  --Public access for hunting, fishing, and passive recreation on over 
        a million acres of land and water.
  --Scientific technical assistance and information to professionals in 
        over 2500 cities and towns and 570 businesses nation- wide
  --Support for students and researchers at over 100 university 
        partners

    NERRA's fiscal year 2019 request is a $2 million increase over 
current program baseline. The additional $2 million will stimulate 
graduate research on coastal communities and ecosystems by employing a 
graduate student at each reserve. These recommendations are derived 
from a congressionally requested Blue Ribbon Panel that evaluated the 
NERRS in 2015, and identified increased site specific science and 
enhanced student research opportunities as locally beneficial essential 
services that reserves are well positioned to implement.
    Specific within the fiscal year 2019 request, is support for a 
graduate research fellowship program. These locally based students 
would help reserves answer the most pressing local management 
questions. Past research by graduate fellows has informed State and 
local decisions on how to manage fish stocks, coastal erosion, and 
water quality. Hosting a research fellowship at reserves will train 
young professionals to understand the community context of coastal 
science and management questions, provide them with cross disciplinary 
mentors, and give them experience and opportunities to engage in 
meaningful science. In a time where funding for advance education 
degrees is very tight, and science skills is needed, this program is an 
excellent fit for helping coastal communities and young professionals. 
In one specific example from the Great Lakes, colleagues from Wisconsin 
found that graduate research helped communities predict problems and 
identify solutions relating to making stream banks more resilient to 
the region's increasingly frequent and intense storms.
      protecting special places for science, recreation, education
    The NERRS Procurement, Acquisition, and Construction (PAC) funding 
is designated for land conservation, through acquisition of priority 
lands, and essential facilities construction and upgrades. This 
competitive funding program is matched by State funds and is critical 
to maintaining the places that host NERR research, education and 
outreach. Reserves are destinations for tourists, natural playgrounds 
for children, and havens for quiet reflection for people around the 
country. Additionally, hunters and fishermen use these public lands for 
commercial and recreational uses: 27 reserves allow for recreational 
fishing; and, approximately 85 percent allow for recreational hunting.
    Funding the acquisition of coastal land protects research, 
education and recreational opportunities; water quality and quantity; 
flood storage areas; and critical fish and wildlife habitat. Coastal 
and estuarine habitats are consistently ranked as having the highest 
need for protection by national non-profits and State assessments. 
These places are also under the most intense development pressure as 
people continue to move to the coast in search of jobs and a high 
quality of life. This land is expensive, and is becoming scarce. PAC's 
Federal investment are often the critical seed monies necessary to 
attract other pots of private, State, local, and nonprofit funds.
    PAC funding allows reserves to be a catalyst in their communities 
for conservation. Of the 1.3 million acres that are currently a part of 
the reserve system, over 500,000 of those acres are wetlands. Wetlands 
provide essential services to all Americans; they are fish and bird 
sanctuaries, trap pollutants, store carbon, and act as sponges to 
reduce flooding. This ability to store flood waters enables wetlands 
like salt marshes to reduce a community's storm damages. These marshes 
reduce the risk of flood exposure by 50 percent for people within 2/3 
of a mile of these areas, while also reducing property losses in 
upstream communities. Reserves are critical coastal areas for 
protecting communities against storms and floods, especially along the 
eastern seaboard and the Gulf of Mexico. For example, $625 million in 
property damages were avoided during Hurricane Sandy due to coastal 
wetlands protecting property and over 1,300 miles of roads. Ten NERRs 
were hit by that storm, contributing to the protection provided by 
these habitats. While studies of the impact of 2017 storms are not 
completed, they did include the second (Harvey), third (Maria), and 
fifth (Irma) most costly storms to hit the United States.
    In addition to the preservation of critical coastal lands, NERRS 
PAC funds also in the increase of local construction jobs.
                               conclusion
    NERRA greatly appreciates the past support the subcommittee has 
provided. This support is critical to sustain and increase the economic 
viability of coastal and estuary-based communities, businesses and 
industries.
    With NERRA's fiscal year 2019 request of $27 million for the NERRS 
Operations and $1.9 million for NERRS PAC, the program will be able to 
enhance delivery of credible scientific research and translation to 
local coastal communities around the country.
    Thank you for the opportunity to present these remarks. On behalf 
of NERRA, I would be happy to answer questions or provide additional 
information to the subcommittee.
                                 ______
                                 
  Prepared Statement of the National Legal Aid & Defender Association
Dear Committee Members:

    Thank you for the opportunity to provide testimony as the committee 
considers appropriations for fiscal year 2019. We write to request that 
you restore funding for the John R. Justice Student Loan Repayment 
Program. Signed into law by President George W. Bush, the program 
provides an incentive for talented lawyers to become public defenders 
and prosecutors by providing modest but consequential financial 
assistance in exchange for a minimum 3 year commitment to either of 
these roles.
    The National Legal Aid & Defender Association (NLADA), founded in 
1911, is the oldest and largest national nonprofit organization whose 
resources are exclusively dedicated to advancing equal access to 
justice for all Americans. NLADA champions effective legal assistance 
for people who cannot afford counsel, and serves as a collective voice 
for both civil legal aid and indigent defense systems throughout the 
Nation. NLADA's membership includes more than 800 civil legal aid and 
public defender offices that collectively represent thousands of 
attorneys in all 50 States and the U.S. Territories.
    Public defenders and prosecutors each play an indispensable role in 
protecting justice and public safety in American communities. Public 
defenders fulfill the constitutional right to counsel; they are 
essential to due process and our concept of liberty. As Senator 
Christopher Coons and now-Attorney General Jeff Sessions explain in a 
2013 letter, ``quality representation not only promotes the rule of law 
and safeguards constitutional rights, it also saves money by reducing 
pre-trail and post-trial incarceration costs''.\1\
---------------------------------------------------------------------------
    \1\ https://www.coons.senate.gov/newsroom/press-releases/senators-
coons-sessions-urge-review-of-cuts-to-Federal-defender-services
---------------------------------------------------------------------------
    The high cost of a legal education, combined with the relatively 
low salaries offered to new public defenders and prosecutors, can 
create substantial financial hardship that dissuades qualified 
individuals from accepting or remaining in these positions. The John R. 
Justice program mitigates this problem by providing up to $10,000 in 
repayment assistance per year (with an aggregate maximum of $60,000) to 
participating attorneys. This makes a real difference. A 2015 report by 
NLADA \2\ found that more than 80 percent of participating defenders 
would either feel a significant financial burden or be forced to leave 
their position if the program did not exist. Moreover, because the 
program is administered by Governor-appointed State agencies, it can 
respond efficiently to local needs.
---------------------------------------------------------------------------
    \2\ http://www.nlada.org/sites/default/files/pictures/
NLADA_Importance_of_PSLF_0.pdf
---------------------------------------------------------------------------
    Funding for the program has declined dramatically since its initial 
$10 million appropriation. In fiscal year 2014, Congress provided just 
$4 million, but this nonetheless enabled 853 prosecutors and 706 
defenders from across the country to access some level of assistance. 
Unfortunately, despite the health of our economy improving, this 
decline has continued and the Consolidated Appropriations Act of 2018 
includes only $2 million for the program.
    It is time to restore our investment in our justice system and in 
those who work every day to deliver on its promise by providing $10 
million for the John R. Justice Student Loan Repayment Program. With 
caseloads routinely exceeding national standards, and particularly in 
rural areas, recruitment and retention of qualified attorneys remains a 
challenge that deeply harms the ability of courts to fairly and 
effectively adjudicate cases. By fully funding this program, Congress 
can make an important impact on the administration of justice at 
minimal cost.
    Thank you again for the opportunity to provide comments to the 
committee. If you have any questions, please do not hesitate to contact 
me at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9be9b5f1f4e2dbf5f7fafffab5f4e9fcb5">[email&#160;protected]</a>

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Rosalie Joy
Vice President, Defender Legal Services
National Legal Aid & Defender Association
                                 ______
                                 
  Prepared Statement of the National Legal Aid & Defender Association
Dear Committee Members:

    We appreciate the opportunity to provide comments as the committee 
considers appropriations for fiscal year 2019. We write specifically 
regarding the Legal Services Corporation (LSC). LSC provides grants and 
other support to civil legal aid organizations serving low-income 
individuals and families in every congressional district. The 
committee's decision to increase the budget of LSC in fiscal year 2018 
is a welcome recognition of the critical role of civil legal aid in 
protecting the fundamental American promise of equal justice for all. 
We now urge the committee to take the next step and provide the 
resources that are required to adequately serve every eligible client 
that seeks assistance from an LSC grantee.
    The National Legal Aid & Defender Association (NLADA), founded in 
1911, is the oldest and largest national nonprofit organization whose 
resources are exclusively dedicated to advancing equal access to 
justice for all Americans. NLADA champions effective legal assistance 
for people who cannot afford counsel, and serves as a collective voice 
for both civil legal aid and indigent defense systems throughout the 
Nation. NLADA's membership includes more than 800 civil legal aid and 
public defender offices that collectively represent thousands of 
attorneys in all 50 States and the U.S. Territories.
    The American legal system is extraordinarily complex and is nearly 
impossible to navigate without the assistance of effective legal 
counsel, but with nearly one in five Americans living near or below the 
Federal poverty level, many families simply do not have the money to 
pay for a lawyer when facing a legal problem. These problems can have 
devastating outcomes with life-altering consequences, like when a 
victim of domestic violence is unable to secure a restraining order and 
safety from their abuser; or a person addicted to opioids is denied 
access to treatment necessary for their continued sobriety; or the 
family who lose their home because they were unable to renegotiate with 
a mortgage lender; or a veteran with a disability who is wrongly denied 
the benefits they earned through military service. LSC grantees prevent 
harmful outcomes like these, making a vital difference in the lives of 
Americans every day, and solving these problems before they generate 
social and economic costs to our communities and our taxpayers.
    In June 2017, we wrote to LSC to urge them to seek $669 million in 
their budget request to Congress for fiscal year 2019. This was based 
on data from the 2017 report The Justice Gap: Measuring the Unmet Civil 
Legal Needs of Low-income Americans, which revealed that the fiscal 
year 2017 appropriation level ($385 million) enabled LSC grantees to 
address to some degree 59 percent of legal problems brought to them. 
Based on this data, a conservative estimate of the resources that would 
be required to adequately address all the legal problems brought to 
grantee organizations is $669 million. We note that this would not be 
sufficient to meet all the legal needs of low-income Americans, but it 
would enable organizations to serve far more of those individuals who 
directly seek their help. The letter from NLADA to LSC, which includes 
a more comprehensive explanation of this estimate, can be accessed at: 
http://www.nlada.org/sites/default/files/FY19LSCBUDGETNLADA.pdf.
    This should not suggest that LSC grants are solely responsible for 
addressing the legal needs of low-income Americans. Rather, civil legal 
aid organizations effectively leverage the important foundation 
provided by LSC grants to attract additional investment and resources 
from other sources. On average, LSC grants now comprise just 35 percent 
of the total budget of LSC grantees. Through pro bono contributions by 
private sector entities, the impact of these Federal dollars is 
extended even further. This is one reason why 251 general counsel at 
some of America's largest corporations have signed a letter to Congress 
requesting an increase in funding for LSC. In addition to explaining 
why a robust investment in LSC is necessary for their companies to 
engage in pro bono legal services, the letter describes how the ``[t]he 
promise of equal justice for all engenders trust in our justice 
system'', which creates a ``competitive advantage'' for our country's 
businesses. The letter can be accessed at: http://www.nlada.org/sites/
default/files/LSCFY19GC.pdf.
    Thank you again for the opportunity to provide comments to the 
committee. If you have any questions, please do not hesitate to contact 
us at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe9ad08d9f8b909a9b8c8dbe90929f9a9fd0918c99">[email&#160;protected]</a> and <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="53377d3e3a3f3f3621133d3f3237327d3c21347d">[email&#160;protected]</a>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
     Prepared Statement of the National Marine Sanctuary Foundation
    Mr. Chairman and Members of the Subcommittee on Commerce, Justice, 
Science and Related Agencies, thank you for the opportunity to submit 
written testimony regarding appropriations for the Office of National 
Marine Sanctuaries in fiscal year 2019. As supporters, stakeholders, 
and partners of America's National Marine Sanctuary System, we strongly 
urge Congress to support the Office of National Marine Sanctuaries at 
no less than $65.5 million in fiscal year 2019. The same level 
requested by 91 Members of Congress in their bipartisan House dear 
colleague letter. We respectfully request that you prioritize requests 
for:

  --Sanctuaries and Marine Protected Areas, within the National Oceanic 
        and Atmospheric Administration's (NOAA) Operations, Research, 
        and Facilities (ORF) account, at a level of $57 million; and
  --Marine Sanctuaries Construction, within NOAA's Procurement, 
        Acquisition, and Construction (PAC) account, at a level of $8.5 
        million.

    The National Marine Sanctuary Foundation, California Marine 
Sanctuary Foundation (CA), Cordell Marine Sanctuary Foundation (CA), 
Greater Farallones Association (CA), Monterey Bay National Marine 
Sanctuary Foundation (CA), Friends of Mallows Potomac (MD), Friends of 
Thunder Bay National Marine Sanctuary (MI), Gray's Reef National Marine 
Sanctuary Foundation (GA), Olympic Coast National Marine Sanctuary 
Foundation (WA), and Sanctuary Friends Foundation of the Florida Keys 
(FL) strongly support funding the National Marine Sanctuary System at 
these levels. Our organizations work together to conserve treasured 
places in our oceans and Great Lakes for current and future generations 
of Americans to enjoy. We promote citizen science, research, 
conservation, education, and community engagement to protect coral 
reefs and marine habitats, conserve places of cultural significance, 
and preserve our maritime history and heritage. Partnerships are 
critical to the National Marine Sanctuary System. Through collaboration 
with local communities, government, corporations, and individual 
donors, our organizations increase our impact.
    Today, the National Marine Sanctuary Systems consists of 13 
national marine sanctuaries, and NOAA ONMS co-manages two marine 
national monuments, totaling over 620,000 square miles. These sites 
conserve some of the Nation's most critical natural, historic, and 
cultural resources in the ocean and Great Lakes such as the USS 
Monitor, Midway Island, sacred heritage sites for Native Americans, and 
some of the largest and oldest corals in the world. They are home to 
millions of species, preserve more than 300 shipwrecks and our Nation's 
maritime heritage, and promote public access for exploration and world-
class outdoor recreation and enjoyment for future generations. 
Sanctuary visitor centers, vessels, and facilities are key assets for 
communities; stimulate public-private partnerships on emerging 
technologies, cutting edge science, and hands-on education; and attract 
millions of visitors to the coasts each year.
    Across all national marine sanctuaries, about $8 billion annually 
is generated in local, coastal economies from diverse activities like 
commercial fishing, research, education and recreation-tourist 
activities. Over 42 million people visit sanctuaries each year. From 
restaurants and hotels, to aquariums and kayak operators, the success 
of many businesses, millions of dollars in sales and thousands of jobs, 
directly depend on thriving national marine sanctuaries. As a travel 
destination, few places on the planet can compete with the diversity of 
the National Marine Sanctuary System. The majority of national marine 
sanctuaries' waters are open to recreational activities, which also 
allows for considerable benefits to local economies. Public-private 
partnerships bring innovative approaches to conserving our natural and 
cultural resources. Collaborations among universities, institutions, 
non-profits, businesses, and enforcement entities at local, State, and 
national levels leverage resources and build relationships to have a 
greater impact for communities and the economy. Below are a few 
examples of the value of sanctuaries to local economies:

  --In Washington State, $101.6 million was spent on recreation in the 
        Olympic Coast National Marine Sanctuary. This spending 
        generated, with multiplier impacts, $128.2 million in output, 
        $78 million in value-added (gross regional product), and $46.1 
        million in income, which supported 1,192 jobs.
  --Along the California coast, $155.6 million on average is spent 
        annually on recreational fishing in the State's four national 
        marine sanctuaries. This spending supports an average of 1,400 
        jobs, and generates $213.1 million in sales and output and 
        $74.6 million in income in local communities.
  --In the Florida Keys, more than 33,000 jobs are supported by ocean 
        recreation and tourism, accounting for 58 percent of the local 
        economy and $2.3 billion in annual sales.
  --In Michigan, the Thunder Bay National Marine Sanctuary is the focus 
        of its tourism attractions and local development strategy from 
        the Sanctuary Inn to the Great Lakes Maritime Heritage Center, 
        to the STEM education opportunities through the Alpena 
        Community College and local high school ROV competitions, to 
        its glass bottom boat tours to experience the shipwrecks 
        without getting wet. Over half (58 percent) of visitors to 
        Alpena came to visit Thunder Bay National Marine Sanctuary, 
        which is the region's most popular attraction, boasting nearly 
        100,000 visitors per year.
  --In Massachusetts, over $126 million in whale watching revenue and 
        600 jobs at 31 businesses resulting from less than $2 million 
        invested in the Stellwagen Bank National Marine Sanctuary off 
        of Massachusetts. Virtually all of Massachusetts whale watching 
        occurs in Stellwagen Bank National Marine Sanctuary, recently 
        named one of the premiere whale watching locations in the 
        world.

    Balancing multiple uses on the water and engaging many 
constituencies in the community, sanctuaries provide a comprehensive, 
highly participatory approach to managing and conserving marine and 
Great Lakes resources. National marine sanctuaries are the blue 
backyards for tens of thousands of citizens and volunteers who live 
along the coast or in the watersheds of these treasured sites. Public 
participation is a hallmark of sanctuaries and underscores their 
dedication to civic engagement and leadership.
    Every year, thousands of volunteers devote their time and effort to 
protect sanctuaries for future generations. They represent the best of 
America and what starts as one passionate citizen becomes an empowered 
community. Sanctuary volunteer programs are nationally recognized and 
awarded for their work increasing awareness, engaging the community, 
promoting stewardship, and providing critical information and support 
for science, research, education, and management. In 2017, sanctuary 
volunteers contributed over 130,000 hours across the system, 
contributing more than $3.14 million in valuable support. In 2017, 
almost 8,523 volunteers supported national marine sanctuary citizen 
science efforts helping to answer real-world scientific questions.
    In 2022, the Nation will mark the 50th anniversary of the National 
Marine Sanctuaries Act. As the Nation moves towards this anniversary, 
it is a unique opportunity to invest in America's public waters, and 
the communities and businesses that depend upon them. We recognize this 
request is a significant increase in fiscal year 2019 but it will serve 
as the beginning of a deliberate and strategic ramp up to boost 
sustainable economic growth, business development, and community 
engagement centered in national marine sanctuaries.
    For sanctuary Operations, Research and Facilities (ORF) funding, we 
urge Congress to provide $57 million. Because sanctuaries are located 
offshore, public awareness and education about the sites and the 
resources they conserve are critical, as is technology to let Americans 
look ``under the surface.'' Therefore, of the requested increase, we 
are proposing $3 million for efforts to increase public education and 
awareness at individual sites in the National Marine Sanctuary System 
and strengthen the connection between communities and their marine and 
Great Lakes wonders. With the 50th Anniversary of the System only 5 
years away, we hope to drive visitation and growth in the blue economy 
through fishing, diving, ports and shipping, recreation, hospitality, 
and tourism. To support this effort, the proposed increase includes $1 
million to for national blue business stewardship efforts for marine 
sanctuaries. We are requesting $2 million to increase support for 
sanctuaries to conduct cooperative research efforts to improve 
resources management. Similar to America's national parks, marine 
sanctuaries support tourism and a robust recreational industry. 
Finally, the requested increase includes $2 million to support the 
incremental growth that will enable sanctuaries to be responsive to the 
groundswell of communities nationwide seeking to expand sites or 
propose and designate new ones.
    Sanctuary visitor centers, vessels, and facilities are key assets 
for communities; stimulate public-private partnerships on emerging 
technologies, cutting edge science, and hands-on education; and attract 
millions of visitors to the coasts each year. These platforms act as 
the public face of proactive management and protection, promoting 
partnerships for science and education, and are a vital link between 
sanctuaries and the millions of Americans who visit the coast each 
year. For sanctuary Procurement, Acquisition, and Construction (PAC) 
funding, we propose $8.5 million. This request includes $4 million to 
replace vessels critical to operations. This April, ONMS released its 
Small Boat Fleet Assessment. Every national marine sanctuary relies on 
its NOAA small boats to access its protected resources, but increasing 
demands on an aging fleet are leading to higher operating costs as well 
as near and long-term challenges to maintaining safe, efficient and 
effective operations. Investment is necessary now for new vessels. The 
request also includes $2 million for visitor centers, facilities, and 
signage improvements and ADA compliance; and $2.5 million in a 
Sanctuary Challenge Fund. The Sanctuary Challenge Fund is an innovative 
approach, based on the model of the highly successful National Park 
Service Centennial Fund, to finance signature projects and programs 
across the National Marine Sanctuary System. The public investment 
would be matched at least 1:1 by nonfederal donations to address the 
backlog of needs for sanctuary facilities that enhance the sanctuary 
visitor experience as part of the ramp up to the 50th anniversary. In 
addition, these investments will create jobs through construction and 
shipbuilding in Alabama, Mississippi, or Washington.
    Our national marine sanctuaries are national treasures. The 
National Marine Sanctuary Foundation and our network of community 
leaders strongly urge Congress to invest in community-based national 
marine sanctuaries by prioritizing a budget of no less than $65.5 
million in fiscal year 2019. Investments in these areas support local 
economies and jobs in a diversity of sectors from education to outdoor 
recreation to fishing and underscore the value of communities in 
America's iconic underwater places.
    Thank you for this opportunity to provide written testimony to the 
Senate Appropriations Subcommittee on Commerce, Justice, Science and 
Related Agencies.

    [This statement was submitted by Ms. Kristen J. Sarri, President 
and CEO.]
                                 ______
                                 
  Prepared Statement of the National Network to End Domestic Violence
    Chairman Moran, Ranking Member Shaheen, and distinguished Members 
of the Appropriations Committee, thank you for this opportunity to 
provide testimony on the importance of investing in Violence Against 
Women Act programs and the Victims of Crime Act. I sincerely thank the 
Committee for its ongoing support for these lifesaving programs.
    I am the President and CEO of the National Network to End Domestic 
Violence (NNEDV), the Nation's leading voice for victims of domestic 
violence and their advocates. We represent the 56 State and territorial 
domestic violence coalitions, their over 2,500 member domestic violence 
and sexual assault programs, and the millions of victims they serve 
annually. Our direct connection with victims and those who serve them 
gives us a unique understanding of their needs and the vital importance 
of these continued investments.
    The purpose of this testimony is to request an investment of the 
full authorized amount of $571 million in the Violence Against Women 
Act (VAWA) and the release of $2.6 billion (with no transfers to other 
DOJ programs) from the Victims of Crime Act Fund administered by the 
U.S. Department of Justice in the fiscal year 2019 Budget. We sincerely 
appreciate the Committee's increased funding in the recently passed 
Omnibus bill. These much needed increases will help survivors access 
critical services and find safety. While we're requesting additional 
funding, we also want to recognize and thank the committee for their 
investment in VAWA, VOCA, and the VOCA Tribal stream, as demonstrated 
in the recently passed Omnibus bill for fiscal year 2018. Thanks to the 
commitment of this Committee countless victims will be able to access 
critical and life-saving services, and we truly appreciate the 
Committee's leadership in securing increased funding.
    Incidence, Prevalence, Severity and Consequences of Domestic and 
Sexual Violence.--The crimes of domestic and sexual violence are 
pervasive, insidious and life-threatening. In 2011, the Centers for 
Disease Control and Prevention released the first-ever National 
Intimate Partner and Sexual Violence Survey which found that domestic 
violence, sexual violence and stalking are widespread. Domestic 
violence affects more than 12 million people each year, and more than 
one in four women and one in seven men have experienced rape, physical 
violence, or stalking in his or her lifetime. The terrifying conclusion 
of domestic violence is often murder, and every day in the U.S. an 
average of 3 women are killed by a current or former intimate 
partner.\i\ The cycle is perpetuated as approximately 15.5 million 
children are exposed to domestic violence every year.\ii\ In addition 
to the impact of domestic and sexual violence to individual victims and 
their families, these crimes cost taxpayers and communities. According 
to the Centers for Disease Control, based on 1999 figures, the cost of 
intimate partner violence exceeds $5.8 billion each year, $4.1 billion 
of which is for direct healthcare services.\iii\ Translating this into 
2018 dollars, based on the Bureau of Labor Statistics Consumer Price 
Index, the annual cost to the Nation is over $9 billion per year. In 
addition, domestic violence costs U.S. employers an estimated $3 to $13 
billion annually.\iv\
---------------------------------------------------------------------------
    \i\ Bureau of Justice Statistics (2013). Intimate Partner Violence: 
Attributes of Victimization, 1993-2011 (Special Report NCJ243300)
    \ii\ McDonald, R., et al. (2006). ``Estimating the Number of 
American Children Living in Partner-Violence Families.'' Journal of 
Family Psychology, 30(1), 137-142.
    \iii\ National Center for Injury Prevention and Control. Costs of 
Intimate Partner Violence Against Women in the United States. Atlanta 
(GA): Centers for Disease Control and Prevention; 2003.
    \iv\ Bureau of National Affairs Special Rep. No. 32, Violence and 
Stress: The Work/Family Connection 2 (1990); Joan Zorza, Women 
Battering: High Costs and the State of the Law, Clearinghouse Rev., 
Vol. 28, No. 4, 383, 385.
---------------------------------------------------------------------------
    Despite this grim reality, we know that when a coordinated response 
is developed and immediate and essential services are available, 
victims can escape from violence and succeed at rebuilding their lives. 
Additionally, several high-profile cases, national focus on domestic 
and sexual violence, and the #MeToo movement have given survivors the 
courage to come forward and hold their abusers accountable. As a 
result, shelters overwhelmingly report that they cannot fulfill the 
growing need for these services. To address unmet needs and build upon 
their successes, VAWA programs and the Victims of Crime Act fund 
release should receive significant investments in the fiscal year 2019 
Commerce, Justice, Science Appropriations bill.
    The Need for Increased Funding to Maintain Programs and Bridge the 
Gap.--NNEDV's DV Counts Census found that in just one day during 2016, 
72,959 victims of domestic violence received critical emergency 
shelter, housing, counseling, legal support, children's advocacy, 
crisis line, and prevention related services, but 11,991 requests for 
services went unmet, largely due to lack of funding. That same year, 
domestic violence programs reported that they had laid off nearly 1,200 
staff positions, 61 percent of which were direct service positions, 
such as case managers, advocates, shelter staff, and child advocates. 
For those individuals who are not able to find safety the consequences 
can be dire, including homelessness or continued exposure to life-
threatening violence.
    We have made phenomenal progress in addressing sexual and domestic 
violence because of Congress' ongoing, annual investment. Before the 
passage of VAWA, law enforcement often failed to conduct effective 
investigations and make arrests where appropriate, prosecutors often 
declined to file, and courts often neglected cases involving survivors 
and their families. With the passage of VAWA, the infusion of Federal 
funds fostered unprecedented coordination between frontline 
stakeholders. VAWA has elevated a national learning community, 
fostering innovation and promoting best practices. VAWA's work is 
complemented by VOCA, which funds direct services to victims of all 
types of crime, including dating violence and stalking. Together, VAWA 
and VOCA have fueled our undeniable national progress. Between VAWA's 
implementation in 1994 and 2011, serious victimization by intimate 
partner violence declined by 72 percent for women and 64 percent for 
men.\v\ VAWA saved an estimated $12.6 billion in net-averted costs in 
its first 6 years alone.\vi\ A 2010 study demonstrated that an increase 
in the number of legal services available is associated with a decrease 
in intimate partner homicide.\vii\ Referring a victim to an advocate 
has been linked to an increased willingness to file a police 
report.\viii\ Continued investment is vital to ensure that law 
enforcement officers, prosecutors, and judges and victim services have 
the tools they need to support victim safety and to hold perpetrators 
accountable. In order to meet the immediate needs of victims and to 
continue to prevent and end domestic violence, I urge you to increase 
VAWA funding and release steady funds from VOCA.
---------------------------------------------------------------------------
    \v\ Fiscal Year 2017: Congressional Justification. (2016). United 
States Department of Justice, Office on Violence Against Women. https:/
/www.justice.gov/jmd/file/821736/download.
    \vi\ Clark, K.A., Biddle, A.K., & Martin, S.L. (2002). A Cost-
Benefit Analysis of the Violence Against Women Act of 1994., Violence 
Against Women, 8, 4: 417-428.
    \vii\ Reckdenwald, A., & Parker, K.K. (2010). Understanding gender-
specific intimate partner homicide: A theoretical and domestic service-
oriented approach. Journal of Criminal Justice, 38, 951-958.
    \viii\ Campbell, R. (2006). Rape survivors' experiences with the 
legal and medical system: Do rape victim advocates make a difference? 
Violence Against Women, 12: 30-45.
---------------------------------------------------------------------------
VICTIMS OF CRIME ACT (VOCA) FUNDING
    VOCA uses non-taxpayer money from the Crime Victims Fund (CVF) for 
several programs that serve victims of crime, including State-formula 
victim assistance grants. These funds, which are generated by fines 
paid by Federal criminals, support services to 4 million victims of all 
types of crimes annually, through 4,400 direct service agencies such as 
domestic violence shelters, rape crisis centers, and child abuse 
treatment programs. Sustained VOCA funds are critically needed to 
respond to the crisis caused by the dangerous lack of available 
services for victims of domestic and sexual violence. The balance in 
CVF is more than enough to maintain increased VOCA funding releases 
without jeopardizing future sustainability. We urge you to request that 
the committee set the annual VOCA funding release level at no less than 
the average amount deposited into the Fund over the three previous 
fiscal years, which is approximately $2.6 billion for fiscal year 2019.
    The fiscal year 2018 Appropriations bill transferred VOCA funds to 
pay for VAWA programs. We oppose VOCA funds being transferred to other 
CJS accounts, as this reduces vital funding for direct victim services. 
We urge you to request $2.6 billion from the VOCA fund in fiscal year 
2019 to address the urgent needs of victims of crime. We urge you to 
request that Appropriators do not transfer funds from VOCA to fund 
other programs within CJS. Additionally, we urge you to request funding 
to maintain the Federal funding stream from VOCA for Tribes. 
Individuals on Tribal lands experience disproportionately high rates of 
domestic and sexual violence and desperately need funding for victim 
services.
VIOLENCE AGAINST WOMEN ACT (VAWA)--$571 million funding request
    Since its passage in 1994, VAWA has been the cornerstone of our 
Nation's response to domestic violence, sexual assault, dating 
violence, and stalking. The promise of VAWA can only be fulfilled if 
the programs receive continued investment through the appropriations 
process. We urge you to support full funding for all VAWA programs as 
you work on the fiscal year 2019 CJS bill.
VAWA STOP Program--$222 million funding request
    VAWA's Services, Training, Officers, Prosecutors (STOP) Grant 
Program is at the core of effective coordinated community responses to 
domestic violence and sexual assault. As the foundational VAWA program, 
the STOP program awards funds to every State and territory through a 
formula-based system. States use this STOP funding for law enforcement, 
prosecution, and courts training and response. In 2016, STOP grant-
funded programs helped 362,172 victims of domestic violence, dating 
violence, sexual violence, and stalking; funded 2,226 staff members, 
including victim advocates, law enforcement officers, counselors, and 
attorneys; and trained 252,795 criminal justice professionals. 
Increased investment in STOP will allow communities to expand their 
lifesaving homicide reduction efforts, continue to improve their law 
enforcement and prosecution responses, and serve more victims. We urge 
you to request $222 million to support these essential, comprehensive 
services.
Legal Assistance for Victims (LAV)--$57 million funding request
    Research indicates that the practical nature of legal services 
gives victims long-term alternatives to their abusive relationships, 
and are also vital to support survivors of sexual assault in civil 
matters. Sadly, many survivors do not have the means to secure legal 
assistance in the aftermath of abuse or assault. The LAV program is the 
only federally-funded program designed to meet the legal needs of 
victims. Targeted increases to the LAV program are a sound investment 
in long-term solutions to violence. We urge you to request $57 million 
for this program to support legal help for victims.
Rural Grant Program--$50 million funding request
    This program supports services for victims of domestic violence and 
sexual assault living in rural and isolated areas. Rural victims face 
unique barriers, including lack of access to child care, legal 
services, and public transportation, under-resourced law enforcement, 
and a shortage of safe shelter and services. We urge you to provide $50 
million for this program.
Transitional Housing Program--$35 million funding request
    This vital VAWA program helps communities in every State give 
victims of domestic violence, sexual assault, dating violence, and 
stalking a safe place to begin to rebuild their shattered lives. On 
just one day in 2016, 15,283 adults and children were housed in 
domestic violence transitional housing programs. On the same day, 
however, 7,914 requests for emergency shelter or transitional housing 
were denied due to a lack of capacity. The extreme dearth nationwide of 
affordable housing produces a situation where many victims must return 
to their abusers or become homeless because they cannot find stable 
housing. Increased investment in the Transitional Housing program will 
allow more communities ensure that victims do not have to make these 
unfathomable choices. We urge you to request $35 million for this 
program.
Grants to Encourage Arrest Program (GTEAP)--$73 million funding request
    GTEAP helps communities develop and sustain a comprehensive 
criminal justice response to domestic violence, enhancing victims' 
safety and holding perpetrators accountable. GTEAP encourages State, 
local, and Tribal governments and courts to treat domestic violence, 
dating violence, sexual assault, and stalking as serious violations of 
criminal law requiring the coordinated involvement of the criminal 
justice system. The homicide reduction initiative in GTEAP ($4 million) 
is designed to address the risk of homicide of abuse victims, 
especially those in escalating situations. Additionally, a set aside 
for firearms lethality initiative will allow communities to address the 
deadly combination of firearms and domestic violence. Increased 
investment in GTEAP to $73 million will allow communities to continue 
this lifesaving work.
Sexual Assault Services Program (SASP)--$40 million funding request
    SASP is a State formula grant and the only Federal funding source 
dedicated to providing direct services to adult and minor victims of 
sexual violence Services include hotlines, crisis intervention, 
advocacy, and accompaniment through medical and legal systems. The 
Office on Violence Against Women's most recent report to Congress found 
that 49,068 survivors of sexual assault had been served, and 113,697 
hotline calls answered, by SASP-funded advocates. Increased funding 
will help eliminate waiting lists and respond to the unmet needs of 
victims. We urge you to provide $40 million for this vital program.
    Remaining VAWA programs: Elder Abuse Grant program ($9 million), 
Protections and Services for Disabled Victims ($9 million), and 
Outreach to Underserved Victims ($2 million). VAWA also funds programs 
designed to prevent domestic violence, sexual assault, dating violence, 
stalking and addresses crimes experienced by children and youth--
including the Violence on College Campuses Grants ($26 million), the 
SMART and CHOOSE Youth ($15 million) programs, the Grants to Support 
Families in the Justice System ($22 million). The Rape Survivor Child 
Custody Act ($2.50 million) provides rights for victims of rape. 
Programs that address the needs of Native American victims include 
Research on Violence Against Indian Women ($1 million), the VAWA Tribal 
Jurisdiction ($5 million), National Tribal Sex Offender Registry ($1 
million) and the National Clearinghouse on Sexual Assault of American 
Indian and Alaska Native Women ($0.5 million). Finally, the Resource 
Center on Workplaces Responses ($1 million) helps companies address 
domestic violence and sexual assault in the workplace.
    VAWA programs work together to improve the system-wide response to 
domestic and sexual violence. Thank you for your continued support of 
these vital programs. While our country has made continued investments 
in the criminal justice response to these heinous crimes, we need an 
equal investment in the human service, public health and prevention 
responses in order to comprehensively address and end the violence. 
These vital, cost-effective programs help break the cycle and save 
lives, and we asked for their fully authorized amounts.

    [This statement was submitted by Kim Gandy, President and CEO.]
                                 ______
                                 
     Prepared Statement of the National Weather Service Employees 
                              Organization
    NWSEO urges rejection of the administration's proposal to cut 355 
additional positions from the National Weather Service that is 
contained in its fiscal year 2019 budget submission. All but a handful 
of these positions are ``emergency essential'' operational personnel 
critical to protecting lives and property.
    In May 2017, the Government Accountability Office released a study 
that confirms the vacancy rate in NWS operational units has already 
reached a point where NWS employees are ``unable at times to perform 
key tasks.'' National Weather Service: Actions Have Been Taken to Fill 
Increasing Vacancies, but Opportunities Exist to Improve and Evaluate 
Hiring (GAO 17-364). The GAO found that the vacancy rate in operational 
units (defined as those 168 NWS offices that issue forecasts or 
warnings and that are staffed by emergency-essential personnel) rose 
from 5 percent at the end of fiscal year 2010 (211 positions) to 11 
percent at the end of fiscal year 2016 (455 positions). The GAO also 
found that NWS ``staff experienced stress, fatigue and reduced morale 
resulting from their efforts to cover for vacancies'' due to lack of 
time off and a loss of training. According to the GAO, NWS managers 
admit ``that employees are fatigued and morale is low'' and that 
employees ``were demoralized because they had to cover the workload for 
multiple vacancies.''
    Furthermore, the proposed reductions compromise the ability of the 
National Weather Service to meet specific requirements of the Weather 
Research and Forecasting Innovation Act of 2017, Public Law No. 115-25.

                      Weather Service Forecasters

Program Change: NWS Workforce Savings (-110 FTE/-248 Positions, 
        -$15,000)
    The President's budget ostensibly recognizes that ``advance notice 
provided by weather forecasts enables the Nation's leaders, decision 
makers, and media to provide better warnings and advisories, the 
public, and businesses'' and that ``getting this right reduces the 
catastrophic loss of human life and property and the damaging effects 
on the national economy.'' An American Budget, at 30. Nevertheless, the 
budget proposes to eliminate 20 percent of the 1,250 or so forecasters 
who issue these forecasts, warnings and advisories from the Nation's 
122 Weather Forecast Offices. The Budget Justification concedes that 
``operation times at various offices will be reduced'' as a result of 
these staffing reductions, and that this will present ``potential risk 
to the public and partners.'' The budget admits that communities 
affected by these closures will have to rely on ``other NWS offices for 
met watch and services during off hours.'' NOAA Budget Justification at 
NWS-48, 49.
    The Nation's 122 Weather Forecast Offices operate 24/7, and most of 
the time would have just two forecasters on duty. Thus, even with full 
staffing, there is usually only the minimal number of staff on duty to 
be alert for severe weather and to call in the rest of the staff when 
it occurs. According to the National Academy of Sciences:

          Though this works well in fair weather, it can become 
        problematic in severe weather, particularly when events develop 
        rapidly under seemingly benign conditions. While managers at 
        individual WFOs generally plan ahead to add sufficient staff to 
        cover forecasted dangerous weather situations, more innocuous 
        weather scenarios that suddenly and unexpectedly ``blow up'' 
        often lead to shortcomings that are directly attributed to 
        having insufficient manpower. Several recent Service 
        Assessments (e.g., NWS, 2003, 2009, 2010) illustrate the 
        critical role that adequately enhanced staffing (or lack 
        thereof) plays in the success (or weakness) of NWS performance 
        during major events. Appropriate levels of staffing, beyond 
        normal fair weather staffing, during major weather events, are 
        critical for fulfilling the NWS's ``protection of life'' 
        mission.
   national research council of the national academies, the national 
     weather service modernization and associated restructuring: a 
                retrospective assessment, 60-61 (2012).
    The Service Assessments to which the NRC refers are conducted by 
the NWS after major storm events where there are multiple fatalities or 
a major economic impact, in order to evaluate its performance. 
Assessment teams, composed of experts from within and outside the NWS, 
generate a report that serves as an evaluative tool to identify and 
share best practices in operations and procedures, and to identify and 
address service deficiencies. Service assessments conducted following 
eleven major storms that occurred between 2008 and 2016 found that the 
ability of the NWS to protect lives during these major events was 
compromised due to already inadequate staffing at Forecast Offices or 
River Forecast Centers.\1\
---------------------------------------------------------------------------
    \1\ Central U.S. Flooding of June 2008; Southeast U.S. Floods, 
September 18-23, 2009; Record Floods of Greater Nashville: Including 
Flooding in Middle Tennessee and Western Kentucky, May 1-4, 2010; 
Historic Tornadoes of April 2011; Missouri/Souris River Floods of May-
August 2011; Middle and Lower Mississippi River Valley Floods of Spring 
2011; Remnant of Tropical Storm Lee and the Susquehanna River Basin 
Flooding of September 6-10, 2011; Hurricane/Post Tropical Storm Sandy, 
October 22-29, 2012; Historic South Carolina Floods of October 1-5, 
2015; Historic Nor'easter of January 2016; October 2016 Hurricane 
Matthew. These reports can be found at: http://www.weather.gov/
publications/assessments.
---------------------------------------------------------------------------
    The Budget Justification claims that the agency will attempt to 
``minimize potential risk'' inherent in closing offices part-time by 
``collaborating with other NWS offices for met watch and services 
during off hours . . . similar to the backup practice used today when 
there is a system or communications failure of an office.'' Budget 
Justification at NWS-48. However, no savings can be achieved by 
reducing staff at one office and transferring its workload to a back-up 
office, because when this occurs now additional staff is called into 
the back-up office on overtime. Even the Budget Justification concedes 
that this ``may require the supporting office to increase staffing.'' 
page NWS-48.
    Furthermore, the backup offices only issue critical products, and 
the quality of the forecasts are degraded because the forecasters in 
the backup office have limited knowledge of the climate, terrain, 
hydrology and weather patterns of the remote areas for which they are 
now forecasting. According to NWS Western Region's Back-Up Plan, 
Supplement 18-2003, (Sept. 19, 2011) at 4: ``Personnel at the disabled 
site remain the best authorities on local weather. They should retain 
as much responsibility as possible during back-up situations.'' The 
backup office has no access to local weather models residing on the 
servers in the office that is closed. Transferring responsibility for 
forecasts and warnings back and forth between forecasters at one office 
and another disrupts the continuity of meteorological analysis and 
results in lack of continuity in successive forecast products.
    The Budget Justification also explains that at other times, a 
forecast office may be staffed by a single person once the reductions 
take place. (NWS-49). This would violate a 2007 ruling from Labor 
Arbitrator James Lundberg in National Weather Service and National 
Weather Service Employees Organization, FMCS No. 06-04457-7. The Budget 
Justification explains that ``this operational change will also require 
the office to be able to recall employees . . . if unexpected local 
operations or high-impact weather events occur.'' NWS-49. According to 
the 2012 study by the National Academy of Sciences, ``the quality of 
the NWS's warning capability corresponds with its capacity to muster an 
ample, fully trained local staff at its Weather Forecast Offices as 
severe weather unfolds.'' Id at 60. However, if staffing at the office 
is reduced, there may be no one available.
    The Budget Justification also explains that the reductions sought 
``will move away from the current uniform staffing model'' and 
rebalance staffing between forecast offices based on population and 
partner needs. However, according to a study completed by McKinsey and 
Co., the workload at most forecast offices exceeds the available 
meteorologist workforce. NWS, Operations and Workforce Analysis 
Catalog, (September 2017) at 17-18. Thus, rather than reducing staff 
overall, rebalancing should be achieved by increasing the intake of 
meteorologist interns (forecasters in training) at the majority of 
forecast offices that are now overworked, and let normal attrition 
rebalance the staff at the small number of offices that have excess 
capacity.

                    Information Technology Officers

Program Change:  Establishment of Regional Enterprise Application 
        Development and Integration Teams (-74 FTE/-74 Positions, 
        -$10,100)
    The President's budget also again proposes the elimination of the 
Information Technology Officers (``ITOs'') at each of the 122 Weather 
Forecast Offices (``WFOs'')--a proposal that has been rejected by 
Congress every year for the past 6 years. As the Senate Appropriations 
Committee noted when rejecting an earlier proposal to eliminate the 
ITOs, the ``IT staff have proven to be valuable parts of the local 
forecast office teams.'' SENATE REPORT NO. 112-158, at 31. The NWS 
itself recognized the critical role that the ITOs play in the 
operations of its forecast offices in its recently published service 
assessment of the agency's performance during Hurricane Matthew in 
October 2016:

          The evolution of NWS is reliant on cutting-edge advanced 
        technologies that improve forecasting, warning, and 
        distribution of weather information. Therefore, it is 
        imperative that adequate, well-trained IT expertise is readily 
        available and accessible throughout NWSH and the NWS field to 
        operate and maintain a solid infrastructure. Information 
        Technology Officers (ITO) played a critical role within WFOs 
        leading up to and during the event. WFOs are required to 
        complete a series of preparations ahead of a hurricane season, 
        many of which include technical upgrades. During events, the 
        ITO is the WFO's primary resource when technical issues arise. 
        WFOs were unanimous in their support of having a local ITO 
        present to address issues before, during, and after hurricane 
        season . . . SR WFOs were required to complete a system upgrade 
        to a new Content Management System (CMS) by the end of 
        September 2016 . . . ITOs provided critical support to their 
        WFOs during the event to mitigate website issues associated 
        with the CMS change.

https://www.weather.gov/media/publications/assessments/
HurricaneMatthew8-17.pdf (at 31).

              Consolidation of the Tsunami Warning Centers

Program Change:  Reduce Tsunami Warning Program (-25 FTE/-25 Positions, 
        -$11,000)
    The President's budget also proposes to consolidate the two tsunami 
warning centers (possibly at the National Center for Environmental 
Prediction in College Park, Maryland) and eliminate 25 scientists and 
technicians employed at these Centers. The proposed merger of the two 
warning centers violates the express terms of the Tsunami Warning, 
Education and Research Act of 2017, which was signed into law in April 
as Title V of the Weather Research and Forecasting Innovation Act. 
Section 504 of the Act, codified at 33 U.S.C. Sec. 3203(d)(1), requires 
NOAA to maintain two tsunami warning centers--one in Alaska (with 
primary responsibility for Alaska and the continental U.S.) and one in 
Hawaii (with primary responsibility for Hawaii, the Caribbean and other 
areas of the Pacific). Subsection 3203(d)(3), ``Fail-safe warning 
capability,'' mandates that the two centers maintain the capability to 
``perform back-up duties for each other.'' These requirements cannot be 
met if the two centers are merged, and if 25 of the 40 scientists and 
technicians employed at these two centers are eliminated, as proposed.

                     NWS Climate Prediction Center

Program Change:  Consolidate Climate Prediction Center/Weather 
        Prediction Center functions (-8 FTE/-8 Positions, -$1,200)
    Finally, the budget also proposes to eliminate eight positions at 
the NWS Climate Prediction Center--which does ``short-term'' climate 
prediction for floods and drought from weeks to seasons. These 
activities aid U.S. aid and national security agencies in their global 
efforts. The Budget Justification (at NWS-52) frankly identifies the 
catastrophic impact of these cuts:

          While some efficiency will be realized, this consolidation 
        will limit some of NOAA's products and services such as climate 
        prediction products with domains over hemispheres other than 
        North America/Arctic. Some of these global climate predictions 
        provide information that can lead to understanding of 
        international phenomena like flood and drought that could 
        impact food supplies. These global forecast products have 
        supported national security planning and execution activities 
        at the Department of Defense and the United States Agency for 
        International Development including food security and disaster 
        risk reduction, as well as pandemic health planning.

    Consolidation of the CPC and reduction of its efforts would 
jeopardize the ability of the NWS to meet its requirements under 
Section 201 of the Weather Research and Forecasting Innovation Act ``to 
make usable, reliable, and timely foundational forecasts of sub-
seasonal and seasonal temperature and precipitation'' and to ``build 
upon existing forecasting and assessment programs and partnerships, 
including- by consulting with the Secretary of Defense and the 
Secretary of Homeland Security to determine the highest priority sub-
seasonal and seasonal forecast needs to enhance national security.''

    [This statement was submitted by Richard J. Hirn, Legislative 
Director.]
                                 ______
                                 
         Prepared Statement of the Native American Rights Fund
    Summary of the Request: The Native American Rights Fund (NARF) \a\ 
submits this written statement regarding the fiscal year 2019 budget 
request for the Department of Justice (DOJ) and the Legal Services 
Corporation (LSC), for the record. We respectfully request this 
subcommittee's consideration as you develop the fiscal year 2019 
Commerce, Justice, Science and Related Agencies (CJS) appropriations 
bill of the following requests:
---------------------------------------------------------------------------
    \a\ Founded in 1970, the Native American Rights Fund (NARF) is the 
oldest and largest non-profit law firm dedicated to asserting and 
defending the rights of Indian Tribes, organizations and individuals 
nationwide. NARF's practice is concentrated in five key areas: the 
preservation of Tribal existence; the protection of Tribal natural 
resources; the promotion of Native American human rights; the 
accountability of governments to Native Americans; and the development 
of Indian law and educating the public about Indian rights, laws, and 
issues.

  --maintaining funding within the Department of Justice, Office of 
        Justice Programs, State and Local Law Enforcement Assistance 
        account at a level similar to that provided in recent years of 
        approximately $1 to 2 million for the Tribal Civil and Criminal 
        Legal Assistance, Training and Technical Assistance grant 
        program (TCCLA), either within a Tribal set-aside percentage of 
        all Office of Justice Programs accounts, or within a line item 
        for ``assistance to Indian Tribes.''
  --including bill and/or report language that would direct that DOJ's 
        allocation of fiscal year 2019 funding under a Tribal set-aside 
        percentage of overall DOJ funding or for ``assistance to Indian 
        Tribes'' provide some funding for the provision of legal 
        assistance to individual Tribal citizens and to Tribal judicial 
        systems pursuant to the Indian Tribal Justice Technical and 
        Legal Assistance Act (Public Law 106-559), and that that legal 
        assistance be both civil and criminal. Although in recent 
        years, including fiscal year 2018, the Senate Appropriations 
        Committee's report accompanying the spending bill (page 83, S. 
        Rpt. 115-139) helpfully referenced both civil and criminal 
        legal assistance, the fiscal year 2018 bill language in section 
        213 was more restrictive in that it was limited to ``Tribal 
        criminal justice assistance.''
  --continuing bill language which would provide a Tribal set-aside 
        from the Crime Victims Fund (CVF) to the Office for Victims of 
        Crime for grants to Indian Tribes to improve services for 
        victims of crime. Indian Country was thrilled that, for the 
        first time, the fiscal year 2018 Consolidated Appropriations 
        Act provided a 3 percent Tribal set-aside from the CVF; we 
        support the administration's proposed and the House of 
        Representatives' approved 5 percent Tribal set-aside from the 
        CVF for fiscal year 2019. Continuation in fiscal year 2019 of a 
        Tribal set-aside will benefit both Tribal governments and those 
        of us who work with and support Tribal governments in the 
        provision of victims' justice services and programs, and assist 
        Tribal citizens in receiving those services.
  --maintaining funding for the Legal Services Corporation at a level 
        at least equal to the fiscal year 2018 enacted amount of $410 
        million.

    Background to the TCCLA Requests: In 2000, Congress enacted the 
Indian Tribal Justice Technical and Legal Assistance Act (Public Law 
106-559). Sections 102 and 103 of that statute specifically authorized 
the Department of Justice, subject to available appropriations, to 
provide grants to ``non-profit entities . . . which provide legal 
assistance services for Indian Tribes, members of Indian Tribes, or 
Tribal justice systems pursuant to Federal poverty guidelines'' 
(emphasis added) for Tribal civil and Tribal criminal legal assistance, 
respectively.\b\
---------------------------------------------------------------------------
    \b\ The Indian Tribal Justice Technical and Legal Assistance Act 
also authorized grants to national or regional membership organizations 
of judicial system personnel to provide training and technical 
assistance for Tribal justice systems. The 2000 Act was reauthorized as 
section 242 of the Tribal Law and Order Act (Public Law 111-211).
---------------------------------------------------------------------------
    For the past 7 years, through fiscal year 2017, a consortium of 24 
Indian Legal Services programs connected with the Legal Services 
Corporation (LSC) and operating in 23 States has been awarded funding 
under DOJ's Tribal Civil and Criminal Legal Assistance, Training and 
Technical Assistance (TCCLA) grants program. In addition to the legal 
representation of American Indian and Alaska Native individuals, Indian 
Legal Services programs are currently assisting more than 160 Tribal 
governments and/or Tribal judicial systems.\c\
---------------------------------------------------------------------------
    \c\ NARF is the administrator of recent years' grant awards under 
DOJ's Tribal Civil and Criminal Legal Assistance, Training and 
Technical Assistance (TCCLA) program to the consortium of 24 Indian 
Legal Services programs connected with the Legal Services Corporation 
(LSC). NARF has distributed these TCCLA grant funds according to a 
funding formula that the coalition of Indian Legal Services programs 
has developed among themselves. Of the total 24 Indian Legal Services 
programs, 24 are receiving BJA funding under awards for Tribal Civil 
Legal Assistance, and between 17 and 21 programs are receiving awards 
for Tribal Criminal Legal Assistance.
---------------------------------------------------------------------------
    Most recently, in fiscal year 2017, the Bureau of Justice 
Assistance awarded the Indian Legal Services programs $600,000 under 
TCCLA. The fiscal year 2017 Consolidated Appropriations Act included in 
section 213 bill language, providing a 7 percent Tribal set-aside of 
funding from select DOJ accounts, specifically for Tribal criminal 
justice assistance. Although House and Senate report language directed 
that DOJ allocate Tribal funding among traditional programs for Tribal 
detention facilities, Tribal courts, alcohol and substance abuse 
reduction assistance programs, and civil and criminal legal assistance 
as authorized by Public Law 106-559, DOJ's Office of General Counsel 
interpreted the bill language to limit fiscal year 2017 funding for 
Tribal assistance to criminal justice assistance, only. As a result, 
the fiscal year 2017 funding award to Indian Legal Services is not 
being used for programs' assistance in civil work with Tribes and 
Tribal citizens. Examples of such Tribal civil justice assistance work 
done under prior years' TCCLA awards include revisions to civil codes, 
policies and procedures; representation of individuals in Tribal courts 
in family law, probate, employment, disability benefits claims, public 
housing, property disputes, debt collection, child welfare and juvenile 
delinquency matters; and guardian ad litem work in high conflict 
custody, guardianship, and parental termination cases.
    We are currently awaiting DOJ's solicitation announcement of fiscal 
year 2018 funding under TCCLA.
    Since 1968, Indian Legal Services programs have been providing 
essential capacity-building services to many Tribal courts across the 
country, and have provided representation of Indian individuals in 
those courts. In many instances, these Indian Legal Services programs 
have been ``on the ground'' in Tribal communities for decades, an 
integral part of the legal structure of the reservation communities 
they serve. The attorneys are well-versed in the uniqueness and 
complexities of Indian law, and are specialized legal practitioners. 
The Indian Legal Services programs are assisting Tribal governments and 
their justice systems in being grounded in solid codes and laws--which 
benefits not only members of the Tribal community, but non-Indians who 
do business, attend school, collaborate with Tribal enterprises and 
live in these Tribal communities.
    With respect to the work of capacity-building services to Tribal 
governments' judicial systems, Tribes have noted that the lack of 
attorneys practicing in Tribal court is the single biggest barrier to 
exercising the authorities under the Tribal Law and Order Act of 2010 
(TLOA) and the Violence Against Women Reauthorization Act of 2013 
(VAWA). A number of Indian Legal Services programs are currently 
providing capacity-building assistance to Tribal governments which is 
laying the foundation toward those Tribes' implementation of TLOA and 
VAWA.
    This work has included assisting Tribes with revisions to their 
criminal codes for compliance with these statutes, as well as drafting 
and updating codes, policies and procedures, and drafting of civil and 
criminal codes, including children's codes, and rules of procedure; 
Tribal court development, restructuring and improvement; training of 
judicial, law enforcement and justice systems personnel and Tribal 
court lay advocates and guardians ad litem; and negotiation or 
litigation to address jurisdictional issues with State court systems. 
Lay advocate and peacemaker trainings have been done with Tribal 
colleges and university law schools. The programs are engaged in TLOA 
or VAWA implementation assistance for 18 of the 160 Tribes they serve, 
and provide the only public defender service available in at least 46 
Tribal courts.
    In addition, legal representation of American Indian and Alaska 
Native youth and families is a central focus of many of the individual 
representation cases handled by Indian Legal Services programs. In 
affording access to justice for individuals, the programs' individual 
legal representation has expanded from traditional legal issues such as 
employment, disability benefits claims and housing issues to now 
include domestic violence, pro se assistance, family member prisoner 
visitation and re-entry, and child welfare, guardianship and adoption. 
This work also includes representation of families in Indian Child 
Welfare Act cases in State court; addressing the impact on individuals 
and families from substance abuse and correlated incidents of criminal 
activity by reforming Tribal sentencing guidelines; representation in 
divorce, child custody, paternity, child support, guardianship (minor 
and adult), and children in need of care cases (juvenile dependency); 
will drafting cases; expungement practices to proactively file for 
expungement to clear criminal records of Tribal members whose lives are 
adversely impacted by their record; and providing civil legal and 
public defender services.
    We note that the TCCLA grants that Indian Legal Services programs 
have been awarded are funded separately from DOJ's Consolidated Tribal 
Assistance Solicitation (CTAS) program.
    Background to Request for LSC Funding: As noted above, the Indian 
Legal Services programs are component programs connected to the Legal 
Services Corporation. So, we are deeply appreciative that in raising 
the spending caps between Defense and non-Defense discretionary 
spending for fiscal year 2018--and for fiscal year 2019, as well--
Congress was able to appropriate a total of $410 million for the Legal 
Services Corporation (LSC) for fiscal year 2018, a $25 million 
increase.
    According to LSC's 2016 LSC by the Numbers report,\d\ which 
provides a summary of data regarding service delivery by the LSC's 134 
grantees in calendar year 2016, in 2016, Congress appropriated $352 
million for LSC basic field programs. Following a statutory formula, 
LSC designated 2.8 percent of those funds for 27 Native American 
service areas.
---------------------------------------------------------------------------
    \d\ https://lsc-live.app.box.com/s/5lbcn4ncgqu5bbm31wh9v5xl80kxz0xf
---------------------------------------------------------------------------
    Since 2011, non-LSC sources of funding have made up an increasing 
part of all grantees' funding, rising from 56.7 percent in 2011 to 63.2 
percent in 2016 for all of LSC. An average of non-LSC funding for 17 of 
the core Indian Legal Services programs in the 2016 report was nearly 
50 percent. Grant funds awarded to these programs under TCCLA, as well 
as funding from other Federal grant programs that Indian Legal Services 
programs are able to leverage, are an important supplement to funding 
from LSC.
    While the administration's fiscal year 2019 budget request to 
Congress included a proposal of only $18.2 million toward closure of 
the LSC, we request that the Senate Appropriations Committee join your 
House counterpart in maintaining funding for the Legal Services 
Corporation at a level at least equal to the fiscal year 2018 enacted 
level of $410 million.
    In conclusion, in fiscal year 2019, whether Congress provides 
funding to the DOJ for Indian Country Tribal justice and law 
enforcement programs as a 7 percent tribal set-aside of a percentage of 
overall DOJ funding, as the administration requested, or in an overall 
sum (such as the $35 million appropriated in fiscal year 2018 for 
``assistance for Indian Tribes,'' or the $30 million for fiscal year 
2019 recommended by the House Appropriations Committee for ``assistance 
for Indian Tribes'' within the State and Local Law Enforcement 
Assistance account), we request that funding be included for the 
purpose of the provision of both Tribal civil and criminal legal 
assistance to individual Tribal citizens and to Tribal judicial systems 
pursuant to the Indian Tribal Justice Technical and Legal Assistance 
Act. We also request that funding for the Legal Services Corporation be 
maintained at a level at least equal to the fiscal year 2018 enacted 
level of $410 million. Thank you for your consideration of this 
request.

    [This statement was submitted by Steven C. Moore, Senior Staff 
Attorney.]
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance
    The Natural Science Collections Alliance appreciates the 
opportunity to provide testimony in support of fiscal year 2019 
appropriations for the National Science Foundation (NSF). We encourage 
Congress to provide the NSF with at least $8.45 billion in fiscal year 
2019.
    The Natural Science Collections Alliance is a non-profit 
association that supports natural science collections, their human 
resources, the institutions that house them, and their research 
activities for the benefit of science and society. Our membership 
consists of institutions that are part of the international community 
of museums, botanical gardens, herbaria, universities, and other 
institutions that contain natural science collections and use them in 
research, exhibitions, academic and informal science education, and 
outreach activities.
    Scientific collections are a vital component of our Nation's 
research infrastructure. These specimens and their associated data 
(genetic, tissue, organism, paleontological, anthropological, and 
environmental samples) constitute a unique and irreplaceable library of 
Earth's history.
    Natural science collections advance research that improves public 
health, agriculture, natural resource management, biodiversity 
conservation, and American innovation. Current research involving 
natural science collections also contributes to the development of new 
cyberinfrastructure, data visualization tools, and improved data 
management. A few examples of how scientific collections have saved 
lives, enhanced food production, and advanced scientific discovery 
include:

  --On January 15, 2009, US Airways flight 1549 was forced to land in 
        the Hudson River shortly after take-off. The plane's engines 
        failed after it flew through a flock of birds. Luckily, no one 
        was killed in the accident. Per government policy, museum 
        scientists determined from the remains of these birds that they 
        were Canada Geese. The scientists then gathered stable isotope 
        data from feathers and tissue from the engines and compared 
        these samples to museum specimens of geese from known North 
        American localities. The comparative analyses determined that a 
        flock of migratory Canada Geese from the Labrador region of 
        Canada were involved. Using this information, LaGuardia Airport 
        developed a management plan to reduce the risk of future bird 
        strikes.
  --In 1993, a deadly new disease appeared in the southwestern United 
        States. Using NSF-supported biological collections at Texas 
        Tech University and University of New Mexico, the agent was 
        determined to be Hantavirus carried by a few species of 
        rodents. When rodent populations increased following an El Nino 
        weather event, the animals spread into human environments and 
        increased the transmission of Hantavirus. With the vector 
        known, it was possible to lessen the risk to humans by reducing 
        opportunities for disease transmission. Using other specimens, 
        scientists have now identified more than 40 other strains of 
        Hantavirus worldwide that are carried by bats, moles, and 
        shrews. Similar work is underway to identify the carrier of 
        Ebola in Africa.
  --Citrus bacterial canker disease wreaks havoc on fruit crops in 
        Florida. Using plant specimens collected a century ago, 
        scientists have analyzed the bacterium and traced its source. 
        Knowledge of how the bacteria spreads allows scientists to 
        develop effective control methods and to protect the U.S. 
        citrus industry.

    There are more than 1,600 biological collections in the United 
States, the result of more than 250 years of scientific investigation, 
discovery, and inventory of living and fossil species. Collections are 
housed at museums, universities, botanic gardens, and government 
managed laboratories and archives. The institutions that care for 
scientific collections are important research infrastructure for the 
United States that also provide students with hands-on training 
opportunities.
    The NSF plays a unique role in protecting and expanding access to 
our Nation's scientific collections. NSF supports research that uses 
existing collections as well as studies that gather new natural history 
specimens. NSF's Directorates for Biological Sciences (BIO) and 
Geosciences (GEO) support research and student training opportunities 
in natural history collections. The NSF is also an important supporter 
of biological research infrastructure, such as natural history museums, 
living stock collections, and field stations. These place-based 
research centers enable studies that take place over long time periods 
and variable spatial scales.
    NSF funds state-of-the-art work to digitize high priority specimen 
collections. The result of this effort is that irreplaceable biological 
specimens and their associated data are now accessible through the 
Internet to researchers, educators, and the public. More than 95 
million specimens are now online, with millions more awaiting 
digitization. This effort involves biologists, computer scientists, and 
engineers in multi-disciplinary teams who develop innovative imaging, 
robotics, and data storage and retrieval methods. These new tools 
expedite the digitization process and contribute to the development of 
new products and services of value to other industries. Museum 
specimens and associated data represent an extraordinary resource for 
teaching core concepts in science.
    In addition to supporting research, NSF's science, technology, 
engineering, and mathematics (STEM) education programs enhance the 
ability of museums, botanic gardens, zoos, and other research 
institutions to provide science learning opportunities for students. 
NSF's Advancing Informal STEM Learning program is furthering our 
understanding of informal science education outside of traditional 
classrooms. The program is especially valuable at broadening 
participation in science for underrepresented groups.
                               conclusion
    Preservation of specimens is in the best interest of science and 
taxpayers. Quite simply, it is not possible to replace this important 
aspect of our heritage. Specimens collected decades or centuries ago 
are increasingly being used to develop and validate models that explain 
how species (including viruses, parasites, and pathogens) have 
dispersed around the world, as well as how and when they have or might 
infect humans.
    The NSF is the primary funding source that provides support to 
institutions to help them preserve endangered collections, to help 
increase access to specimens for research and education, and to support 
the development of new tools and resources that enable innovative new 
research using the collections.
    Investments in NSF programs that support natural science 
collections research and education are essential if we are to maintain 
our global leadership in innovation. Please support funding of at least 
$8.45 billion for NSF for fiscal year 2019.
    Thank you for your thoughtful consideration of this request and for 
your prior support of the National Science Foundation.

    [This statement was submitted by John Bates, President.]
                                 ______
                                 
              Prepared Statement of the Nature Conservancy
    Thank you for the opportunity to comment on the fiscal year 2019 
appropriations for the National Oceanic and Atmospheric Administration 
(NOAA). The Nature Conservancy (the Conservancy) is a non-profit 
conservation organization working in all 50 States and 72 countries to 
conserve the lands and waters on which all life depends. As the Nation 
enters the fiscal year 2019 budget cycle, the Conservancy acknowledges 
the need for fiscal restraint. However, the Conservancy also recognizes 
the critical role that oceans and coasts play in the lives of millions 
of Americans and in our Nation's economy. Each year the U.S. ocean and 
coastal economy contributes $359 billion to the Nation's GDP and 
supports 3 million jobs. NOAA's funding keeps this ocean and coastal 
economic engine running. It not only helps NOAA catalyze local and 
regional action, but also reduces risk and saves money based on the 
tangible economic and societal benefits that coastal natural resources 
provide.
    While the President's fiscal year 2019 budget once again called for 
dramatic cuts to the National Marine Fisheries Service and the National 
Ocean Service including the proposed elimination of ``grants and 
programs supporting coastal and marine management, research, and 
education including Sea Grant,'' the Conservancy was encouraged by 
Congress' fiscal year 2018 omnibus funding levels for these and other 
critical NOAA programs. Over the years and across many sites, NOAA has 
been an invaluable partner to the Conservancy. NOAA programs provide 
practical, community-oriented approaches to restoration, resource 
management, and conservation that align naturally with the 
Conservancy's mission. NOAA has made important strides in addressing 
key challenges, but much more remains to be done. We believe that the 
NOAA budget levels proposed by the Conservancy represent a prudent 
investment in our country's future, and ask your support for the 
requests detailed below.
                   national marine fisheries service
    Habitat Conservation and Restoration: The Conservancy supports at 
least $53.384M, consistent with fiscal year 2018 funding. Coastal 
wetlands and nearshore waters produce the fish and shellfish that feed 
America. The health of these places is essential to the economic and 
social well-being of those who live, work, and recreate in coastal 
communities. NOAA and the Conservancy have partnered on over 150 
habitat restoration projects across the U.S. Through the Community-
based Restoration Program and the Habitat Blueprint Initiative, the 
Conservancy works closely with NOAA to restore the health of degraded 
habitats in places and ways that benefit not just local marine life, 
but communities and coastal economies as well. NOAA funding for coastal 
habitat restoration supports on average 15 jobs per million dollars 
spent and up to 30 jobs per million dollars spent on labor intensive 
restoration projects.\1\ The several grants managed by this program are 
awarded on a competitive basis and typically leverage the resources and 
capacity of multiple partners. This work enhances our understanding of 
the connections between fisheries productivity and habitat, measures 
the effectiveness of conservation and restoration activities, and 
applies those lessons to improve future efforts. This funding provides 
for NOAA's consultations on and implementation of Essential Fish 
Habitat. The Regional Fishery Management Councils address fishing 
impacts on these areas, and NOAA must have sufficient capacity to 
provide technical assistance to the Councils and to work with Federal 
agencies to avoid, minimize, and mitigate the impacts on these 
important fishery habitats.
---------------------------------------------------------------------------
    \1\ Samonte et al. 2017. Socioeconomic Benefits of Habitat 
Restoration. NOAA Tech. Memo. NMFS-OHC-1. http://www.habitat.noaa.gov/
pdf/TM-OHC-1.pdf.
---------------------------------------------------------------------------
    Fisheries Management Programs and Services: The Conservancy 
supports the appropriation of at least $118.659M, consistent with 
fiscal year 2018 funding. With a $214 billion dollar fisheries and 
seafood sector, fishermen rely on management services and information 
from NOAA to make the most informed decisions on where, how, and when 
to fish. NOAA Fisheries has made important strides in addressing these 
challenges and strengthening fisheries management, and support for 
these efforts is necessary to recover fish stocks so that they provide 
food and jobs now and in the future. It is critical that funding be 
provided to reduce destructive fishing practices, restore coastal 
habitats, and support the efforts of fishermen and fishing communities 
and do so in a collaborative way. Funding for work already begun to 
improve the management of electronic monitoring and reporting must be 
maintained. Recent legislation and administrative action to combat 
illegal, unreported, and unregulated (IUU) fisheries show great promise 
in leveling the playing field for legal fishermen. Funding provided 
will enable NOAA to take the next steps on traceability of seafood.
    Fisheries and Ecosystem Science Programs and Services: The 
Conservancy supports at least $144.196M, consistent with fiscal year 
2018 funding. Good information about the status of fish stocks is 
essential for effective management. Systems for collecting fishery data 
tend to be paper-based, slow, expensive, and prone to errors; they are 
long overdue for modernization. The modest funding for electronic 
monitoring and reporting must be maintained. The subcommittee's 
previous report language has been very helpful, and continued guidance 
on the need to provide clear data and storage standards will be useful 
in moving efforts from pilot to implementation. Priority should be 
given to those fisheries that have already piloted these efforts. Also 
key is improving our understanding of the ecological and economic 
connections between fisheries and nearshore habitats. Funding for 
ecosystem-based solutions for fisheries management will provide tools 
and information to better target fisheries habitat restoration efforts.
    Fisheries Data Collections, Surveys and Assessments: The 
Conservancy supports at least $164.749M, consistent with fiscal year 
2018 funding. Limited or poor quality information on the status of 
fishery stocks undermines the effectiveness of fishery management and 
can erode community support for conservation measures. Accurate and 
timely stock assessments are essential for the sound management of 
fisheries and the sustainability of fishing resources. The funding 
proposed will help the agency prioritize assessments, determine what 
level of assessments are needed and, where to appropriately incorporate 
ecosystem linkages--such as ocean conditions, habitat, multispecies 
assemblages, and socioeconomic factors.
    Pacific Coastal Salmon Recovery Fund: The Conservancy supports at 
least $65 million, consistent with fiscal year 2018 funding. This is 
the most critical Federal program addressing major threats to Pacific 
salmon so that these fish can continue to sustain culture, economies, 
recreation, and ecosystem health. PCSRF funding is tailored for each 
State, competitively awarded based on merit, and has funded hundreds of 
successful, on-the-ground salmon conservation efforts. PCSRF invests in 
cooperative efforts to conserve species under NOAA's jurisdiction, and 
projects are matched at a 3:1 ratio (Federal/non-Federal). The PCSRF 
has catalyzed thousands of partnerships among Federal, State, local, 
and Tribal governments, and conservation, business, and community 
organizations.
    Protected Resources Science and Management: The Conservancy 
supports at least $189.566M, consistent with fiscal year 2018 funding. 
Competitive grants to States and Tribes support conservation actions 
that contribute to recovery, or have direct conservation benefits for, 
listed species, recently de-listed species, and candidate species that 
reside within the States. Species Recovery Grants allow the agency to 
strengthen and expand partnerships to address the growing number of 
listed species and allow for larger, ecosystem-level scale recovery 
efforts. The Conservancy works with State agency partners to restore 
endangered species and monitor the results of these efforts. Additional 
listed species and emerging challenges to recovery have increased the 
number and complexity of NOAA's consultation and permitting 
requirements. Funding is needed to aid NOAA's ability to complete these 
requirements in a timely and predictable manner. NOAA's cooperative 
efforts with States, Tribes, and other partners such as the 
Conservancy, help to improve our understanding of and ability to 
protect listed salmon and the habitats that sustain them. Maintaining 
the modest increase provided in fiscal year 2018 to the Pacific salmon 
base funding will allow NOAA to enhance recovery efforts including 
monitoring, fish passages, hatchery operations, and stakeholder 
engagement.
                         national ocean service
    Coastal Management Grants: The Conservancy supports at least $75 
million for Coastal Zone Management Grants, consistent with fiscal year 
2018 funding. Our Nation's coastal areas are vital to our economy and 
our way of life. The narrow area along our coasts is home to 
approximately 163 million people and coastal economies contribute over 
45 percent of our gross domestic product. The Conservancy collaborates 
with State coastal programs around the country to meet multiple goals 
for coastal communities including economic development, enhancement of 
public access and recreation, and conservation of coastal resources. To 
advance these goals, the Conservancy supports an additional $30 million 
in Title IX funds for the competitively awarded Regional Coastal 
Resilience Grants, consistent with the fiscal year 2018 level. The 
Regional Coastal Resilience Grant Program has provided the resources 
and tools to build coastal resilience to avoid costly Federal disaster 
assistance and sustain healthy fisheries, maintain robust tourism 
opportunities, provide for increased shipping demands, and support 
other coastal industries. Coastal communities have clearly shown that 
they are ready to match and leverage this funding to take proactive 
measures to protect their way of life. The subcommittee should ensure 
that the full range of eligible activities from the Regional Coastal 
Resilience Grant Program are maintained now that administration of the 
program's functions has been transferred to the National Fish and 
Wildlife Foundation (NFWF).
    Coral Reef Conservation Program: The Conservancy supports at least 
$26.6M, consistent with fiscal year 2018 funding. The decline of coral 
reefs has significant social, economic, and ecological impacts on 
people and communities in the United States and around the world. The 
Conservancy works with NOAA's Coral Reef Conservation Program under a 
competitively awarded, multi-year cooperative agreement to address the 
top threats to coral reef ecosystems: changing ocean conditions, 
overfishing, and land-based sources of pollution. Together, we develop 
place-based strategies, measure the effectiveness of management 
efforts, and build capacity among reef managers globally.
    Coastal Zone Management and Services: The Conservancy supports at 
least $42.5M, consistent with fiscal year 2018 funding. NOAA's research 
and monitoring of coastal and marine systems provide data and decision-
support tools that inform the safe operations of industry, prioritize 
habitats for restoration, and advance science-based management 
decisions. Improving our ability to incorporate natural infrastructure 
into coastal protection efforts before and after storms can help 
communities achieve multiple benefits such as improving fisheries 
productivity and coastal water quality. Additionally, the Conservancy 
has worked with NOAA through the Digital Coast partnership to develop 
decision support tools and techniques that help communities understand 
and reduce risk and build resilience. Sharing this work across Federal, 
State, and Tribal agencies, industry, and with non-governmental 
organizations can increase our collective ability to understand and 
incorporate into decisionmaking complex coastal economic, social, and 
ecological needs.
    National Estuarine Research Reserve System: The Conservancy 
supports at least $25 million, consistent with fiscal year 2018 
funding. The National Estuarine Research Reserve System (NERRS) 
partners with States and territories to ensure long-term education, 
stewardship, and research on estuarine habitats. Atlantic, Gulf, 
Pacific, Caribbean and Great Lakes reserves advance knowledge and 
stewardship of estuaries and serve as a scientific foundation for 
coastal management decisions. By using local management needs to help 
shape research, the NERRs aim to fill critical gaps. Incorporating the 
results of this research into training programs and through public 
engagement, the NERRs make science actionable for communities.
    Sanctuaries and Marine Protected Areas: The Conservancy at least 
$54.5M, consistent with fiscal year 2018 funding. National marine 
sanctuaries support economic growth and hundreds of coastal businesses 
in sanctuary communities, preserve vibrant underwater and maritime 
treasures for Americans to enjoy, and provide critical public access 
for over 42 million visitors each year. Through a transparent, 
inclusive approach, the marine sanctuaries provide for the conservation 
of our natural and cultural marine resources while balancing multiple 
uses and diverse stakeholder needs.
    Thank you for this opportunity to share The Nature Conservancy's 
priorities. Please contact me at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="06756b73746269656d4672686528697461">[email&#160;protected]</a> if you have questions 
or would like additional information.

    [This statement was submitted by Sarah Murdock, Director of 
Resilience and Water Policy.]
                                 ______
                                 
  Prepared Statement of the NETWORK Lobby for Catholic Social Justice
    Thank you Chairman Moran, Ranking Member Shaheen, and Members of 
the subcommittee for the opportunity to submit written testimony on 
fiscal year 2019 appropriations for the 2020 Census. My name is Sister 
Simone Campbell, a Catholic Sister of Social Service. I am the 
Executive Director of NETWORK Lobby for Catholic Social Justice and 
leader of the Nuns of the Bus campaign.
    Founded in 1971, NETWORK is a leading faith-based organization 
devoted to creating a society that promotes justice and the dignity of 
all in the shared abundance of God's creation. NETWORK, with more than 
110,000 supporters, is rooted in the Catholic Social Justice tradition 
and is open to all who share our passion.
                     census: a historical tradition
    The census is one of our key issues because it is a crucial part of 
our faith tradition. The story of Jesus starts with his parents 
journeying to be counted for the census. We also know that in the 
Hebrew Scriptures Moses counted the Israelites. And why did that 
happen? It happened because it is essential to know who we are. It 
helps to answer the important question, ``Who is our neighbor?''
    For us, it is a matter of faith. Most people know that business and 
industry use the Federal census to determine trends or where to put 
services or retail. However, what people might not know is that many of 
our churches use the census to allocate future resources and define 
parish lines, or determine where new churches are needed. Everyone uses 
the census. It is not a partisan issue. We must count everyone, so that 
everyone counts. This is the constitutional mandate.
    I am seriously concerned that the 2020 Census will fall short of 
meeting this constitutional and faith mandate. The teaching of Catholic 
Social Justice compels us to care for our Nation's most vulnerable 
people, and providing adequate funding for an effective 2020 Census is 
a crucial prerequisite for doing so. But we cannot effectively serve 
people if we do not know who and where they are.
    We use census data to allocate over $675 billion for Federal 
policies and programs to respond to the needs of all in our Nation. 
Local community leaders use census and American Community Survey (ACS) 
data to make decisions about allocating resources for community needs 
like education, assistance for veterans, hospitals, and transportation. 
Census data can also help communities identify emerging problems that 
community leaders need to deal with. And State and local rebuilding and 
recovery efforts for areas impacted by recent natural disasters will 
need to utilize census data to help these devastated communities heal. 
An underfunded, inaccurate 2020 Census will skew the projections of 
needed resources and programs away from the communities that need them 
most.
              fiscal year 2019 2020 census funding request
    I applaud Congress and the administration for taking steps to 
finally shore up funding for the 2020 Census. The $1.344 billion 
increase above the fiscal year 2017 enacted level included in the 
Consolidated Appropriations Act 2018 (Public Law 115-141) and the $4.8 
billion approved by the House Appropriations Committee for fiscal year 
2019 are substantial investments. Both underscore the need to ramp-up 
funding significantly in the years leading up to the 2020 count. 
However, preparations for the 2020 Census have been so hampered by 
delayed funding in the fiscal year 2017 and fiscal year 2018 
appropriations cycles that even these funding increases are inadequate 
to overcome the growing challenges to a fair and accurate census. 
Outstanding issues include: (1) preparation for address canvassing, (2) 
marketing and outreach, and (3) final end-to-end testing currently 
scaled back from three locations to one. We cannot risk failure and 
must substantially increase our investment in the 2020 Census.
    Given our Nation's constitutional mandate, funding for the 2020 
Census should not be subject to budgetary caps imposed by the Budget 
Control Act of 2011 (Public Law 112-25). To that end, NETWORK requests 
the Senate appropriate no less than $4.8 billion outside the caps for 
the Census Bureau in the fiscal year 2019 Commerce, Justice, Science 
Appropriations bill to support the volume of work needed.
              the need: a fair, accurate and modern census
    To be successful in 2020, the final and most critical years of 
preparations must include more presence in communities as well as in 
local and State organizations, including:

  --Congress should provide funding for 2,000 Partnership Specialists 
        who will engage, educate, and mobilize States, localities, and 
        community-based organizations in support of the census;
  --Increase funding for communications, in light of a lower projected 
        self-response rate, to expand targeted and 'in-language' 
        advertising to communities that are harder to reach and to 
        address public fears about cyber-security;
  --Expand the Census Bureau's ``footprint'' in the field by increasing 
        the number of local (``Area'') census offices to 300 (still far 
        fewer than in 2010); and
  --A contingency fund, as appropriated in past decennials and as 
        requested by Secretary Ross. Unanticipated challenges, like 
        counting populations in disaster-impacted areas, are bound to 
        add to costs of the 2020 count.
                       counting the hard-to-count
    My deep concerns about the accuracy, reliability, and fairness of 
the decennial count are rooted in my faith commitment to social 
justice. Historically marginalized people in rural, immigrant, native 
communities, along with renters have been disproportionately 
undercounted in the census. For example, the undercount of young 
children under 5 has been getting progressively worse. Now, additional 
populations--such as rural residents and older Americans--may 
experience new or increased likelihood of being undercounted due to 
major changes in methodology, such as relying on the Internet as the 
primary way for households to respond to the 2020 Census. Being hard-
to-count can deprive individuals and communities of equal political 
representation and their fair share of vital public and private 
resources.
                count everyone regardless of citizenship
    NETWORK opposes the recent decision by the Department of Commerce 
to include a citizenship question to the 2020 Census questionnaire 
based on vote dilution concerns raised by the Department of Justice. 
NETWORK opposes this decision, particularly at this late stage of 
planning when the 2020 Census has already been identified as a high 
risk program. Asking a citizenship question increases the risk of 
failure due to diminished participation from immigrant households. A 
recent study by the Kaiser Family Foundation reports that there are 
nearly 20 million children that live in mixed immigrant status 
families. Without assurances from the Federal Government that these 
families would not face criminal prosecution or deportation for 
completing the survey truthfully answering the citizenship question, I 
am certain that adding a citizenship question would discourage their 
participation. Under the Constitution, the Census Bureau has an 
obligation to determine ``the whole number of persons in each State'' 
regardless of citizenship. Therefore, the citizenship the question 
should be eliminated.
                               conclusion
    My Catholic faith teaches that all humans possess inherent 
dignity--everybody counts. It is unacceptable to inadequately fund the 
census or include a question on citizenship. Either action renders the 
Census Bureau unable to carry out its responsibility. The 
Constitutional mandate to conduct a decennial census requires the 
Census Bureau to count everyone. We the People will defend our 
Constitution and demand that the Federal Government accurately and 
fairly counts everyone, so that everyone counts.
    Once again, thank you for the opportunity to submit written 
testimony.
                                 ______
                                 
               Prepared Statement of the Nez Perce Tribe
    The Nez Perce Tribe (Tribe) appreciates the opportunity to provide 
written testimony to the Committee as it evaluates and prioritizes 
fiscal year 2019 appropriations for the Department of Commerce and the 
Department of Justice. The testimony below addresses spending 
allocations for the Pacific Coastal Salmon Recovery Fund and Salmon 
Management Activities within the National Oceanic and Atmospheric 
Administration (NOAA), and funding or set-asides for the grants 
provided to Tribes within the Department of Justice.
    As detailed below, for fiscal year 2019, the Tribe recommends both 
preservation of the Pacific Coastal Salmon Recovery Fund--which has 
been proposed to be eliminated--and funding for the Pacific Salmon 
Recovery Fund at no less than $65 million; funding for Salmon 
Management Activities at $38.2 million; full funding for programs 
authorized under the Tribal Law and Order Act; preservation of the $70 
million in funding provided in fiscal year 2018 for Office of Justice 
Programs Tribal grants, with flexibility in program funding, or in the 
alternative, reinstatement of the 7 percent Tribal set-aside that 
Tribes advocated for and received in fiscal year 2017; increasing 
Tribal set-aside from 3 percent to 5 percent out of Crime Victims Fund 
distributions; and keeping Tribal funding under the Community Oriented 
Policing Services program at $30 million or greater.
    The Nez Perce Tribe is a federally-recognized Indian Tribe with 
treaty-reserved fishing, hunting, gathering, and pasturing rights in 
the Snake River Basin and Columbia River Basin. In its 1855 Treaty, the 
Tribe reserved, and the United States secured, ``the right of taking 
fish at all usual and accustomed places in common with the citizens of 
the Territory; and of erecting temporary buildings for curing, together 
with the privilege of hunting, gathering roots and berries, and 
pasturing their horses and cattle upon open and unclaimed land.'' \1\
---------------------------------------------------------------------------
    \1\ Treaty with the Nez Perces, June 11, 1855, 12 Stat. 957. The 
Treaty with the Nez Perces, June 9, 1863, 14 Stat 647, preserved the 
off-reservation rights that the Tribe reserved in its 1855 Treaty.
---------------------------------------------------------------------------
    It is the Tribe's desire that all species and populations of 
anadromous and resident fish and their habitats be healthy and 
harvestable throughout the Tribe's usual and accustomed fishing places. 
The Tribe has long had an interest, and played an active role, in 
restoring anadromous and resident fish runs--including fall and spring 
Chinook, steelhead, sockeye, lamprey, bull trout, and white sturgeon--
throughout all of the areas where the Tribe reserved treaty fishing 
rights. The Tribe is involved in these efforts to protect 
implementation of treaty rights, to restore species and conditions 
consistent with the Treaty, and to protect the long-term productivity 
of their natural resources.
    The Tribe's Department of Fisheries Resources Management (DFRM) is 
one of the largest and most successful Tribal fisheries programs in the 
United States,\2\ with offices located at Lapwai, Sweetwater, Orofino, 
McCall, Powell, and Grangeville, Idaho, as well as Joseph, Oregon. The 
DFRM, with an annual operating budget of over $22 million, and has more 
than 190 Tribal and non-Tribal employees, 150 of whom are full-time.
---------------------------------------------------------------------------
    \2\ The Nez Perce Tribe's DFRM received the 2015 Honoring Nations 
award with High Honors from The Harvard Project on American Indian 
Economic Development.
---------------------------------------------------------------------------
    The DFRM manages its own salmon fish hatchery at Cherrylane, Idaho, 
as well as 10 acclimation sites in Idaho and Oregon. In addition, the 
DFRM manages Kooskia National Fish Hatchery and co-manages Dworshak 
National Fish Hatchery. The DFRM also coordinates with the Idaho 
Department of Fish and Game and the U.S. Fish and Wildlife Service on 
production from other salmon and steelhead hatcheries throughout Idaho. 
The Tribe is committed to this work and requests that the United States 
properly fund the programs that are an instrumental part of the overall 
work on fish recovery.
                  pacific coastal salmon recovery fund
    The Pacific Coastal Salmon Recovery Fund (PCSRF) was established by 
Congress in fiscal year 2000 to protect, restore, and conserve Pacific 
salmonids and their habitats. The Congressionally authorized activities 
that were funded under the PCSRF program maintain populations necessary 
for exercise of Tribal treaty fishing rights or native subsistence 
fishing. Over $1.2 billion has been appropriated for PCSRF since 2000. 
With this funding, States and Tribes have leveraged additional 
resources to collectively implement 12,000 projects to conserve West 
Coast salmon.\3\ The Tribe requests PCSRF be preserved and funded at a 
minimum of $65 million for fiscal year 2019.
---------------------------------------------------------------------------
    \3\ National Oceanic and Atmospheric Administration Budget 
Estimates fiscal year 2017; Page NMFS-93.
---------------------------------------------------------------------------
    PCSRF has been used by the Tribe to restore coho (silver) salmon to 
the Tribe's reservation in the Clearwater River, a distance of 500 
miles from the ocean. Coho were extirpated from the Clearwater River 
over 40 years ago and most of these fish returned only as far as the 
lower Columbia River. Through the PCSRF (and Mitchell Act funds) the 
Tribe is able to rear and release almost one million coho into the 
Clearwater River, restoring their presence in the Snake River Basin. 
The Tribe views these returns as a tremendous success with counts of 
coho numbering more than 18,000 in 2014. In 2017, the Tribe worked with 
Oregon Department of Fish and Wildlife and the Confederated Tribes of 
the Umatilla Indian Reservation to also have the first release of coho 
in the Lostine River, a tributary of the Grande Ronde River. After 
decades of extirpation, these fish are being restored to some of the 
best habitat in the Columbia River Basin. Continued funding for the 
operation of these hatchery supplementation efforts is needed to 
maintain the populations of most species of salmon and steelhead in 
this ``breadbasket'' of salmon habitat, located upstream of eight 
Columbia River dams.
                      salmon management activities
    The Mitchell Act provides for the conservation of the fishery 
resources of the Columbia River and is administered by NOAA's National 
Marine Fisheries Service. Funding for the Mitchell Act component of 
NOAA Fisheries supports the operations and maintenance of Columbia 
River hatcheries through grants and contracts to the States of 
Washington, Oregon, and Idaho, and to the U.S. Fish and Wildlife 
Service, to mitigate the loss of salmon on the Columbia and Snake 
Rivers. This subcommittee recommended funding in the amount of $35.5 
million for Salmon Management Activities in fiscal year 2017, which was 
also the amount appropriated in fiscal year 2018. The Tribe would 
request that $38.2 million in funding be allocated in fiscal year 2019 
for Salmon Management Activities. The importance of this funding cannot 
be overstated as the comprehensive, geographic nature of its 
application in the Pacific Northwest provides for an integrated 
infrastructure for fish management. As stated above, this funding in 
conjunction with PCSRF funding is the only funding source for the 
Tribe's coho restoration work. In addition, these funds allow for fish 
to be grown at other facilities that are used at Nez Perce Tribal 
production facilities. Other regional agencies also use the funds to 
grow fish that enhance treaty fishing opportunities for Nez Perce 
Tribal members on the Columbia River.
         department of justice tribal assistance grant funding
    Providing law and order is one of the fundamental requirements of a 
functioning government. However, Tribes are limited in the resources 
available to commit to these programs as the United States has 
historically underfunded such programs in Indian Country. Tribes rely 
on the grant programs with the Department of Justice to help grow the 
capacity of Tribal law and order systems.
    In order to provide law enforcement, victims services, and Tribal 
justice to Indian and non-Indian residents of the reservation, the 
Tribe has relied on programs such as the Coordinated Tribal Assistance 
Solicitation grants program, the Tribal Juvenile Healing to Wellness 
Court program, the Comprehensive Tribal Victim Assistance Program, the 
Tribal Justice Systems Infrastructure Program, Violence Against Women 
Act programs, the Justice Systems and Alcohol and Substance Abuse 
Program, and the Children's Justice Act Partnership program. These 
programs need to continue.
    As stated above, the Tribe recommends full funding for programs 
authorized under the Tribal Law and Order Act. The Tribe also 
recommends either preservation of the fiscal year 2018 funding for 
Office of Justice Programs grants or a reinstatement of the 7 percent 
Tribal set-aside that Tribes advocated for and received in fiscal year 
2017. If the Committee chooses to fund these programs in the same way 
as fiscal year 2018, there needs to flexibility provided in program 
funding so that the funding is not narrowly allocated to Tribes solely 
through competitive grant programs. Finally, the Tribe recommends 
increasing the Tribal set-aside from 3 percent to 5 percent from the 
Crime Victims Fund distributions and maintaining Tribal funding under 
the Community Oriented Policing Services program at $30 million or 
more.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Chairman Moran, Ranking Member Shaheen, and Honorable Members of 
the subcommittee, my name is Lorraine Loomis and I am the Chair of the 
Northwest Indian Fisheries Commission (NWIFC). The NWIFC is comprised 
of the 20 Tribes that are party to United States v. Washington\1\ (U.S. 
v. WA), which upheld the Tribes' treaty-reserved right to harvest and 
manage various natural resources on and off-reservation, including 
salmon and shellfish. On behalf of the NWIFC, we are providing 
testimony for the record on the natural resources and fishery 
management program funding requests for the National Oceanic & 
Atmospheric Administration (NOAA)/National Marine Fisheries Service 
(NMFS) fiscal year 2019 appropriations. These programs support the 
management of salmon fisheries, which contribute to a robust natural 
resource-based economy and the continued exercise of Tribal treaty 
rights to fish.
---------------------------------------------------------------------------
    \1\ United States v. Washington, Boldt Decision (1974) reaffirmed 
western Washington Tribes' treaty fishing rights.

---------------------------------------------------------------------------
SUMMARY OF FISCAL YEAR 2019 (FISCAL YEAR 2019) APPROPRIATIONS REQUESTS

 1.  $65.0 million for NOAA Pacific Coastal Salmon Recovery Fund
 2.  $30.0 million for NOAA Pacific Salmon Treaty
 3.  $25.9 million for NOAA Mitchell Act Hatchery Programs
 4.  Sufficient funding for NOAA Fisheries Disaster Assistance Program
 5.  $5.0 million for NOAA Hatchery Genetic Management Plans

    The member Tribes of the NWIFC ceded much of the land that is now 
western Washington in exchange for reserving the continued right to 
harvest and manage various natural resources including salmon and 
shellfish. Salmon are, and have always been, the foundation of Tribal 
cultures, traditions and economies in western Washington. To ensure 
that Tribal treaty rights and lifeways are protected and not rendered 
meaningless, it is essential that the Federal Government provide 
support to all aspects of salmon management including harvest planning 
and implementation (e.g. Pacific Salmon Treaty), hatchery production, 
(e.g. Mitchell Act Hatchery Programs) and habitat protection and 
restoration (e.g. Pacific Coastal Salmon Recovery Fund).
JUSTIFICATION OF REQUESTS
1. Provide $65.0 million for NOAA Pacific Coastal Salmon Recovery Fund 
        (PCSRF)
    We respectfully request $65.0 million for PCSRF, which maintains 
the fiscal year 2018 enacted level. Although we support the fiscal year 
2018 enacted level of $65.0 million, it is a significant departure from 
the PCSRF peak level of $110.0 million in fiscal year 2002 or 
subsequent years in which budget authority was maintained upwards of 
$80.0 million through fiscal year 2011. We ultimately would like to see 
PCSRF funding fully restored to fiscal year 2002 levels, but we 
recognize that budget conditions may necessitate an incremental 
increase in the short term. Nevertheless, we continue to support the 
original congressional intent of these funds that would enable the 
Federal Government to fulfill its obligations to salmon recovery and 
the treaty fishing rights of the Tribes.
    The PCSRF is a multi-State, multi-Tribe program established by 
Congress in fiscal year 2000 with a primary goal to help recover salmon 
throughout the Pacific coast region. Through PCSRF, Tribes develop and 
implement sustainable salmon harvest and hatchery management practices 
and help protect and restore salmon habitat. To accomplish this, Tribes 
implement scientifically based salmon recovery plans developed for each 
watershed in concert with Federal, State, and local partners. Tribes 
also participate in sustainable harvest management activities such as 
monitoring of fish abundance, which is then used to forecast adult 
returns and subsequently develop annual harvest rates that achieve 
conservation objectives and provide for Tribal and non-Tribal harvest 
opportunities. Since its inception, PCSRF has been the primary salmon 
recovery response. This has resulted in over 1.1 million acres of 
spawning and rearing habitat restored and protected, and re-
establishing salmon access to 11,980 miles of previously inaccessible 
streams in our region.
2. Provide $30.0 million for NOAA Pacific Salmon Treaty (within Salmon 
        Management Activities and Regional Councils and Fisheries 
        Commissions)
    We support the Pacific Salmon Commission (PSC) U.S. Section's 
request of $30.0 million to implement the Pacific Salmon Treaty (PST). 
Department of Commerce (DOC) funding covers a wide array of programs 
including NMFS participation in PST, State (AK, WA, ID, OR) base 
grants, Coded Wire Tag Program, Puget Sound Critical Stock Augmentation 
Program, Chinook indicator stock assessments and implementation of the 
Chinook Salmon Agreement. Total DOC fiscal year 2018 funding for the 
PSC and PST implementation was $13.3 million. PSC and PST 
implementation is funded in large part through NFMS's Salmon Management 
Activities account, as well as some funding provided through the 
Regional Councils and Fisheries Commissions account.
    Within our collective request of $30.0 million to support the PSC 
and implement the PST, we specifically request the following funding 
within Salmon Management Activities account: $3.0 million for Coded 
Wire Tag (CWT) Program, $2.5 million for the Puget Sound Critical Stock 
Augmentation Program, and restoration of funding levels for the Chinook 
Salmon Agreement line to the original level of $1.8 million.
    Adult salmon returning to most western Washington streams migrate 
through U.S. and Canadian waters and are harvested by fishermen from 
both countries. For years, there were no restrictions on the 
interception of returning salmon by fishermen of neighboring countries. 
After many years of negotiations, in 1985 the U.S. and Canada agreed to 
cooperate in the management, research and enhancement of Pacific salmon 
stocks of mutual concern by ratifying the PST. The PSC was created to 
implement the PST, and is responsible for developing management 
recommendations, assessing each country's performance and compliance 
with the treaty. It is also the forum for all entities to work towards 
reaching agreement on fisheries issues.
    The Puget Sound Critical Stock Augmentation Program is required for 
effective implementation of the PST and its 2008 Chinook annex and 
pending future Chinook agreements. This program provides funding for 
operation and maintenance costs for hatchery augmentation programs. 
These hatchery efforts were initiated in connection with the 2008 
agreements, because the conservation needs of these populations could 
not be met by harvest restrictions alone.
    The funding and implementation of the CWT Program is also a U.S. 
obligation under the PST. The CWT Program produces data that is widely 
used by State, Federal and Tribal fisheries managers to evaluate 
hatchery contributions to catch, smolt to adult survival rates, spawner 
abundance on spawning grounds, differential in-hatchery treatments, and 
other important information that supports fisheries management and 
research. Funding for the coast-wide CWT Program supports continued 
maintenance and efficiency improvements.
3. Provide $25.9 million for NOAA Mitchell Act Hatchery Programs 
        (within Salmon Management Activities)
    We respectfully request $25.9 million for the Mitchell Act Hatchery 
Programs. The fiscal year 2018 appropriations provided a total of $20.2 
million. The request for an additional $5.7 million in Mitchell Act 
funds above the fiscal year 2018 funding level is to ensure that 
mitigation hatcheries operate at a full production level to meet 
Federal obligations. This program is funded through the Salmon 
Management Activities account.
    Mitchell Act hatchery production is intended to mitigate for fish 
and habitat loss caused by the Federal hydropower dam system on the 
Columbia River. Funding for these programs supports the operation and 
maintenance of hatcheries that release between 50 and 60 million 
juvenile salmon and steelhead in Oregon and Washington. These programs 
provide fish production for Tribal treaty and non-Tribal commercial and 
recreational fisheries in the Columbia River, and also contribute to 
ocean fisheries from Northern California to Southeast Alaska. 
Unfortunately, overall production from these hatcheries has been 
reduced from more than 110 million to fewer than 60 million fish due to 
inadequate funding.
    Adequate funding for Mitchell Act hatcheries is of particular 
importance to us because it supports salmon production for Tribal 
treaty harvest along the Washington coast. Additionally, adequate 
funding to ensure full production from the Mitchell Act hatcheries 
dampens the impact of Canadian and Alaskan ocean fisheries on 
Washington fisheries under the terms of the PST.
4. Provide sufficient funding for NOAA Fisheries Disaster Assistance 
        Program
    We respectfully request sufficient funding for the Fisheries 
Disaster Assistance Program. Recent declarations of salmon fisheries 
disasters affecting Washington Tribes include: Fraser River sockeye in 
2013, Fraser River sockeye in 2014, Grays Harbor coho in 2015, South 
Puget Sound coho in 2015, Quileute Dungeness crab in 2015, Nisqually 
coho, chum and Chinook in 2015, and a Washington ocean salmon troll 
fishery in 2016. The financial impact from these disasters is severe. 
For example, the western Washington treaty Tribes estimate $17.325 
million in damages as a result of those officially declared fisheries 
disasters since 2014. There are other disasters to which the Secretary 
has not yet acted upon, including but not limited to a 2015 Tribal coho 
and pink salmon fishery.
    Unforeseen natural and manmade disasters can have grave and 
unexpected impacts on Tribal treaty fishing, and impact the livelihoods 
of Tribal members who are economically dependent upon these fisheries. 
Because of the seasonal nature of fishing, a single disaster can have 
significant impacts on annual revenues needed to maintain boats and 
gear, forcing fishers to drop out of the sector, and therefore 
sometimes lead to diminished fishing fleets. An ongoing funded 
Fisheries Disaster Assistance Program is a much-needed stop gap measure 
to prevent the collapse of this important economic sector during 
difficult times. We therefore, respectfully request ongoing 
appropriations to maintain and enhance the Fisheries Disaster 
Assistance Program, which is needed to support a resilient national 
fishing fleet.
5. Provide $5.0 million for NOAA Hatchery Genetic Management Plans 
        (within Pacific Salmon)
    We respectfully request $5.0 million to provide increased funding 
to expedite NMFS's review and approval of the backlog of western 
Washington Hatchery Genetic Management Plans (HGMPs). Review and 
approval of HGMPs is necessary to provide our hatcheries with ESA 
coverage. The fiscal year 2018 omnibus provided $63.0 million for the 
Pacific Salmon account. The House Appropriations Committee has 
recommended $67.0 million, including $5.0 million for HGMP review. 
NMFS' fiscal year 2019 proposed budget requests a specific decrease of 
$1.696 million for HGMP review, despite reported progress with new 
funding, and admittedly still facing a large backlog. NMFS uses the 
information provided by HGMPs to evaluate a hatchery's impacts on 
salmon and steelhead listed under the ESA. With proper resources, NMFS 
should be able to review a bundle of HGMPs within a watershed and 
provide ESA coverage to operate those hatcheries within 18 months. 
However, HGMP bundles (multiple HGMPs for a geographic area) to date 
have been taking about 4-6 years to permit. If NMFS were to review the 
11 remaining bundles (65 HGMPs total) at past rates, ESA coverage of 
Puget Sound hatcheries could take 8-10 more years.
CONCLUSION
    Federal support for sustainable salmon fisheries management that 
improve harvest planning, hatchery production and habitat management 
are essential components of the Federal obligation to ensure continued 
exercise of Tribal treaty-reserved rights. The treaties and the treaty-
reserved right to harvest are the ``supreme law of the land'' under the 
U.S. Constitution (Article VI, Clause 2). It is therefore, critically 
important for Congress and the Federal Government to provide continued 
support in upholding the treaty obligations and fulfilling the trust 
responsibilities. This can be accomplished, in part, by supporting the 
aforementioned programs. We respectfully urge you to continue to 
support our efforts to protect and restore our natural resources that 
in turn will provide for thriving economies. Thank you.

    [This statement was submitted by Lorraine Loomis, Chair.]
                                 ______
                                 
              Prepared Statement of the Ocean Conservancy
     fiscal year 2019 appropriations for the national oceanic and 
                       atmospheric administration
    Thank you for this opportunity to provide Ocean Conservancy's 
recommendations for fiscal year 2019 funding for NOAA. Ocean 
Conservancy has worked for over 40 years to address threats to the 
ocean through science-based, practical policies that protect our ocean 
and improve our lives. To learn more about Ocean Conservancy's support 
for a strong ocean budget at NOAA, see www.TheMoreYouNOAA.org.
    We greatly appreciate the subcommittee's efforts to ensure a 
positive outcome for NOAA in the fiscal year 2018 omnibus, which made 
important investments in NOAA ocean programs, including Integrated 
Ocean Acidification.
    We reject the Trump administration's proposed budget for NOAA in 
fiscal year 2019, which would cut more than $1 billion in funding, 
including cuts to almost every single NOAA ocean program. As described 
in this testimony, we support funding for NOAA ocean programs at or 
above fiscal year 2018 funding levels.
    NOAA's mission to understand, protect, restore, and manage our 
ocean, coasts, and Great Lakes is vitally important to sustain these 
resources and our economy. The U.S. ocean and coastal economy 
contributes $320 billion annually to the Nation's GDP and supports more 
than 3 million jobs. There is a good reason that NOAA is in the 
Department of Commerce, and adequate funding is vital to support a 
healthy and resilient ocean that can maintain and grow our coastal 
economies and communities. For example, our Nation's fisheries and 
seafood sector generates $207.6 billion in sales impacts and supports 
1.6 million jobs. Fishermen rely on information from NOAA to make the 
most informed decisions on where to fish, how to fish and when to fish. 
Coastal wetland buffer zones in the U.S. are estimated to provide $23.2 
billion per year in storm protection, and NOAA works to build resilient 
coasts that are more storm-ready and prepared for threats like sea 
level rise and ocean acidification.
    Much of the U.S. ocean is under Federal jurisdiction, and yet many 
of NOAA's programs focus on pushing resources and decisionmaking power 
out to regions, States and communities. From region-by-region fishery 
management, to region-specific programs in places like the Arctic, to 
extramural funding that supports State agencies and universities, to 
place-based conservation in our estuaries and oceans, NOAA is providing 
leverage for hardworking people on the coast and on the water who are 
fighting for a stronger economy and a healthier ocean.
    We ask that you also consider the balance between NOAA's oceanic 
and atmospheric missions, and the nexus between the two. Americans 
should not have to choose between weather satellites and ocean and 
coastal resources like coral reefs and marine mammals. We need both. 
NOAA's ocean programs support many other Federal agencies and missions 
that will also suffer if NOAA funding is cut. For example, ocean 
observations and monitoring provide critical information for severe 
storm tracking and weather forecasting. Ocean programs also facilitate 
homeland security and national defense functions, including U.S. Navy 
operations and U.S. Coast Guard search and rescue.
    We are alarmed by administration proposals to wholly eliminate 
vital NOAA programs like Coastal Zone Management Grants, Sea Grant, and 
the National Estuarine Research Reserve System, among others. We are 
also alarmed to see new cuts proposed in fiscal year 2019 that had not 
been proposed by the administration in fiscal year 2018, including new 
proposed cuts to IOOS and Habitat Conservation & Restoration. We reject 
these cuts and ask that you fund NOAA ocean programs at or above fiscal 
year 2018 levels. We also offer additional testimony and recommend 
funding increases for the following NOAA programs.

------------------------------------------------------------------------
                                                       Fiscal Year 2019
 Account, Program or Activity     Fiscal Year 2018       Recommended
                                      Enacted             Increases
------------------------------------------------------------------------
    Operations Research and
          Facilities
National Ocean Service:
    Coastal Science,                        $6.5 m                $10 m
     Assessment, Response and
     Restoration: Marine
     Debris...................
    Coastal Zone Management                  $75 m
     Grants...................
 
National Ocean and Coastal                   $30 m                $40 m
 Security Fund................
 
National Marine Fisheries
 Service:
    Marine Mammals, Sea                 $113.342 m
     Turtles, & Other Species.
    Fisheries Data                      $164.749 m
     Collections, Surveys and
     Assessments..............
 
Office of Oceanic and
 Atmospheric Research:
    Integrated Ocean                         $11 m            $21.775 m
     Acidification............
 
Office of Marine and Aviation
 Operations:
    Marine Operations &                 $191.129 m
     Maintenance..............
------------------------------------------------------------------------

                       marine debris: $10 million
    Marine debris, particularly plastic waste pollution, has become one 
of the most widespread pollution problems facing the world's oceans and 
waterways. An estimated 150 million metric tons of plastic waste are in 
the ocean today, and every year an estimated 8 million metric tons more 
are being added. With oil prices at an all-time low, coupled with 
growing population levels and economic prosperity, plastic production 
and consumption are predicted to double over the coming decade. Without 
immediate intervention, 250 million metric tons of plastic waste could 
be in the ocean in fewer than 10 years. Marine debris has serious 
effects on the marine environment and the economy. It causes impacts on 
wildlife through entanglement, ingestion and ghost fishing and also 
impacts marine transportation causing navigational hazards and vessel 
damage.
    The program is authorized at $10 million, but received only $6.5 
million in fiscal year 2017. Given the magnitude of the problem, there 
is an urgent need for the NOAA Marine Debris Program to do more to 
counter the growing threat to ocean health. Fundamental knowledge gaps 
exist in four critical areas: the sources of plastic waste in the 
ocean, how the waste distributes within the marine environment, the 
fates of those materials, as well as their impacts. More scientific 
research into these key areas will support data-driven policy solutions 
to prevent plastic from entering the environment and impacting ocean 
health. Additional funding will enable NOAA MDP to support this 
additional research.
                     coastal zone management grants
    Coastal Zone Management Grants achieve multiple goals for coastal 
communities including economic development, enhancement of public 
access and recreation, and protection of coastal resources. The CZM 
program provides Federal support for these State programs to ensure 
that as a Nation, all coastal States and territories can enable their 
coastal communities to achieve both State and national priorities. This 
State-Federal partnership also enables States to leverage Federal funds 
to improve permitting processes, provide grants to communities, and 
ensure Federal actions are consistent with State laws. Moreover, the 
CZMA requires a dollar-for-dollar State match for almost all Federal 
funding, with States matching over $59 million fiscal year 2016.
         national ocean and coastal security fund: $40 million
    Regional Coastal Resilience Grants have produced on-the-ground 
results through regional ocean partnerships, with grants going out to 
every region of the country in recent years. The fiscal year 2018 
Omnibus spending bill shifted funding from RCRG to the National Ocean 
and Coastal Security Fund (``Ocean Fund'') and directed the Ocean Fund 
to achieve the goals of RCRG. We see those goals as improved regional 
collaboration, accessible ocean data, stakeholder engagement to 
increase maritime domain awareness, enhanced ocean and coastal 
management, adaptive management in response to changing ocean 
conditions, and further improved national security and resilience.
    We support funding the Ocean Fund at $40 million in fiscal year 
2019 in anticipation that this fund will support the priorities we have 
laid out. This increase is supported by the high demand for RCRG in 
recent years, which had exceeded $150 million in applications in a 
single year.
             marine mammals, sea turtles and other species
    NOAA's work to protect living marine resources is important 
nationwide, but is especially critical in the Gulf of Mexico region. We 
are glad to see a small increase for Marine Mammals in fiscal year 2018 
and encourage you to continue that trend, in particular because 
increased funds support increased capacity for restoration efforts in 
the Gulf of Mexico region. We support continued funding at or above 
fiscal year 2018 funding levels, including for the John H. Prescott 
Marine Mammal Rescue Assistance Grant Program, which funds the first 
responders for sick or dying marine mammals.
          fisheries data collections, surveys and assessments
    We support funding for programs that implement the Magnuson-Stevens 
Fishery Conservation and Management Act. As we review the Act for 
reauthorization, it is important to note that the Act is working--NOAA 
has made great strides towards ending overfishing and continued 
investments in these programs are needed.
    This recently consolidated budget line supports a host of 
activities critical to MSA implementation. For example, it provides 
resources for fisheries managers to assess priority fish stocks, 
implement the requirement for annual catch limits (ACLs), and ensure 
the successful recovery of overfished populations. Stock assessments 
give fishery managers greater confidence that their ACLs will avoid 
overfishing while providing optimal fishing opportunities. We also 
support funding for the Marine Recreational Information Program. 
Despite their often sizeable economic and biological impacts, much less 
data are collected from recreational saltwater fisheries than 
commercial fisheries due to the sheer number of participants and 
limited sampling of anglers' catches. The low level of data collection 
and lack of timely reporting of data in these fisheries is a large 
source of uncertainty and has become a flashpoint for controversy in 
regions where catch restrictions have been adopted to rebuild 
overfished stocks, particularly in the Southeast. By all accounts, 
improved sampling and timelier reporting of catch data are needed for 
successful management of marine recreational fisheries.
    We support funding for electronic monitoring and reporting for 
nationwide efforts. In particular we support funding that goes to the 
Gulf of Mexico region, where managers need electronic monitoring to 
keep track of catch and prevent overruns in the red snapper fishery. 
Given the unique management challenges that exist in the Gulf of 
Mexico, there is a significant need for additional funding. Based on 
the findings of the November 2014 ``Technical Subcommittee Report to 
the South Atlantic and Gulf of Mexico Fishery Management Councils: 
Recommendations for Electronic Logbook Reporting'' NOAA's requested 
increases are only a portion of what is needed to support effective 
electronic monitoring. The Gulf of Mexico region alone will require 
more than $5 million annually to support electronic monitoring.
      integrated ocean acidification: increase to $21.775 million
    The Integrated Ocean Acidification line item funds NOAA's ocean 
acidification program (OAP), which was established and mandated by the 
Federal Ocean Acidification Research and Monitoring (FOARAM) Act of 
2009. Under FOARAM, OAP is directed to ``provide grants for critical 
research projects that explore the effects of ocean acidification on 
ecosystems and the socioeconomic impacts of increased ocean 
acidification,'' establish long-term monitoring, identify adaptation 
strategies, and conduct public outreach.
    Ocean acidification (OA) is the rise in acidity of the earth's 
ocean caused by uptake of CO<INF>2</INF> from the atmosphere. This 
rising acidity makes it harder for shell-forming species such as 
oysters and crabs to grow, and fundamentally alters many other 
processes (e.g., reproduction, risk avoidance) necessary for healthy 
ecosystems and the coastal industries that depend on them. Prior 
Federal investments in OAP, such as FOARAM, have greatly expanded our 
knowledge of OA and its risks to coastal communities and industries, 
but current funding levels are not at the scale needed to understand 
this global problem and its full impacts.
    We recommend a funding level of at least $21.775 million for this 
program.
                   marine operations and maintenance
    Marine Operations and Maintenance should be funded at or above the 
fiscal year 2018 level. Days at sea funded by this line are 
functionally tied to fishery stock assessments, and the two programs 
must be viewed together.

    [This statement was submitted by Jeff Watters, Director, Government 
Relations.]
                                 ______
                                 
Prepared Statement of Organizations in Support of the Minority Business 
                           Development Agency
ASIAN, Inc.

Baltimore Mayor's Office of Small, Minority and Women Business 
Development

Capital Region Minority Supplier Development Council

California Asian Pacific Chamber of Commece

The Enterprise Center

Florida State Minority Supplier Development Council

Native American Contractors Associations

University of Southern California Civic Engagement

May 25, 2018


 
 
 
The Honorable Jerry Moran, Chair            The Honorable Jeanne
Subcommittee on Commerce, Justice,           Shaheen, Ranking Member
 Science, and Related Agencies              Subcommittee on Commerce,
Committee on Appropriations                  Justice, Science, and
United States Senate                         Related Agencies
Washington, DC 20510                        Committee on Appropriations
                                            United States Senate
                                            Washington, DC 20510
 


RE: Minority Business Development Agency, Fiscal Year 2019

Dear Chairman Moran and Ranking Member Shaheen:

    Our organizations have successfully operated multiple Minority 
Business Centers at the behest of the U.S. Department of Commerce's 
Minority Business Development Agency (MBDA). In light of the 
President's fiscal year 2019 budget request, we are gravely concerned 
about the potential loss of crucial job-creating and job-saving value 
that the national network of MBDA Business Centers and other MBDA 
projects have provided.
    Therefore, we write to request that, as you negotiate and finalize 
legislation to fund the government for the fiscal year 2019 budget 
cycle, that you fund MBDA at $40 million, and that your Committee's 
report reflect that ``[w]ithin the funds provided, not less than 
$20,000,000 shall be awarded through cooperative agreements, external 
awards and grants.'' While other Federal agencies focus on broader 
demographic and emerging businesses, MBDA focuses exclusively on the 
unique needs of minority-owned, middle-stage businesses.
    In fiscal year 2017, approximately 40 MBDA Business Centers, Export 
Centers, Advanced Manufacturing Centers around the country and the 
Federal Procurement Center facilitated nearly $5 billion in capital 
transactions and nearly $3 billion in contract transactions, helping 
businesses owned by African Americans, Hispanic Americans, Asian and 
Pacific Islander Americans, Native Americans (including Alaska Natives, 
Alaska Native Corporations and Tribal entities), Asian Indian Americans 
and Hasidic Jewish Americans create and save 18,555 jobs nationally. 
All transactions are client-verified and evidenced by documentation 
submitted to and accepted by MBDA. It is important to note that as a 
highly efficient economic development tool, MBDA more than pays for 
itself. MBDA has returned $234 for every taxpayer dollar invested in 
the agency and its MBDA Business Centers.
    As you know, MBDA was established in 1969 by President Richard 
Nixon through Executive Order 11458. The agency is a part of the 
Department of Commerce and is the premier Federal agency dedicated to 
supporting the expansion of minority- and Native-owned business 
enterprises (MBEs). The President's fiscal year 2019 budget blueprint 
recommended the reduction of the agency by eliminating the network of 
MBDA centers, each of which provides businesses with services to assist 
them to grow in size and scale. Activities are not in duplication of 
any Small Business Administration program, and include bid proposal 
support, pricing, commercializing technology, pitching to investors, 
merging and acquiring firms, and in securing investment.
    MBDA helps firms to realize their full economic potential through 
technical assistance, contracting opportunities, advocacy, research and 
education, and by serving as a strategic partner for growth and 
development. MBDA is the only Federal agency dedicated to the growth 
and global competitiveness of our Nation's 8.5 million MBEs, which, 
according to the U.S. Census Bureau's 2007 Survey of Business Owners, 
contributed $1 trillion in total economic output and employed nearly 6 
million Americans. Given the economic challenges that MBEs face and the 
income and wealth gap between minority and non-minority communities, it 
is important that we fund MBDA to support these firms with overcoming 
some of the obstacles that they disproportionately encounter.
    As diversity continues to spearhead a new chapter in our Nation's 
economic growth, MBDA is supporting the next generation of MBEs by 
increasing the capacity of regional economies. These findings highlight 
that the economic contribution of these firms has a significant impact 
on the national economy, and more recent Census reports demonstrate 
that this impact is continuing to grow. However, there are still 
challenges that MBEs disproportionally face compared to other 
businesses. These obstacles include barriers to accessing capital, 
contracts, and export markets. There is also an impediment in not 
having existing informal networks that businesses traditionally rely on 
in the pursuit of business opportunities.
    Thank you for your commitment to ensuring that MBEs are able to 
maximize their potential, and for your consideration of this request. 
We appreciate the opportunity to testify to the importance of 
preserving MBDA's job-creating and job-saving value to the Nation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
                                 ______
                                 
          Prepared Statement of the Pacific Salmon Commission
    Mr. Chairman, and Honorable Members of the Committee, I am W. Ron 
Allen, the Alternate Tribal Commissioner and Chair for the U.S. Section 
Budget Committee of the Pacific Salmon Commission (PSC). I am also the 
Tribal Chairman/CEO of the Jamestown S'Klallam Tribe located on the 
northern Olympic Peninsula of Washington State. The U.S. Section 
prepares annual budgets for the implementation of the Pacific Salmon 
Treaty.

        Department of Commerce funding in support of implementing the 
        Pacific Salmon Treaty is part of the Salmon Management 
        Activities account in the National Marine Fisheries Service 
        (NMFS) budget. Funding in the Department of Commerce budget 
        intended for the programs to fulfill national commitments 
        created by the Treaty was $13,113,113 in the 2017 budget. The 
        U.S. Section estimates that a budget of $30,000,000 for fiscal 
        year 2019 is needed to implement national commitments created 
        by the Treaty.

    The implementation of the Treaty is funded through the Departments 
of Commerce, Interior and State. The Department of Commerce principally 
funds programs conducted by the States of Washington, Oregon, Idaho and 
Alaska and the National Marine Fisheries Service. The cost of programs 
conducted by the States to fulfill national commitments created by the 
Treaty are substantially greater than the funding provided in the NMFS 
budget in past years. Consequently the States have supplemented the 
Federal Treaty appropriations from other sources, including State 
general funds. Many of those funding sources are limited or no longer 
available.
    The Pacific Salmon Treaty line item in the Salmon Management 
Activities section of the National Marine Fisheries Service budget is 
funded at $5,727,858 for fiscal year 2017 to provide base support for 
the States of Alaska, Washington, Oregon, and Idaho. The National 
Marine Fisheries Service is funded at $2,680,245 to conduct salmon 
stock assessments and fishery management programs required to implement 
the Treaty's conservation and allocation provisions for Coho, Sockeye, 
Chinook, Chum, and Pink salmon fisheries. Effective, science-based 
implementation of negotiated salmon fishing arrangements and abundance-
based management approaches for Chinook, southern Coho, and Northern 
Boundary and Transboundary River salmon fisheries includes efforts such 
as increased annual tagging and tag recovery operations, harvest 
monitoring, genetic stock identification and other emerging stock 
identification techniques. The U.S. Section identified a need of 
$18,300,000 for fiscal year 2019 to fully carry out these activities.
    The Chinook Salmon Agreement line item in the Salmon Management 
Activities was funded at $1,440,947 in fiscal year 2017 representing a 
reduction from previous years. The U.S. Section recommends restoring 
the funding to the original level of $1,800,000. This funding supports 
research and stock assessments necessary to acquire and analyze the 
technical information needed to fully implement the abundance-based 
Chinook salmon management program provided for by the Treaty. The 
States of Alaska, Washington, Oregon, and Idaho, and the 25 Treaty 
Tribes conduct projects selected in a rigorous competitive process.
    The International Fisheries Commissions line, under Regional 
Councils and Fisheries Commissions in the NMFS budget was funded at 
$365,657 and provides the U.S. contribution to bilateral cooperative 
salmon enhancement on the transboundary river systems, which rise in 
Canada and flow to the sea through Southeast Alaska. This project was 
established in 1988 to meet U.S. obligations specified in the Treaty 
and had been previously funded at $400,000 annually.
    The 2008 Agreement line supports improvements to the Coded Wire Tag 
program and to Puget Sound critical Chinook stocks, both necessary to 
reach agreement on revised fishery provisions between the U.S. and 
Canada. The amount appropriated for fiscal year 2017 was $2,898,406. 
Increased funding of these programs in the fiscal year 2019 Federal 
budget at $5,500,000 is necessary to address Chinook salmon 
conservation needs and to meet existing Treaty commitments. The U.S. 
Section recommends adding $4,000,000 to fund critical salmon escapement 
indicator stock programs.
    The core Treaty implementation projects included in the Pacific 
Salmon Treaty line, and the U.S. Chinook Agreement line under Salmon 
Management Activities, as well as the International Fisheries 
Commission line under Regional Councils and Fisheries Commissions 
consist of a wide range of stock assessment, fishery monitoring, and 
technical support activities for all five species of Pacific salmon in 
the fisheries and rivers between Cape Suckling in Alaska to Cape Falcon 
in Oregon. The States of Alaska, Washington, Oregon, Idaho, and the 
National Marine Fisheries Service conduct a wide range of programs for 
salmon stock abundance assessment, escapement enumeration, stock 
distribution, and fishery catch and effort information. The information 
is used to establish fishing seasons, harvest levels, and 
accountability to the provisions of Treaty fishing regimes.
    Like many other programs, funding to implement the Pacific Salmon 
Treaty decreased in recent years. Prior to that, the base annual Treaty 
implementation funding remained essentially flat since the inception of 
the Treaty in 1985. In order to continue to fulfill the Federal 
commitments created by the Treaty, as costs and complexity increased 
over time, the States had to augment Federal funding with other Federal 
and State resources. However, alternative sources of funding have seen 
reductions or, in some cases, have been eliminated.
    The provisions of five annex chapters to the Treaty will expire on 
December 31, 2018. These chapters contain the specifics for 
implementing the Treaty for each species in each geographic area. An 
agreement in principle has been reached for the Transboundary, Coho, 
and Chum chapters. Agreements for the Northern Boundary and Chinook 
chapters should be reached in the near future. The revised chapters 
represent the combined efforts of the participants to ensure healthy 
salmon populations for the next 10 years. They also require commitments 
to increase efforts to improve upon current management strategies for 
numerous salmon populations.
    Finally, you should consider the fact that the value of the 
commercial harvest of salmon subject to the Treaty and managed at 
productive levels under the Treaty, supports the infrastructure of many 
coastal and inland communities. The value of the commercial and 
recreational fisheries, and the economic diversity they provide for 
local communities throughout the Pacific Northwest and Alaska, is 
immense. The Pacific Salmon Commission recently funded an economic 
study of these fisheries and determined that this resource creates 
thousands of jobs and is a multi-billion dollar industry. The value of 
these fish to the twenty-five Treaty Tribes in Washington, Oregon, 
Idaho and Alaska goes far beyond their monetary value, to the cultural 
and religious lives of Indian people. A significant monetary investment 
is focused on salmon due to the listings of Pacific Northwest salmon 
populations under the Endangered Species Act.
    Given these resources, we can continue to utilize the Pacific 
Salmon Commission to develop recommendations that help with the 
development and implementation of solutions to minimizing impacts on 
listed stocks. We continue to work towards the true intent of the 
Treaty, and with your support, we will manage this shared resource for 
mutual enhancements and benefits.
    This concludes the statement of the U.S. Section of the Pacific 
Salmon Commission submitted for consideration by your Committee. We 
wish to thank the Committee for the support given to us in the past. 
Please let us know if we can supply additional information or respond 
to any questions the Committee Members may have.
    Thank you

    [This statement was submitted by W. Ron Allen, Chair.]
                                 <greek-l>
                                 ______
                                 
    Prepared Statement of Regional Information Sharing Systems deg.
   Prepared Statement in Support of the Regional Information Sharing 
                         Systems (RISS) Program
    The Regional Information Sharing Systems (RISS) Program serves more 
than 9,000 local, State, Federal, and Tribal criminal justice agencies 
and other partners by providing adaptive solutions and services that 
facilitate information sharing, support criminal investigations, and 
promote officer safety. RISS's powerful and valuable tools, services, 
and resources help law enforcement agencies and officers solve cases, 
apprehend offenders, and stay safe. With ongoing threats to our 
homeland, the opioid crisis and proliferation of narcotics, gang 
violence, cyber threats, and emerging challenges, it is imperative that 
programs like RISS be preserved and strengthened. It is respectfully 
requested that RISS be funded in fiscal year 2019 at $45 million.
    RISS is composed of six regional centers and the RISS Technology 
Support Center. RISS works regionally and nationwide to respond to the 
unique crime problems of each region, while strengthening the country's 
information sharing environment. For more than 40 years, RISS has 
demonstrated its value and benefit to the criminal justice and law 
enforcement community. Hundreds of shared successes are submitted to 
RISS each year from agencies utilizing RISS services. Examples can be 
viewed at www.riss.net/Impact.
    RISS's adaptable approach and regional/nationwide model enable it 
to quickly and efficiently respond to the ever-changing criminal 
justice landscape. RISS supports efforts against all crimes, including 
organized and violent crime, gang activity, drug activity, terrorism, 
human trafficking, identity theft, cybercrime, and other regional 
priorities and emerging threats. RISS is a trusted resource that law 
enforcement agencies and officers utilize to--

  --Share critical law enforcement and intelligence data across 
        jurisdictions
  --Access case and analytical services that help solve crimes and 
        prosecute offenders
  --Prevent friendly fire and safeguard the men and women protecting 
        our streets
  --Preserve the integrity of operations and protect citizens and 
        communities

    In response to the demand for RISS's services, in fiscal year 2017, 
the RISS Centers:

  --Developed 83,612 analytical products.
  --Loaned 3,250 pieces of specialized equipment.
  --Responded to and provided research and information for 85,122 
        requests for assistance.
  --Trained 40,225 law enforcement officers and personnel.
  --Provided access to more than 45.2 million records to authorized 
        personnel, including access to investigative databases, such as 
        the RISS Property and Recovery Tracking System (RISSProp), the 
        RISS Money Counter Project (MCP), and the RISS Master Telephone 
        Index (MTI).
  --Enabled users to conduct more than 5 million inquiries to RISS 
        resources and visit RISS-supported websites more than 3.8 
        million times.

    One resource that makes these results possible is the RISS Secure 
Cloud (RISSNET), which connects disparate systems, provides 
bidirectional sharing, offers a single simultaneous search of connected 
systems, and houses hundreds of resources, collaboration tools, and 
databases (most owned by State and Federal partners, fusion centers, 
and others who trust RISS and turn to RISSNET to solve their 
information sharing needs). Without RISSNET resources and information, 
multijurisdictional information sharing would become difficult, leads 
might be lost, and some cases might not be solved timely or at all. 
RISS has also developed a number of resources accessible via RISSNET 
that are critical to the law enforcement community's mission, including 
the following:

  --The RISS Criminal Intelligence Database (RISSIntel) provides for a 
        real-time, online federated search of more than 50 RISS and 
        partner intelligence databases.
  --The RISS National Gang Program (RISSGang) consists of an 
        intelligence database, a website, and information resources.
  --The RISS Automated Trusted Information Exchange (ATIX) provides a 
        secure platform for law enforcement, public safety, first 
        responders, and the private sector to share information and 
        collaborate.
  --The RISSLeads Investigative Website enables authorized law 
        enforcement officers to post information regarding cases or 
        other law enforcement issues.
  --The RISS Officer Safety Website provides law enforcement and 
        criminal justice users with timely officer safety information 
        and a secure infrastructure to exchange and share officer 
        safety-related information among agencies.
  --Law Enforcement Secure Hosted Websites enable partners to securely 
        share information and materials with specific groups or 
        partners. There are 39 secure hosted websites.

    The RISS Officer Safety Event Deconfliction System (RISSafe) 
supports law enforcement personnel who are conducting an event in close 
proximity to one another at the same time. Events include law 
enforcement actions, such as undercover operations, surveillance, or 
executing search warrants. When certain elements are matched between 
two or more events, a conflict results. Immediate notification is then 
made to the affected agencies or personnel regarding the identified 
conflict.
    Event deconfliction helps support and protect law enforcement 
officers in a variety of ways. Officers partaking in high-risk 
operations are able to enhance their personal safety and the safety of 
those around them. Using an event deconfliction system enables officers 
to identify operational conflicts and collaborate with other law 
enforcement agencies and officers. It also safeguards community 
members, helps ensure operational integrity, strengthens information 
sharing, helps reduce risk and liability, and builds community 
confidence. Officers are able to leverage each other's information and 
successfully apprehend criminals. Event deconfliction helps prevent 
``friendly fire'' and helps solve investigations.
    Since RISSafe's inception, 1,613,086 operations have been entered 
into RISSafe, resulting in 425,570 identified conflicts. Without the 
identification of these conflicts, officers might have interfered with 
another agency's or officer's investigation, links between cases might 
have been lost, or officers or citizens might have been unintentionally 
hurt or killed. RISSafe is accessible and monitored on a 24/7/365 basis 
and available at no cost to all law enforcement agencies. Currently, 28 
RISSafe Watch Centers are operational, 22 of which are operated by 
organizations other than RISS. These organizations have invested 
resources to support this critical officer safety program.
    In May 2015, the three nationally recognized event deconfliction 
systems--Case Explorer, SAFETNet, and RISSafe--were integrated. The 
partners worked in collaboration to accomplish this goal with the help 
of many vested partners, including the Bureau of Justice Assistance 
(BJA); the Partner Engagement, Information Sharing Environment (PE-
ISE); the U.S. Drug Enforcement Administration (DEA); the High 
Intensity Drug Trafficking Areas (HIDTA); and many others. This 
partnership and system integration have further strengthened officer 
and citizen safety across the country.
    RISS also supports Federal and nationwide initiatives that help 
enhance and expand efficient and effective information sharing among 
the criminal justice community. Examples of RISS's Federal and 
nationwide partnerships include:

  --Federal Bureau of Investigation's (FBI) Law Enforcement Enterprise 
        Portal (LEEP)
  --FBI's Law Enforcement National Data Exchange (N-DEx)
  --Federal Law Enforcement Training Centers (FLETC)
  --Global Justice Information Sharing Initiative (Global)
  --HIDTAs
  --INTERPOL
  --National Criminal Intelligence Resource Center (NCIRC)
  --National Fusion Center Association (NFCA)
  --National Motor Vehicle Title Information System (NMVTIS)
  --National Virtual Pointer System (NVPS)
  --National White Collar Crime Center (NW3C)
  --Office of the Director of National Intelligence (ODNI) Intelink-U
  --PE-ISE
  --United States Attorneys' Offices (USAO)
  --U.S. Department of Homeland Security (DHS) and the Homeland 
        Security Information Network (HSIN)
  --U.S. Department of Justice (DOJ)

    These and other partnerships have resulted in streamlined 
processes, increased information sharing and officer access to critical 
data, safer officers and communities, and the advancement of important 
technology solutions, some of which are highlighted below.
    Through the N-DEx and RISS partnership, access to N-DEx is 
available to authorized RISSNET users via LEEP without an additional 
username or password. This capability enables officers to obtain 
information quickly, saves officers' time, streamlines operations, and 
enhances law enforcement's ability to respond to crime effectively and 
efficiently. Work continues to expand this capability nationwide.
    As foundational members of the Sensitive But Unclassified (SBU) 
Working Group and the National Identity Exchange Federation, HSIN and 
RISS have made significant progress in implementing bidirectional 
secure single sign-on between the two systems. This integration 
provides a streamlined approach that enables users to quickly and 
easily access critical information.
    During fiscal year 2017, RISS developed, completed, and deployed 
the Online Registration, User Self-Service, and the new RISSNET Home 
Page. In addition, a new RISS Public Website was deployed. RISS also 
expanded partnerships with the FBI, U.S. Customs and Border Protection, 
and Nlets--The International Justice and Public Safety Network.
    In order to continue to build on the gains made in information and 
intelligence sharing and officer safety, fiscal year 2019 funding for 
RISS is requested at $45 million. The requested funding supports the 
entire RISS Program, including the operation of the six regional RISS 
Centers and the RISS Technology Support Center. In addition, the 
increase in funding will support the following:

  --Offer more information resources to additional users from member 
        agencies and partner systems, and significantly expand the 
        effective use of bidirectional federated search by connecting 
        more systems to RISSIntel.
  --Support RISSafe's 24/7/365 operation, expand officer safety 
        programs, support RISSafe Watch Centers across the country, and 
        continue to promote event deconfliction.
  --Enhance information sharing with existing partners, such as NVPS 
        and RISSIntel's information partners, and expand deconfliction 
        of this data with partners.
  --Further bridge the gap by expanding existing partnerships with 
        Federal partners.
  --Provide agencies having a need for an intelligence database with a 
        cloud-based solution known as RISSIntel 4.0.
  --Continue to enhance RISSNET's cloud and supporting infrastructure.
  --Expand some of RISS's successful regional investigative data 
        sources that are in demand nationwide, such as MTI and MCP.
  --Architect additional scalable solutions on devices, such as mobile, 
        laptop, and desktop computers, and provide scalable solutions 
        for legacy applications.
  --Integrate biometrics and incorporate advanced analytics into RISS 
        systems.

    RISS diligently identifies and integrates innovative solutions to 
provide fast, quality-driven, evidence-based support to the law 
enforcement and public safety communities. Level or reduced funding for 
RISS would significantly weaken the Nation's information sharing 
environment, hinder investigations, and impact the safety of our 
officers and communities.
    RISS is a resource that saves agencies money and time and produces 
results. The cost of doing business continues to rise and, with level 
or reduced funding, that means a shortfall for programs like RISS. 
Without an increase in funding, RISS will not be able to continue some 
of its critical services that law enforcement agencies and officers 
desperately need. However, with additional funding, RISS can continue 
to operate while building on its successes. Investing in RISS--a 
proven, evidence-based, and successful program that directly supports 
law enforcement's efforts to keep our communities and officers safe--is 
a smart strategy and a good use of taxpayer dollars.
    It would be counterproductive to require local and State RISS 
members to self-fund match requirements or to reduce the amount of BJA 
discretionary funding. Agencies require more funding to fight the 
Nation's crime problems. RISS is unable to make up the decrease in 
funding that a match would cause, for it has no revenue source of its 
own. RISS is grateful to provide this testimony at your request and 
appreciates the support that this committee continuously provides to 
the RISS Program.

    [This statement was submitted by Donald F. Kennedy, Jr., Chair, 
RISS National Policy Group.]
                                 ______
                                 
                 Prepared Statement of Research!America
    I appreciate the opportunity to submit testimony on behalf of 
Research!America, the Nation's largest not-for-profit education and 
advocacy alliance working to accelerate medical progress and strengthen 
our Nation's public health system. We are grateful for the 
subcommittee's dedicated stewardship over such a critical subset of our 
Nation's discretionary funding priorities. As you consider fiscal year 
2019 allocations, we request that the National Science Foundation (NSF) 
receive at least $8.45 billion to support our Nation in achieving its 
strategic objectives. Funding at this level will begin to reverse the 
trend that has left the United States on the verge of lagging behind 
our international competitors who continue to increase their 
investments in science research and development.
    Over the past 65 years, the NSF has faithfully and successfully 
pursued its mission: promoting scientific progress that richly benefits 
Americans, strengthening the national defense, and advancing national 
health and prosperity. NSF's portfolio, which is intentionally diverse 
to maximize the returns on science investment, spans biology, 
economics, mathematics, computer science, the social and behavioral 
sciences, engineering, and other disciplines and areas of scientific 
focus. We firmly believe that robust funding for NSF is a sound 
strategy for advancing our Nation's strategic interests in an 
increasingly complex global landscape.
                         what the nsf provides
    The NSF funds diverse basic and applied research in local 
universities and other research institutions located in all 50 States, 
the District of Columbia and three U.S. territories. An estimated 
359,000 students, teachers, researchers and postdoctoral fellows were 
empowered by the NSF in fiscal year 2017 alone. Approximately 90 
percent of NSF funding is allocated to grants or cooperative agreements 
to researchers through a competitive merit review process. Since 1950, 
the NSF has supported more than 230 Nobel Prize winners, including four 
Nobel Laureates in 2017. The studies supported by the NSF bear on 
virtually every sector of our economy, support cyber- and other crucial 
areas of national security, and factor importantly into the productive 
use of ``big data'' and other highly promising avenues of research.
  nsf leverages american ingenuity to break new ground in science and 
                               technology
    The NSF supports high-risk, potentially transformative projects 
that resulted in groundbreaking discoveries in the last year. In an 
effort to store data more efficiently and securely, NSF-funded 
researchers at California Institute of Technology developed a new 
computer chip using nanoscale optical quantum memory. These findings 
are moving the field closer to using photons of light to transmit 
information more reliably. Much of this work would have never been 
possible without previous NSF investment in computer science, math and 
statistics.
    Advancements continue to be found throughout NSF-funded research, 
often through collaboration across multiple fields. This year, 
researchers at Brown University were able to create miniature 3-D 
tissue engineering molds, or ``mini-brains'', that form networks and 
allow scientists to conduct biomedical research. Last year, the 
researchers discovered that the ``mini-brains'' can be used to study 
brain injuries and diseases such as stroke, concussions and 
Alzheimer's. Through NSF's continued support, fields can work together 
to produce cutting-edge research that continue to push the fields of 
neuroscience, engineering and biomedical science forward.
 nsf is crucial to training the next generation of american scientists 
                             and innovators
    Our Nation's continued global leadership is inexorably linked to 
our strength in the fields of Science, Technology, Engineering, and 
Mathematics (STEM). The NSF fosters future American leaders in these 
strategically important disciplines. Since 1952, the NSF has supported 
more than 53,000 students through Graduate Research Fellowships and has 
provided grant support to thousands of postdoctoral fellows and young 
investigators. The agency also engages in innovative educational 
initiatives such as NSF INCLUDES (Inclusion across the Nation of 
Communities of Learners of Underrepresented Discoveries in Engineering 
and Science). NSF INCLUDES is a new national initiative to make STEM 
education more inclusive of underrepresented and underserved 
populations. Efforts like this set the stage for future success as our 
Nation seeks to accelerate the pace of medical progress.
    These examples demonstrate the strategic importance of NSF. I 
encourage you to fund the agency with at least $8.45 billion in fiscal 
year 2019 to support our Nation's unrivaled scientific enterprise. 
Research!America appreciates the difficult and complex task facing the 
subcommittee as it seeks to prioritize funding in a manner that best 
serves the American people, and hope you will call on our organization 
if additional information would prove useful.
    Thank you for your continued leadership and consideration.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Mary Woolley
President and CEO
Research!America
                                 ______
                                 
           Prepared Statement of Restore America's Estuaries
     fiscal year 2019 appropriations for the national oceanic and 
                       atmospheric administration
    Restore America's Estuaries is a nonpartisan, nonprofit 
organization that has been working since 1995 to restore our Nation's 
greatest estuaries. Our mission is to restore and protect estuaries as 
essential resources for our Nation. Restore America's Estuaries is an 
alliance of community-based coastal conservation organizations across 
the Nation that protect and restore coastal and estuarine habitat. Our 
member organizations include: American Littoral Society, Chesapeake Bay 
Foundation, Coalition to Restore Coastal Louisiana, Save the Sound--a 
program of the Connecticut Fund for the Environment, Galveston Bay 
Foundation, North Carolina Coastal Federation, EarthCorps, Save The 
Bay--San Francisco, Save the Bay--Narragansett Bay, and Tampa Bay 
Watch. Collectively, we represent over 250,000 members nationwide.
    As you develop the fiscal year 2018 Commerce, Justice, Science and 
Related Agencies appropriations bill, Restore America's Estuaries 
encourages you to provide the funding levels below within the 
Department of Commerce, National Oceanic and Atmospheric Administration 
(NOAA) for core programs which significantly support coastal community 
and ecosystem resilience and local economies:

  --$68.4 million for Habitat Conservation and Restoration
      (NOAA: ORF: NMFS: Habitat Conservation and Restoration)
      --$21.1 million for the Community-based Restoration Program
  --$54 million for Coastal Zone Management and Services
       (NOAA: ORF: NOS: Ocean and Coastal Management and Services: 
Coastal Zone Management and Services)
      --$100 million for Coastal Management Grants
           (NOAA: ORF: NOS: Ocean and Coastal Management Services: 
Coastal Management Grants)
      --$40 million for Regional Coastal Resilience Grants
           (NOAA: ORF: NOS: Ocean and Coastal Management Services: 
Title IX Fund)
  --$27 million for National Estuarine Research Reserve System
       (NOAA: ORF: NOS: Ocean and Coastal Management and Services: 
National Estuarine Research Reserve System)

    These investments strengthen and revitalize America's coastal 
communities by protecting and restoring habitat, improving local water 
quality, and enhancing resilience. Healthy coastlines protect 
communities from flood damage and extreme weather, improve commercial 
fisheries, safeguard vital infrastructure, and support tourism and 
recreational opportunities.
               noaa habitat conservation and restoration
(NOAA: ORF: NMFS: Habitat Conservation and Restoration)
    NOAA's Office of Habitat Conservation (OHC) protects, restores, and 
promotes stewardship of coastal and marine habitat to support our 
nation's fisheries and improves the resilience of coastal communities 
through financial support and the provision of restoration expertise 
and services. Funding for the Office of Habitat Conservation through 
the Habitat Conservation and Restoration PPA supports the Community-
based Restoration Program and staff capacity to efficiently execute and 
facilitate habitat restoration nationwide.
    NOAA's Community-based Restoration Program (CBRP), funds on-the-
ground projects to restore the Nation's coastal, marine, and migratory 
fish habitat while creating jobs and benefiting local economies. 
Habitat restoration is critical to sustaining and rebuilding fish 
populations needed to support sportfishing opportunities and the 
commercial fishing industry in the coming years. Furthermore, healthier 
habitats resulting from restoration increase community resilience by 
buffering against storms, protecting vital infrastructure, and 
providing new recreational opportunities. The CBRP provides scientific 
expertise, funding, and technical support to national, regional, and 
local conservation partners to restore coastal and marine habitat. This 
non-regulatory tool has helped build collaborations with more than 
2,500 organizations, from industry to nonprofits to local governments, 
and funded more than 2,000 projects that have restored over 81,000 
coastal acres. The program has engaged more than 258,000 project 
volunteers and generated more than $150 million in non-Federal match 
and in-kind contributions from project partners.
    We strongly urge the Committee to provide $68.4 million for Habitat 
Conservation and Restoration, including no less than $21.1 million for 
the Community-based Restoration Program. Funding at this level reflects 
an increase over fiscal year 2018 Omnibus level of funding due to 
increased demand and need for restoration activities to recover from 
last year's disastrous hurricane season and to improve the resiliency 
of our coasts as we face increasingly intense and frequent extreme 
weather.
               noaa coastal zone management and services
(NOAA: ORF: NOS: Ocean and Coastal Management and Services: Coastal 
        Zone Management and Services)
    The National Ocean Service Coastal Zone Management and Services 
line supports the Office for Coastal Management (OCM) and 
implementation of the Coastal Zone Management Program. The Coastal Zone 
Management Program comprehensively addresses the issues and challenges 
facing our Nation's coastlines through a voluntary partnership between 
State and Federal partners; 34 of the 35 eligible coastal States have 
elected to participate in the CZM Program. This funding provides States 
with access to resources to help preserve natural features that provide 
storm protection (dunes, barrier islands), protect wetlands and natural 
shorelines, provide opportunities for public access to the coast, and 
manage and curb nonpoint source pollution entering our waterways and 
coastal waters.
    We urge the Committee to provide $54 million for NOAA's Coastal 
Zone Management and Services line. This will allow the Coastal Zone 
Management Program to continue to effectively and efficiently protect, 
restore, and conserve our shorelines and coastal waters.
            noaa coastal management grants and title ix fund
(NOAA: ORF: NOS: Ocean and Coastal Management and Services: Coastal 
        Management Grants/Title IX Fund)
    The National Ocean Service's Coastal Management Grants provide 
critical funding for States to implement their coastal management 
programs. State Coastal Zone Management Programs, among other things, 
help to: plan and coordinate coastal restoration projects, mitigate 
coastal hazards like storms, flooding and erosion, conduct 
comprehensive ocean planning efforts, promote smart coastal community 
development, enhance public access to the coast, and coordinate 
stakeholder engagement to encourage better decisionmaking results. 
Additionally, there is significant State and local support for this 
program; in fiscal year 2016, the Federal funding was matched by more 
than $57.1 million from State and local governments, and others.
    Additionally, we are particularly supportive of the Regional 
Coastal Resilience Grants, now located in the Title IX Fund. These 
funds are directed to help interested communities improve resilience to 
extreme weather events, climate hazards, and changing ocean conditions 
by supporting collaborative partnerships that develop and use science-
based solutions to address coastal hazards. These diverse efforts, 
including risk assessment, development of strategic resilience plans, 
and implementation of comprehensive adaptation strategies will help 
ensure that coastal communities are prepared for and more easily 
recover from coastal hazards. In fiscal year 2016, NOAA received more 
than 130 proposals from coastal communities requesting more than $151 
million for coastal resilience projects, demonstrating an unmet need 
for resilience planning and tools and project implementation 
nationwide. We request that the same priorities of the Regional Coastal 
Resiliency Grants be reflected in the priorities for the Title IX Ocean 
Fund monies.
    Restore America's Estuaries urges the Committee to provide no less 
than $100 million for NOAA's Coastal Management Grants and no less than 
$40 million for the Title IX Ocean Fund. We request an increase of $10 
million for the Title IX Ocean Fund to work towards meeting the demand 
for these grant monies. We greatly appreciate the subcommittee's past 
strong support for habitat restoration and, in particular, the Coastal 
Ecosystem Resiliency Grants program, and respectfully request robust 
support in the fiscal year 2019 cycle.
            noaa national estuarine research reserve system
(NOAA: ORF: NOS: Ocean and Coastal Management and Services: National 
        Estuarine Research Reserve System)
    The National Estuarine Research Reserve System (NERRS) is comprised 
of 29 protected reserves that support long-term research, education, 
training, and monitoring. Through an effective partnership between NOAA 
and coastal States, NERRS plays a critical role in sustaining resilient 
coasts and coastal communities. The States have been entrusted to 
operate and manage NOAA's program in 24 States and Puerto Rico, where 
over 1.3 million acres of land and water are protected in perpetuity. 
Through scientific research and science-based management, NERRS 
provides numerous benefits to communities that result in improved water 
quality, increased upland flood and erosion control, and improved 
habitat quality that support local fisheries and provide storm 
protection to coastal communities. NERRS assists our coastal 
communities, industries and resource managers to enhance coastal 
resiliency in a changing environment. Through NERRS, NOAA can tailor 
science and management practices to enable local planners to use 
estuarine habitat as a tool for resilience and adaptation.
    Restore America's Estuaries respectfully requests $27 million for 
NERRS operations in fiscal year 2019. This funding level will allow 
NERRS to continue to deliver comprehensive environmental intelligence 
data and services to support coastal communities.
                               conclusion
    Restore America's Estuaries greatly appreciates the support this 
subcommittee has provided in the past for these important programs. 
These programs help to accomplish on-the-ground restoration work which 
results in major benefits:

  --Jobs.--Coastal habitat restoration projects create between 17-33 
        jobs per $1 million invested, more than twice as many jobs as 
        the oil and gas sector and road construction industries 
        combined.
  --More fish.--Traditional fisheries management tools alone are 
        inadequate. Fish need healthy and abundant habitat for 
        sustainable commercial and recreational fisheries.
  --Resiliency.--Restoring coastal wetlands knocks down storm waves and 
        reduces devastating storm surges before they reach the shore, 
        protecting lives, property, and vital infrastructure for the 
        nearly 40 percent of Americans that live in coastal 
        communities.
  --Leverage.--Community-based restoration projects leverage 3-5 times 
        the Federal investment through private matching funds, 
        amplifying the Federal investment and impact.

    Thank you for taking our requests into consideration as you move 
forward in the fiscal year 2019 appropriations process. We stand ready 
to work with you and your staff to ensure the health of our Nation's 
estuaries and coasts.

    [This statement was submitted by Jeffrey R. Benoit, President and 
CEO.]
                                 <greek-l>
                                 ______
                                 
               Prepared Statement of Schuman Daniel deg.
 Prepared Statement of Lydia Dennett, Project on Government Oversight, 
               and Daniel Schuman, Demand Progress Action
    The activities of foreign lobbyists, as collected and recorded by 
the Department of Justice (DOJ) under the Foreign Agents Registration 
Act (FARA), are the subject of sustained public and congressional 
interest. FARA is intended to provide transparency into how foreign 
governments attempt to influence U.S. policies on everything from 
foreign aid to multi-billion-dollar arms deals. But when the Department 
of Justice does not uncover when lobbyists for foreign governments fail 
to register or properly disclose their activities, the public and even 
Congress can be left in the dark about how our laws are shaped and 
influenced. We believe the agency's interpretation of the law must be 
publicly clarified so Congress can grapple with the underlying issues 
behind foreign lobbyist disclosure.
    To address these issues, we respectfully request that the Committee 
include the following provisions in its committee report language:

    1.  A request that FARA advisory opinions be provided to the 
Committee and the general public;
    2.  A request that the Department of Justice provide to the 
Committee and the general public its official guidance on how it 
interprets the law;
    3.  Additional items for inclusion in the National Security 
Division's strategic plan for enforcement of FARA, including a date for 
when that report must be completed and provided to the Committee and 
released to the public.

    We note the House of Representatives proposed an increase in 
funding in the fiscal year 2019 budget for the National Security 
Division to address improper foreign influence issues. We also 
acknowledge the House Appropriations Committee report language noting 
that the National Security Division is developing a strategic plan for 
FARA. While we believe this is a step in the right direction, we 
encourage this subcommittee to prompt the Justice Department to 
publicly clarify its interpretation of the law.
                            recommendations
1. Congressional and Public Access to FARA Advisory Opinions
    The Justice Department issues advisory opinions that describe the 
agency's ``present enforcement intentions'' concerning the Foreign 
Agents Registration Act. Specifically, the guidance concerns whether 
the law requires a present or prospective agent of a foreign principal 
to register or disclose information. A few summaries of these advisory 
opinions are published online. Unfortunately, the few publicly 
available advisory opinion summaries fail to provide clarity on the 
more nuanced aspects of the law.
    We recommend the Justice Department proactively publish the full 
advisory opinions except to the extent it would identify the requester. 
This is consistent with the suggestions of the DOJ Inspector General 
(IG) as well as a DOJ statement that it is willing to release certain 
reports pursuant to FOIA requests. This should not be burdensome since 
the FARA unit received only 14 requests for advisory opinions between 
2013 and 2016.
    In 2016, the DOJ IG recommended the Justice Department consider 
publishing advisory opinions online with personal information redacted. 
``We believe the FARA advisory opinions may be a worthwhile 
informational resource, and recommend [the Justice Department's 
National Security Division] consider whether there is value in making 
them publicly available,'' the report stated.
    The same year, the Justice Department stated it would release 
advisory opinions that have led to a FARA registration pursuant to 
Freedom of Information Act requests. However, FOIA requests are time-
consuming, and the agency should operate under a presumption of 
openness.
    Instead of requiring those interested to formally request these 
documents, the Justice Department should proactively post them online. 
Proactive disclosure is a best practice and a common one. For example, 
the DOJ has published advisory opinions to clarify its interpretation 
of the Foreign Corrupt Practices Act since 1993.

    We recommend the following report language:

        The National Security Division is requested to provide to the 
        Committee and publish online all Foreign Agent Registration Act 
        advisory opinions for individuals and entities that 
        subsequently registered or disclosed information under FARA, 
        subject to the redactions permissible under FOIA. In addition, 
        the NSD is requested to provide to the Committee and the public 
        all other advisory opinions after redacting information that 
        would identify potential registrants or otherwise would be 
        withheld under FOIA.
2. Clarify Registration Requirements Under FARA
    The Justice Department should release any existing official 
guidance on FARA that explains its interpretation of the law. There are 
significant portions of FARA that remain undefined or poorly worded, 
and disclosure of how the DOJ interprets the law would provide Congress 
and the public with greater understanding.

    For example:

  --FARA registrants are required to file with the Department any 
        ``informational materials'' they intend to send to two or more 
        people. We do not know how the Department interprets the phrase 
        ``informational materials.''
  --An agent of a foreign principal is defined as ``a person any of 
        whose activities are directly or indirectly supervised . . . in 
        major part by a foreign principal'' (emphasis added). We do not 
        know how the Department interprets the phrase ``in major 
        part.''
  --Lobbyists who are working solely on behalf of a foreign commercial 
        interest, rather than a foreign government or political party, 
        may register under the far less strict Lobbying Disclosure Act 
        and be exempt from FARA requirements. This exemption does not 
        apply if the ``principal beneficiary'' of the work is a foreign 
        government or political party.'' We do not know how the 
        Department interprets the phrase ``principal beneficiary.''

    We recommend the following report language:

        The National Security Division is requested to provide to the 
        Committee and publish online all official guidance currently in 
        effect that interprets or further defines terms used in the 
        Foreign Agents Registration Act.
3. The National Security Division's Strategic Plan
    The House report acknowledges that the National Security Division 
is drafting a strategic plan on FARA. However, the DOJ has been in 
perpetual review of FARA for more than a decade, which has had the 
effect of forestalling action. We believe you should establish a 
deadline by which the plan is to be released to the Committee and the 
public. In addition, the plan should include the following:

  --An assessment of whether the FARA unit should conduct a cost-
        benefit analysis of the fee structure to determine whether fee 
        requirements should be changed;
  --Whether civil fines should be available to the DOJ to increase 
        compliance; and
  --A plan to improve the FARA website so that it works properly in 
        accordance with recommendations made by civil society in this 
        letter.
                               conclusion
    Thank you for the opportunity to submit our testimony regarding 
FARA. We would welcome the opportunity to discuss this further. For 
more information, please contact Lydia Dennett at the Project On 
Government Oversight at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dab6bebfb4b4bfaeae9aaab5bdb5f4b5a8bdf4">[email&#160;protected]</a>
                                 ______
                                 
            Prepared Statement of the Sea Grant Association
    The National Sea Grant College Program (Sea Grant) is a joint 
Federal-State investment that supports the health and resilience of the 
Nation's coastal communities (including the Great Lakes, Gulf of 
Mexico, and communities on the Atlantic and Pacific coasts), yielding 
quantifiable economic, social, and environmental benefits at the 
national, regional, State, and local levels. It is a program of the 
National Oceanic and Atmospheric Administration, Department of 
Commerce.
    The Sea Grant Association recommends that the National Sea Grant 
College Program, including the Knauss Fellowship Program and Sea Grant 
STEM education activities, be funded at $85 million for fiscal year 
2019, an amount consistent with the total amount proposed for 
authorization in H.R. 4306 and S. 129 (which passed the Senate 
unanimously).
                  rationale for the sga recommendation
    According to the most recent completed census (2010), 39 percent of 
all Americans live in coastal and Great Lakes counties, and projections 
suggest that this will increase by another 8 percent by 2020. Our 
coastal communities generate 58 percent ($8.3 trillion) of the Nation's 
gross domestic product. In 2016, Americans, on average, ate 15 pounds 
of fish and shellfish per person--4.8 billion pounds altogether--making 
the U.S. second in the world in total seafood consumption. The United 
States is the leading global importer of fish and fishery products, 
with 91 percent of the seafood we eat originating abroad--half of which 
is from aquaculture. Driven by imports, the U.S. seafood trade deficit 
has grown to over $14 billion annually. Sea Grant's integration of 
research, outreach, and education is vital in creating and applying 
aquaculture products, tools, and services to foster the expansion of a 
sustainable U.S. marine and Great Lakes aquaculture industry.
    Tourism is a major economic driver in coastal States contributing 
over 2.2 million jobs and generating over $51 billion in wages. Sea 
Grant is at the forefront of research, education, and training programs 
to enhance the economic and environmental benefits of the tourism 
industry.
    The U.S. has jurisdiction over 3.4 million square miles of coastal 
ocean--an expanse greater than the land area of all 50 States combined. 
This is a dynamic area, with biologically diverse offshore habitats 
that provide a wealth of natural resources and economic opportunities, 
while at the same time exposing human and biological communities to 
coastal hazards such as storms and hurricanes, shifting shorelines, 
outbreaks of harmful algal blooms, and water-borne disease. Sea Grant 
researchers and educators address all of these issues.
    Sea Grant's response to the 2010 Gulf of Mexico Deepwater Horizon 
oil spill; Superstorm Sandy in 2012; Toledo, Ohio's, drinking water 
crisis in 2014; and this past year's Hurricanes Harvey, Irma, and Maria 
provide further evidence that, in addition to proactively addressing 
issues, Sea Grant is nimble and can quickly contribute to rebuilding 
coastal communities and businesses after disasters.
    Indeed, Sea Grant is a key partner in developing robust 
capabilities to sustain ocean-based economies; assisting the seafood 
sector of local economies; diversifying our energy sources; protecting 
critical ocean and coastal infrastructure and related natural 
resources; and training the next generation of scientists, managers, 
and stakeholders--all necessary components of a more resilient ocean, 
coastal, and Great Lakes enterprise.
  sea grant contributes quantifiable benefits and serves the national 
                                interest
    The National Sea Grant College Program (Sea Grant) is authorized in 
Public Law 89-688, the National Sea Grant College Program Act of 1966, 
as amended (33 USC Sec. 1121 et seq. Sea Grant). The Sea Grant College 
Program Act authorizes the awarding of grants and contracts to initiate 
and support programs at Sea Grant colleges and other institutions for 
research, education, and advisory services in any field related to the 
conservation and development of marine resources. A joint Federal, 
State, and local investment, Sea Grant provides solutions for the 
issues affecting our Nation's coastal communities (including the Great 
Lakes, Gulf of Mexico, and communities on the Atlantic and Pacific 
coasts), yielding quantifiable economic, social, and environmental 
benefits. Sea Grant embodies administration priorities that emphasize 
economic security, public-private partnerships, and workforce 
development.
    Sea Grant distributes 95 percent of its appropriated funds to 
coastal States through a competitive, merit-based process designed to 
address issues identified as critical by public and private sector 
constituents and coastal communities throughout the United States. Sea 
Grant fosters cost-effective partnerships among State universities, 
State and local governments, Federal agencies, and coastal communities 
and businesses, leveraging nearly $3 in cost sharing for every $1 
appropriated to Sea Grant by Congress.
    In 2016, the Sea Grant program helped generate an estimated $611 
million in economic impacts; created or sustained over 7,000 jobs; 
provided 33 State-level programs with funding that assisted 494 
communities with technical assistance on sustainable development 
practices; worked with about 1,300 industry and private sector, local, 
State, and regional partners; and supported the education and training 
of over 2,300 undergraduate and graduate students. The Sea Grant 
program achieved this with a congressional appropriation in fiscal year 
2016 of $73 million, which is leveraged with matching funds provided by 
States, universities, and other sources.
    For over 50 years, Sea Grant has been at the forefront of creating 
economic opportunities, enhancing food and water security, and reducing 
risks from natural hazards and extreme events facing coastal 
communities through research and outreach efforts. Sea Grant is user-
driven and university-based, and fully engaged with regional, State, 
and local organizations.
    Sea Grant represents the eyes and ears of NOAA in coastal 
communities, linking NOAA resources and expertise to the university 
enterprise to meet local needs and providing timely responses. The 
program addresses issues across NOAA line office jurisdictions, 
including weather, fisheries, climate, and coasts. Sea Grant helps 
connect local stakeholders with NOAA resources. The Sea Grant program 
is rigorously reviewed and evaluated using well-defined performance 
measures. The evaluation process highlights superior performance 
associated with high expectations and significant returns on the 
Federal investment.
    Funding Sea Grant results in support for sustainable fisheries and 
aquaculture, resilient communities and economies, healthy coastal 
ecosystems, environmental literacy, the Sea Grant Knauss Fellows and 
other fellowship programs, and workforce development. In its 50 plus-
year history, National Sea Grant College Program successes can be 
attributed to its ability to respond to the changing needs of our 
coastal communities. Sea Grant's 33 programs are integrated into both 
the National Sea Grant and NOAA's national strategic plans. Each 
tailored and therefore maximally effective State program executes the 
following objectives:

  --Sea Grant has capacity, breadth, and depth.--Sea Grant brings the 
        expertise of its vast network of universities, research 
        institutions, faculty, students, staff, and facilities, with 
        on-the-ground and in-the-field knowledge. This knowledge, 
        bolstered by established ties and credibility with communities 
        and community leaders, results in the conversion of science and 
        technology into practical use and informed decisionmaking.
  --Sea Grant facilitates opportunities.--Sea Grant engages partners, 
        stakeholders, and constituents through its nimbleness, capacity 
        for rapid response, and multifaceted ability to address 
        critical issues and needs facing the Nation.
  --Sea Grant is proactive.--Sea Grant has engaged in planning, 
        resilience, hazard preparedness and recovery, and participated 
        in the overall ``Blue Economy'' before the terms were 
        popularized in national programs. In 2016, the Sea Grant 
        network developed a 10-year aquaculture vision that outlines 
        the most pressing needs and opportunities to foster sustainable 
        aquaculture development across the country.
  --Sea Grant is there for its stakeholders.--The needs and desires of 
        the Nation's taxpayers who live, work, and play in coastal 
        America for products and services that Sea Grant provides are 
        rapidly increasing. This is because Sea Grant is recognized and 
        trusted for its ability to work with local constituents to 
        better understand their needs and deliver relevant information 
        and services.
                               conclusion
    Population density in coastal communities is increasing as people 
are attracted to the beauty, economic opportunities, and recreational 
activities offered by these localities. According to the most recent 
completed census (2010), 39 percent of all Americans live in coastal 
and Great Lakes counties, and projections suggest that this will 
increase by another 8 percent by 2020. In 2014, coastal and Great Lakes 
States comprised 57 percent of U.S. land area, but more than 82 percent 
of the population and economy. Sea Grant is helping coastal communities 
cope with the strain that population expansion places on local 
resources and the increased need for hazard preparedness planning. In 
recent years, coastal communities have experienced an increased risk to 
lives and property from storms and natural disasters. Weather events 
like hurricanes, tornadoes, and snowstorms have increased in number and 
intensity, posing threats to people, animals, livelihoods, and 
ecosystems. In cost-effective ways, Sea Grant is assisting States, 
regions, and local communities to improve both their preparedness for, 
and resilience to, challenges due to increased extremes and variability 
in weather and other natural disasters.
    The United States imports about 90 percent of its seafood, creating 
an annual seafood trade deficit exceeding $14 billion. With worldwide 
fish consumption projected to increase by 21 percent in the next 
decade, this our seafood deficit will continue to grow if sustained 
action is not taken. Through its research and extension activities, Sea 
Grant makes vital contributions towards the development of a U.S. 
aquaculture industry helping to make it competitive in the global 
marketplace while increasing food security.
    Local, State, regional, and national partnerships are critical to 
addressing these and other issues central to the survival of our 
coastal communities, economies, and ecosystems. Coastal and Great Lakes 
communities need to be informed, engaged, and prepared to respond to 
these threats and to turn these adversities into opportunities. This is 
precisely what Sea Grant does.
    For over 50 years, Sea Grant has been at the forefront of creating 
economic opportunities, enhancing food and water security, and reducing 
risks from natural hazards and extreme events facing coastal 
communities through research and outreach efforts. Sea Grant is user-
driven and university-based, and fully engaged with regional, State, 
and local organizations.
    With $85 million in Federal funding, Sea Grant will leverage 
significant State and local support, continue to increase the economic 
development and resiliency of coastal communities, and help sustain the 
health and productivity of the ecosystems on which they depend.

    [This statement was submitted by Dr. James Hurley, President, Sea 
Grant Association and Director, Wisconsin Sea Grant.]
                                 ______
                                 
   Prepared Statement of SEARCH, The National Consortium for Justice 
                       Information and Statistics
                              introduction
    Thank you, Mr. Chairman and members of the subcommittee, for the 
opportunity to submit testimony on the Department of Justice (DOJ) 
funding to be provided for in the fiscal year 2019 Commerce, Justice, 
Science, and Related Agencies appropriations bill. SEARCH recommends an 
appropriation of at least $75 million for the National Criminal History 
Improvement Program (NCHIP) and the National Instant Criminal 
Background Check System (NICS) Act Record Improvement Program (NARIP), 
which is the amount that was included in the 2018 Consolidated 
Appropriations Act.
    SEARCH, The National Consortium for Justice Information and 
Statistics (SEARCH), is a nonprofit membership organization created by 
and for the States. SEARCH's Governor-appointed, dues-paying Members 
from the States and Territories have the responsibility, among other 
things, to oversee both NCHIP and NARIP within their States.
    Over the years, States have made great strides in meeting their 
criminal history record improvement goals under both programs. Robust 
funding for these programs in prior years, as reflected in the fiscal 
year 2017 and fiscal year 2018 Commerce, Justice, Science and Related 
Agencies appropriations was welcomed by the States who use the funding 
to modernize and enhance operations and technology, and to more 
effectively share data for critical criminal justice and public safety 
decisions. NCHIP funding has helped States vastly improve the quality 
and completeness of criminal history records, and to make this 
information immediately available and broadly accessible nationwide. 
NARIP funding has significantly improved information for firearms 
eligibility determinations via the NICS system, including increasing 
mental health records availability to NICS by nearly 1600 percent.\1\
---------------------------------------------------------------------------
    \1\ https://www.ncjrs.gov/pdffiles1/bjs/grants/249793.pdf
---------------------------------------------------------------------------
    There is still work to be done to realize a truly complete and 
accurate national criminal history background check system. That system 
not only informs a variety of justice and public safety decisions, but 
also and increasingly critical noncriminal justice decisions, such as 
those regarding applicants for employment and licensing; volunteers who 
work with children, elderly and other vulnerable populations; and 
individuals purchasing firearms. It is important to recognize that 
information stored in State criminal history record repositories 
throughout the Nation and used for criminal justice decisionmaking 
(such as at arrest, prosecution, sentencing, and community 
supervision), is precisely the same information that is required for 
other public safety and noncriminal justice decisions (such as 
employment and licensing decisions and for firearms eligibility 
determinations).
    The States are leveraging prior congressional funding to engage in 
broad-scale initiatives and partnerships with other State agencies to 
improve and enhance criminal history record information collection and 
sharing. These partnerships between the criminal history repositories 
and State courts, corrections, prosecution and mental health agencies--
among others--have been stimulated through these substantive grant 
funding streams, which enable the development of enterprise solutions 
to address universal interagency information sharing challenges. 
Continued progress and substantive advances rely in no small measure on 
new funding in fiscal year 2019.
    SEARCH appreciates the subcommittee's recognition that while both 
NCHIP and NARIP focus on improvements to the efficiency, effectiveness, 
timeliness, and accuracy of criminal history record and associated data 
for decisionmaking purposes, each program emphasizes specific and 
distinct goals.
    NCHIP allows States to focus on a broad range of criminal history 
improvement activities that are unique and specific to each State. 
States have identified and prioritized the improvements needed in their 
systems to support critical decisionmaking at the State and national 
level for both criminal and civil decisions. Some of those priorities 
include improving arrest records, increasing disposition reporting, 
expanding conviction record availability in the Federal systems, and 
enhancing positive identification capabilities.
    Maine, for example, has used NCHIP funding to locate missing 
criminal history record dispositions or fingerprint-supported records, 
specifically focusing on improving felony, sex offender and domestic 
violence records. Connecticut has used NCHIP funding to migrate paper 
criminal history record dispositions into a searchable electronic 
format to improve the overall efficiency in searching disposition 
records and reducing the disposition backlog. South Carolina has used 
NCHIP funding to hire individuals to conduct training to ensure that 
records conform to FBI standards, add thousands of dispositions to the 
State's criminal history records repository, and process thousands of 
expungements.
    The flexibility of NCHIP funding allows States to enhance 
enterprise information sharing and data used to support a myriad of key 
decisions in the justice arena each and every day. For example, the 
lack of positive, biometric identification associated with criminal 
history records is often a major challenge. Kentucky used fiscal year 
2015 funding to develop a Court Fingerprint Notification application 
within its E-Warrants system. When an offender appears before a judge, 
the judge will be automatically notified if the offender's fingerprints 
are not on file, enabling the judge to order that fingerprints be 
taken, thereby supporting efforts to establish and verify identity with 
biometric precision. Michigan used NCHIP funding to create an 
instructional training video to provide local agencies with easily 
accessible information regarding the proper submission of fingerprints 
and criminal history record data.
    In contrast to NCHIP grant funding, NARIP funding focuses 
specifically on improving information sharing with NICS for firearms 
purchases. There are 10 categories established in Federal law that 
disqualify an individual from purchasing firearms. They include 
disqualifiers such as felony conviction information, fugitive from 
justice, domestic violence protection order, involuntary commitment to 
mental health institution, etc.
    Nearly 90 percent of the records used to make these disqualifying 
decisions are based on the information that States provide to NICS.\2\ 
That information comes from three key sources: the Interstate 
Identification Index (III--the national system for exchanging criminal 
record information), the National Crime Information Center (NCIC--an 
automated, nationally accessible database of crime data, criminal 
justice and justice-related records, including wanted persons and 
protection orders) and the NICS Indices (created for presale background 
checks of firearms purchase). Any efforts States undertake to improve 
the information contribution to any of these databases enhance the 
effectiveness of firearms eligibility decisionmaking.
---------------------------------------------------------------------------
    \2\ FBI Criminal Justice Information Services III Statistics, 
February 1, 2013.
---------------------------------------------------------------------------
    NARIP grants allow States to improve information made available to 
NICS, such as increasing the number of disqualifying mental health 
records into the NICS Indices and domestic violence orders of 
protection into the NCIC. Such targeted funding assists States in 
meeting the challenges specifically associated with getting information 
to the system. As valuable as the program is, however, NARIP funds are 
only available to 31 States at this point, since not all States qualify 
for the funding.\3\
---------------------------------------------------------------------------
    \3\ NARIP has two main requirements: States must (1) establish a 
process where those adjudicated as ``mentally defective'' can seek to 
reinstate their right to purchase a firearm, and (2) comply with a 
process to estimate the number of NICS disqualifying records they 
maintain. Only 31 States have met requirement #1.
---------------------------------------------------------------------------
    States that do qualify for NARIP funding can target information 
sharing efforts to improve their contributions to NICS. For example, 
NARIP grant funds have significantly improved the records that New York 
State makes available to the NICS Indices. New York State can now 
efficiently transmit records of mental health involuntary admissions 
and civil guardianships to NICS. New York State also collects and 
reports Misdemeanor Crimes of Domestic Violence (MCDV) convictions to 
NICS so that vulnerable spouses, children and intimate partners are 
further protected. Nebraska has utilized NARIP funding to develop a 
Protection Order Portal that enables local law enforcement to 
efficiently enter protection orders into NCIC, making them available 
for NICS checks.
    SEARCH makes three key recommendations regarding NCHIP and NARIP 
funding:
1. Support NCHIP funding for improvements to State criminal history 
        record information to robustly support criminal and civil 
        decisionmaking nationwide.
    The NCHIP program has been successful in helping States improve the 
accuracy, reliability and completeness of their automated criminal 
history record systems. Meaningful NCHIP funding will more broadly 
improve the Nation's criminal justice information sharing backbone. 
Moreover, the Federal investment can be leveraged many times over by 
contributing to the ability of State and local criminal justice 
agencies to provide timely, accurate and compatible information to 
Federal programs, such as the III. And, importantly, all States qualify 
for funding under NCHIP.
    NCHIP funding since fiscal year 2014 has reinvigorated an important 
and timely program. Because State criminal history records are the 
principal source for the FBI's III database, any constraints on the 
States weakens the ability of many State and Federal programs to 
identify threats and keep our Nation safe.
2. Continue to invest in improving background screening for firearms 
        purchases.
    We urge Congress to continue the investment in the Federal-State 
criminal background screening partnership that comprises NICS. NICS is 
a critical tool in the fight against gun violence, and the States and 
FBI rely on NICS every day for informed decisionmaking on firearms 
transactions.
    There are still many opportunities for improving the timeliness and 
availability of information to NICS. Millions of records related to 
felony convictions, cases under indictment or information, fugitives 
from justice and drug abusers--all NICS disqualifying categories--
remain open and unavailable to NICS. While States have made significant 
strides in making mental health records available to NICS, many States 
need continued support to target information sharing in the other 
prohibitor categories to further improve their information sharing to 
NICS.
3. Provide an appropriation of $75 million for NCHIP and NARIP.
    Providing at least level funding for NCHIP and NARIP in fiscal year 
2019 will allow States to utilize these programs to improve their 
criminal history records in support of general criminal justice and 
civil decisionmaking, as well as improvements to background screening 
for firearms purchases.
                               conclusion
    SEARCH thanks the Chairman and Members of the subcommittee for 
their steadfast support of these programs in the face of daunting 
budget challenges. Given the critical importance of criminal history 
record information for a broad spectrum of decisions that keep our 
citizens safe from predators, terrorists and other criminals, it is a 
worthwhile and needed investment. The accuracy, completeness and 
reliability of the Nation's criminal history record system is more 
important than ever before, for criminal investigations, officer 
safety, sentencing and other criminal justice purposes; for expungement 
and other reentry strategies; for homeland security and anti-terrorism 
purposes; for public noncriminal justice purposes, such as licensing 
and employment suitability and firearms purchases; and for research 
that provides critical guidance in shaping law and policy.
    SEARCH encourages Congress to allow States to tailor their use of 
NARIP and NCHIP funding to address the specific challenges each State 
faces, as the examples discussed earlier clearly illustrate, in making 
more records available to the national system.
    On behalf of SEARCH's Governor-appointees, and the thousands of 
criminal justice officials who benefit from SEARCH's efforts, I thank 
you for your consideration.

    [This statement was submitted by David J. Roberts, Executive 
Director.]
                                 ______
                                 
     Prepared Statement of the Smart Approaches to Marijuana (SAM)
       marijuana industry protection in the fiscal year 2019 cjs 
                           appropriations act
    Thank you, Chairman Moran and Ranking Member Shaheen for the 
opportunity to submit testimony about proposed language to protect the 
marijuana industry from Federal enforcement by the Department of 
Justice in the Fiscal Year 2019 CJS Appropriations Act. I represent 
Smart Approaches to Marijuana (SAM), the leading non-partisan national 
organization offering a science-based approach to marijuana policy.
    Expanded marijuana use appears to be exacerbating the opioid 
crisis. In a study of 34,000 individuals, marijuana users were 
discovered to be more than two times as likely to abuse prescription 
opioids or initiate non-prescription use of opioids.\i\ This is in 
stark contrast to several population studies that claim marijuana 
legalization is correlated with reduced opioid deaths. These population 
studies suffer from the ecological fallacy and fail to properly account 
for concurrent actions taken to reduce mortality.\ii\ Tragically, more 
Coloradans died from drug overdoses in 2017 than in any year in the 
State's history, as overdose deaths in all categories rose.\iii\
---------------------------------------------------------------------------
    \i\ https://www.drugabuse.gov/news-events/news-releases/2017/09/
marijuana-use-associated-
increased-risk-prescription-opioid-misuse-use-disorders
    \ii\ Hall, et. al. It is premature to expand access to medicinal 
cannabis in hopes of solving the US opioid crisis. Addiction. 22 Feb. 
2018.
    \iii\ https://www.denverpost.com/2018/04/04/colorado-drug-
overdoses-opioid-deaths-hit-high/
---------------------------------------------------------------------------
    Accordingly, SAM requests the absence of medical marijuana language 
in the Fiscal Year 2019 Commerce, Justice, Science, and Related 
Agencies Appropriations Act. In previous years, this language has 
stated:

        None of the funds made available in this Act to the Department 
        of Justice may be used, with respect to any of the States of 
        Alabama, Alaska, Arizona, Arkansas, California, Colorado, 
        Connecticut, Delaware, Florida, Georgia, Hawaii, Illinois, 
        Indiana, Iowa, Kentucky, Louisiana, Maine, Maryland, 
        Massachusetts, Michigan, Minnesota, Mississippi, Missouri, 
        Montana, Nevada, New Hampshire, New Jersey, New Mexico, New 
        York, North Carolina, North Dakota, Ohio, Oklahoma, Oregon, 
        Pennsylvania, Rhode Island, South Carolina, Tennessee, Texas, 
        Utah, Vermont, Virginia, Washington, West Virginia, Wisconsin, 
        and Wyoming, or with respect to the District of Columbia, Guam, 
        or Puerto Rico, to prevent any of them from implementing their 
        own laws that authorize the use, distribution, possession, or 
        cultivation of medical marijuana.

    Both the fiscal year 2016 and 2017 budgets submitted by President 
Obama and the fiscal year 2018 and 2019 budgets submitted by President 
Trump requested the removal of this language.
    Rather than change the law--which is in Congress's power to do--the 
medical marijuana language merely refuses to enforce the law. In this 
sense, the medical marijuana language inhibits the President from 
taking care that the laws be faithfully executed.
    Several other considerations also strengthen the case for removal 
of the medical marijuana language, as follows.
               a. marijuana is not a states' rights issue
    Ultimately, those who argue that the commercial sale of marijuana 
is a States' rights issue are arguing one of two things: either the 
entire Controlled Substances Act (CSA) is unconstitutional, or 
marijuana is completely harmless and should be removed from scheduling 
under the CSA completely. Both arguments are incorrect.
1. All justices in Gonzalez v. Raich recognize the constitutionality of 
        CSA
    The Supreme Court answered the most fundamental questions about the 
ability of Congress to preempt State law and ban the growing, 
distribution, and sale of marijuana in the 2005 case of Gonzales v. 
Raich. Raich's attorneys argued that Congress did not have the power to 
regulate her growing of marijuana plants under the Interstate Commerce 
Clause. The Supreme Court ruled 6-3 against her that Congress could 
indeed ban marijuana, even for personal use under State medical 
marijuana programs. As Justice Scalia stated in his concurring opinion, 
``In the CSA, Congress has undertaken to extinguish the interstate 
market in Schedule I controlled substances, including marijuana. The 
Commerce Clause unquestionably permits this.'' \iv\ The Supreme Court 
has interpreted the Controlled Substances Act (CSA) to apply to all 
facets of marijuana cultivation and distribution. Even in the dissents 
to the Raich case, the justices acknowledged the constitutionality of 
the CSA when it applies to the commercial sale of marijuana-something 
that was not at issue in that case but constitutes an integral part of 
present-day marijuana legalization programs.
---------------------------------------------------------------------------
    \iv\ Gonzales v. Raich (2005).
---------------------------------------------------------------------------
2. Current science argues against removing marijuana from CSA
    Current medical literature and statistical surveys are clear: 
marijuana is a drug of abuse, is physiologically and psychologically 
addictive, and causes clear negative effects in both individuals and 
society. Regular use of marijuana can cause permanent changes in the 
brain, increasing the mass of the nucleus accumbens (reward center),\v\ 
similar to the effect of other addictive drugs. Cessation of use may 
result in physical withdrawal symptoms, including cravings, decreased 
appetite, sleep difficulty, and irritability.\vi\ Surveys show that 
regular marijuana users report more severe consequences than alcohol in 
most categories, including serious problems at work or school, taking 
time away from work or school, causing problems with family or friends, 
or spending a lot of time getting/using drugs.\vii\ Drugged driving 
fatalities have markedly increased in States which have legalized 
marijuana, posing a hazard to the general public.\viii\ The current 
body of evidence strongly reinforces current classification of 
marijuana as a controlled substance under the Controlled Substances 
Act, particularly with respect to modern, high-potency marijuana and 
extracts.
---------------------------------------------------------------------------
    \v\ Gilman, et al., Cannabis Use Is Quantitatively Associated with 
Nucleus Accumbens and Amygdala Abnormalities in Young Adult 
Recreational Users, Journal of Neuroscience. 16 April 2014, 34 
(16):5529-5538.
    \vi\ Gorelick DA, Levin KH, Copersino ML, et al. Diagnostic 
Criteria for Cannabis Withdrawal Syndrome. Drug Alcohol Depend. 
2012;123(1-3):141-147.
    \vii\ Caulkins, Johnathan P., The Real Dangers of Marijuana. 
National Affairs. Winter 2016 (30).
    \viii\ AAA Foundation for Traffic Safety. Prevalence of Marijuana 
Involvement in Fatal Crashes: Washington, 2010-2014. May 2016. Web. 23 
Oct. 2016.
---------------------------------------------------------------------------
  b. existing state medical marijuana programs are a failed experiment
1. Medical marijuana States are hubs for black market activity
    A recent report by the Oregon State Police reveals that: Oregon is 
producing three to five times the amount of marijuana than can be 
consumed in State; 70 percent of the sales of marijuana are occurring 
in the black market; marijuana is being diverted out of State as far as 
Florida and even internationally; and the counties with the highest 
rates of out of State diversion also have the most medical marijuana 
grower and dispensary registrants.\ix\ Colorado's marijuana program has 
similarly been abused. The State initially allowed cultivation of up to 
99 marijuana plants at home, which resulted in both drug cartels and 
domestic drug dealers hiding in plain sight, shipping product out of 
State to more lucrative illegal markets. While the State has recently 
reduced the number of allowed plants, police are so inundated with 
reports of illegal grows that they can only track down a fraction of 
the tips they get.\x\ As Colorado Attorney General Cynthia Coffman has 
said, ``The criminals are still selling on the black market. . . . We 
have plenty of cartel activity in Colorado [and] plenty of illegal 
activity that has not decreased at all.'' \xi\
---------------------------------------------------------------------------
    \ix\ Oregon State Police. A Baseline Evaluation of Cannabis 
Enforcement Priorities in Oregon. January 2017.
    \x\ ``Police left buried under a mountain of marijuana and red tape 
as weed laws change.'' Colorado Springs Independent, 07 June 2017. Web. 
11 April 2016.
    \xi\ ``Special report, 'Clearing the haze:' Black market is 
thriving in Colorado.'' Colorado Springs Gazette, 20 Mar. 2015. Web. 21 
Oct. 2016.
---------------------------------------------------------------------------
2. Medical marijuana programs devolve into de facto legalization
    Because of the wide variety of conditions medical marijuana is 
authorized to treat, and a number of unscrupulous doctors who are 
willing to recommend marijuana, anyone who wants medical marijuana can 
get it in many States. Marijuana is recommended to ``treat'' conditions 
as diverse as insomnia, headaches, writer's cramp, and anxiety. A 2017 
survey of Oregon's medical marijuana program showed that just 1.5 
percent of participating physicians (26 out of 1,715) were responsible 
for over 75 percent of the medical marijuana card applications (47,354 
out of 62,903).\xii\ Other surveys have revealed that under 5 percent 
of the holders of medical marijuana cards have cancer; instead, the 
average medical marijuana patient is a 32-year old white male with no 
history of life-threatening disease and a history of drug and alcohol 
abuse.\xiii\ Easy medical marijuana access is often publicly advertised 
on billboards or signs, with the most commonly cited example being the 
``Dr. Reefer'' billboard in Las Vegas, Nevada.
---------------------------------------------------------------------------
    \xii\ Oregon Health Authority. Oregon Medical Marijuana Program: 
Statistical Snapshot. April 2017.
    \xiii\ O'Connell, T. et al. Long Term Marijuana Users Seeking 
Medical Cannabis in California (2001-2007): Demographics, Social 
Characteristics, Patterns of Cannabis and Other Drug Use of 4117 
Applicants. Harm Reduction Journal. 2007 4:16. Nunberg, H. et al. An 
Analysis of Applicants Presenting to a Medical Marijuana Specialty 
Practice in California. Journal of Drug Policy Analysis. Feb 2011; 
4(1): 1.
---------------------------------------------------------------------------
  c. legitimate, fda-approved medications derived from the marijuana 
         plant help people more than unregulated state programs
1. Existing law can be improved to research medications without 
        rescheduling marijuana
    It is possible under existing law to research medications that can 
be derived from the marijuana plant. In fact, several such medications 
already exist. Marinol is a synthesized form of THC and is a Schedule 
III drug which is used to stimulate appetite in cancer and AIDS 
patients. Sativex is an oral spray with isolated cannabinoids used to 
treat spasticity in MS patients. Epidiolex is an isolated CBD oil 
medication that is in the final stage of FDA approval for treating 
severe seizures in children. This purified CBD medication has been 
tested for safety and drug interactions, with over 1,100 families 
accessing the medication through FDA's Early Access Program for their 
suffering children. The FDA voted unanimously for preliminary approval 
of the drug on April 19, 2018, and final approval is expected in June 
of 2018.
2. Despite State regulations, existing products sold under State 
        marijuana laws are dangerously undosed, unlabeled, and 
        unstandardized, placing people at risk
    While purified, high-dose CBD oil is showing tremendous promise in 
clinical trials in treating childhood epilepsy, many unscrupulous 
dispensaries and manufacturers have taken advantage of desperate 
families to sell them untested products. When the FDA has performed 
tests on many of these products, they found some that were very low in 
CBD content and high in THC content. Others were contaminated with 
mold. Some contained no detectable levels of the active ingredient 
advertised on their labels. These products were very dangerous for use, 
and the FDA sent cease and desist letters to these bad actors.\xiv\
---------------------------------------------------------------------------
    \xiv\ FDA News Release. ``2016 Warning Letters and Test Results for 
Cannabidiol-Related Products.'' Web. 27 April 2017.
---------------------------------------------------------------------------
3. Rescheduling marijuana does not increase research or access to 
        treatments
    In the case of marijuana, rescheduling the drug to Schedule II or 
lower would immediately trigger requirements that the FDA regulate the 
safety and efficacy of the drug. Because the marijuana industry has 
realized that whole plant marijuana is unlikely to ever pass through 
FDA trials since it cannot be dosed or standardized, they no longer 
argue for rescheduling the drug. Rescheduling would also not 
effectively reduce barriers to research, as researchers for Schedule II 
drugs face nearly all of the same requirements and restrictions as 
those who research Schedule I drugs.
4. Congress can easily facilitate additional, legitimate research 
        through proposed legislation
    Much more research is needed, and Congress could reduce some of the 
barriers to research without rescheduling marijuana. H.R. 3391 
[115th]--the Medical Marijuana Research Act by Congressman Andy Harris 
(MD-1) and S. 1803/H.R. 4825 [115th]--the MEDS Act by Senator Orrin 
Hatch (R-UT)/Congressman Rob Bishop (UT-1) would accomplish that goal. 
Senators Feinstein (D-CA) and Grassley (R-IA) have introduced similar 
marijuana research legislation.
                             d. conclusion
    In summary, SAM asks that you refrain from adding marijuana-related 
language to the fiscal year 2019 CJS Commerce, Justice, Science, and 
Related Agencies Act. ``Medical marijuana'' does not meet the 
definition of medicine; it has not been through clinical trials and has 
no standardized, prescribed dose. Instead, as the recent Oregon State 
Police report shows, medical marijuana legalization has provided cover 
for illicit, black market activity. The experiment has failed. The 
Department of Justice should be able to enforce the law when States 
have failed to do so.

    [This statement was submitted by Kevin A. Sabet, President and 
CEO.]
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                              Mathematics
    Summary: This written testimony is submitted on behalf of the 
Society for Industrial and Applied Mathematics (SIAM) to ask you to 
continue your support of the National Science Foundation (NSF) in 
fiscal year 2019 by providing NSF with $8.45 billion to advance both 
core research areas and NSF's Big Ideas for Future Investment. These 
Big Ideas would dramatically propel interdisciplinary research forward 
while revolutionizing quantum communications, medicine, and other 
areas. In particular, we urge you to provide strong support for the 
Research and Related Activities Account (RRA) that supports key applied 
mathematics and computational science programs in the Division of 
Mathematical Sciences and the Office of Advanced Cyberinfrastructure.
    Full Statement: On behalf of SIAM, I am submitting this written 
testimony for the record to the subcommittee on Commerce, Justice, 
Science, and Related Agencies of the Committee on Appropriations of the 
U.S. Senate.
    SIAM has over 14,000 members, including applied and computational 
mathematicians, computer scientists, numerical analysts, engineers, 
statisticians, and mathematics educators. They work in industrial and 
service organizations, universities, colleges, and government agencies 
and laboratories all over the world. In addition, SIAM has almost 500 
institutional members, including colleges, universities, corporations, 
and research organizations. SIAM members come from many different 
disciplines but have a common interest in applying mathematics in 
partnership with computational science to solve real-world problems, 
which affect national security and industrial competitiveness.
    First, we would like to emphasize how much SIAM appreciates your 
Committee's continued leadership on and recognition of the critical 
role of the National Science Foundation (NSF) and its support for 
mathematics, science, and engineering in enabling a strong U.S. 
economy, workforce, and society.
    Today, we submit this testimony to ask you to continue your support 
of NSF in fiscal year 2019 and beyond. In particular, we join with the 
research and higher education community and request that you provide 
NSF with $8.45 billion in funding for fiscal year 2019. After several 
years of flat funding before fiscal year 2018, NSF needs growth to 
ensure U.S. competitiveness as countries such as China are rapidly 
increasing their science and engineering investments.
    As we are reminded every day, the Nation's economic strength, 
national security, and welfare are being challenged in profound and 
unprecedented ways. Many of these challenges are fueled by gaps in our 
understanding of complex systems such as cyberspace, terrorist 
networks, the human brain, or the energy grid. Mathematics and 
computational science play a foundational and cross-cutting role in 
understanding these systems through advanced modeling and simulation, 
developing techniques essential to designing new breakthrough 
technologies, and providing new tools for managing resources and 
logistics. Progress in computational sciences and applied mathematics 
also underpins advances across an array of fields and challenges in 
computing, materials, biology, engineering, and many other areas.
                      national science foundation
    NSF serves a unique and critical function supporting all areas of 
science and engineering to further innovation and seed the knowledge 
and technologies for a strong future America. NSF provides essential 
Federal support for applied mathematics and computational science, 
including 64 percent of all Federal support for basic academic research 
in the mathematical sciences. Of particular importance to SIAM, NSF 
funding supports the development of new mathematical models and 
computational algorithms, which are critical to making substantial 
advances in such fields as neuroscience, energy technologies, genomics, 
and nanotechnology. In addition, new techniques developed in 
mathematics and computing research often have direct application in 
industry. Modern life as we know it--from search engines like Google to 
the design of modern aircraft, from financial markets to medical 
imaging--would not be possible without the techniques developed by 
mathematicians and computational scientists. NSF also supports 
mathematics education at all levels, ensuring that the next generation 
of the U.S. workforce is appropriately trained to participate in 
cutting-edge technological sectors and that students are attracted to 
careers in mathematics and computing.
    SIAM supports the administration's proposal to increase funding for 
the 10 Big Ideas for Future Investment, which represent major 
scientific challenges where sustained investment can make a 
transformative difference. In particular, SIAM urges support for the 
Harnessing the Data Revolution, Understanding the Rules of Life, and 
Quantum Leap Big Ideas, which each have revolutionary potential. SIAM 
applauds NSF's recently established programs in these areas, such as 
the Transdisciplinary Research on Principles of Data Science (TRIPODS) 
Institutes and the NSF-Simons Research Centers for Mathematics of 
Complex Biological Systems.
    SIAM urges strong investment in the Research and Related Activities 
account (RRA) to enable support for the Division of Mathematical 
Sciences (DMS), the Office of Advanced Cyberinfrastructure (OAC), and 
other core programs in addition to the Big Ideas. This funding would 
enable critical support for essential mathematical and computational 
science research, workforce development programs, and early career 
researchers.
                 nsf division of mathematical sciences
    The NSF Division of Mathematical Sciences (DMS) in the Directorate 
for Mathematical and Physical Sciences (MPS) provides the core support 
for all mathematical sciences. DMS supports areas such as algebra, 
applied and computational mathematics, foundations, geometry, 
mathematical biology, probability, statistics, and topology. In 
addition, DMS supports national mathematical science research 
institutes; infrastructure, including workshops, conferences, and 
equipment; and postdoctoral, graduate, and undergraduate training 
opportunities.
    The activities supported by DMS and performed by SIAM members, such 
as modeling, analysis, algorithms, and simulation, underpin 
advancements across science and engineering and provide new ways of 
obtaining insight into the nature of complex phenomena, such as the 
power grid, software for military applications, and the human body.
    Investment in DMS is critical because of the foundational and 
cross-cutting role that mathematics and computational science play in 
sustaining the Nation's economic competitiveness and national security, 
and in making substantial advances on societal challenges such as 
energy and public health. NSF, with its support of a broad range of 
scientific areas, plays an important role in bringing U.S. expertise 
together in interdisciplinary initiatives that bear on these 
challenges. DMS plays a central role in cross-NSF efforts, with 
programs supporting the interface of mathematics with a variety of 
other fields. Other agencies rely on NSF research to advance their 
missions, and both agencies and foundations partner with NSF thereby 
leveraging Federal funding for maximum impact, such as with the Joint 
NSF/National Institutes of Health Initiative Quantitative Approaches to 
Biomedical Big Data (QuBBD).
               nsf office of advanced cyberinfrastructure
    Work in applied mathematics and computational science is critical 
to enabling effective use of the rapid advances in information 
technology and cyberinfrastructure. Programs in the NSF Office of 
Advanced Cyberinfrastructure (OAC) in the Directorate for Computer and 
Information Science and Engineering (CISE) focus on providing research 
communities access to advanced computing capabilities to convert data 
to knowledge and increase our understanding through computational 
simulation and prediction.
    SIAM strongly endorses OAC's efforts to continue as a steward for 
computational science, building bridges across NSF to accelerate 
transformational science and engineering, and driving universities to 
improve their research and education programs in this multidisciplinary 
area.
    The programs in OAC that support work on software and applications 
for the next generation of supercomputers and other cyberinfrastructure 
systems are critically important to enabling effective use of advances 
in hardware, facilitating applications that tackle key scientific 
questions, and to improving our understanding of increasingly complex 
software systems.
    SIAM strongly endorses NSF's role advancing high performance 
computing to position the Nation to meet critical national security 
needs, fully leverage computing technology for economic competitiveness 
and scientific discovery, and position the U.S. for sustained technical 
leadership.
        supporting the pipeline of mathematicians and scientists
    SIAM is concerned by proposals in the budget request to cut support 
for the Graduate Research Fellowships and CAREER awards. These programs 
are crucial to the training and professional development of the next 
generation of leadership in mathematical sciences research and 
education as well as many other disciplines. Congress should provide 
sufficient NSF funding to ensure continued support for these programs. 
SIAM also supports Improving Undergraduate STEM Education (IUSE), which 
is essential for advancing STEM professional development as well as 
developing a STEM literate citizenry. SIAM notes that mathematical 
education is foundational to STEM learning across disciplines and NSF 
should continue to fund development of mathematical and computational 
skills, including at the undergraduate level when young scientists and 
engineers gain critical interests and competencies.
                               conclusion
    We would like to thank you again for your ongoing support of NSF 
that enables the research and education communities it supports, 
including thousands of SIAM members, to undertake activities that 
contribute to U.S. health, security, and economic strength. NSF needs 
sustained growth to maintain our competitive edge in science and 
technology, and therefore we respectfully ask that you continue robust 
support of these critical programs in fiscal year 2019.
    We appreciate the opportunity to provide testimony to the Committee 
on behalf of SIAM. SIAM looks forward to providing any additional 
information or assistance you may ask of us during the fiscal year 2019 
appropriations process.

    [This statement was submitted by Dr. C. David Levermore, Vice 
President for Science Policy.]
                                 ______
                                 
  Prepared Statement of the Society for Industrial and Organizational 
                               Psychology
    On behalf of the Society for Industrial and Organizational 
Psychology (SIOP), we are pleased to provide this written testimony to 
the Senate Appropriations Subcommittee on Commerce, Justice, and 
Science, and Related Agencies for the official record. SIOP urges the 
subcommittee to provide $8.45 billion for the National Science 
Foundation (NSF), including strong support for the Directorate for 
Social, Behavioral, and Economic Sciences (SBE), in the fiscal year 
2019 appropriations process.
    SIOP and its members recognize and appreciate the challenging 
fiscal environment in which we, as a Nation, currently find ourselves; 
however, we also have evidence that Federal investment in social and 
behavioral science research directly and positively impacts the U.S. 
economy, national security, and the health and well-being of Americans.
    Through SBE, NSF supports basic research to develop a scientific 
evidence base for improving the performance, effectiveness, management, 
and development of organizations and the workforce. The methods, 
measurements, and theories developed through this Federal investment 
enhance business practices, policy-making, and interprofessional 
collaboration. The evidence base derived from basic research in the 
science of organizations is applied throughout the public and private 
sectors. For example, Federal research agencies across the government, 
including the Department of Defense (DoD), National Aeronautics and 
Space Administration (NASA), the Department of Justice (DOJ), NSF, etc. 
invest in I-O research that enhances organizational effectiveness and 
human performance. Findings from that work also improve the 
effectiveness of the private sector and Federal workforces.
    Additionally, new pressures to address privacy, performance, and 
safety in the workplace have further expanded the need for Federal 
investment in social and behavioral science research, especially in 
industrial and organizational (I-O) psychology, emphasizing the 
importance of the entire work system in addition to the individual. 
Cybersecurity threats, challenging economic circumstances, subtle and 
formal discrimination, talent shortages in technical jobs, and a host 
of other recent events and conditions have catalyzed the development 
and application of new methodologies for studying how people think and 
behave in the workplace.
    SIOP also supports NSF's dedication to its ``10 Big Ideas,'' \1\ 
including Work at the Human-Technology Frontier, which seeks to address 
and improve human-technology interactions as workplaces integrate and 
adapt to artificial intelligence, automation, machine learning, and 
beyond. In addition to developing these technologies, successful 
implementation relies on understanding human learning at various stages 
of life, and improving education and training to appropriately use 
these technologies.
---------------------------------------------------------------------------
    \1\ National Science Foundation-proposed ``10 Big Ideas" (https://
www.nsf.gov/about/congress/
reports/nsf_big_ideas.pdf?dm_i=1ZJN,4FGWL,E29O0Q,GB891,1)
---------------------------------------------------------------------------
    With funding assistance from NSF and other Federal agencies, the 
field of I-O psychology has developed data-driven methods to predict 
successful teams, address workplace dysfunction, improve the work 
experience of individuals, and enhance job performance and employee 
engagement. Use of this rich knowledge and understanding has informed 
and benefitted both private companies and the public workforce. 
Continued Federal support for I-O psychology keeps its knowledge and 
expertise in the public domain and enhances shared workplace efficiency 
and understanding of worker well-being at all levels. Other 
applications of I-O psychology include: improving airline safety 
through Crew Resource Management, transitioning veterans and service 
members to civilian jobs, managing age diversity in the workplace, and 
mitigating the impact of furloughs on the Federal workforce, among many 
others.
    SIOP is a community of nearly 10,000 members worldwide with a 
common interest in promoting the research, practice, and teaching of I-
O psychology to enhance human well-being and performance in 
organizational and work settings. SIOP provides a platform for 
scientists, academics, consultants, and practitioners to collaborate, 
implement, and evaluate cutting-edge approaches to workplace challenges 
across sectors.
    Given NSF's critical role in supporting fundamental research and 
education across science and engineering disciplines, SIOP supports an 
overall fiscal year 2019 NSF budget of $8.45 billion. SIOP requests 
robust support for the NSF SBE Directorate, which funds important 
research studies, enabling an evidence base, methodology, and 
measurements for improving organizational function, performance, and 
design across sectors and disciplines.
    Thank you for the opportunity to offer SIOP's support for NSF. 
Please do not hesitate to contact SIOP should you have any questions. 
Additional information is also available at www.siop.org.

    [This statement was submitted by Dr. Fred Oswald, President, and 
Jeff Hughes, Executive Director.]
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience
    Mr. Chairman and Members of the subcommittee, I am Richard Huganir, 
President of the Society for Neuroscience (SfN), and it is my honor to 
present this testimony on behalf of the Society in support of increased 
funding for the National Science Foundation (NSF) for fiscal year 2019. 
As a professor at, and the director of, The Solomon H. Snyder 
Department of Neuroscience at Johns Hopkins University, I understand 
the importance of Federal funding for neuroscience research. I am 
offering this testimony in my capacity as President of SfN, an 
association of nearly 36,000 neuroscientists from all 50 States and 
around the world. Our members stand with the broader scientific 
community in requesting $8.45 billion for NSF in fiscal year 2019, 
which will continue to build our understanding of the most basic brain 
functions, allowing for further discovery. We also urge the committee 
to complete their appropriations work in advance of the September 30 
deadline, to provide certainty to scientists that rely on Federal 
funding to support their work.
    NSF research significantly impacts scientific discoveries--
exhibited by the fact that since 1952, 217 Nobel Prize recipients have 
received NSF funding. Providing robust funding for NSF allows for the 
investments needed in basic science to bring about the next 
breakthroughs in the health, education, and well-being for Americans. 
Supporting NSF is critical to continue broad scientific advancements, 
and increasing NSF's budget specifically allows for the development of 
new tools and technologies to advance neuroscience. As the incidence of 
brain diseases and disorders continues to grow, our ability to diagnose 
and treat disease becomes ever more critical. The basic science funded 
by NSF serve as the foundation for some of our most significant 
scientific advances. Advancements in our understanding of the brain and 
nervous system rely on continued discoveries and development of the 
tools that will allow us to observe the most ``complex biological 
structure on Earth,'' \1\ the brain, in new ways. These endeavors rely 
on support from the Federal Government--in fact, 27 percent of the 
Federal budget for basic science is funded by NSF.
---------------------------------------------------------------------------
    \1\ https://www.nsf.gov/discoveries/disc_summ.jsp?cntn_id=128239.
---------------------------------------------------------------------------
    As the subcommittee continues its work for fiscal year 2019, we 
also ask that Congress work to ensure that final fiscal year 2019 
funding is approved before the end of fiscal year 2018. Reliance on 
continuing resolutions in place of regular appropriations has real 
implications for scientists working in the field, as it severely 
restricts NSF's ability to fund science. For some, this means waiting 
for a final decision on NSF's funding before knowing if their highly 
scored grant will be supported. This delays the launch of research, 
hiring of researchers, and otherwise causes meritorious science to sit 
on the shelf. For others, it means operating a lab at reduced funding 
levels until full-year appropriations are finalized--similarly 
impacting hiring and causing science to ``stop and start"--resulting in 
wasted effort, data, and resources. There is no substitute for robust, 
sustained, and predictable funding for NSF.
    We are also appreciative of the Committee's support for NSF's 
Understanding the Brain program, including the Brain Research through 
Advancing Innovative Neurotechnologies (BRAIN) Initiative. This multi-
agency, targeted portion of the overall Federal investment in 
neuroscience, which includes NSF, will help develop the tools needed to 
look deeper into the brain to map functions for a plethora of 
applications.
    The deeper our grasp of basic science, the more successful those 
focused on clinical and translational research will be. Basic research, 
like that supported by NSF, creates discoveries--sometimes unexpected--
that expand our knowledge in unanticipated ways. Basic research in 
neuroscience is a critical function of the Federal Government as it 
builds the foundation for advancements in public and individual health, 
education, and workforce. Some recent, exciting advancements include 
the following:
                  the impacts of neuroscience research
New technologies unlock the brain's mysteries
    My own BRAIN Initiative supported research investigates how neurons 
communicate and coordinate with each other to form circuits. Neurons 
are constantly relaying information to each other through connections 
called synapses. Neuroscientists previously discovered that multiple 
kinds of internal cellular inputs influence the responsiveness of the 
receiving neuron, strengthening or weakening the connection of 
particular pathways. This process is essential for learning and memory 
and is impacted in neurological and psychiatric disorders like 
Alzheimer's disease, autism, and schizophrenia. Today monitoring more 
than one pathway at a time is a challenge, and consequently, we have a 
limited understanding of the complexities of how synaptic changes occur 
and are regulated.
    My laboratory is developing new tools to simultaneously evaluate 
multiple types of cell signaling to better understand brain activity 
during learning in awake, behaving animals. These tools will enable us 
to develop a complex, and more complete, picture of how learning and 
other higher brain functions are achieved. Ultimately, the tools 
developed in my laboratory may inform how specific cell circuits 
involved in learning are affected by neurological diseases and 
disorders. My hope is that the tools generated will help other 
neuroscientists overcome some of the enormous challenges they face when 
studying the brain.
Improving noninvasive diagnostics
    NSF supported research is also providing necessary foundations for 
additional transformative findings beyond the BRAIN Initiative. Over 
the last 25 years, optical coherence tomography (OCT) imaging has 
revolutionized ophthalmology by creating 3D images of the human eye at 
micrometer resolution. OCT is an effective diagnostic tool, capable of 
imaging a wide spectrum of conditions, from blood vessel blockages to 
early stage tumors, without harming surrounding tissue. Multiple fields 
of medicine, beyond ophthalmology, including cardiology, oncology, and 
dermatology, are now starting to use OCT given the sensitivity of the 
imaging. Numerous OCT applications were discovered through NSF funded 
research, and NSF continues to support improvements in the amount of 
tissue imaged, speed, and affordability of OCT. For example, an NSF 
funded project developed a photonic chip that both increases the speed 
of OCT and shrinks the device to the size of a U.S. quarter. A 
functional result in improving the speed of OCT imaging has the 
potential to multiply its clinical applications. For instance, 
improving the speed of OCT imaging allows clinicians to detect blood 
flow changes in even the smallest blood vessels.
      basic neuroscience research: a key investment for the nation
    Neuroscience, and basic research, is a critical Federal investment 
with implications for not only health and well-being, but also for 
education, national security, and the economy. In 2017, nearly 353,000 
Americans directly benefited from NSF programs through salaries, 
stipends, or participant support with millions of others impacted 
through educational and research related activities.\2\ In 2011 alone, 
over 670 spin-off companies were formed from university research 
efforts.\3\ In fact, one dollar of research money from NSF results in 
two dollars in economic output.\4\
---------------------------------------------------------------------------
    \2\ https://www.nsf.gov/news/news_summ.jsp?cntn_id=100595.
    \3\ Sparking Economic Growth 2.0. The Science Coalition. October 
2013.
    \4\ Gundaya, D. and Inazu, J.K. The Economic Impact of Federal 
Funds on a Local Community in Hawaii. June 2011.
---------------------------------------------------------------------------
    Equally as critical to the future of U.S. scientific leadership, 
NSF trains the next generation of America's scientists and science 
educators through tools like the graduate research fellowships--over 
50,000 since 1952.\5\ This training provides a foundation for a strong 
economy built on scientific advances and the pioneers driving 
innovation, spurring the development of new businesses and jobs. With a 
basic understanding of the environments we live in, we can transform 
the way we treat disease, learn, work, and engage with the world.
---------------------------------------------------------------------------
    \5\ https://www.nsf.gov/pubs/2017/nsf17003/nsf17003.pdf.
---------------------------------------------------------------------------
    Thank you for the opportunity to testify today. SfN respectfully 
requests that the Committee provide $8.45 billion to NSF so researchers 
can continue their important work. Additionally, we ask Congress to 
complete funding decisions on time, which will allow for the use of 
resources to be optimized.
                                 ______
                                 
  Prepared Statement of Supporters for Funding of the Legal Services 
                              Corporation
    As leaders of more than 180 U.S. law firms with offices in all 50 
States and the District of Columbia, we encourage you to maintain the 
bi-partisan support for fully funding the Legal Services Corporation 
(``LSC''). Specifically, we respectfully request that you support LSC's 
requested appropriation of $564 million for fiscal year 2019.
    For more than four decades, Congress has funded LSC to provide 
grants to local legal aid organizations in all 50 States, covering 
every county in our Nation. Proposals to defund LSC appear to 
misunderstand the local impact and control of this Federal funding. 
LSC's grants are spent only by community-based organizations, which 
supplement the funds with local fundraising, to provide critical civil 
legal services to low-income individuals, like veterans seeking 
benefits, women fleeing domestic violence, and families struggling to 
stay in their homes. LSC's local grantees follow the congressional 
mandate to focus their resources on these vulnerable individuals in our 
communities; they are precluded by law from using this money to, among 
other things, represent prisoners, file class actions, and litigate re-
districting actions.
    The local legal aid organizations funded by LSC are critical to our 
firms and our communities. The lawyers at our firms collectively 
provide millions of hours of free legal services each year to 
individuals in desperate need of assistance. Our ability to provide 
these pro bono legal services is directly dependent on partnership with 
LSC-funded legal aid organizations, which screen cases for merit and 
eligibility, and train and mentor our attorneys. Eliminating the Legal 
Services Corporation will not only imperil the ability of civil legal 
aid organizations to serve Americans in need, it will also vastly 
diminish the private bar's capacity to help these individuals. The pro 
bono activity facilitated by LSC funding is exactly the kind of public-
private partnership the government should encourage, not eliminate.
    It is also important to understand that LSC funds local legal aid 
organizations in rural areas that most law firms have difficulty 
serving because of their lawyers' geographic location and/or bar 
memberships. In many rural counties across our Nation, the local legal 
aid organizations funded by LSC are the only available help for low-
income Americans.
    LSC funding is money well spent in our local communities. State 
studies have shown that the problems solved by legal aid offer a strong 
return on investment. For instance, in Florida in 2016, civil legal 
services saved $60.4 million, including emergency shelter and 
foreclosure costs. In Tennessee in 2015, civil legal aid saved $1.3 
million on emergency shelters; $7.5 million in costs to domestic 
violence survivors, including medical and mental health expenses; and 
$33.8 million in foreclosure costs for residents and local governments. 
In Virginia in 2015, civil legal aid spending saved $1.2 million in 
emergency shelter costs and $1.9 million in healthcare and other 
expenses related to domestic violence. Other State surveys, from 
Pennsylvania and Iowa for instance, have shown that every dollar spent 
on legal aid has an eleven-fold local economic impact.
    Our local communities depend on the legal aid organizations funded 
by LSC, and our firms, in turn, rely on these legal aid agencies to 
increase the impact of our volunteer legal services. That is why our 
firms, as well as our individual lawyers, give generously to LSC 
grantees. We ask that Congress do its part by fully funding LSC and 
continuing its bi-partisan support of civil legal aid for our 
communities.

David I. Spector, Chairman & CEO, Akerman LLP (West Palm Beach, FL)

Kim Koopersmith, Chair, Akin Gump Strauss Hauer & Feld LLP (New York, 
    NY)

Richard R. Hays, Managing Partner, Alston & Bird LLP (Atlanta, GA)

Thomas J. Perich, Chairman, Andrews Kurth Kenyon LLP (Houston, TX)

Richard M. Alexander, Chair; Michael Solow, Former MP, Arnold & Porter, 
    Kaye Scholer (Washington, DC; Chicago IL)

Steven Kestner, Chairman, Baker & Hostetler LLP (Cleveland, OH)

Paul Rawlinson, Global Chair (London, UK), Colin Murray, Managing 
    Partner, Baker & McKenzie (San Francisco, CA)

Andrew M. Baker, Managing Partner, Baker Botts LLP (Houston, TX)

Ben C. Adams, Chairman and CEO, Baker, Donelson, Bearman, Caldwell & 
    Berkowitz, P.C. (Memphis, TN)

Mark S. Stewart, Chair, Ballard Spahr LLP (Philadelphia, PA)

R. Morgan Gilhuly, Managing Partner, Barg Coffin Lewis & Trapp LLP (San 
    Francisco, CA)

George C. Freeman III, Managing Partner, Barrasso Usdin Kupperman 
    Freeman & Sarver LLC (New Orleans, LA)

Todd J. Rolapp, Managing Partner, Bass, Berry & Sims PLC (Nashville, 
    TN)

William K. Davis, Chairman, Bell, Davis & Pitt (Winston Salem, NC)

Patrick J. Scully, Chief Executive Officer, Bernstein Shur (Portland, 
    ME)

Benjamin F. Wilson, Chairman, Beveridge & Diamond PC (Washington, DC)

Alan J. Hoffman, Chairman and Managing Partner, Blank Rome LLP 
    (Philadelphia, PA)

Ralph E. McDowell, Chairman, Bodman PLC (Detroit, MI)

Kevin M. Bernstein, Chair, Bond Schoeneck & King PLLC (Syracuse, NY)

Thomas A. Heywood, Managing Partner, Bowles Rice LLP (Charleston, WV)

Michael Bracamontes, Bracamontes & Vlasak, PC (San Francisco, CA)

Gregory M. Bopp, Managing Partner, Bracewell, LLP (Houston, TX)

James F. Flynn, Managing Partner, Bricker & Eckler LLP (Columbus, OH)

Joseph F. Ryan, Chairman & Chief Executive Officer, Brown Rudnick LLP 
    (Boston, MA)

Adam J. Agron, Managing Partner, Brownstein Hyatt Farber Schreck, LLP 
    (Denver, CO)

Therese D. Pritchard, Chair, Bryan Cave LLP (Washington, DC)

Joseph A. Dougherty, Chair and Managing Director, Buchanan, Ingersoll & 
    Rooney, PC (Philadelphia, PA)

Benjamin B. Klubes, Co-Managing Partner; John P. Kromer, Co-Managing 
    Partner, Buckley Sandler LLP (Washington, DC)

Ira L. Gottlieb, Bush Gottlieb, a Law Corporation (Glendale, CA)

Donald Clark, Jr., Firm Chairman, Butler Snow LLP (Jackson, MS)

Patrick T. Quinn, Managing Partner; Jason Halper, Global Lit . Chair, 
    Cadwalader, Wickersham & Taft LLP (New York, NY)

Michael A. Gerstenzang, Managing Partner, Cleary Gottlieb Steen & 
    Hamilton LLP (New York, NY)

Joseph W. Conroy, Chief Executive Officer; Stephen C. Neal, Chairman, 
    Cooley LLP (New York, NY; Palo Alto, CA)

Timothy C. Hester, Chair, Covington & Burling LLP (Washington, DC)

Michael J. Heller, CEO, Cozen O'Connor (Philadelphia, PA)

Faiza J. Saeed, Presiding Partner, Cravath, Swaine & Moore LLP (New 
    York, NY)

Timila S. Rother, President and CEO, Crowe & Dunlevy (Oklahoma City, 
    OK)

Philip T. Inglima, Chair, Executive Committee, Crowell & Moring LLP 
    (Washington, DC)

Benjamin T. Cory, Managing Partner, Crowley Fleck PLLP (Missoula, MT)

Kristin L. Lentz and Chad D. Williams, Co-Managing Partners, Davis 
    Graham & Stubbs LLP (Denver, CO)

Thomas J. Reid, Managing Partner, Davis Polk & Wardwell LLP (New York, 
    NY)

Jeffrey P. Gray, Managing Partner, Davis Wright Tremaine LLP (San 
    Francisco, CA)

Stanley A. Twardy, Jr., Managing Partner, Day Patney LLP (Stamford, CT)

Michael W. Blair, Presiding Partner, Debevoise & Plimpton LLP (New 
    York, NY)

Andrew J. Levander, Chair; Henry N. Nassau, CEO, Dechert LLP (New York, 
    NY; Philadelphia, PA)

Mike McNamara, CEO, Dentons US LLP (Washington, DC)

William T. Burgess, CEO, Dickinson Wright PLLC (Detroit, MI)

Ajay Raju, Chairman and CEO, Dilworth Paxson LLP (Philadelphia, PA)

Roger Meltzer, Global Co-Chairman, Co-Chairman Americas, DLA Piper LLP 
    (US) (New York, NY)

Ken Cutler, Managing Partner, Dorsey & Whitney LLP (Minneapolis, MN)

Scott L. Shapiro, Managing Partner, Downey Brand LLP (Sacramento, CA)

Peter Kunin, Managing Partner, Downs Rachlin Martin PLLC (Burlington, 
    VT)

Andrew C. Kassner, Chairman, Drinker Biddle & Reath LLP (Philadelphia, 
    PA)

Matthew A. Taylor, Chairman, Duane Morris LLP (Philadelphia, PA)

Peter M. Kellett, Chief Executive Officer, Dykema Gossett PLLC 
    (Detroit, MI)

Mark D. Wasserman, Managing Partner, Eversheds Sutherland (US) LLP 
    (Atlanta, GA)

Thomas C. Froehle, Chair and Managing Partner, Faegre Baker Daniels LLP 
    (Indianapolis, IN)

Brian P. Donnelly, Chair, Farella Braun + Martel LLP (San Francisco,CA)

Stephen A. Good, Director, Fennemore Craig PC (Phoenix, AZ)

Richard L. Dickson, Chair; Rodger R. Cole, Managing Partner, Fenwick & 
    West LLP (Mountain View, CA)

Mark D. Sweet, Managing Partner, Finnegan, Henderson, Farabow, Garrett 
    & Dunner, LLP (Washington, DC)

Peter J. Devlin, President and Chief Executive Officer, Fish & 
    Richardson P.C. (Boston, MA)

Jay O. Rothman, Chairman & CEO, Foley & Lardner LLP (Milwaukee, WI)

Jeffrey D. Collins and Kenneth S. Leonetti, Co-Managing Partners, Foley 
    Hoag LLP (Boston, MA)

Adam C. Ford, Managing Partner, Ford O'Brien LLP (New York, NY)

Stephen DiJulio, Managing Partner, Foster Pepper PLLC (Seattle, WA)

Abraham C. Reich, Chair Emeritus, Fox Rothschild LLP (Philadelphia, PA)

Austin T. Fragomen, Jr., Chairman; Enrique Conzalez, Managing Partner, 
    Fragomen Worldwide (New York, NY)

Christopher G. Keim, Managing Partner, Frantz Ward LLP (Cleveland, OH)

John M. Koneck, President, Fredrikson & Byron P.A. (Minneapolis, MN)

Edward Braham, Senior Ptr., Peter D. Lyons, US Managing Ptr., 
    Freshfields Bruckhaus Deringer LLP (London; New York)

J. Shepherd Russell, III, Managing Partner, Friday Eldredge & Clark LLP 
    (Little Rock, AK)

David J. Greenwald, Chairman, Fried, Frank, Harris, Shriver & Jacobson 
    LLP (New York, NY)

Geoffrey White and Jonathan Miller, Members-in-Charge, Frost Brown Todd 
    LLC (Louisville, KY; Lexington, KY)

David E. Keglovits, Chief Executive Officer, GableGotwals (Tulsa, OK)

Kenneth M. Doran, Chairman & Managing Partner, Gibson, Dunn & Crutcher 
    LLP (Los Angeles, CA)

Martin M. Fantozzi, Co-Managing Partner, Goulston & Storrs PC (Boston, 
    MA)

Thomas A. Prewitt, Chair & Managing Partner, Graydon (Cincinnati, OH)

Hilarie Bass, Co-President, Greenberg Traurig LLP (Miami, FL)

David Hashmall, Chairman, Goodwin Procter LLP (New York, NY)

Andrew G. Giacomini, Managing Partner, Hanson Bridgett LLP (San 
    Francisco, CA)

Timothy E. Powers, Managing Partner, Haynes and Boone, LLP (Dallas, TX)

Thomas Riley, Managing Partner--New York, Herbert Smith Freehills LLP 
    (New York, NY)

Stephen J. Immelt, CEO, Hogan Lovells (Washington, DC)

Elizabeth A. Sharrer, Chair, Holland & Hart LLP (Denver, CO)

Steven Sonberg, Managing Partner, Holland & Knight LLP (Miami, FL)

David Foltyn, Chairman and Chief Executive Officer, Honigman Miller 
    Schwartz and Cohn LLP (Detroit, MI)

Walfrido J. Martinez, Managing Partner, Hunton & Williams LLP (New 
    York, NY)

Ellen S. Cappellanti, Managing Member, Jackson Kelly PLLC (Charleston, 
    WV)

Vincent A. Cino, Chairman, Jackson Lewis P.C. (Morristown, NJ)

Terrence J. Truax, Managing Partner, Jenner & Block LLP (Chicago, IL)

Guy M. Burns, Managing Partner, Johnson Pope Bokor, Ruppel & Burns, LLP 
    (Tampa, FL)

William H. Hines, Managing Partner, Jones Walker LLP (New Orleans, LA)

Marc E. Kasowitz, Managing Partner, Kasowitz Benson Torres LLP (New 
    York, NY)

Roger P. Furey, Chairman, Katten Muchin Rosenman LLP (Washington, DC)

Alan S. Fershtman, Managing Partner, Keating, Muething & Klekamp, PLL 
    (Cincinnati, OH)

Lewis Rose, Managing Partner, Kelley Drye & Warren LLP (New York, NY)

Steven K. Taylor, Managing Partner, Keker & Van Nest LLP (San 
    Francisco, CA)

J. Henry Walker IV, Chairman; Susan Spaeth, Managing Partner, 
    Kilpatrick Townsend & Stockton LLP (Atlanta, GA)

Robert D. Hays, Chairman, King & Spalding LLP (Atlanta, GA)

Jeffrey C. Hammes, Chairman of the Global Management Executive 
    Committee, Kirkland & Ellis LLP (Chicago, IL)

Paul S. Pearlman, Managing Partner, Kramer, Levin, Naftalis & Frankel, 
    LLP (New York, NY)

David A. Jacobson, Chair, Kutak Rock LLP (Omaha, NE)

Charles W. Riley Jr., President, Lane Powell (Seattle, WA)

Ora T. Fisher and Richard M. Trobman, Co-Chairs, Latham & Watkins LLP 
    (London; Silicon Valley, CA)

R. Cameron Garrison, Managing Partner, Lathrop Gage LLP (Kansas City, 
    MO)

Gary D. LeClair, Founder (Richmond, VA); C. Erik Gustafson, CEO & 
    President, LeclairRyan (Alexandria, VA)

Frederick J. Baumann, Chair, Executive Committee, Lewis Roca Rothgerber 
    Christie LLP (Denver, CO)

Steven E. Fineman, Managing Partner, Lieff Cabraser Heimann & 
    Bernstein, LLP (New York, NY)

David Taylor, Chair, Locke Lord LLP (Houston, TX)

Gary M. Wingens, Chairman and Managing Partner, Lowenstein Sandler LLP 
    (New York, NY)

William T. Quicksilver, Chief Executive Officer and Managing Partner, 
    Manatt, Phelps & Phillips, LLP (Los Angeles, CA)

Michael C. McCarthy, Chair, Maslon LLP (Minneapolist, MN)

Paul W. Theiss, Chairman, Mayer Brown LLP (Chicago, IL)

Michael F. Lauderdale, Managing Director, McAfee & Taft LLP (Oklahoma 
    City, OK)

Joseph T. Boccassini, Managing Partner, McCarter & English, LLP 
    (Newark, NJ)

Ira J. Coleman, Chairman, McDermott Will & Emery LLP (Miami, FL)

Rodolfo J. Aguilar, Jr., Managing Member, McGlinchey Stafford, PLLC 
    (Baton Rouge, LA)

Jonathan P. Harmon, Chairman, McGuire Woods LLP (Richmond, VA)

Richard A. Samuels, Managing Director, McLane Middleton P.A. 
    (Manchester, NH)

Scott A. Edelman, Chairman, Milbank, Tweed, Hadley & McCloy LLP (New 
    York, NY)

Marc J. Gerson, Chair, Miller & Chevalier Chartered (Washington, DC)

Michael McGee, CEO; Megan Norris, Chair; Thomas Linn, Chair Emer., 
    Miller Canfield Paddock & Stone, PLC (Detroit, MI)

Craig H. Lubben and Robert D. Wolford, Managing Members, Miller Johnson 
    (Grand Rapids and Kalamazoo, MI)

Dale Minami, Partner, Minami Timaki LLP (San Francisco, CA)

Robert I. Bodian, Managing Member, Mintz, Levin, Cohn, Ferris, Glovsky 
    and Popeo, P.C. (New York, NY)

Roberta Cooper Ramo, Shareholder, Modrall Sperling (Albuquerque, NM)

Daniel J. Mogin, Managing Partner, Mogin Rubin LLP (San Diego, CA)

Jami Wintz McKeon, Chair, Morgan Lewis & Bockius LLP (Philadelphia, PA)

Larren M. Nashelsky, Chair, Morrison & Foerster (New York, NY)

Brad D. Brian and Sandra A. Seville-Jones, Co-Managing Partners, 
    Munger, Tolles & Olson LLP (Los Angeles, CA)

Scott J. Fisher, Managing Partner, Neal, Gerber & Eisenberg LLP 
    (Chicago, IL)

James K. Lehman, Managing Partner, Nelson Mullins Riley & Scarborough 
    LLP (Columbia, SC)

W. Leighton Lord III, Chairman, Nexsen Pruet, LLC (Columbia, SC)

Andrew I. Glincher, Managing Partner & CEO, Nixon Peabody LLP (Boston, 
    MA)

Daryl Lansdale, Managing Partner, Norton Rose Fulbright US LLP 
    (Houston, TX)

Bradley J. Butwin, Chair, O'Melveny & Myers LLP (New York, NY)

Mitchell Zuklie, Chairman, Orrick, Herrington & Sutcliffe LLP (Silicon 
    Valley, CA)

Brad S. Karp, Chair, Paul, Weiss, Rifkind, Wharton & Garrison LLP (New 
    York, NY)

Thomas M. Gallagher, Chairman, Pepper Hamilton LLP (Philadelphia, PA)

John Devaney, Managing Partner, Perkins Coie (Washington, DC)

Gregory L. Spallas, Managing Partner, Phillips, Spallas & Angstadt LLP 
    (San Francisco, CA)

David E. Barry, Managing Partner, Pierce Atwood LLP (Portland, ME)

David T. Dekker, Firm Chair, Pillsbury Winthrop Shaw Pittman LLP 
    (Washington, DC)

W. Russell Welsh, Chairman, Polsinelli (Kansas City, MO)

Robert J. Tannous, Managing Partner, Porter Wright Morris & Arthur LLP 
    (Columbus, OH)

James T. Shearin, Chairman, Pullman & Comley LLC (Bridgeport, CT)

Joseph M. Leccese, Chairman, Proskauer Rose LLP (New York, NY)

Kimberly Leach Johnson, Chair, Quarles & Brady, LLP (Naples, FL)

Arthur B. Berger, Managing Director, Ray Quinney & Nebeker (Salt Lake 
    City, UT)

Alexander Y. Thomas, Global Managing Partner, Reed Smith LLP 
    (Washington, DC)

Martin R. Lueck, Chairman; Steven A. Schumeister, Managing Partner, 
    Robins Kaplan LLP (Minneapolis, MN)

R. Bradford Malt, Chairman; David C. Chapin, Managing Partner, Ropes & 
    Gray LLP (Boston, MA)

J. Stephen Poor, Chair Emeritus, Seyfarth Shaw LLP (Chicago, IL)

Creighton Condon, Senior Partner, Shearman & Sterling LLP (New York, 
    NY)

Guy N. Halgren, Chairman of the Executive Committee, Sheppard Mullin 
    Richter & Hampton LLP (San Diego, CA)

Michael Schmidtberger, Chair, Exec. Cmte.; Larry Barden, Chair, Mngmt. 
    Cmte., Sidley Austin LLP (New York; Chicago, IL)

William R. Dougherty, Chairman, Simpson Thacher & Bartlett LLP (New 
    York, NY)

Eric J. Friedman, Executive Partner, Skadden, Arps, Slate, Meagher & 
    Flom LLP (New York, NY)

Lew R. C. Bricker, Chairman, SmithAmundsen LLC (Chicago, IL)

Matthew P. Feeney, Chairman, Snell & Wilmer L.L.P. (Phoenix, AZ)

Philip R. West, Chair, Steptoe & Johnson, LLP (Washington, DC)

Mark D. Hinderks, Managing Partner, Stinson Leonard Street LLP (Kansas 
    City, MO)

James E. Torgerson, Firm Managing Partner, Stoel Rives LLP (Anchorage, 
    AK)

Michael Q. Walshe, Management Committee Chair, Stone Pigman Walther 
    Wittmann LLC (New Orleans, LA)

Alan M. Klinger, Jeffrey R. Keitelman, Co-Managing Partners, Stroock & 
    Stroock & Lavan LLP (New York, NY; Wash., DC)

Joseph C. Shenker, Chairman, Sullivan & Cromwell LLP (New York, NY)

Deborah Z. Read, Managing Partner, Thompson Hine LLP (Cleveland, OH)

Stephen E. Lewis, Managing Partner, Troutman Sanders LLP (Atlanta, GA)

Joseph J. Morford, Managing Partner, Tucker Ellis (Cleveland, OH)

Keith C. Jones, Managing Partner, Verrill Dana, LLP (Portland, ME)

Virginia Villegas, Managing Partner, Villegas Carrera LLP (San 
    Francisco, CA)

T. Mark Kelly, Chairman; Scott N. Wulfe, Managing Partner; Harry 
    Reasoner, PB Chair, Vinson & Elkins LLP (Houston, TX)

Matthew R. Burnstein, Partner and Chairman, Waller Lansden Dortch and 
    Davis LLP (Nashville, TN)

Barry M. Wolf, Executive Partner, Weil, Gotshal & Manges LLP (New York, 
    NY)

Peter D. Shields, Managing Partner, Wiley Rein LLP (Washington, DC)

Calvin W. Fowler, Jr., President & CEO, Williams Mullen (Richmond, VA)

Susan W. Murley, Robert T. Novick, Co-Managing Ptrs, Wilmer Cutler 
    Pickering Hale & Dorr LLP (Boston, MA; Wash., DC)

Douglas Clark, Managing Partner, Wilson Sonsini Goodrich & Rosati, 
    Professional Corporation (Palo Alto, CA)

Betty Temple, Chair and CEO, Womble Bond Dickinson (US) LLP 
    (Greenville, SC)

Elizabeth O. Temple, Chair and CEO, Womble Bond Dickinson (US) LLP 
    (Greenville, SC)

Stephen R. Lancaster, Managing Partner, Wright Lindsey & Jennigers LLP 
    (Little Rock, AR)

Franklin K. Jelsma, Managing Partner, Wyatt, Tarrant & Combs, LLP 
    (Louisville, KY)
                                 ______
                                 
            Prepared Statement of the Tahirih Justice Center
    The Tahirih Justice Center (``Tahirih'') respectfully submits this 
statement to the United States Senate Committee on Appropriations; 
Subcommittee on Commerce, Justice, Science, and Related Agencies, as it 
reviews the fiscal year 2019 Budget Request for the United States 
Department of Justice.
    Tahirih is a national, nonpartisan advocacy and direct services 
organization that has assisted over 20,000 immigrant survivors of 
gender-based violence over the past 20 years. Our clients include women 
and girls who have endured horrific abuses such as rape, domestic 
violence, and human trafficking and are in dire need of humanitarian 
relief.
    Congress has repeatedly expressed its longstanding, bipartisan, and 
unwavering resolve to provide a safe haven for traumatized survivors of 
human rights abuses such as our clients by enacting various laws to 
protect them. For example, in 1980, the U.S. codified the tenets of the 
``United Nations Refugee Convention'' and ``Protocol'' of 1951 as our 
domestic asylum laws.\i\ In 1994, Congress first passed the Violence 
Against Women Act, followed by the Trafficking Victims Protection Act 
in 2000.\ii\ These laws give immigrant survivors of violence the 
opportunity to apply for legal relief and if granted, to rebuild their 
lives in safety and contribute to society.
---------------------------------------------------------------------------
    \i\ The United States Refugee Act of 1980 amended the Immigration 
and Nationality Act of 1965 and the Migration and Refugee Assistance 
Act of 1962.
    \ii\ https://www.gpo.gov/fdsys/pkg/BILLS-113s47enr/pdf/BILLS-
113s47enr.pdf; https://www.gpo.
gov/fdsys/pkg/BILLS-114s178enr/pdf/BILLS-114s178enr.pdf.
---------------------------------------------------------------------------
    Many applicants request legal relief before the Department of 
Justice's (DOJ) Executive Office for Immigration Review (EOIR), which 
houses the U.S. immigration courts and the Board of Immigration Appeals 
(BIA). Crushing backlogs have plagued our immigration courts for the 
past 11 years, however, and the acute need to alleviate them is 
indisputable. The DOJ notes that the current pending caseload before 
the EOIR is the largest it has ever been.\iii\ With cases pending for 
an average of over 700 days,\iv\ evidence grows outdated and 
opportunities for witnesses to testify are diminished. Survivors of 
gender-based violence are eager to begin healing, yet are re-
traumatized when recounting details of rape and torture after many 
years in legal limbo. Severe backlogs can cause asylum seekers to 
wrongly and unfairly fail in their claims, while the threats they 
confront upon deportation remain.
---------------------------------------------------------------------------
    \iii\ https://www.justice.gov/file/1033621/download.
    \iv\ http://trac.syr.edu/phptools/immigration/court_backlog/.
---------------------------------------------------------------------------
the department of justice's fiscal year 2019 appropriations request for 
                                the eoir
    The DOJ has requested a total of $64.8 million for the EOIR for 
fiscal year 2019. $39.8 million would fund 450 new positions, including 
attorneys, immigration judges, and critical support staff such as law 
clerks, legal assistants, and administrative support personnel 
including interpreters. DOJ is making this request ``to maintain the 
efficacy and efficiency of immigration enforcement and adjudication 
programs and process the increasing workload.'' The other $25 million 
will fund modernization of the EOIR's paper-based information 
technology system which is a major contributor to inefficiencies in the 
immigration courts. With these funds, EOIR will implement a system 
where applicants submit all case-related information electronically, 
records of proceedings will be electronic, and ultimately courtrooms 
will be paperless.\v\
---------------------------------------------------------------------------
    \v\ https://www.justice.gov/file/1033621/download.
---------------------------------------------------------------------------
    Tahirih supports the DOJ's appropriation request. It is clear that 
insufficient staffing and outdated infrastructure is to blame for the 
backlogs, and additional funds are imperative to address the problem. 
In addition to inefficiency, however, we are also deeply concerned that 
in the absence of additional EOIR funding, basic due process for asylum 
seekers and other vulnerable populations will all but disappear. The 
Attorney General is citing the backlogs to justify implementing the 
following measures:

  --Imposing a job performance rating system for immigration judges 
        that ties their remand rate and number of cases completed to 
        his or her performance rating;\vi\
---------------------------------------------------------------------------
    \vi\ http://cdn.cnn.com/cnn/2018/images/04/02/immigration-judges-
memo.pdf.
---------------------------------------------------------------------------
  --Pressuring judges to only grant continuances in very limited 
        circumstances, even where, for example, an indigent asylum 
        seeker is having difficulty securing pro bono counsel;\vii\
---------------------------------------------------------------------------
    \vii\ https://www.justice.gov/eoir/file/oppm17-01/download.
---------------------------------------------------------------------------
  --Reconsidering well-settled case-law defining ``good cause'' to 
        support continuances,\viii\ for example, where a survivor of 
        violence waits for USCIS to adjudicate her petition for relief 
        under the Violence Against Women Act. If the judge denies her 
        request and she is sent home to wait, she might be forced to 
        leave her U.S. citizen child in the custody of her abuser;
---------------------------------------------------------------------------
    \viii\ https://www.justice.gov/eoir/page/file/1045661/download.
---------------------------------------------------------------------------
  --Reconsidering whether immigration judges can ``administratively 
        close'' cases,\ix\ raising the same issues as above for 
        survivors of violence
---------------------------------------------------------------------------
    \ix\ https://www.justice.gov/eoir/page/file/1022366/download.
---------------------------------------------------------------------------
  --Vacating a precedent decision holding that asylum seekers are 
        entitled to a full evidentiary hearing in immigration court.\x\
---------------------------------------------------------------------------
    \x\ https://www.justice.gov/eoir/page/file/1040936/download.

    While these new policies purport to promote efficiency, they put 
survivors' lives at risk. Notably, there is only likely outcome for 
cases so swiftly disposed of that no testimony or evidence is even 
permitted--deportation. Applicants for relief will be sent home to face 
persecution and torture, in violation of U.S. obligations under 
international law. Furthermore, precisely because the law entitles 
immigrants to due process,\xi\ appeals alleging due process violations 
will skyrocket. Ironically, these efforts will increase inefficiency by 
simply shifting the backlogs to the Federal appellate courts. 
Relatedly, if the DOJ's request is granted and additional immigration 
judges and BIA members are hired, there must be accountability and 
transparency in the selection process. Whistleblowers within the DOJ 
recently alerted Congress that the Department may be unlawfully 
evaluating candidates using political and ideological factors. Yet, 
Federal law and well-settled Department policy strictly prohibit 
discrimination in hiring based on political affiliations.\xii\ The 
Attorney General's attempts to curtail due process are of grave concern 
and oversight of the DOJ's hiring process is therefore imperative. 
Ultimately, if the DOJ hires biased adjudicators, any efficiencies 
gained as a result of the new hires will be lost when applicants appeal 
denials based on lack of due process.
---------------------------------------------------------------------------
    \xi\ See Zadvydas v. Davis, 533 U.S. 678 (2001); Shaughnessy v. 
Mezei, 345 U.S. 206 (1953).
    \xii\ xiihttps://cummings.house.gov/sites/cummings.house.gov/files/
Dems%20to%20DOJ%20re.%20EOIR%20Politicization.pdf.
---------------------------------------------------------------------------
    At the immigration court stage, safeguarding due process for pro se 
applicants and detainees in particular is critical. Applicants who are 
unaware of their rights cannot exercise them. Asylum seekers suffering 
from Post-Traumatic-Stress-Disorder may be too traumatized to navigate 
our complex and daunting immigration process alone. In enacting laws, 
Congress not only presumes--but implicitly requires--meaningful access 
to the legal process for those who they are designed to protect.
    For the reasons above, we urge Congress to appropriate additional 
funding for the immigration courts per the DOJ's request. Doing so will 
allow the EOIR to absorb its increased caseload without sacrificing 
integrity, accuracy, and fairness in adjudication of high-stakes 
immigration cases. We appreciate the opportunity to submit this 
statement.

    [This statement was submitted by Archi Pyati Chief of Policy.]
                                 ______
                                 
 Prepared Statement of the Theodore Roosevelt Conservation Partnership
April 27, 2018

 
 
 
The Honorable Jerry Moran, Chairman         The Honorable Jeanne
Senate Appropriations Subcommittee on        Shaheen, Ranking Member
 Commerce, Science, and Justice             Senate Appropriations
142 Dirksen Senate Office Building           Subcommittee on Commerce,
Washington, DC 20510                         Science, and Justice
                                            Hart 125 Senate Office
                                             Building
                                            Washington, DC 20510
 

Re: National Marine Fisheries Service

Dear Chairman Moran and Ranking Member Shaheen,

    The Theodore Roosevelt Conservation Partnership is a national 
coalition of sportsmen, conservation, and outdoor industry 
organizations that seeks to ensure all Americans have access to quality 
places to hunt and fish. We partner with 56 hunting, fishing, and 
conservation organizations to unite and amplify the voices of America's 
more-than 40 million sportsmen and women whose activities help sustain 
the $887-billion outdoor recreation economy.
    We appreciate the opportunity to submit this letter in support of 
the critical programs and initiatives within the National Marine 
Fisheries Service (NMFS) that protect aquatic habitat, support nature-
based infrastructure solutions, and preserve our Nation's recreational 
fishing heritage.
    As your subcommittee drafts fiscal year 2019 spending legislation 
for the NMFS, we ask the subcommittee to consider our recommendations 
below which we believe would constitute sound stewardship of our 
country's natural resources and preserve our angling heritage and the 
economy it supports for the next generation. Specifically, we support 
the following:

    302(b) allocation increase: TRCP is encouraged by the fiscal relief 
provided by the Bipartisan Budget Act of 2018, which provided a roughly 
12-percent increase in non-defense discretionary spending for fiscal 
years 2018 and 2019. In February 2018, TRCP submitted a formal request 
to full committee leadership for increases to each subcommittee's 
302(b) allocation proportional to the overall non-defense increase. 
Given the nationwide conservation impact that relies on spending 
crafted in your subcommittee, we urge the subcommittee to request an 
increase to its 302(b) allocation proportional to the overall non-
defense increase.

    Fisheries Data Collection, Surveys, and Assessments: Inaccurate 
data collection too often causes season reductions and closures, 
drastically limiting angler opportunities and harming the coastal 
communities whose seasonal economies rely heavily on recreational 
spending. TRCP supports the Commerce Department's recent announcement 
of a pilot program giving five Gulf States greater control in managing 
their red snapper fisheries, however uncertainty in the long-term, in 
other States, and for other recreational species still remains. TRCP 
and our partners are actively engaging with authorizing committees on 
an update to the Magnuson-Stevens Act, and two of our top priorities 
are improvement of Federal data collection and better integration of 
State data into the Marine Recreation Information Program. While 
Congress works towards enactment of modern fishery policy, we believe 
strong funding for the Fisheries Data Collection, Surveys, and 
Assessments line item will best prepare NMFS for enhanced integration.
    We request $184,519,000 for Fisheries Data Collections, Surveys and 
Assessments.

    Habitat Conservation and Restoration: The projects and programs 
supported by this line item are critical for preparation and response 
to increased development, natural and man-made disasters, and long-term 
ecological changes. Moving forward, strong funding is required to 
ensure healthy aquatic habitats can support the species recreational 
anglers care most about. Additionally, NOAA projects funded through 
this line item have shown the multiple benefits provided by nature-
based infrastructure solutions, from enhanced public safety, to 
improved habitat, to cost effectiveness. This program not only enhances 
long-term ecological benefits for game species in the Gulf of Mexico, 
such as speckled trout, but also benefits fish and wildlife habitat in 
important regions like the Chesapeake Bay and Great Lakes.
    We request $59,790,000 for Habitat Conservation and Restoration.

                              *    *    *

    Recreational fishing is a long held tradition for millions of 
Americans, and their annual spending is an economic engine across the 
country. According to the U.S. Fish & Wildlife Service, the Nation's 
angling population grew nearly 20 percent from 2006-2016, and those 
nearly 36 million anglers spent more than $46 billion in 2016 alone. 
Reliable fish population assessments and healthy aquatic habitat are 
both necessary to inform and execute fishery management practices that 
ensure recreational anglers can pursue their passion, now and in the 
future.
    Thank you for the opportunity to submit this testimony, and we look 
forward to working with you and your colleagues as fiscal year 2019 
spending legislation progresses through Congress.
    Thank you for your consideration.

    [This statement was submitted by Whit Fosburgh, President & CEO.]
                                 ______
                                 
                Prepared Statement of the Tulalip Tribes
    Chairman Moran, Ranking Member Shaheen and Honorable Members of the 
Committee,

    Thank you for the opportunity to provide written testimony. My name 
is Marie Zackuse, and I am Chair of the Tulalip Tribes. The Tulalip 
Tribes respectfully request your support in restoring and enhancing 
funding for the National Oceanic and Atmospheric Administration (NOAA)/
National Marine Fisheries Service (NMFS) budget to expedite review and 
approval of the longstanding backlog of western Washington Hatchery 
Genetic Management Plans (HGMPs).
    The Tulalip Tribes, signatory to the 1855 Treaty of Point Elliot, 
reserved specific Tribal rights, including but not limited to the right 
to harvest and manage salmon. The continued exercise of the Tribes' 
treaty-reserved right to harvest salmon is greatly supported by 
hatchery supplementation. HGMPs are technical documents that describe 
the composition and operation of each individual hatchery program, and 
are evaluated by NOAA under an Endangered Species Act (ESA) Sec. 4(d) 
rule, to ensure that propagation management strategies support 
conservation and recovery of ESA-listed salmon and steelhead 
populations. Although our HGMPs are approved by NMFS for the Snohomish 
basin, we believe it is important for NMFS to complete their reviews of 
all western Washington HGMPs, which in some cases are almost 20 years 
in waiting. NMFS's review and approval of all western Washington HGMPs 
has yet to be completed due in large part to a lack of resources. 
Because HGMPs are reviewed for ESA compliance under NOAA's Sec. 4(d) 
rule, continued delay in reviewing HGMPs increases the exposure of 
litigation from third party lawsuits. While we recently obtained ESA 
and NEPA coverage for salmon and steelhead hatchery programs operated 
by State and Tribal co-managers for the Snohomish basin, we continue to 
understand the importance of completing these for the other watersheds 
that are needed to protect those programs from ongoing litigation.
    We therefore respectfully request Congress to appropriate $5.0 
million within NOAA's Pacific Salmon account to continue expediting 
NMFS's review and approval of the backlog of western Washington HGMPs 
and support hatchery monitoring and reporting efforts. The fiscal year 
2018 omnibus appropriations bill provided $63.0 million for the NOAA 
Pacific Salmon account, which is the line item that funds HGMP review 
among other activities. The fiscal year 2018 appropriation increased 
the Pacific Salmon account and provided direction to utilize the 
increased funding to continue to expedite review of HGMPs. However, 
despite NMFS's reported progress on HGMP review with the new funding, 
and their admission of still facing a large backlog, NMFS's fiscal year 
2019 proposed budget requests a decrease of $1.696 million within the 
NOAA Pacific Salmon account and for that decrease to apply specifically 
to HGMP reviews. If the fiscal year 2019 proposed budget request is 
fulfilled, it is sure to result in further delay of western Washington 
HGMP review and subsequent ESA authorization.
    After HGMP review is complete, ongoing funding will be necessary to 
support hatchery reporting and monitoring requirements as mandated by 
NOAA NMFS in the Terms and Conditions and Reasonable and Prudent 
Measures in their Biological Opinions for each watershed's hatchery 
programs in order to stay in ESA compliance. Monitoring to identify 
genetic and ecological interactions of hatchery and natural production 
is an expensive unfunded mandate. To the extent that NMFS--a Federal 
trustee--requests additional hatchery monitoring, the requests should 
be accompanied by funding to implement them. As NMFS funding is freed 
up by completion of HGMP reviews, the funding should be redirected to 
the State and Tribes to support hatchery reporting and monitoring 
requirements.
    Salmon hatcheries play a critical role in supporting salmon 
recovery and providing the opportunity to continue to exercise treaty-
reserved rights to fish. We therefore respectfully urge Congress to 
increase Federal appropriations to expedite the review and approval of 
the HGMP backlog and provide continued support to address monitoring 
obligations imposed by NMFS that must be fulfilled in order to exercise 
our Treaty Rights.
    Thank you for your time. Should you have any questions regarding 
this request please do not hesitate to contact Jason Gobin, Fish and 
Wildlife Director, or Mike Crewson, Salmonid Enhancement Scientist.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Marie Zackuse, Chairwoman
Tulalip Tribes

Cc: Barry Thom, Regional Administrator, NOAA Fisheries West Coast 
Region
                                 <greek-l>
                                 ______
                                 
              Prepared Statement of Van Wies Michael deg.
                 Prepared Statement of Michael Van Wies
August 14, 2017

Senator Thad Cochran
Senate Appropriations Committee
113 Dirksen Senate Office Building
Washington, DC 20510

Senator Thad Cochran,

    I live in Boca Raton, Florida. It has come to my attention that we 
as taxpayers are paying double for our weather research. Please look 
into the contract that the U.S. has with UCAR and NCAR University 
Corporation for Atmospheric Research, The National Center for 
Atmospheric Research and UCAR Community Programs are operated by the 
University Corporation for Atmospheric Research. A nonprofit consortium 
of colleges and universities that offer research and training in the 
atmospheric and related Earth system sciences.

    This organization is funded by:

    1. NSF ( National Science Foundation)
    2. NOAA (National Oceanic Atmospheric Administration)
    3. NASA (National Aeronautical and Space Administration)
    4. DoD (Department of Defense)
    5. DOE (Department of Energy)
    6. FAA (Federal Aviation Administration)
    7. EPA (Environmental Protection Administration)
    8. NW$ (National Weather Service)
    9. NHC (National Hurricane Center)

    What in the world do we need to spend all of this money since we 
have NOAA. The UCAR and NCAR group believes in Global Warming which is 
a hoax. What in the world does weather research do for us? Nothing. No 
one can control the weather and especially hurricanes and tornadoes.
    NOAA and the NWS have the capability to forecast the weather, the 
paths of hurricanes, and provide alerts to the citizens. We have the 
National Hurricane Center in Florida. These are specialists in 
forecasting hurricanes. What does this extra layer of Universities do 
that the National Hurricane Center can not do?
    The more I read about this very under the radar organization that 
is costing us millions of tax payer money that we need for important 
expenditures like the military. This whole useless costs as a taxpayer 
makes me mad.
    Please bring this useless spending to President Trump's budget 
groups attention in the White House. I am sure after they take a close 
look at this worthless spending they will slash it out of the 2018 
budget. We need the wall and a military expansion that we decimated by 
Obama much more than worthless so called atmospheric research.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    CC: President Donald J. Trump
 John F. Kelly, White House Chief of Staff
 Senator Mitch McConnell, Senate Majority Leader
 Senator Marco Rubio
 Congressman Paul Ryan, Speaker of the House
 Congressman Rodney Frelinghuysen, Appropriations Committee
 Congresswoman Lois Frankel
 Congressman Ted Deutcsh
 Mr. Keith Hall, Congressional Budget Office
                                 <greek-l>
                                 ______
                                 
               Prepared Statement of White Jonathan deg.
Prepared Statement of RADM Jonathan White, USN (Ret.) on Behalf of the 
                    Consortium for Ocean Leadership
    On behalf of the Consortium for Ocean Leadership (COL), I 
appreciate the opportunity to submit for the record the ocean science, 
technology, and education community's fiscal year 2019 funding 
priorities for the National Science Foundation (NSF), the National 
Oceanic and Atmospheric Administration (NOAA), and the National 
Aeronautics and Space Administration (NASA). Geosciences, broadly, and 
ocean science and technology, specifically, strengthen our national 
security, support a safe and efficient marine transportation system, 
underpin our economy, and further understanding of complex ocean and 
coastal processes important to our everyday lives--today and tomorrow. 
For these reasons, COL (and the ocean science, technology, and 
education community we represent) calls on the subcommittee to make a 
$1 billion investment in the security of the Nation by dramatically 
strengthening Federal investment in ocean science and technology 
through NSF, NOAA, and NASA.\1\
---------------------------------------------------------------------------
    \1\ Aligning with like-minded science organizations and coalitions, 
we respectfully request the subcommittee provide no less than $8.45 
billion for NSF (including funding parity for all directorates or at 
least $1.4 billion for the Geosciences Directorate); $6.5 billion for 
NASA's Science Mission Directorate (including at least $2.03 billion 
for the Earth Science Division); and $6.2 billion for NOAA (including 
research, extramural grant programs, and education). Additionally, the 
ocean science and technology community is deeply concerned by the 
administration's fiscal year 2019 budget intention to drastically 
reduce non-defense discretionary funding (-$65 billion) with draconian 
cuts and outright program eliminations in the geosciences, education, 
and extramural grants.
---------------------------------------------------------------------------
    In summer 2017, the first ship to traverse the Arctic Northern Sea 
Route without assistance from ice-breaking vessels completed its 
journey. This transformational moment drives home both the opportunity 
and the imperative for the United States to ready itself for the new 
Arctic. The region is warming at twice the rate of the rest of the 
Earth with far-reaching consequences for these polar residents and for 
those in the lower 48 States. On a global level, Arctic change will 
fundamentally alter climate, weather, and ecosystems in ways we do not 
yet understand, but we know there will be profound impacts on the 
world's economy and security. Rapid loss of sea ice and other changes 
will also bring new access to the area's natural resources, such as 
fossil fuels, minerals, and new fisheries, and this new access is 
already attracting international attention from industry and nations 
seeking new resources. Current Arctic observations are sparse and 
inadequate for enabling discovery or simulation of the processes 
underlying Arctic system change or to assess their environmental and 
economic impacts on the broader Earth system. One of NSF's ``Big 
Ideas'' is the initiative Navigating the New Arctic (NAA), which would 
establish an observing network of mobile and fixed platforms and tools 
across this polar region to document these rapid biological, physical, 
chemical and social changes, leveraging participation by other Federal 
agencies.
    Storm surge is often the greatest threat to life and property from 
coastal storms and hurricanes. Researchers are quantifying how future 
tropical storm surges may impact U.S. coastal properties, using past 
patterns of coastal sea-level change. From 1990 to 2008, population 
density increased by 32 percent in Gulf Coast coastal counties, 17 
percent in Atlantic coastal counties, and 16 percent in Hawaii, 
according to the U.S. Census Bureau. In 2011, 45 percent of our 
Nation's gross domestic product (GDP) was generated in the coastal 
shoreline counties along the ocean and Great Lakes. A storm surge of 23 
feet has the ability to inundate 67 percent of interstate highways, 57 
percent of arterial roads, almost half of all rail miles, 29 airports, 
and virtually all ports in the Gulf Coast area. Information on coastal 
property risk is vital to owners, insurers, and government.
    These two examples demonstrate the connection of our ocean science 
and technology enterprise with the security interests (national, 
economic, and public safety) of the Nation. In addition:

  --The U.S. coastal and ocean economy contributes $359 billion to our 
        GDP (2 percent of total GDP), including marine construction 
        ($5.8 billion), ship building ($17.3 billion), marine 
        transportation ($59.1 billion, equaling 95 percent of all 
        imports to the U.S.), offshore oil and gas ($167 billion), 
        living marine resources ($7.3 billion), and tourism and 
        recreation ($101.1 billion, which is 72 percent of the ocean 
        economy contributions to GDP)
  --14 percent of U.S. coastal counties produce 45 percent of the 
        Nation's GDP, with close to one in 45 jobs directly dependent 
        on the resources of the ocean and Great Lakes.
  --In 2014, the ocean economy employed more people in the U.S. than 
        the telecommunications, crop production, and building 
        construction industries combined. Additionally, if the Nation's 
        coastal counties were considered an individual country, they 
        would rank number three in global GDP, behind only the U.S. and 
        China. The Great Lakes alone generated nearly $5 trillion in 
        economic output (about 30 percent of U.S. and Canadian 
        production combined).
  --In 2014, the ocean economy's 149,000 business establishments 
        employed about 3.1 million people, paid $123 billion in wages, 
        and produced $352 billion in goods and services. This accounted 
        for about 2.3 percent of the Nation's employment.
  --The ocean's role in food security is critical--it provides 20 
        percent of the animal protein we depend on for food, supplies 
        fishmeal that fertilizes the Nation's crops, and is the major 
        driver of the weather and water cycles that bring warmth and 
        water to inland farms.
  --The U.S. is the leading global importer of seafood, with 91 percent 
        originating abroad--half of which is from aquaculture. Driven 
        by imports, our seafood trade deficit grew to over $14 billion 
        in 2016. Our ocean science research institutions are leaders in 
        developing and supporting innovative methods to improve and 
        encourage sustainable U.S. aquaculture that complements, not 
        competes with, our existing commercial fisheries.
  --Increasing numbers of people are calling the coast home, with 
        populations in coastal watershed counties increasing 45 percent 
        from 1970-2010.
  --The U.S. marine transportation system is a major driver of the U.S. 
        economy and its impact reaches into the heartland of the 
        Nation. America's seaports are crucial generators of economic 
        development and jobs, regionally and nationally, throughout all 
        supply chains using ports. Long-term sustainability of such 
        critical oceanfront infrastructure in the wake of shifting-and 
        dynamic-environmental conditions is a significant concern 
        addressed by ocean research institutions (typically sharing the 
        same geographic proximity to the water).
  --A 12.5 percent projected growth of science, technology, 
        engineering, and math (STEM) jobs in the U.S. is expected from 
        2012 to 2022, with a 14 percent projected increase in U.S. 
        geoscience jobs in that same period. Coupled with the greying 
        of America's geoscience workforce (47 percent of American 
        geoscientists in the private sector and 43 percent in the 
        Federal Government were over the age of 55 in 2016), it is 
        clear that our Nation will experience major changes with our 
        innovation workforce.

    All the issues identified above--and more--can be addressed, in 
part, through a vibrant ocean science and technology enterprise. A 
diverse, well-educated, ocean-literate workforce provides the necessary 
base from which innovation grows. This will require a concerted effort 
to upgrade the infrastructure needed, which includes vessels, 
instrumentation, advanced computing, and observing and monitoring 
support. It requires an enhanced investment in at-sea and university-
based research in our ocean sciences and technology enterprise. 
Finally, it requires a substantial and focused effort on the education 
and training of the next generation of scientists to ensure we have the 
intellectual resources to take full advantage of the new knowledge that 
will come from this investment in ocean sciences and technology, but it 
also needs those who will train the following generation and those 
whose work supports novel and emerging science solutions. A dynamic 
workforce moves our Nation forward. From business professionals who can 
commercialize scientific advances to technicians who maintain observing 
infrastructure and employees trained in scientific principles, our 
future depends upon how we will meet these demographic and educational 
challenges.
    COL is calling on Congress to increase Federal investment in our 
national ocean science, technology, and education enterprise by $1 
billion over the next year (within the resources available under the 
new spending cap for non-defense discretionary spending). The level of 
investment in non-defense research and development today (2018) is 
essentially the same as it was in 2002 (in constant dollars). Making a 
concerted, dramatic effort to increase and sustain the Federal 
investment in technology, science education, research, and development 
will send a message to our global competitors that this country is 
determined to regain our science leadership position on the world stage 
while also addressing national, homeland, food, and economic security 
challenges.
    Below are some suggestions for how some of these additional funds 
could be invested to help achieve a more secure nation via our ocean 
science, technology, and education enterprise.

  --NSF's Division of Ocean Sciences (OCE) supports interdisciplinary 
        research and technology, education, and cutting-edge 
        infrastructure that advances scientific knowledge of the ocean 
        to support the U.S. economy; provide vital information 
        regarding national, economic, and homeland security matters 
        such as sea level rise, coastal erosion, ocean influences on 
        weather (e.g., hurricanes, winter storms, floods, extended 
        drought, etc.); and to advance U.S. leadership in ocean science 
        and technology relative to our international competitors. OCE 
        supports basic scientific and technological research to better 
        understand changing ocean circulation and other physical, 
        chemical, and biological parameters. OCE also supports research 
        on the geology of the ocean margins and sub-seafloor to 
        investigate natural hazards such as earthquakes and volcanic 
        eruptions. In addition to the NSF's NAA initiative that COL 
        supports, an additional $100 million allocation to support 
        ocean and coastal research as it relates to risk and resilience 
        due to natural hazard understanding and mitigation would be a 
        strong step toward increased homeland and economic security. 
        Funding should be used to support the operational costs of the 
        current academic fleet and ocean observing initiative in their 
        ocean and coastal research into natural hazards and to provide 
        resources for additional graduate and undergraduate student 
        training in research related to natural hazards through NSF 
        traineeships, fellowships, and undergraduate research programs.
  --Extramural programs within NOAA are well positioned to more fully 
        engage the ocean science and technology community to assist 
        Federal entities in supporting coastal and inland communities 
        through best practices to improve coastal economic and 
        environmental resiliency. The National Sea Grant College 
        Program (Sea Grant) is well equipped to work with State and 
        local government decision makers and coastal community 
        residents to apply sound science and technology principles to 
        improve natural disaster preparation. The Office of Oceanic and 
        Atmospheric Research (OAR)'s Cooperative Institutes can focus 
        on large-scale systemic research issues related to our ocean, 
        coasts, and Great Lakes. The National Marine Fisheries Service 
        (NMFS) and OAR should collaborate to support aquaculture 
        research and commercial development to help the Nation address 
        the seafood trade deficit. NOAA's National Ocean Service (NOS) 
        has important assets that can be more fully exploited in areas 
        related to coastal mapping, ocean and coastal observing and 
        monitoring through the Integrated Ocean Observing System, 
        coastal community economic resiliency grants, and research that 
        can best be carried out within the National Estuarine Research 
        Reserve System and National Marine Sanctuary System. 
        Additionally, support for national-scale projects that improve 
        environmental stewardship and informed decisionmaking is 
        critical. As the longest-standing and most comprehensive 
        national grants program with a focus on environmental literacy, 
        NOAA's Office of Education Environmental Literacy Program \2\ 
        (ELP) grants keep our coastal communities, and therefore our 
        Nation as a whole, safe, secure, and prosperous. Increasing 
        resources for ELP also contributes to the training of the next 
        generation of ocean scientists through its education programs. 
        A total of $400 million is recommended to support a package of 
        time-tested NOAA programs related to natural hazard research 
        impacting the ocean, coasts, and Great Lakes and the training 
        of a diverse, ocean science literate, dynamic workforce. These 
        actions support our Nation's national, homeland, food, and 
        economic security, all with an eye to the future.
---------------------------------------------------------------------------
    \2\ We recommend funding the Office of Education base account 
separately to adequately support staff without diminishing the grant 
program.

    The ocean science, technology, and education community recognize 
the constraints facing the subcommittee when it comes to allocating 
scarce resources. The subcommittee has equally demanding and deserving 
needs in law enforcement, the census, and manned space flight program, 
to name a few. Nevertheless, growth in the annual investment in science 
and technology by this subcommittee is critical to support innovation, 
national security, economic competitiveness, improvements in living 
standards, and support for public and societal well-being. Research and 
development is a major driver of innovation, and these expenditures 
reflect a nation's commitment to expanding capabilities in science and 
engineering, which in turn drives innovation. On January 18, the 
National Science Board released the biennial Science and Engineering 
Indicators 2018. The report finds that the world's nations are 
continuing to accelerate the growth of their technology-intensive 
economies. It documents how the science and engineering landscape--
historically concentrated in the U.S., Europe, and Japan--is rapidly 
shifting as China and other countries continue to increase their 
research and development investments. It makes clear while the U.S. 
remains the global leader now, China prioritizes science and continues 
its rapid rise in the rankings and looks to overtake us.
    Adequate and sustained investment in science is the bedrock upon 
which this Nation's global science primacy and innovation economy are 
built. The U.S. is poised to maximize its maritime experience and 
potential to address security through science and increase 
competitiveness in the international marketplace, all while looking 
toward the long-term viability of our base resource--the ocean. Only 
through the subcommittee's continued dedication to our Nation's science 
and education enterprise will this be possible.
    Mr. Chairman, Ranking Member, and members of the subcommittee, we 
greatly appreciate the opportunity to share our recommendations, and I 
encourage bipartisan support for geoscience funding, including this $1 
billion ocean science, technology, and education initiative, in the 
fiscal year 2019 appropriations process and into the future.

(Testimony Addendum)

    Below is a list of institutions that are represented by the 
Consortium for Ocean Leadership:

 ALABAMA
Dauphin Island Sea Lab

 ALASKA
Alaska Ocean Observing System
Alaska SeaLife Center
Arctic Research Consortium of the United States (ARCUS)
North Pacific Research Board
University of Alaska Fairbanks

 CALIFORNIA
Aquarium of the Pacific
Bodega Marine Laboratory
Esri
Estuary & Ocean Science Center, San Francisco State University
Gordon and Betty Moore Foundation
L-3 Communications MariPro, Inc.
Liquid Robotics, Inc.
Monterey Bay Aquarium Research Institute
Moss Landing Marine Laboratories
Stanford University
Teledyne RD Instruments
U.S. Naval Postgraduate School
University of California, San Diego Scripps Institution of Oceanography
University of California, Santa Barbara
University of California, Santa Cruz
University of Southern California

 COLORADO
Cooperative Institute for Research in Environmental Sciences (CIRES)

 CONNECTICUT
Mystic Aquarium & Institute for Research

 DELAWARE
Mid-Atlantic Regional Association Coastal Ocean Observing System 
(MARACOOS)
University of Delaware

 FLORIDA
Earth2Ocean
Florida Institute of Oceanography
Harbor Branch Oceanographic Institute of Florida Atlantic University
Mote Marine Laboratory
Nova Southeastern University
University of Florida
University of Miami
University of South Florida

 GEORGIA
Savannah State University
Skidaway Institute of Oceanography of the University of Georgia

 HAWAII
University of Hawaii

 ILLINOIS
John G. Shedd Aquarium

 LOUISIANA
ASV Global, LLC
Louisiana State University
Louisiana Universities Marine Consortium

 MAINE
Bigelow Laboratory for Ocean Sciences
The IOOS Association
University of Maine

 MARYLAND
Johns Hopkins University Applied Physics Lab
National Aquarium
Severn Marine Technologies, LLC
University of Maryland Center for Environmental Science

 MASSACHUSETTS
Massachusetts Institute of Technology
University of Massachusetts, Dartmouth
Woods Hole Oceanographic Institution

 MISSISSIPPI
University of Mississippi
University of Southern Mississippi

 NEW HAMPSHIRE
University of New Hampshire

 NEW JERSEY
Monmouth University Urban Coast Institute
Rutgers University

 NEW YORK
Columbia University Lamont-Doherty Earth Observatory
IEEE Oceanic Engineering Society
Stony Brook University

 NORTH CAROLINA
Duke University
East Carolina University
North Carolina State University
University of North Carolina, Chapel Hill
University of North Carolina, Wilmington

 OREGON
Oregon State University

 PENNSYLVANIA
Pennsylvania State University

 RHODE ISLAND
University of Rhode Island

 SOUTH CAROLINA
South Carolina Sea Grant Consortium
University of South Carolina

 TENNESSEE
Eastman Chemical Company

 TEXAS
Harte Research Institute for Gulf of Mexico Studies
Shell Exploration & Production Company
Sonardyne, Inc.
Texas A&M University
University of Texas at Austin

 VIRGINIA
College of William & Mary Virginia Institute of Marine Science
Institute for Global Environmental Strategies (IGES)
Old Dominion University
Teledyne CARIS
U.S. Arctic Research Commission

 WASHINGTON
Sea-Bird Scientific
University of Washington
Vulcan, Incorporated

 WASHINGTON, D.C.
National Ocean Industries Association (NOIA)
Southeastern Universities Research Association (SURA)
Marine Technology Society (MTS)

 WISCONSIN
University of Wisconsin, Milwaukee School of Freshwater Sciences

 AUSTRALIA
Institute for Marine and Antarctic Studies (IMAS)

 BERMUDA
Bermuda Institute of Ocean Sciences

 CANADA
Dalhousie University
University of Victoria Ocean Networks Canada
      
                                 <greek-l>
                                 ______
                                 
              Prepared Statement of Yarincik Kristen deg.
 Prepared Statement of Ms. Kristen Yarincik in Support of the National 
                 Oceanic and Atmospheric Administration
         Ms. Kristen Yarincik, Consortium for Ocean Leadership
   Vice President, Research & Education and Director, National Ocean 
                             Sciences Bowl
    I appreciate the opportunity to submit, for the record, testimony 
in support of the National Oceanic and Atmospheric Administration 
(NOAA)'s Environmental Literacy Program (ELP). Building community 
resiliency through environmental stewardship and informed 
decisionmaking is a critical component of keeping our Nation and its 
citizens safe and secure. ELP, operated by NOAA's Office of Education, 
provides support for national-scale projects that do exactly that, 
while also creating a public capable of understanding and interpreting 
forecasts as well as safety and preparedness instructions. I 
respectfully request the subcommittee fund the Environmental Literacy 
Program at $8 million in fiscal year 2019. I also request that you fund 
the Office of Education base account separately to adequately support 
staff without diminishing the grant program.
                  environmental literacy program (elp)
    The two goals of NOAA's agency-wide education strategic plan 
required by the America COMPETES Act are workforce development and 
environmental literacy, where formal and informal education and 
outreach in ocean, coastal, Great Lakes, weather, and climate sciences 
support an environmentally literate society. Additionally, report 
language accompanying America COMPETES cites the agency's principal 
education grant programs, the Bay-Watershed Education and Training and 
the ELP.
    At the core of the ELP is the grants competition, which, since 
2005, has supported 124 grants totaling more than $70 million. The 2017 
competition focused on helping communities become more resilient to 
extreme weather and other environmental hazards by building 
environmental literacy. The overwhelming response--170 applications 
requesting more than $77 million--highlights the need to continue 
building resilience through education.
    Also in 2017, the unprecedented damage from the 7th most active 
Atlantic hurricane season since 1851 made last year the most expensive 
hurricane season to date. The estimated $200 billion in damage easily 
surpassed the previous record of $159 billion, which occurred in 2005, 
when Hurricane Katrina made landfall. On average, weather, water, and 
climate events cause approximately 650 deaths, $15 billion in damage, 
and 90 percent of presidentially declared disasters each year. The 
importance of building community resilience through education and 
informed decisionmaking cannot be understated. It's increasingly 
important that Federal efforts support these endeavors to build a 
resilient, ocean-literate, weather-ready nation.
                  value of education to noaa's mission
    ELP does more than improve environmental literacy. In doing so, it 
grows the science, technology, engineering, and math (STEM) workforce, 
strengthens our economy, and ensures our national security, all while 
advancing NOAA's mission of science and service.
    In 2017 alone, more than 200,000 youth and adults participated in 
ELP-supported informal education programs (with another 9,000 preK-12 
students participating in ELP-supported formal education programs) and 
more than 46 million visited institutions with ELP-supported exhibits. 
The 150 institutions using ELP-supported formal and informal education 
initiatives reached at least 37 States, 110 congressional districts, 
and 574 counties.
    As the longest-standing and most comprehensive national grants 
program with a focus on environmental literacy, ELP grants have and 
will continue to keep our coastal communities, and therefore our Nation 
as a whole, safe, secure, and prosperous. Adequately funding ELP will 
allow programs such as the National Ocean Sciences Bowl (NOSB), a quiz-
bowl style ocean science competition for high schoolers that has 
received ELP funding during its 21-year history, to flourish. The NOSB, 
alone, has graduated tens of thousands of students from high school 
with a solid ocean science foundation who go on to careers that advance 
our Nation and keep it secure. NOSB alums have diverse careers, 
including coordinating NOAA Exploration and Research expeditions, 
enforcing port security with the U.S. Coast Guard, and developing 
software for Bloomberg LP.
    A diverse, well-educated, ocean-literate workforce provides the 
necessary base from which innovation grows. A 12.5 percent projected 
growth of science, technology, engineering, and math (STEM) jobs in the 
U.S. is expected from 2012 to 2022, with a 14 percent projected 
increase in U.S. geoscience jobs in that same period. Coupled with the 
greying of America's geoscience workforce (47 percent of American 
geoscientists in the private sector and 43 percent in the Federal 
Government were over the age of 55 in 2016), it is clear that our 
Nation will experience major changes with our innovation workforce. 
NOSB and other ELP programs help to ensure the U.S. has the 
intellectual resources to take full advantage of new knowledge, as well 
nurture those who will train the following generation and those whose 
work supports novel and emerging science solutions. A dynamic workforce 
moves our Nation forward. From business professionals who can 
commercialize scientific advances to technicians who maintain observing 
infrastructure and employees trained in scientific principles, our 
Nation's future depends upon how we will meet these demographic and 
educational challenges. ELP rises to this challenge through innovative, 
time-tested programs like the NOSB.
    I consider investments in ELP to be investments in our future and 
request you include $8 million for the program in fiscal year 2019. I 
also request that you fund the Office of Education base account 
separately to adequately support staff without diminishing the grant 
program.
    The National Ocean Sciences Bowl (NOSB) includes 25 regional 
competitions that reach students in 33 States:

  --Aloha Bowl (serving the students of Hawaii)
  --Bay Scallop Bowl (serving the students of New York)
  --Blue Crab Bowl (serving the students of southern Virginia)
  --Blue Heron Bowl (serving the students of North Carolina and 
        Tennessee)
  --Blue Lobster Bowl (serving the students of Massachusetts)
  --Chesapeake Bay Bowl (serving the students of northern Virginia, 
        Maryland, the District of Columbia, Delaware, and central 
        Pennsylvania)
  --Dolphin Challenge (serving the students of northern Texas and 
        Arkansas)
  --Garibaldi Bowl (serving the students of southern California--San 
        Diego and surrounding area)
  --Great Lakes Bowl (serving the students of Michigan)
  --Hurricane Bowl (serving the students of Mississippi, Louisiana, 
        Alabama, and northwest Florida)
  --Lake Sturgeon Bowl (serving the students of Wisconsin and Illinois)
  --Loggerhead Challenge (serving the students of southern Texas)
  --Los Angeles Surf Bowl (serving the students of southern 
        California--Los Angeles and surrounding area)
  --Manatee Bowl (serving the students of Florida's east coast)
  --Nor'easter Bowl (serving the students of New Hampshire and Maine)
  --Orca Bowl (serving the students of Washington)
  --Penguin Bowl (serving the students of Ohio, Kentucky, and western 
        Pennsylvania)
  --Quahog Bowl (serving the students of Connecticut and Rhode Island)
  --Salmon Bowl (serving the students of Oregon and Idaho)
  --Sea Lion Bowl (serving the students of northern California)
  --Shore Bowl (serving the students of New Jersey and eastern 
        Pennsylvania)
  --Southern Stingray Bowl (serving the students of Georgia and South 
        Carolina)
  --Spoonbill Bowl (serving the students of Florida's Gulf coast)
  --Trout Bowl (serving the students of Colorado)
  --Tsunami Bowl (serving the students of Alaska)
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
